<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                         THURSDAY, JUNE 6, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Jeanne Shaheen (chairwoman) 
presiding.
    Present: Senators Shaheen and Hoeven.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF HON. STEPHEN T. AYERS, ARCHITECT OF THE 
            CAPITOL

              OPENING STATEMENT OF SENATOR JEANNE SHAHEEN

    Senator Shaheen. Good morning, everyone. This is the 
Appropriations Subcommittee on the Legislative Branch. We're 
going to do things a little differently this morning because we 
have three votes at 10 o'clock, which you all may be aware of.
    I apologize. I'm losing my voice. So I think what we're 
going to do is hear from each of you and then recess. And 
Senator Hoeven may have some questions if we have a few minutes 
before we have to go vote. And then we are going to take 
questions for the record from the remainder of the subcommittee 
and from me, because I think I'm not going to make it too long, 
with my voice.
    So I apologize again, and am delighted that this morning we 
are here to hear from the Honorable Stephen Ayers, who is the 
Architect of the Capitol.
    Mr. Ayers. Good morning.
    Senator Shaheen. The Honorable Nancy Erickson, who is the 
Secretary of the Senate; the Honorable Terrance Gainer, who is 
the Sergeant at Arms to the Senate; and Chief Kim Dine, who is 
the head of the U.S. Capitol Police.

                           PREPARED STATEMENT

    Thank you all very much for being here. I am going to 
dispense with my opening statement and submit it for the 
record.
    [The statement follows:]

              Prepared Statement of Senator Jeanne Shaheen

    Welcome to this hearing of the Senate Appropriations Subcommittee 
on the Legislative Branch. Today we will hear testimony on the fiscal 
year 2014 budget requests for the Architect of the Capitol, the 
Secretary of the Senate, the Senate Sergeant at Arms, and the U.S. 
Capitol Police. I want to welcome our four witnesses today:
  --Stephen Ayers, Architect of the Capitol;
  --Nancy Erickson, Secretary of the Senate;
  --Terry Gainer, Senate Sergeant at Arms; and
  --Kim Dine, Chief of the Capitol Police.
    This is our last hearing on the budgets for the agencies of the 
Legislative Branch, and soon we will begin writing the Legislative 
Branch appropriations bill. Today's testimony, along with the testimony 
we have received over the past month, has been vital to us as we start 
working through the funding needs. Senator Hoeven and I, along with our 
subcommittee colleagues, have some tough decisions ahead of us, and the 
panel before us today encompasses the challenges we will have to deal 
with in making those decisions. Whether it is implementation of systems 
that allow Members and staff to meet statutory filing requirements in 
the case of funding the needs of the Secretary of the Senate, or 
maintaining and securing the IT infrastructure, our State offices, and 
our mail facilities in the case of the Sergeant at Arms, or ensuring 
the safety of everyone who enters the Capitol grounds in the case of 
the Capitol Police, or properly maintaining our Capitol buildings and 
grounds in the case of the Architect of the Capitol, they are all top 
priorities. And our witnesses, who are testifying before us today, just 
like every witness that has already appeared before us this year, are 
actually faced with a backlog of needs. A backlog that is starting to 
compromise efficiency and performance.
    Ms. Erickson, you are to be commended on negotiating a contract at 
a savings of $200,000 that continues providing Westlaw, Nexis Lexis, 
and CQ services to the offices of the Senate at no diminished capacity. 
Your small office is operating with nine unfilled positions. At some 
point you are going to reach that tipping point where you can no longer 
do more with less, particularly given that you are faced with 
implementation of the STOCK Act, and implementation of the payroll and 
personnel systems.
    Mr. Gainer, I would say the same is true for you and your 
operation. Implementation of the Voluntary Separation Incentive Payment 
(V-SIP) program allowed you to get through this fiscal year without 
requiring reductions-in-force or furloughs, but it also has left you 
with a shortage in personnel in certain departments. At what point does 
that shortage in personnel and expenses have an impact on your ability 
to address the needs of the Senate in fiscal year 2014. Meanwhile, 
during this time of cutbacks, your personnel at the mail sorting 
facility in Landover should be commended for their response to the 
ricin-laced mail. Your employees along with the Capitol Police's 
Hazardous Materials Response Team worked together to ensure that the 
hazards were contained and properly handled. The protocols that your 
office adopted as a result of the anthrax attack in 2001 worked and 
prevented the ricin from reaching the Capitol Complex.
    Chief Dine, welcome to your first time testifying before the 
subcommittee. You have picked interesting times to step in and lead our 
Police force. As I just mentioned, your Hazardous Materials Response 
Team did an admirable job securing the mail facility in Landover, and 
your officers in general should be commended for making the best of the 
current door closure situation.
    Finally, Mr. Ayers, the infrastructure needs of the Capitol complex 
are growing. You have several major initiatives that need immediate 
attention. We have the remainder of the Dome renovation, but we also 
have the revitalization of the Capitol Power Plant that will yield 
significant energy savings. And then, there is the need to provide the 
proper space for the Library of Congress to preserve so many of our 
national treasures.
    Without going into the specifics of your budgets, I have just 
outlined in a few sentences individual critical needs that you are all 
facing. Yet there are more. The Architect of the Capitol has over $170 
million in deferred capital construction projects, the Capitol Police 
has to complete the Radio Modernization project, and the Sergeant at 
Arms has to address increasing cyber attacks. I look forward to 
discussing the specifics of these critical needs this morning. I also 
welcome a frank discussion on the impact recent budget reductions and 
possibly sequestration in fiscal year 2014 will have on your needs and 
your ability to fulfill your mission.

    Senator Shaheen. Senator Hoeven, did you want to give an 
opening statement?
    Senator Hoeven. Just a greeting. I will dispense with my 
opening statement other than just to express my appreciation 
for the work that all of you do. And I'm hopeful that we can 
get right into it.
    I apologize. Because of these votes, I'm not going to be 
able to come back after the votes. So I'm disappointed about 
that. But I'm happy to handle the hearing however our chairman 
thinks is best. We can certainly submit questions for the 
record as well, and then follow up with anything that we have 
further questions on.
    But again, I just want to express my appreciation for what 
you all do so well.
    Senator Shaheen. Thank you, Senator Hoeven.
    I will now turn it over to Mr. Ayers.

               SUMMARY STATEMENT OF HON. STEPHEN T. AYERS

    Mr. Ayers. Thank you again. Good morning, Madam Chairwoman 
and Senator Hoeven, and thank you for the opportunity to 
testify today.
    The fiscal climate has continued to present the country, 
the Congress, and the Architect of the Capitol with serious 
challenges. And with these challenges in mind, we have crafted 
our fiscal year 2014 request to focus our limited resources on 
our highest priorities and to address the backlog of deferred 
maintenance.
    The fiscal climate has also brought about some good 
leadership and innovative thinking in the organization. It's 
led us to implement a number of initiatives that have resulted 
in cost savings and cost avoidances.
    For example, we decided not to relocate two chillers in the 
refrigeration plant revitalization project and bought new ones 
instead. That saved over $800,000.
    We renegotiated the interest rates on some of our Energy 
Savings Performance Contracts. That saved us over $20 million 
in future payments to those vendors.
    We also renegotiated some of our leases and moved from 
space costing $60 per square foot to space costing $11 per 
square foot.
    Madam Chairwoman, these examples, and others, represent 
really good thinking. And I'm so proud of our team's ability to 
think outside the box and find creative ways to save money.
    The competition for Federal dollars has been even more 
pressing with the implementation of sequestration. To ensure 
that we're prepared for these budget cuts, last October we 
began extensive planning. We set aside funds and slowed our 
overall spending. We took these proactive steps to minimize the 
impact of sequestration on Architect of the Capitol employees 
and our operation, as well as the services we provide to the 
Congress.
    We have several large projects in our 2013 budget request, 
Phase IIB of the Capital Dome restoration, which addresses 
repairs to the interior space of the Dome; the Cannon Building 
renewal, and the refrigeration plant revitalization project. 
And we look forward to working with the subcommittee on those 
endeavors.
    Another major project that we're working on is the 
installation of a cogeneration plant at our Capitol Power 
Plant, which is vitally important to our long-term heating and 
cooling capacity across the campus. It enables us to stop using 
coal and saves considerable energy. We received the permits 
from the District Department of the Environment yesterday, 
which allow us to move toward a construction contract this 
fall.
    One emerging area of concern, with regard to deferred 
maintenance issues, is the serious deterioration of stone that 
makes up the facades of most of our historic buildings on 
Capitol Hill. Age, weather, and environmental factors have 
taken a serious toll on the masonry systems on these buildings. 
We've conducted condition assessments of several building 
exteriors, and the results confirm that there is severe 
deterioration that needs to be addressed soon in order to 
preserve as much original material as possible. This is going 
to take significant time and investment.
    You'll find the leading edge of this multiyear effort in 
our fiscal year 2014 budget request, which includes funding for 
the stone restoration and metal preservation for the Capitol 
Building, as well as the Russell Senate Office Building.
    Our basic mission is to care for and preserve the historic 
buildings under our stewardship for generations to come. 
Ongoing deferred maintenance issues, as well as emerging issues 
like this deteriorating stone, will continue to pose challenges 
in this austere budget environment.
    But our staff has done a tremendous job maintaining 
buildings and thinking creatively, and finding ways to achieve 
our mission with fewer dollars. I would like to thank them for 
going above and beyond, every day. Similarly, I'd like to thank 
the subcommittee and the Congress for its support and 
investment in our efforts, and I look forward to our continued 
collaboration.

                           PREPARED STATEMENT

    That concludes my statement. I'm happy to take questions.
    Senator Shaheen. Thank you very much.
    [The statement follows:]

              Prepared Statement of Hon. Stephen T. Ayers

    Madam Chairwoman, Senator Hoeven, and members of the subcommittee, 
thank you for the opportunity to testify today regarding the Architect 
of the Capitol's (AOC's) fiscal year 2014 budget request.
    The fiscal climate has continued to present the country and the 
Congress with serious challenges. With these challenges in mind, we 
have crafted our annual budget request to focus limited resources on 
our highest priorities, and to address the most pressing stewardship 
obligations.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Most importantly, we continue to invest our labor and resources in 
maintaining and preserving the buildings and grounds that are the 
foundations of the Capitol campus. This is our fundamental mission--a 
mission to which we are completely committed.
    Our dedicated, professional staff has been working tirelessly, 
focusing on the most urgent needs across the Capitol campus. They are 
our most important resource because they have invaluable skills and 
experience that allow us to keep these buildings functional, safe, and 
secure during these challenging fiscal times.
    With the united commitment of all AOC staff to continue to do more 
with less, we developed this budget request so that we can continue to 
provide vital support to Congress, but have worked strenuously to use 
the funding the Congress has provided to us effectively in order to 
address the highest priorities. This includes reducing costs, reducing 
energy consumption, and improving efficiencies.
    In fiscal year 2014, we are requesting $681.7 million. This 
includes $63.9 million to address Deferred Maintenance issues, and 
$154.7 million in capital projects that would further our efforts to 
prevent or delay building and system malfunctions or failures.
    Chief among these efforts are new projects to address an emerging 
issue with which we are dealing--the serious deterioration of the 
exterior stone on congressional buildings, which I'll describe in 
greater detail later in my testimony. Restoring the exterior stone on 
these historic buildings will take significant time and resources, and 
we realize these projects will be competing with many other priorities 
for limited Federal dollars.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    And the competition for Federal dollars has been an even more 
pressing concern with the implementation of sequestration on March 1, 
2013. It is my philosophy to always plan for the worst and hope for the 
best. To ensure that we were prepared for budget cuts under 
sequestration, last October we began extensive planning and set aside 
8.2 percent of the total funds made available under the current 
continuing resolution. We significantly changed how we prioritized our 
spending requirements, and slowed our overall spending by initiating 
hiring freezes, reducing overtime, reducing employee training, and 
tackling only the most urgent repairs across the Capitol campus.
    We took these proactive steps to minimize the impact of 
sequestration on AOC operations and employees, essentially creating a 
``soft landing'' for the agency. The execution of our sequestration 
plan has been relatively fluid, which gives us the flexibility to meet 
mission-critical facility, operational, and maintenance needs as they 
arise.
    We worked closely with the Congress during this important planning 
phase to ensure that our efforts lessened the impact on our employees, 
Congress, and visitors. Because our workforce has unique and 
specialized skills honed to care for these historic buildings, it is 
more important to me to have enough electricians or stone masons on the 
job than to have 100 light switches sitting on a shelf and no 
electricians to install them.
    However, no matter how much advanced planning we did, these budget 
cuts will have a lasting impact on the AOC's operations and our ability 
to sustain the level of support that is necessary to adequately 
maintain these historic facilities and provide the services that the 
American people deserve here at the seat of their Nation's Government.
    For example, our sequestration plans include significant reductions 
in our IT infrastructure and systems. We will have to delay replacing 
antiquated and outdated computers, and our computer systems will become 
increasingly vulnerable because we will not be able to make the 
appropriate upgrades in our software and security systems.
    In addition, our employees' performance could be hampered because 
the tools, equipment, and vehicles they need to do their jobs 
effectively will not be replaced as often, resulting in a shortage of 
materials they need.
    While these efforts of ``self-sequestration'' are sustainable in 
the short-term, reducing the amount of investment in both our workforce 
and the facilities will only hasten the buildings' deterioration and 
further increase the backlog of Deferred Maintenance we currently face. 
As with all Deferred Maintenance projects, the longer we put off making 
necessary repairs, the greater the risk of catastrophic failure, and 
the greater the cost to make the repairs. If we continue to defer these 
important projects, the price tag will only go up on the necessary 
repairs.

                          DOING MORE WITH LESS

    As I noted earlier, in addition to judiciously requesting only 
those projects that are most urgent, we continue to capitalize on cost 
avoidance measures we have implemented in recent years. The various 
initiatives we've adopted have helped us manage our resources and 
helped us work smarter and leaner. The following list highlights just a 
few examples of how conscious efforts--both large and small--have added 
up to significant cost avoidances and have contributed in our efforts 
to reduce costs and become more efficient.
    We continued to reduce overtime costs by improving our project 
planning, restructuring work shifts, and establishing overtime budgets. 
As a result, we cut nearly 72,000 overtime hours from fiscal year 2011 
to fiscal year 2012.
    Across the AOC, in organizations such as the Library Buildings and 
Grounds jurisdictions, they were achieved by implementing Alternative 
Work Schedules in several of its shops to manage workloads and reduce 
overtime. Not only has this resulted in cost avoidances, it has 
provided a consistent rather than rotating staff on weekends, which 
improved continuity of operations, maintenance activities, and 
emergency response capabilities. In the House and Capitol 
jurisdictions, we are modifying and reducing their contractual services 
and performing more maintenance and construction activities in-house 
without any increases in manpower.
    We also continued to reduce the inventory on hand, such as drywall, 
carpet, and repair parts, from $8.3 million in fiscal year 2007 to $7.5 
million in fiscal year 2012; a 9.6 percent decline. We're also delaying 
purchases of supplies until just before they are needed.
    The AOC's jurisdictions also are saving taxpayer dollars by 
reducing energy and resource consumption. In fiscal year 2012, the AOC 
exceeded its energy reduction goal by achieving a 21.8 percent 
reduction, which represents approximately $13.6 million in avoided 
annual utility costs. In addition, the AOC realized significant cost 
savings by refinancing the interest rates and terms of the Capitol and 
Senate Energy Savings Performance Contracts. Under the new terms, it 
will save AOC $23 million in future payments.
    In taking these various actions, we have been able to reinvest our 
resources in Deferred Maintenance and Capital Renewal projects 
throughout the Capitol campus. As a result, the AOC was able to reduce 
its budget request for capital projects in fiscal year 2014 to $154.7 
million, which is a $6.3 million, or 4 percent, decrease from our 
fiscal year 2013 capital projects request.
    In the most challenging of economic times, we must continue to 
correct deficiencies and prevent facility or system failures. The key 
is to prioritize projects to ensure resources go toward the most 
important work.

                    INVESTING IN THE CAPITOL CAMPUS

    Our staff specializes in repairing and restoring the historic 
assets entrusted to our care. In many instances, the craftsmanship of 
the dedicated men and women who work at the AOC has successfully 
disguised the serious conditions or fragile states that the facilities 
are in or has temporarily stemmed any further deterioration. However, 
these temporary patches are just that--temporary.
    We employ our Project Prioritization Process to rank every 
necessary project using the conditions of the facilities and the 
urgency in which any deficiencies need to be addressed as the primary 
drivers. This has effectively allowed us to identify and recommend to 
Congress the levels of investment and maintenance required to ensure 
that all the facilities on the Capitol campus remain safe, functional, 
and protected. The various tools we use, including the draft Capitol 
Complex Master Plan, Facility Condition Assessments, and the Five-Year 
Capital Improvements Plan, assist us in identifying phasing 
opportunities, project sequencing, and other factors to better 
facilitate the timing of the execution of major Deferred Maintenance 
and Capital Renewal projects.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Webster's Dictionary defines Deferred Maintenance as an amount 
needed but not yet expended for repairs, restoration, or rehabilitation 
of an asset. For fiscal year 2014, we are recommending that $171.9 
million in necessary project work be further deferred to a later fiscal 
year due to the austere budget environment. This is not without serious 
risks. We continue to carefully monitor and maintain the facilities and 
systems to minimize the risk of catastrophic failure. We also continue 
to monitor a large number of Capital Renewal projects that remain 
unaddressed.
    The Congress has been very supportive of the AOC's efforts to 
address critical Deferred Maintenance projects. As demonstrated in the 
accompanying Facility Condition Index (FCI) charts comparing fiscal 
year 2011 and fiscal year 2012, Congress has provided significant 
funding over the past several fiscal years, which has been directed to 
help repair the infrastructure of several facilities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    It is important to note that there was a slight decrease in the 
Deferred Maintenance and 5-year Capital Renewal project ``backlog'' in 
fiscal year 2012 from $1.6 to $1.3 billion. This was due, in part, to 
the strategic investment in some large Deferred Maintenance projects 
such as the Dome Skirt Restoration.
    However, because we realize that in this fiscal environment there 
are no certainties that all of the large, priority projects will be 
funded, we have been targeting small fixes to Capital Renewal projects 
to slow down the rate of their becoming Deferred Maintenance projects. 
This reassignment of Capital Renewal work to out-years is reducing the 
immediate funding requirements, but it is creating a greater risk of 
failure and will result in higher replacement costs in the future.
    Therefore, while several facilities are still trending beyond a 
``good'' condition, we are finding recently assessed facilities rated 
``fair'' and ``poor'' are getting worse. Due to the austere budget 
environment, the larger and more costly system replacements are being 
deferred to future fiscal years and replaced by component improvements 
on mission critical equipment. These system renewal projects become 
more costly the longer they are deferred, and as such, facility 
conditions will continue to deteriorate.
    This trend is more evident in the projected FCI information 
provided, which demonstrate how the conditions of each of the 
congressional facilities will continue to worsen over the next 5 years 
as compared to today. (The fiscal year 2017 illustration shows the 
facility condition changes with no additional investments made after 
fiscal year 2012.)
    As I discussed earlier, one emerging area of concern and priority 
for us is the serious deterioration of the stone that comprises the 
exterior facades of most congressional facilities. Age, weather and 
environmental factors take a concerted toll on the condition of the 
sandstone, marble, and other stone that make up the buildings' 
exteriors as well as other masonry features located across the Capitol 
campus, such as the Olmsted walls.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The AOC removed loose exterior stone from the Cannon Building to 
prevent it from falling.

    Water, in particular, is very destructive to stone structures. The 
AOC has recorded evidence of water entry into the interior of several 
buildings as a result of exterior stone failures as well as wall 
separation and stone movement or misalignment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To further assess the severity of the condition of the stone of 
several congressional facilities, the AOC recently completed 
evaluations of the exteriors of the Russell Senate Office Building, 
Cannon House Office Building, U.S. Capitol Building, and the Taft 
Memorial. The Hart Senate Office Building is currently under review. 
The results of the evaluations confirmed that the conditions of 
exterior stone on congressional buildings across the Capitol campus are 
severely deteriorating and need to be addressed quickly in order to 
preserve as much original material as possible.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Large sections of exterior stone are missing from the U.S. Capitol 
Building.

    Restoring the exterior stone on these historic buildings will take 
significant time and resources. In fact, many projects to address 
deteriorating stone remain on the deferred projects list, including 
work on the U.S. Botanic Garden Conservatory. The Cannon House Office 
Building facade will be repaired as part of the planned comprehensive 
renewal project.
    Repairing these issues will take more than a coat of paint. To 
preserve the exterior building stone and metals for as long as possible 
and to protect the building occupants and visitors from harm, we will 
need to implement a long-term exterior stone restoration program that 
will prevent water infiltration; slow deterioration of the stone and 
corrosion of decorative metals; repair existing damage and 
deterioration, and remove disfiguring and damaging soil and stains.
    Therefore, the AOC's fiscal year 2014 budget request has included 
multi-phased, multi-year projects to begin addressing this serious, 
emergent issue, starting with the U.S. Capitol Building and Russell 
Senate Office Building, and will continue to include these types of 
projects in future budget requests to ensure that we preserve the 
unique and historic architectural masonry features of the buildings 
that serve the Congress and the American people.
    The exterior stone projects have become an urgent priority because 
we have seen first-hand the significant damage that water can do in the 
Hart Senate Office Building. Due to water leaks from the skylights, and 
a failing roof, we have experienced serious water leaks in the atrium. 
As a result, we've had to remove large sections of drywall in the 
atrium ceiling to ensure the safety of all those who pass below. (See 
photo.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We appreciate this subcommittee's and the Congress's support of 
this project, which was included in our fiscal year 2013 budget 
request. I'm pleased to note that we plan to begin work on this project 
later this year. In making this important investment at this time in 
the Senate infrastructure, we hope to stem further damage and even more 
costly repairs.
    Funding the following capital projects in fiscal year 2014 ensures 
that necessary investments are made in our historic infrastructure, and 
increases the safety and security of those who work in or visit the 
facilities on Capitol Hill. In addition, investing in the projects will 
continue to preserve national treasures for future generations, and 
several are designed to allow the Congress to realize greater energy 
efficiencies and savings.
  --Dome Restoration--Phase IIB (Interstitial space).--This next phase 
        of the Dome Restoration is designed to repair the interstitial 
        space by upgrading mechanical, electrical, lighting, and 
        communications systems, repairing roofing and catwalks, and 
        improving fire protection systems as well as making repairs and 
        repainting cast iron elements. 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Interstitial space in the Capitol Dome.

  --Exterior Stone and Metal Preservation, U.S. Capitol, Phase I.--This 
        is the first of three phases to rehabilitate exterior stone, 
        metals, and lighting on the U.S. Capitol Building to preserve 
        this iconic facility's historic, architectural features for the 
        next century. The first phase includes the North Extension, 
        Senate Carriage Entrance, West Terrace balustrades, the North 
        Pediment Sculpture, painted ornamental ironwork, bronze lamp 
        posts, and bronze chandeliers. As noted earlier, the exterior 
        stone and metalwork continues to deteriorate due to water 
        infiltration and other factors causing a loss of the historic 
        fabric that comprises the Capitol Building facade.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Missing stone around a Capitol Building window.

  --Exterior Envelope Repair and Restoration, Russell Senate Office 
        Building, Phase I.--Phase I of this multi-phased project will 
        address the north (C Street) side and the corresponding 
        interior courtyard facade of the 104-year-old office building. 
        The work will include making repairs to the facade, repairing 
        windows and doors, repointing masonry, restoring and 
        refinishing exterior metals, and making seismic upgrades to the 
        balustrades. The work is being divided into five phases that 
        correspond to the five sides of the building. 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    AOC staffer removes weak stone from the Russell Building facade.

  --Life-Safety Improvements.--Safety is the top priority for the AOC, 
        and a number of safety-related projects are included in the 
        fiscal year 2014 budget request including a project to replace 
        the exhaust system serving the main kitchen areas in the 
        Dirksen Senate Office Building. In addition, funding for 
        several projects in the Library of Congress buildings is being 
        requested, including making improvements to fire doors in the 
        Thomas Jefferson Building, designing upgrades to the fire alarm 
        and voice evacuation system in the James Madison Building, and 
        constructing a new egress stairwell and exits in the Thomas 
        Jefferson Building.

               SUSTAINABILITY, SAFETY, AND ACCESSIBILITY

    As I noted earlier, while we have been reducing energy consumption 
across the Capitol campus, with the completion of the House Office 
Buildings Energy Savings Performance Contracts (ESPCs) in fiscal year 
2013, and the completion of the Senate and Capitol Building ESPCs this 
year, meeting the mandated energy reduction goals will be more 
difficult because the projects that yielded quick results will have 
been completed.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In fiscal year 2012, the AOC exceeded the Energy and Independence 
and Security Act of 2007 (EISA 2007) energy reduction goal of 21 
percent by achieving a 21.8 percent reduction. This marks our seventh 
consecutive year of meeting energy reduction goals outlined in EISA 
2007, and represents approximately $13.6 million in avoided annual 
utility costs. Meeting future energy reduction goals will be very 
challenging. We will be required to achieve further operational energy 
savings to complement our pipeline of larger scale energy savings 
performance projects currently in progress.
    The Capitol Power Plant (CPP) continues to play an essential role 
in the AOC's long-term energy conservation efforts, particularly with 
the implementation of cogeneration at the CPP. Cogeneration is an 
energy efficient and cost effective means to meet future energy 
requirements by generating on-site power at the CPP. The planned 
cogeneration project involves installing two cogeneration units to 
generate both steam and electricity. Specifically, the system would 
consist of two combustion turbines rated at 7.5 megawatts each and two 
heat recovery steam generation units rated at approximately 71.9 
million British thermal units per hour.
    Madam Chairwoman, as the subcommittee knows, the AOC worked with 
then-Speaker Nancy Pelosi and Majority Leader Harry Reid in 2009 to 
address their request that the Capitol Power Plant move away from using 
coal. We outlined three instances when coal would need to be used:
  --While a natural gas supply line serving the CPP is upgraded to 
        provide a sufficient gas supply during the winter months; (This 
        work has been completed.)
  --Abnormally cold conditions place higher than normal demands on the 
        CPP; and
  --Equipment outages or maintenance on the gas boilers that would 
        necessitate the use of the coal boilers as a backup. This 
        includes a system-wide natural gas supply interruption.
    Since 2009, the Capitol Power Plant has relied on natural gas as 
its primary fuel source. In fact, the Capitol Power Plant has been 
drastically reducing coal use since 2007. In fiscal year 2012, the 
Capitol Power Plant relied on natural gas for 92 percent of its energy 
needs. By comparison, in 2005, the Plant relied on natural gas only 42 
percent of the time.
    And, while the AOC has reduced coal use at the Capitol Power Plant 
over the past several years, it cannot cease using coal until the new 
cogeneration plant is constructed.
    The AOC has applied to the District Department of the Environment 
(DDOE) for Plantwide Applicability Limit (PAL) permits and Chapter 2 
construction permits, and we are awaiting the issuance of these 
permits. In addition, the AOC submitted an application for a PAL permit 
from the Environmental Protection Agency (EPA). The EPA issued a PAL 
permit on January 23, 2013, and it became effective on February 25, 
2013.
    The new permits required with the installation of cogeneration 
units would impose much more stringent emissions requirements at the 
CPP. In addition, installing a cogeneration plant would increase system 
reliability, improve efficiency, and help save taxpayer money. It also 
would facilitate our goal to use natural gas 100 percent of the time 
because the CPP would no longer rely on 60-year-old, less energy 
efficient coal boilers, thereby significantly reducing greenhouse gas 
emissions.
    Reducing energy consumption and saving natural resources saves 
money, as does preventing injuries and accidents within the AOC's 
workforce.
    The AOC's philosophy of People First, Safety Always leaves no 
question about the agency's commitment to providing a safe environment 
for all who work at or visit the Capitol campus. This was coupled with 
the rollout of an agency-wide, zero-injury safety culture enhancement 
program to promote individual ownership and peer engagement in safe 
work practices. Due to these efforts, the levels of safety and 
accessibility on the Capitol campus have never been higher, and the AOC 
continues to improve the safety and accessibility of the historic 
buildings on Capitol Hill.
    The AOC's campus-wide efforts have yielded great results. During 
the 111th Congress, the AOC's safety initiatives resulted in the number 
of hazards decreasing from more than 13,000 in the 109th Congress to 
5,400 in the 111th Congress. In addition, since fiscal year 2007, 
Congress has invested more than $210 million in safety-related projects 
executed by the AOC.
    At the same time, the AOC has successfully removed accessibility 
barriers while preserving the unique historic and architectural 
features of these buildings and the grounds. As the AOC makes these 
enhancements, we work to ensure that the measures installed provide the 
greatest level of accessibility on the Capitol campus while at the same 
time preserving the national treasures entrusted to our care.
    The Congress has been very supportive of the AOC's efforts to not 
only increase accessibility campus-wide but to do so in an efficient 
and cost-effective manner. As part of our project prioritization 
process, we work to minimize the budgetary impacts of these 
improvements by including Americans with Disabilities Act (ADA) 
improvements as part of larger projects when appropriate. This helps to 
save taxpayer dollars and to reduce the amount of construction 
occurring across the campus at one time. Other ADA projects are made as 
part of the AOC's routine repair and maintenance efforts.

                     ENHANCING VISITOR EXPERIENCES

    The primary goal of the Capitol Visitor Center (CVC) team is to 
inform, involve, and inspire those who come to visit the seat of 
American Government. And, as the nearly 10 million guests who have made 
the U.S. Capitol a priority while visiting Washington, D.C. can attest, 
it is clear that the AOC is accomplishing its goal of providing 
extraordinary services and inspiring experiences.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    On June 8, 2012, the CVC experienced its highest single visitation 
day since January 2009, when it welcomed 17,563 visitors. Overall, the 
CVC continues to welcome more than 2 million visitors annually.

                       AWARDS AND ACCOMPLISHMENTS

    While we were presented with a number of challenges over the past 
year, we also were recognized for stellar operational practices and we 
chalked up a number of notable achievements:
  --Our staff once again successfully completed planning activities, 
        including the construction of the Inaugural platform in support 
        of the 2013 Presidential Inauguration.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

  --Recognizing the highest standards of Federal accountability 
        reporting, the Association of Government Accountants (AGA) 
        presented its prestigious Certificate of Excellence in 
        Accountability Reporting (CEAR) Award to the Architect of the 
        Capitol for its fiscal year 2012 Performance and Accountability 
        Report. This is the second consecutive year that the AOC was 
        recognized with this honor. The annual CEAR award recognizes 
        high-quality Performance and Accountability Reports and Annual 
        Financial Reports that effectively illustrate and assess 
        financial and program performance, accomplishments and 
        challenges, cost and accountability.
  --The AOC also was one of only 10 Federal agencies to be honored with 
        a ``Best in Class'' award. The AGA recognized the AOC for 
        having the best financial statement analysis and discussion in 
        all of the annual reports produced by the Federal Government 
        for 2012.
  --The AOC received its eighth consecutive Clean Audit Opinion from 
        independent auditors on its financial statements.
  --The AOC completed the Russell Building waterproofing project that 
        was designed to preserve the structural integrity of the 
        historic entrance to the Russell Building Rotunda.
  --The Senate Energy Savings Performance Contract (ESPC) projects were 
        completed this year. Included in this effort was the 
        implementation of a new Building Automation System that allowed 
        the control of building air handling units (AHU) in the 
        evenings. The AHU curtailment effort in just the Senate 
        accounts for an estimated energy reduction of nearly 2 percent 
        of the overall AOC-wide consumption.
  --We exceeded all of our small business goals; specifically beating 
        our goals for women-owned, veteran-owned, and HUBZone small 
        businesses. We awarded nearly $23 million to small businesses 
        in fiscal year 2012.

                               CONCLUSION

    Winston Churchill once said, ``We shape our buildings; thereafter, 
our buildings shape us.'' Madam Chairwoman, at the AOC, we have a 
unique role where we do shape our buildings, but in actuality our 
buildings really shape us. They are the depositories of our history. 
They serve as our Nation's stage for grand events such as Presidential 
Inaugurals or funerals, as well as provide a gathering place for our 
citizens to express their views. And, most importantly, they hold the 
promise of our Nation's future.
    Our basic mission is to care for and preserve the iconic facilities 
under our care for generations to come. New and emerging issues, such 
as the deteriorating condition of the congressional buildings' exterior 
stone, will pose additional challenges in an austere budget 
environment.
    In our efforts to anticipate future funding challenges, the AOC has 
significantly changed how it prioritizes its spending requirements, and 
has developed payroll tools, analyzed efficiencies, and developed 
strategies to prepare for impending budget impacts such as 
sequestration or a year-long continuing resolution.
    We appreciate the Congress's support of and investment in our 
efforts and look forward to our continued collaboration to serve the 
Congress and the American people, preserve the historic facilities 
entrusted to our care, and inspire and educate those who visit the 
People's House--our U.S. Capitol.
    This concludes my formal statement. I would be happy to answer any 
questions the members of the subcommittee may have.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF HON. NANCY ERICKSON, SECRETARY OF THE 
            SENATE
    Ms. Erickson. Chairman Shaheen, Senator Hoeven, since 1789, 
the Senate has relied on the Secretary's Office for 
legislative, financial, and administrative support. When 
listening to the farewell speeches of departing Senators, I'm 
always struck by their repeated recognition of the staff who, 
``make this place work.''
    While some of our staff have more visible roles supporting 
the Senate floor in the legislative process, the majority work 
behind the scenes to provide institutional support. Our staff, 
many of whom have dedicated their careers to the Senate, are 
proud of their public service. And it is my privilege to 
present testimony on their behalf.
    I ask that my statement, which includes our department 
reports, be submitted to the record.
    Senator Shaheen. Without objection.
    Ms. Erickson. I'm requesting a fiscal year 2014 budget of 
$31,037,183. The request includes $24,887,183 for salary costs, 
including an increase for a potential cost-of-living adjustment 
for our employees; $1.8 million for operating expenses; and 
$4,350,000 to fund the research and news services provided to 
the Senate community through the Senate Information Services 
program.
    I'm proud that our staff continue to find ways, however 
large or small, to find cost savings and to make our limited 
resources stretch. Since 2006, 63 Senators have departed the 
Senate. Given that turnover, the Senate is fortunate to rely on 
a small team of legislative clerks and parliamentarians for 
their institutional knowledge of the Senate's rules, 
precedents, and the legislative process, as well as their 
assistance in meeting the Senate's constitutional 
responsibilities in Article 1, section 5.
    Our Disbursing Office's payroll continues to work with the 
Sergeant at Arms and its vendor on the implementation of the 
replacement payroll system, now projected to be ready this 
fall. The staff who manage the financial management information 
system, the accounting system used by all Senate offices, 
continues to modernize processes to meet the demands of Senate 
offices for efficiency, accountability, and ease of use.
    Recognizing long-term funding limitations, our staff took 
steps to extend the life expectancy of the financial system for 
at least another 6 years. After years of work, this team also 
advanced one of our strategic and continuity of operation 
priorities, the implementation of paperless vouchers.
    The Office of Public Records staff continues to implement 
the requirements of the STOCK Act, as amended, and is working 
hard to meet the January deadline to launch an electronic 
filing system for member and employee financial disclosure 
reports. In addition to this new implementation responsibility, 
the Public Records Office staff processed 118,041 lobbying 
registrations and reports, referred 1,655 cases to the 
Department of Justice, and scanned and processed 5,376 Federal 
election campaign reports containing 380,251 pages to the 
Federal Election Commission.
    Finally, the funding level for the Senate Information 
Services program has remained flat since my office assumed the 
program in 2011. Sequestration reduced our available funding to 
$3.98 million, from $4.2 million. As of April 2013, all program 
vendors agreed to the funding reductions in their contracts for 
fiscal year 2013.
    Unless funding is increased, we will be required to cut 
more online services provided to Senate staff. The timing is 
indeed unfortunate. Usage of SIS online services is up 28 
percent over last year, and staff is taking advantage of 
library training resources 48 percent more than last year.
    This is a small snapshot of the work in our 26 departments. 
Henry Cabot Lodge once said, ``Administrations come and go, 
Houses assemble and disperse, Senators change, but the Senate 
is always there in the Capitol, and always organized, with an 
existence unbroken since 1789.''

                           PREPARED STATEMENT

    We appreciate your subcommittee's support of our office. 
And I can assure you that the Senate can always count on a 
staff in the Office of the Secretary. Thank you.
    Senator Shaheen. Thank you.
    [The statement follows:]

               Prepared Statement of Hon. Nancy Erickson

    I am requesting a total fiscal year 2014 budget of $31,037,183. The 
request includes $24,887,183 in salary costs and $6,150,000 for the 
operating budget of the Office of the Secretary. The salary budget 
represents an increase of $433,000 over the fiscal year 2013 budget as 
a result of the costs associated with the annual cost of living 
adjustment. Our anticipated operating costs have risen by $333,656. The 
increase in operating costs is related to the costs for the 
administration of the Senate Information Services Program (SIS) and 
equipment-related costs to support the requirements of the STOCK Act.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount          Budget
                                                                     available       estimates
                              Items                                 fiscal year     fiscal year     Difference
                                                                       2013            2014
----------------------------------------------------------------------------------------------------------------
Departmental Operating Budget:
    Executive Office............................................        $444,495        $500,000         $55,505
    Administrative Services.....................................       5,323,359       5,601,510         278,151
    Legislative Services........................................          48,490          48,490  ..............
                                                                 -----------------------------------------------
      Total Operating Budget....................................       5,816,344       6,150,000         333,656
----------------------------------------------------------------------------------------------------------------

                     IMPLEMENTING MANDATED SYSTEMS

    Two systems critical to our operation are mandated by law, the 
Financial Management Information System (FMIS) and the Legislative 
Information System (LIS), and I would like to spend a few moments on 
each to highlight recent progress and to thank the committee for your 
ongoing support of both. Updates on LIS are contained in a later 
section of this report.

Financial Management Information System
    The Financial Management Information System is used by 
approximately 140 Senate offices. Consistent with our strategic plan, 
the Disbursing Office continues to modernize processes and applications 
to meet the continued demand by Senate offices for efficiency, 
accountability, and ease of use. Our goals are to move to an 
integrated, paperless voucher system, improve the Web FMIS system, and 
make payroll and accounting system improvements.
    During fiscal year 2012, specific progress made on the FMIS project 
included three upgrades of Web FMIS:
  --FMIS 2012.1 (January 2012): implemented incremental enhancements to 
        Web PICS, a Web-based procurement system, and enhanced imaging 
        infrastructure;
  --FMIS 2012.2 (July 2012): modernized system password encryption, 
        implemented digital signatures, incremental imaging 
        enhancements to facilitate paperless voucher processing, and 
        the office imaging and signatures pilot;
  --FMIS 2013.1 (November 2012): implemented the modernized and 
        enhanced expense summary reports (ESRs) for pilot users, 
        integrated a rules engine for creating and processing business 
        rules, and implemented a FMIS online help facility.
    In addition, work continued related to document imaging and 
electronic signatures in FMIS as required by the imaging task order as 
follows:
  --Phase 1: imaging only pilot (completed in 2011);
  --Phase 2: office imaging and signatures pilot (completed in 2012); 
        full rollout beginning with new offices (in progress); and
  --Phase 3: planning and development to support imaging and signatures 
        for Sergeant at Arms (SAA) and staffer users (in progress).
    During 2012, the Disbursing Office worked with the SAA to extend 
the life of existing FMIS applications to ensure ongoing support of 
Senate business processes given limited fiscal resources. This included 
testing a new mainframe and an operating system upgrade to support the 
FAMIS general ledger accounting system, Web FMIS, and Web PICS.
    Since March 2012, the Disbursing Office, the SAA, and the new 
systems integrator have worked together to implement the new Senate 
payroll system (SPS), which is divided into three phases. The initial 
phase will implement functions for processing payroll and managing 
Senate office budgets and payroll projections. The second phase will 
implement a pilot test for self-service applications which will allow 
Senate employees to enter and change certain personal data and benefits 
selections. The third phase will replace the current Senate Office 
Personnel System (SOPS).
    The systems integrator began work on the project in November 2010 
with a very aggressive implementation plan. In April 2012, Disbursing 
Office staff received user training and in July and August performed 
user acceptance testing. The first two sets of parallel testing have 
been completed but there are performance and functional issues that 
must be resolved. If the pending issues are resolved, the first phase 
of the project is currently scheduled to go live during the summer of 
2013.
    The systems integrator has experienced several delays in the course 
of the project. In addition, legislative changes such as FERS-RAE 
(revised annuity employees) and the introduction of TSP ROTH require 
additional system customization and changes. As the project lead, the 
SAA has maintained a close review of contract expenditures and is 
working closely with the vendor to ensure costs remain within the 
existing contracted levels.
    During the remainder of fiscal year 2013, the following FMIS 
activities are anticipated:
  --Imaging and digital signatures: Senate-wide rollout of imaging and 
        digital signatures for offices and committees, implementation 
        of imaging and digital signatures for SAA, and development of 
        imaging to support staffers creating online ESRs;
  --FMIS streamlining and modernization: Multiple infrastructure 
        upgrades to extend the life of FMIS applications and enhance 
        system performance;
  --FMIS releases: Implementation of two FMIS releases and development 
        of one additional release that will be implemented in early 
        2014, specifically:
    --FMIS 2013.2: Modifications to payroll report functionality to 
            support planned new payroll system, enhancements to direct 
            voucher/document review to support revolving funds and 
            display and edit of commodity code, upgrade to Web 
            application structured query language (SQL) mapping 
            framework, and integration of Web FMIS, a Web-based 
            accounting system, and Web PICS applications;
    --FMIS 2013.3: Modernization and enhancements of application 
            inboxes and approval processing, and imaging enhancements 
            for SAA invoice workflow; and
    --FMIS 2014.1: Imaging and digital signatures for SAA, imaging for 
            staffer ESRs, modernization and enhancement of document 
            entry and review screens;
  --Disaster recovery: Multi-day test of FMIS failover and failback;
  --Hyperion: Continuing the implementation and the required updates to 
        the Hyperion Financial Management (HFM) application;
  --Senate payroll system: Continuing with the implementation, 
        conversion, training, and third parallel testing for Phase I; 
        and
  --Strategic planning: Documentation of requirements for future FMIS 
        needs.

                          LEGISLATIVE OFFICES

    The Legislative Department provides support essential to Senators 
in carrying out their daily chamber activities as well as the 
constitutional responsibilities of the Senate. The Legislative Clerk 
sits at the Secretary's desk in the Senate Chamber and reads aloud 
bills, amendments, the Senate Journal, presidential messages, and other 
such materials when so directed by the presiding officer of the Senate. 
The Legislative Clerk calls the roll of members to establish the 
presence of a quorum and to record and tally all yea and nay votes. The 
office staff prepares the Senate Calendar of Business, published each 
day that the Senate is in session, and prepares additional publications 
relating to Senate class membership and committee and subcommittee 
assignments. The Legislative Clerk maintains the official copy of all 
measures pending before the Senate and must incorporate into those 
measures any amendments that are agreed to. This office retains custody 
of official messages received from the House of Representatives and 
conference reports awaiting action by the Senate. The office staff is 
responsible for verifying the accuracy of information entered into the 
Legislative Information System (LIS) by the various offices of the 
Secretary.
    Additionally, the Legislative Clerk acts as supervisor for the 
Legislative Department, responsible for overall coordination, 
supervision, scheduling, and cross-training. The department consists of 
eight offices: Bill Clerk, Captioning Services, Daily Digest, Enrolling 
Clerk, Executive Clerk, Journal Clerk, Legislative Clerk, and Official 
Reporters of Debates.

Summary of Activity
    The Senate completed its legislative business and adjourned on 
January 3, 2013. During the second session of the 112th Congress, the 
Senate was in session 153 days and conducted 251 rollcall votes. There 
were 224 measures reported from committees and 8 special reports 
submitted to the Senate. There were 479 total measures passed or agreed 
to, of which 42 were enacted into law. In addition, there were 1,983 
amendments submitted to the desk.

Cross-Training and Continuity of Operations (COOP) Planning
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training continues to be strongly emphasized among the 
Secretary's legislative staff. To ensure additional staff are trained 
to perform the basic floor responsibilities of the Legislative Clerk, 
as well as the various other floor-related responsibilities of the 
Secretary, approximately half of the legislative staff are currently 
involved or have recently been involved in cross-training.
    Each office and staff within the Legislative Department 
participated in numerous ongoing COOP discussions and exercises 
throughout the past year. These discussions and exercises are a joint 
effort involving the Office of the Secretary, the party secretaries, 
the U.S. Capitol Police, and the Office of the Sergeant at Arms.

Succession Planning
    The average length of Senate service among the Secretary's 
Legislative Department supervisors is 22 years. It is critical that the 
Secretary's Legislative Department attract and keep talented employees, 
especially the second tier of employees just behind the current 
supervisors because of the unique nature of the Senate as a legislative 
institution. The arcane practices and voluminous precedents of the 
Senate make institutional experience and knowledge extremely valuable.

                               BILL CLERK

    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's Office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices via the Legislative Information System 
(LIS). The Bill Clerk records actions of the Senate with regard to 
bills, resolutions, reports, amendments, cosponsors, public law 
numbers, and recorded votes. The Bill Clerk is responsible for 
preparing for print all measures introduced, received, submitted, and 
reported in the Senate. The Bill Clerk also assigns numbers to all 
Senate bills and resolutions. All the information received in this 
office comes directly from the Senate floor in written form within 
moments of the action involved, so the Bill Clerk's Office is generally 
regarded as the most timely and most accurate source of legislative 
information.

Legislative Activity
    For comparative purposes, below is a summary of the second sessions 
of the 111th and 112th Congresses and then between the combined 
sessions of each Congress:

----------------------------------------------------------------------------------------------------------------
                                   111th           112th
                               Congress, 2nd   Congress, 2nd  Percentage      111th         112th     Percentage
                                  Session         Session       change      Congress      Congress      change
----------------------------------------------------------------------------------------------------------------
Senate Bills................           1,139           1,685         +48         4,059         3,717          -8
Senate Joint Resolutions....              17              18          +6            42            51         +21
Senate Concurrent                         30              32          +7            78            65         -17
 Resolutions................
Senate Resolutions..........             320             279         -13           707           630         -11
Amendments Submitted........           1,626           1,983         +22         4,924         3,450         -30
House Bills.................             333             299         -10           715           487         -32
House Joint Resolutions.....               6               4         -33            16            11         -31
House Concurrent Resolutions              51              18         -65           118            41         -65
Measures Reported...........             388             224         -42           587           409         -30
Written Reports.............             275             136         -51  ............  ............  ..........
                             -----------------------------------------------------------------------------------
      Total Legislation.....           4,185           4,678         +12        11,246         8,861         -21
                             -----------------------------------------------------------------------------------
Rollcall Votes..............             299             251         -21  ............  ............  ..........
----------------------------------------------------------------------------------------------------------------

Assistance From the Government Printing Office
    The Bill Clerk's Office maintains an exceptionally good working 
relationship with the Government Printing Office (GPO) and seeks to 
provide the best service possible to meet the needs of the Senate. GPO 
continues to respond in a timely manner to the Secretary's request, 
through the Bill Clerk's Office, for the printing of bills and reports, 
including the expedited printing of priority matters for the Senate 
Chamber.

                          CAPTIONING SERVICES

    The Office of Captioning Services provides realtime captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate floor proceedings to Senate 
offices on Webster, the Senate intranet.

General Overview
    Captioning Services strives to provide the highest quality closed 
captions. The average accuracy rate for the office is a stellar 99.51 
percent. This marks the 19th year in a row the office has achieved an 
accuracy rate above 99 percent. Overall caption quality is monitored 
through daily translation data reports, monitoring of captions in real-
time, and review of caption files on Webster. In an effort to decrease 
paper consumption and printing costs, accuracy reviews and reports were 
mostly completed and archived in electronic form. Also, newspaper and 
magazine subscriptions used for preparation and research were cancelled 
and replaced with electronic copies to achieve added cost savings.
    The realtime searchable closed caption log, available to Senate 
offices on Webster, continues to be an invaluable tool for the entire 
Senate community. Staff from the floor, cloakrooms, Senate Recording 
Studio (SRS), and member offices continue to depend upon its 
availability, reliability, and contents to help them perform their 
duties. In conjunction with the SRS, a complete overhaul of the caption 
log was designed and implemented in the latter part of 2012. While 
significant work remains to be done to maintain the accuracy and 
dependability, the Senate community has come to expect from the caption 
log, this new digital version will eventually replace the old caption 
log and provide much-needed upgrades to an outdated system.

Continuity of Operations (COOP) Planning
    Continuity of operations planning and preparation continue to be a 
top priority to ensure that the office is prepared and confident about 
the ability to relocate and successfully function from a remote 
location in the event of an emergency. Real-world implementation of 
this plan successfully occurred twice in 2012. As is usually the case 
during emergencies, the plan's strengths and flaws were identified and 
changes have been made.
    In addition, continual updates and review of the COOP plan and 
discussion with staff throughout the year prepare individuals to have 
confidence when called upon to execute the plan. The office 
participates annually with the SRS in two off-site COOP exercises, 
conducts emergency notification tests and laptop remote access 
procedures, and tests the reliability of equipment and readiness of 
staff to relocate to additional sites in the event of an emergency.

                              DAILY DIGEST

    The Office of the Senate Daily Digest is pleased to transmit its 
annual report on Senate activities during the second session of the 
112th Congress.

Chamber Activity
    The Senate was in session a total of 153 days, for a total of 930 
hours and 12 minutes, with 251 rollcall votes (see the chart on the 
next page).

                                                                      20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY \1\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1993          1994          1995          1996          1997          1998          1999          2000          2001          2002
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/5          1/25           1/4           1/3           1/3          1/27           1/6          1/24           1/3          1/23
Senate Adjourned....................................         11/26          12/1        1/3/96          10/4         11/13         10/21         11/19         12/15         12/20         11/20
Days in Session.....................................           153           138           211           132           153           143           162           141           173           149
Hours in Session....................................      1,26941"      1,24333"      1,83910"      1,03645"      1,09307"      1,09505"      1,18357"      1,01751"      1,23615"      1,04323"
Average Hours per Day...............................           8.3           9.0           8.7           7.8           7.1           7.7           7.3           7.2           7.1           7.0
Total Measures Passed...............................           473           465           346           476           386           506           549           696           425           523
Rollcall Votes......................................           395           329           613           306           298           314           374           298           380           253
Quorum Calls........................................             2             6             3             2             6             4             7             6             3             2
Public Laws.........................................           210           255            88           245           153           241           170           410           136           241
Treaties Ratified...................................            20             8            10            28            15            53            13            39             3            17
Nominations Confirmed...............................        38,676        37,446        40,535        33,176        25,576        20,302        22,468        22,512        25,091        23,633
Average Voting Attendance...........................          97.6         97.02         98.07         98.22         98.68         97.47         98.02         96.99         98.29         96.36
Sessions Convened Before 12 Noon....................           128           120           184           113           115           109           118           107           140           119
Sessions Convened at 12 Noon........................             6             9             2            15            12            31            17            25            10            12
Sessions Convened After 12 Noon.....................            15            17            12             7             7             2            19            24            21            23
Sessions Continued After 6 p.m......................           100           100           158            88            96            93           113            94           108           103
Sessions Continued After 12 Midnight................             7             3             1  ............  ............  ............  ............             2             3             8
Saturday Sessions...................................             2             3             5             1             1             1             3             1             3  ............
Sunday Sessions.....................................  ............  ............             3  ............             1  ............  ............             1  ............  ............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Prepared by the Senate Daily Digest--Office of the Secretary--01/23/13.


                                                                20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY \1\--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          2003          2004          2005          2006          2007          2008          2009          2010          2011          2012
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/7          1/20           1/4           1/3           1/4           1/3           1/6           1/5           1/5           1/3
Senate Adjourned....................................          12/9          12/8         12/22          12/9         12/31        1/2/09         12/24         12/22        1/3/12        1/3/13
Days in Session.....................................           167           133           159           138           189           184           191           158           170           153
Hours in Session....................................      1,45405"      1,03131"      1,22226"      1,02748"      1,37554"        98831"      1,42039"      1,07440"      1,10144"        93012"
Average Hours per Day...............................           8.7           7.7           7.7           7.4           7.2          5.37          7.44           6.8           6.5           6.1
Total Measures Passed...............................           590           663           624           635           621           589           478           569           402           479
Rollcall Votes......................................           459           216           366           279           442           215           397           299           235           251
Quorum Calls........................................             3             1             3             1             6             3             3             8             5  ............
Public Laws.........................................           198           300           169           313           180           280           125           258            90           193
Treaties Ratified...................................            11            15             6            14             8            30             1             6             2  ............
Nominations Confirmed...............................        21,580        24,420        25,942        29,603        22,892        21,785        23,051        23,327        19,815        24,296
Average Voting Attendance...........................         96.07         95.54         97.41         97.13         94.99         94.36         96.99         95.88         97.08         96.65
Sessions Convened Before 12 Noon....................           133           104           121           110           156           147           148           116           127           106
Sessions Convened at 12 Noon........................             4             9             1             4             4             4             2             6             4             6
Sessions Convened After 12 Noon.....................            23            21            36            24            32            33            41            36            39            40
Sessions Continued After 6 p.m......................           134           129           120           129           144           110           152           116           120           101
Sessions Continued After 12 Midnight................             2             3             3             4             4             2             2             1             1             3
Saturday Sessions...................................             1             2             2             2             1             3             5             2             2  ............
Sunday Sessions.....................................             1             1             2  ............             1             1             4             1             1             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Prepared by the Senate Daily Digest--Office of the Secretary--01/23/13.

Committee Activity
    Senate committees held a total of 649 meetings during the second 
session of the 112th Congress, as contrasted with 939 meetings during 
the first session of the 112th Congress. All hearings and business 
meetings (including joint meetings and conferences) are scheduled 
through the Office of the Senate Daily Digest and are published in the 
Congressional Record, on the Digest's Web site on Senate.gov, and on 
the Legislative Information System (LIS). Meeting outcomes are also 
published in the Congressional Record each day and are continuously 
updated on the Web site.

Computer Activities
    In 2012, Digest staff worked closely with Senate computer staff to 
refine the LIS/DMS (document management system), including further 
refinements to the Daily Digest scheduler application which will 
improve the data entry process.

                            ENROLLING CLERK

    The enrolling clerks prepare, proofread, correct, input amendments, 
and print all legislation passed by the Senate prior to its transmittal 
to the House of Representatives, the National Archives, the Secretary 
of State, the United States Claims Court, and the White House.
    During the 112th Congress the Enrolling Clerk's Office prepared the 
enrollment of 71 Senate bills (transmitted to the President), 7 Senate 
enrolled joint resolutions (transmitted to the President), 20 Senate 
concurrent resolutions (transmitted to the National Archives), and 188 
Senate appointments (transmitted to the House of Representatives). In 
addition, 496 House of Representatives bills, 41 House concurrent 
resolutions, 10 House joint resolutions, and 7 conference reports were 
either amended, passed, or acted upon by the Senate, requiring the 
Enrolling Clerks to complete work on hundreds of amendments in a 
tightly managed schedule prior to messaging the legislation to the 
House of Representatives for further action. There were innumerable 
messages--varying from engrossed Senate and House bills, Senate 
appointments, and letters of transmittals on passage or amendment of 
legislation--delivered by the Enrolling Clerk's Office to the House 
Chamber or to the House Clerk's office. The Enrolling Clerk also 
delivered to the Clerk's Office approximately 201 House enrolled bills 
and 7 House enrolled joint resolutions after they had been signed by 
the president pro tempore, as customary.
    A total of 881 pieces of legislation were passed or agreed to in 
the House and Senate during the 112th Congress. Many other Senate bills 
were placed on the calendar, all of which were processed in the 
Enrolling Clerk's Office, including the Senate engrossment of 147 
Senate bills, 7 joint resolutions, 32 concurrent resolutions, and 455 
Senate simple resolutions. The Enrolling Clerk's Office keeps the 
original official copies of bills, conference reports, resolutions, and 
appointments from the Senate floor through the end of each Congress. At 
the end of each Congress, the Enrolling Clerks carefully organize all 
official papers sequentially in archival boxes and write a report 
detailing the contents of each box, which are then transmitted to the 
Senate Archivist for storage at the National Archives. At the end of 
the 112th Congress, the enrolling clerks prepared 38 boxes of official 
papers and transmitted them to the National Archives.
    The Senate Enrolling Clerk's Office is also responsible for 
transmitting the original files of all Senate bills and resolutions 
engrossed and enrolled in the Senate to the Government Printing Office 
(GPO).

Continuity of Operations (COOP) Planning
    Enrolling Clerk staff participated in two COOP exercises, testing 
the office's ability to prepare legislation for engrossment and 
enrollment, as well as connectivity with GPO.

Cost Savings
    The Enrolling Clerk's Office has been mindful of budget limitations 
during the past 2 years and has reduced the volume of printing in its 
office by one-third, reduced requests to GPO for extra printing of 
bills, and cancelled its newspaper subscriptions.

                            EXECUTIVE CLERK

    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepares the daily Executive Calendar as well as 
all nomination and treaty resolutions for transmittal to the President. 
Additionally, the Executive Clerk's Office processes all executive 
communications, presidential messages, and petitions and memorials.

Nominations
    During the second session of the 112th Congress, there were 898 
nomination messages sent to the Senate by the President, transmitting 
23,803 nominations to positions requiring Senate confirmation and 21 
messages withdrawing nominations. Of the total nominations transmitted, 
245 were for civilian positions other than lists in the Foreign 
Service, Coast Guard, National Oceanic and Atmospheric Administration, 
and Public Health Service. In addition, there were 4,774 nominees in 
the ``civilian list'' categories named above. Military nominations 
received this session totaled 18,784 (6,298--Air Force; 7,300--Army; 
3,872--Navy; and 1,314--Marine Corps). The Senate confirmed 24,296 
nominations this session. Pursuant to the provisions of paragraph six 
of Senate Rule XXXI, 153 nominations were returned to the President 
during the second session of the 112th Congress.

Treaties
    There were four treaties transmitted to the Senate by the President 
during the second session of the 112th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 112-5 through 112-8).
    The Senate did not give its advice and consent to any treaty during 
the second session. It considered one treaty (Treaty Doc. 112-7), but 
the resolution of advice and consent was not approved.

Executive Reports and Rollcall Votes
    There was one executive report relating to a treaty ordered printed 
for the use of the Senate during the second session of the 112th 
Congress (Executive Report 112-6). The Senate conducted 42 rollcall 
votes in executive session, all on or in relation to nominations and 
treaties.

Executive Communications
    For the second session of the 112th Congress, 4,381 executive 
communications, 73 petitions and memorials, and 29 presidential 
messages were received and processed.

Environmental Impact
    In an effort to save money and eliminate unnecessary paper, the 
Executive Clerk's Office no longer prints the Executive Calendar on pro 
forma days for distribution as it is available online.

                             JOURNAL CLERK

    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, section 5 of the 
Constitution. The content of the Senate Journal is governed by Senate 
Rule IVand is approved by the Senate on a daily basis. The Senate 
Journal is published each calendar year.
    Journal staff take 90-minute turns at the rostrum in the Senate 
Chamber, noting the following by hand for inclusion in the Minute Book:
  --all orders (entered into by the Senate through unanimous consent 
        agreements);
  --legislative messages received from the President of the United 
        States;
  --messages from the House of Representatives;
  --legislative actions as taken by the Senate (including motions made 
        by Senators, points of order raised, and rollcall votes taken);
  --amendments submitted and proposed for consideration;
  --bills and joint resolutions introduced; and
  --concurrent and Senate resolutions as submitted.
    These notes of the proceedings are then compiled in electronic form 
for eventual publication of the Senate Journal at the end of each 
calendar year. Compilation is efficiently accomplished through 
utilization of the LIS Senate Journal Authoring System. The Senate 
Journal is published each calendar year and in 2012, the Journal Clerk 
completed the production of the 924-page 2011 volume. It is anticipated 
that work on the 2012 volume will conclude by September 2013.

Continuity of Operations (COOP) Planning
    In 2012, in support of the Office of the Secretary's commitment to 
continuity of operations programs, the Office of the Journal Clerk 
participated in the annual Chamber Protective Actions and legislative 
staff-specific exercises. Additionally, monthly tests of BlackBerry 
emergency notification and laptop remote access procedures are 
conducted, permitting office function during possible emergencies. The 
Journal Clerk continued its established practice of scanning the daily 
Minute Book pages into a secure directory. The files are also copied 
onto a flash drive storage device weekly and transported off-site each 
night. Although the actual Minute Books for each session of a Congress 
are sent to the National Archives a year following the end of a 
Congress, having easily accessible files, both on a remote server and 
on a portable storage device, will ensure timely reconstitution of the 
Minute Book data in the event of damage to, or destruction of, the 
physical Minute Book.

Cost Savings
    In 2012, the Office of the Journal Clerk continued efforts to 
reduce its already conservative consumption of paper in a traditionally 
paper-driven office. Reduced consumption resulted from printing fewer 
draft copies of work product as updated, and from elimination of the 
paper copies of daily Minute Book pages used by the Journal Clerk staff 
in production of the Senate Journal, by the Daily Digest Office in 
compiling statistics, and by the Senate Library for reference by Senate 
staff. Instead, electronic copy, in pdf format, is accessed via an 
office drive and is e-mailed to the aforementioned offices. 
Additionally, the office increased reuse of previously printed-on paper 
by printing draft documents on the reverse sides.

                     OFFICIAL REPORTERS OF DEBATES

    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief, and the Coordinator 
functions as the technical production manager of the Senate portion of 
the Record. The office interacts with Senate personnel on additional 
materials to be included in the Record.
    On a continuing basis, all materials to be printed in the next 
day's edition of the Record are transmitted electronically and on paper 
to the Government Printing Office (GPO). Much of the transcript of 
Senate floor proceedings and Morning Business is sent to GPO 
electronically to allow for production of the Record in a cost 
conscious and timely manner. This allows readers to view the electronic 
Record on the Internet early the following morning, and the printed 
copy of the Record to be delivered by GPO to the Senate Chamber and all 
Senate offices by, in most instances, two to three hours after it is 
placed on the Internet. The Congressional Record has been printed on 
100 percent recycled paper since 2009.
    The Chief Reporter, in conjunction with Senate office and committee 
staff, works to ensure compliance with the ``two-page rule'' to cut 
down on the printing costs of the Record by controlling the amount of 
extraneous printing to be done by GPO. As a result, these materials are 
often condensed so as not to exceed the rule and/or are cited and 
printed on Web sites with referencing so that they are available to the 
interested public.

                            PARLIAMENTARIAN

    The Office of the Parliamentarian continues to perform its 
essential institutional responsibilities to act as a neutral arbiter 
among all parties with an interest in the legislative process. These 
responsibilities include advising the chair and Senators and their 
staff, as well as committee staff, House members and their staffs, 
administration officials, the media, and members of the general public, 
on all matters requiring an interpretation of the Standing Rules of the 
Senate, the precedents of the Senate, and unanimous consent agreements, 
as well as provisions of public law affecting the proceedings of the 
Senate.
    The parliamentarians work in close cooperation with the Senate 
leadership and their floor staffs in coordinating all of the business 
on the Senate floor. The Parliamentarian or one of her assistants is 
always present on the Senate floor when the Senate is in session, ready 
to assist the presiding officer in his or her official duties, as well 
as to assist any other Senator on procedural matters. The 
parliamentarians work closely with the staff of the Vice President of 
the United States and the Vice President himself whenever he performs 
his duties as president of the Senate.
    The parliamentarians monitor all proceedings on the floor of the 
Senate, advise the presiding officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The parliamentarians keep track of time on the 
floor of the Senate when time is limited or controlled under the 
provisions of time agreements, statutes, or standing orders. The 
parliamentarians keep track of the amendments offered to the 
legislation pending on the Senate floor and monitor them for points of 
order. In this respect, the parliamentarians reviewed nearly 2,000 
amendments during 2012 to determine if they met various procedural 
requirements such as germaneness.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate and all legislation received from the House, as well as all 
communications received from the executive branch, State and local 
governments, and private citizens. In order to perform this 
responsibility, the parliamentarians do extensive legal and legislative 
research. During 2012, the Parliamentarian and her assistants referred 
1,862 measures and 4,482 communications to the appropriate Senate 
committees. The office worked extensively with Senators and their 
staffs to advise them of the jurisdictional consequences of countless 
drafts of legislation, and evaluated the jurisdictional effect of 
proposed modifications in drafting. In 2012 as in the past, the 
parliamentarians conducted several briefings on Senate procedure to 
various groups of Senate staff and visiting international parliamentary 
staff on a nonpartisan basis.
    During 2012, as has been the case in the past, the staff of the 
Parliamentarian's Office was frequently called on to analyze and advise 
Senators on a great number of issues arising under the Congressional 
Budget Act of 1974, the Budget Control Act, the Congressional Review 
Act, treaty procedure, and many other provisions of law that authorize 
special procedural consideration of measures.
    Throughout 2012, the parliamentarians held many meetings with the 
proponents and opponents of changes in the Senate's rules and 
procedures, and counseled all interested parties in the historical 
context of previous changes to the rules, as well as the intricacies of 
both the content of these proposals and the disputed processes for 
bringing about these changes.
    With both presidential and Senate elections in 2012, the 
Parliamentarian's Office was heavily involved in the processing of 
certificates of election and appointment for Senators in the class of 
2013 and with the processing of certificates of vote and ascertainments 
for the election of the President and Vice President of the United 
States. The Parliamentarian's Office reviewed the certificates of 
election and appointment for 34 Senators who were sworn in on January 
3, 2013, in some cases having to request resubmission of materials that 
did not appear to be in compliance with the Senate rules. In meetings 
in late December, the parliamentarians worked closely with the office 
of the Vice President, the National Archives and Records 
Administration, the House Parliamentarian, the House Clerk, and other 
staff of the Secretary of the Senate to prepare for the joint session 
to count the electoral ballots in 2013. Both of these electoral 
processes require a tremendous amount of groundwork and attention to 
detail and involve a great deal of paperwork from the States which must 
be reviewed and cataloged before being acted upon and archived.

Continuity of Operations (COOP) Planning
    The parliamentarians serve as the agents of the Senate in 
coordinating the flow of legislation with the House of Representatives 
and with the President, and they ensure that enrolled bills are signed 
in a timely manner by duly authorized officers of the Senate for 
presentation to the President. The parliamentarians have taken the lead 
in the Senate in analyzing the need for emergency procedural 
authorities. Each parliamentarian has been trained to remotely access 
the office's computers and hard drives, facilitating communications, 
research, and other work after hours, and enabling them to have the 
office function during possible emergencies. The Parliamentarian's 
Office continues to participate extensively in emergency preparedness 
training for the Senate Chamber. The Parliamentarian has been involved 
for years with Sergeant at Arms Office of Continuity and Emergency 
Preparedness Operations (CEPO) in the planning phases of the Senate's 
evacuation and shelter-in-place procedures, and regularly attends such 
meetings on behalf of the Secretary of the Senate and the legislative 
staff, affording their concerns and ideas a voice.

                          FINANCIAL OPERATIONS

Disbursing Office
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information, and advice to the offices, members, and employees of the 
United States Senate. The Senate Disbursing Office manages the 
collection of information from the distributed accounting locations 
within the Senate to formulate and consolidate the agency level budget, 
disburse the payroll, pay the Senate's bills, and provide appropriate 
counseling and advice. The Senate Disbursing Office collects 
information from members and employees that is necessary to maintain 
and administer the retirement, health insurance, life insurance, and 
other central human resource programs, and provides responsive, 
personal attention to members and employees on an unbiased and 
confidential basis. The Senate Disbursing Office also manages the 
distribution of central financial and human resource information to the 
individual member offices, committees, administrative offices, and 
leadership offices in the Senate while maintaining the confidentiality 
of information for members and Senate employees.
    The organization is structured to enhance its ability to provide 
quality work; maintain a high level of customer service; promote good 
internal controls, efficiency, and teamwork; and provide for the 
appropriate levels of supervision and management. The long-term 
financial needs of the Senate are best served by an organization 
staffed with highly trained professionals who possess a high degree of 
institutional knowledge, sound judgment, and interpersonal skills that 
reflect the unique nature of the United States Senate.

Executive Office
    The primary responsibilities, among others, of the Executive Office 
are to:
  --oversee the day to day operations of the Disbursing Office (DO);
  --respond to any inquiries or questions;
  --maintain a fully and properly trained staff;
  --ensure that the office is prepared to respond quickly and 
        efficiently to any disaster or unique situation that may arise;
  --provide excellent customer service;
  --assist the Secretary of the Senate in the implementation of new 
        legislation affecting any of her departments;
  --handle all information requests from the Committee on 
        Appropriations and the Committee on Rules and Administration; 
        and
  --provide budget information and financial assistance to all 
        accounting locations within the Senate.
    The Financial Clerk and senior Disbursing management continue to 
attend weekly status meetings held by our payroll implementers and 
received several weeks of training on the new Senate payroll system 
(SPS). Disbursing staff also participated in user acceptance testing 
and continue to participate in parallel testing of the budget module.
    The Disbursing Office participated in the internal relocation 
exercise and coordinated two in-house active shooter training sessions 
for staff. The office also completed several special projects for 
Senate offices and assisted several committees with budget requests.
Deputy for Benefits and Financial Services
    The principal responsibility of this position is to provide 
expertise and oversight on Federal retirement, benefits, payroll, and 
financial services processes. The deputy also coordinates the 
interaction between the front office, employee benefits, and payroll 
sections, and is responsible for the planning and project management of 
new computer systems and programs. The deputy ensures that job 
processes are efficient and up-to-date, modifies computer support 
systems as necessary, implements regulatory and legislated changes, and 
designs and produces up-to-date forms and information for use in all 
three sections.
            General Activities
    Calendar year 2012 began with year-end processing of payroll for 
calendar year 2011. The Disbursing Office issued W-2 forms promptly and 
stored form images in the document imaging system (DIS). Implementation 
of Thrift Savings Plan (TSP) Roth took place in 2012. Additionally, 
requirements were developed for the implementation of the newly 
legislated FERS-Revised Annuity Employee (FERS-RAE). Program design, 
development, and testing occurred late in 2012 for a January 2013 
implementation. Guidance and documentation were developed and 
distributed to staff for both retirement programs. As necessary, 
throughout the year other minor changes were made to the human 
resources management system (HRMS) as a result of changes in 
regulations, policies, and needs.
    The primary project for the deputy and the Disbursing Office during 
2012 and continuing into 2013 is the development and implementation of 
a new payroll system. The scope of the project is extensive and has 
required the coordination and cooperation of the deputy, the payroll 
section, the employee benefits section, the Financial Clerk, and 
assistant financial clerk, with the Sergeant at Arms (SAA) technical 
support group, the project management officer, and the project 
implementation team. The unique needs and requirements of the Senate 
continue to be addressed during the development and test phases. There 
has been extensive participation in development and training sessions, 
procedural review meetings, data conversion, and cleansing efforts. 
Members of the staff have continued to provide their expertise as 
procedures and processes have been developed and modified. Staff has 
prepared for and participated in extensive levels of system testing. In 
addition, they have reviewed data, output, documentation, reports, and 
provided necessary feedback. The deputy has provided extensive review 
and comment on business processes, customizations, security, testing, 
results, and output, as well as on implementation and acceptance 
criteria. This project is expansive in its scope and DO staff members, 
in tandem with the SAA technical staff, are exceeding expectations with 
their tireless efforts, contributions, and demonstration of their 
expertise.

Front Office--Administrative and Financial Services
    The front office is the main service area for all general Senate 
business and financial activity. The front office staff maintains the 
Senate's internal accountability of funds used in the group's daily 
operations. The reconciliation of such funds is executed on a daily 
basis. The front office staff also provides training to newly 
authorized payroll contacts along with continuing guidance to all 
contacts in the execution of business operations. It is the receiving 
point for most incoming expense vouchers, payroll actions, and employee 
benefits--related forms, and it is the initial verification point to 
ensure that paperwork received in the Disbursing Office conforms to all 
applicable Senate rules, regulations, and statutes. The front office is 
the first line of service provided to Senators, officers, and 
employees. All new Senate employees (permanent and temporary) who will 
work in a Capitol Hill Senate office are administered the required oath 
of office and personnel affidavit in the front office. Staff is also 
provided verbal and written detailed information regarding pay and 
benefits. Advances are issued to Senate staff authorized for official 
Senate travel through the front office; cash and check advances are 
entered and reconciled in Web FMIS. After the processing of certified 
expenses is complete, cash travel advances are repaid.
    Numerous inquiries are handled daily on topics like pay, benefits, 
taxes, voucher processing, reporting laws, and Senate regulations. 
Inquiries must always be answered accurately and fully to provide the 
highest degree of customer service. Cash and checks received from 
Senate entities as part of their daily business are handled through the 
front office and become part of the Senate's accountability of 
federally appropriated funds and are then processed through the 
Senate's general ledger system. The front office maintains the official 
office information authorization forms that authorize individuals to 
conduct various types of business with the Disbursing Office. The front 
office also provides notary services for members and staff. Roughly 500 
documents were notarized for members during 2012.
    A major change in conducting business with the armored car service 
has saved roughly $300 per month. In a joint effort with the Executive 
Office, the number of trips to and from Disbursing's service bank has 
been reduced.
            General Activities
  --Processed approximately 500 cash advances during the year and 
        initiated over 1,200 check/direct deposit advances.
  --Received and processed over 20,000 checks.
  --Administered oath of office and personnel affidavits to more than 
        1,000 new Senate staff and advised them of their benefits 
        eligibility. Such staff includes full time employees, interns, 
        and Senate pages.
  --Maintained brochures for 12 Federal health insurance carriers and 
        distributed over 3,000 brochures to existing staff during the 
        annual Federal benefits open season and to new Senate employees 
        during their Federal employees health benefits (FEHB) selection 
        process.
  --Assisted employees with electronic resources for researching and 
        comparing benefit plans and programs to further reduce the 
        reliance on paper documents.
  --Provided training sessions to new and existing administrative 
        managers and assisted them in getting their offices up and 
        running.
  --For the second time since 2009, the IRS increased the annual limit 
        on elective deferrals. This resulted in approximately 900 
        employees filing new TSP elections in December alone. Many 
        customers sought assistance from the front office with TSP 
        calculations.
  --Upon implementation of TSP Roth, front office staff assisted 
        employees with completion of elections and provided an 
        understanding of the rules and regulations related to Roth.
  --The front office advises eligible staff of their TSP catch up 
        provisions and advises enrollees of changes in their plans.

Payroll Section
    The payroll section maintains the human resources management system 
(HRMS) and is responsible for processing, verifying, and warehousing 
all payroll information submitted to the Disbursing Office by Senators, 
committees, and other appointing officials for their staff, including 
appointments of employees, salary changes, title changes, transfers, 
and terminations. The section is also responsible for the input of all 
enrollments and elections submitted by members and employees that 
affect their pay (e.g., retirement and benefits elections, tax 
withholding, TSP participation, allotments from pay, address changes, 
direct deposit elections, levies and garnishments) and for the issuance 
of accurate salary payments to members and employees. The payroll 
section is responsible for the administration of the Senate Student 
Loan Repayment Program (SLP) and for the audit and reconciliation of 
the Flexible Spending Accounts (FSAs) and Federal Employees Dental and 
Vision Insurance Program (FEDVIP) bill files received each pay period. 
The payroll section jointly maintains the automated clearing house 
(ACH) FedLine facilities with the accounts payable section for the 
normal transmittal of payroll deposits to the Federal Reserve. Payroll 
expenditure, projection, and allowance reports are distributed 
electronically to all Senate offices semimonthly. The payroll section 
issues the proper withholding and agency contribution reports to the 
accounting department and transmits the proper TSP information to the 
National Finance Center. In addition, the payroll section maintains 
earnings records, which are distributed to the Social Security 
Administration, and employees' taxable earnings records, which are used 
for W-2 statements. This section is also responsible for the payroll 
expenditure data portion of the Report of the Secretary of the Senate 
and calculates, reconciles, and bills the Senate Employees Child Care 
Center for their staff employee contributions and forwards payment of 
those contributions to the accounting section. The payroll section 
provides guidance and counseling to staff and administrative managers 
on issues of pay, salaries, allowances, and projections.
            General Activities
    In January 2012, the payroll section conducted all year-end 
processing and reconciliation of pay records and produced W-2 forms for 
employees and Federal and State tax agencies. They also facilitated the 
imaging of those documents to the document imaging system (DIS). The 
payroll section maintained the normal schedule of processing TSP 
election forms.
    The payroll section continued preparing for the new payroll system. 
This included developing and testing payroll queries. The testing and 
training process continued throughout the year. There were countless 
meetings involving issues such as security, payroll reports, data, 
conversion, business processes, etc.
    In June, the payroll section began user acceptance testing (UAT). 
The payroll section was able to input and test realistic payroll data 
using scripted scenarios. As scripts passed or failed, the payroll 
staff was required to provide insight and expertise to aid with fixes 
and then perform regression testing.
    The first parallel test of the new payroll system began in August. 
This included entering duplicate data into both the current and new 
systems. The staff dealt with system performance issues, bugs, and 
needed coding changes. This data was checked daily for accuracy and 
system function. This presented a steep learning curve and system 
modifications were recommended as identified. Data comparisons were 
performed and scrutinized after the close-out of both systems. 
Variances and discrepancies were analyzed and feedback provided. 
Subsequent parallel test cycles ran in October, November, and December.
    The payroll section participated in the testing and implementation 
of TSP Roth and FERS-RAE. Other minor changes were made to the HRMS as 
a result of regulated and policy changes.
    As a result of the 2012 elections, the resignations of two 
Senators, and the death of another Senator, the payroll section has 
assisted staff of 15 offices with their outgoing/incoming office 
inquiries and prepared for staff transitions.
    The payroll section administers the student loan program (SLP), 
which includes initiation, tracking, and transmission of the payments; 
determination of eligibility; and coordination and reconciliation with 
office administrators and program participants. Because of regulatory 
changes within the Department of Education, extensive vendor processing 
changes were necessitated. As a result, many payments to vendors were 
not being routed correctly once received at the designated address. 
This led to a higher-than-usual need for payment tracking, 
reconciliation, and check reissues. The SLP administrator continues to 
improve processes for administration of the program and documenting 
procedures. In addition, the SLP administrator participates extensively 
in the development and testing of the new payroll system, including 
design assessment, test scenario development, reports, and testing all 
aspects of the system and providing feedback. In addition, the 
administrator continues to train a member of the payroll staff so they 
are able to administer the SLP in the administrator's absence.

Employee Benefits Section (EBS)
    The primary responsibilities of the employee benefits section are 
administration of health insurance, life insurance, TSP, and all 
retirement programs for members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information, and interpretation of retirement and benefits laws and 
regulations. EBS staff is also expected to have a working knowledge of 
the Federal Flexible Spending Account (FSA) Program, the Federal Long 
Term Care (LTC) Insurance Program, and the Federal Employees Dental and 
Vision Insurance Program (FEDVIP). In addition, the sectional work 
includes research and verification of all prior Federal service and 
prior Senate service for new and returning appointees. EBS provides 
this information for payroll input. It also verifies the accuracy of 
the information provided and reconciles, as necessary, when official 
personnel folders and transcripts of service from other Federal 
agencies are received. Senate transcripts of service, including all 
official retirement and benefits documentation, are provided to other 
Federal agencies when Senate members and staff are hired elsewhere in 
the Government. EBS is responsible for the administration and tracking 
of employees placed on leave without pay to perform military service, 
including counseling with regard to continued benefits, TSP make-up 
contributions, and reservist differential payments. EBS participates 
fully in the centralized enrollment clearinghouse system (CLER) program 
sponsored by the Office of Personnel Management (OPM) to reconcile all 
FEHB enrollments with carriers through the National Finance Center. EBS 
is responsible for its own forms inventory ordering and maintenance, as 
well as all benefits, TSP, and retirement brochures for the Disbursing 
Office. EBS processes employment verifications for loans, bar exams, 
the Federal Bureau of Investigation, OPM, and the Department of 
Defense, among others. Unemployment claim forms are completed and 
employees are counseled on their eligibility by EBS. Department of 
Labor billings for unemployment compensation paid to Senate employees 
are reviewed in EBS and submitted by voucher to the accounting section 
for payment, as are the employee fees associated with FSAs. Beneficiary 
designations for Federal Employees' Group Life Insurance (FEGLI), 
retirement, and unpaid compensation are filed and checked by EBS.
            General Activities
    EBS continued to work with the new payroll system implementation 
team to help with various levels of testing, review, and system work 
process changes. The staff attended extensive training sessions.
    Public Law 112-96, section 5001, the ``Middle Class Tax Relief and 
Job Creation Act of 2012,'' made two significant changes to FERS. 
Beginning in 2013, new employees (as designated in the statute) will 
have to pay higher employee contributions, and the formula was changed 
so that new members of Congress and congressional employees will accrue 
retirement benefits at the same rate as employees under the general 
formula. EBS spent a good deal of time fielding questions regarding 
this change in retirement benefits.
    The TSP introduced a new Roth option to the program. This required 
EBS to become familiar with the rules regarding the new post-tax 
savings. The inventory of TSP election forms was replaced. Senators and 
employees were notified of the new option which took effect in late 
summer 2012.
    EBS conducted agency-wide FERS seminars for Washington, D.C. area 
employees, as well as a live video seminar for offices located in the 
States. EBS attended interagency benefits officer and TSP meetings. 
This was especially important this year due to the many ongoing changes 
to many of the benefits programs, including the implementation of the 
Roth investment option in the TSP program and the upcoming change to 
the FERS program.
    With 15 new Senators beginning their service in the past year, EBS 
was extremely busy with outgoing office talks, benefits counseling, 
retirement counseling, and heavy retirement caseloads leading up to the 
end of the Congress. In addition to each Senator's staff and committee 
staff, EBS met with each Senator individually to go over their 
retirement options and make sure they were briefed on all of their 
benefits.
    In continuing to prepare for the new rules being implemented by the 
Affordable Care Act of 2010, EBS notified the Senate community that the 
healthcare FSA maximum would reduce from $5,000 in 2012 to $2,500 
beginning in 2013.
    Many employees changed health plans during the annual benefits open 
season. These changes were processed and reported to carriers very 
quickly. The FEHB program added an additional 53 health plans beginning 
in 2013. The Disbursing Office also hosted an open season benefits 
fair, which was informational and well attended. The benefits fair 
included representatives from local and national FEHB plans, as well as 
representatives from LTC, FSA, and FEDVIP.
    EBS coordinated with the House of Representatives Office of 
Benefits and Payroll to jointly provide outgoing offices with a session 
with the D.C. Department of Employment Services and also with OPM to 
assist with navigation of the Federal jobs Web site, USAJOBS.

Disbursing Office Financial Management
    Headed by the deputy for financial management, the mission of 
Disbursing Office financial management is to coordinate all central 
financial policies, procedures, and activities; to process and pay 
expense vouchers within reasonable timeframes; and to provide 
professional customer service, training, and confidential financial 
guidance to all Senate accounting locations. In addition, the financial 
management group is responsible for the compilation of the annual 
operating budget of the United States Senate for presentation to the 
Committee on Appropriations and for the formulation, presentation, and 
execution of the budget for the Senate. On a semiannual basis, this 
group is also responsible for the compilation, validation, and 
completion of the Report of the Secretary of the Senate. Disbursing 
Office financial management is segmented into three functional 
departments: accounting, accounts payable (a/p), and budget. The 
accounts payable department is further subdivided into three sections: 
vendor administration, disbursements, and audit. The deputy coordinates 
the activities of the three functional departments, establishes central 
financial policies and procedures, and carries out the directives of 
the Financial Clerk and the Secretary of the Senate.

Accounting Department
    During 2012, the accounting department approved over 55,000 expense 
reimbursement vouchers and vendor uploads including deposits for items 
ranging from receipts received by the Senate operations, such as the 
Senate's revolving funds, to cancelled subscription refunds from member 
offices. General ledger maintenance also prompted the entry of 
thousands of adjustment entries that include the entry of all 
appropriation and allowance funding limitation transactions, all 
accounting cycle closing entries, and all non-voucher reimbursement 
transactions such as payroll adjustments, budget uploads, stop payment 
requests, travel advances and repayments, and limited payability 
reimbursements. The department continues to scan all documentation for 
journal vouchers, deposits, accounting memos, and letters of 
certification to facilitate both storage concerns and continuity of 
operations (COOP) planning. The section also began testing the 2012 
year-end process to close and reset revenue, expense, and budgetary 
general ledger accounts to zero.
    The Disbursing Office also continued working with member offices 
and the Senate Stationery Room to establish and design an online flag 
ordering system using the Department of the Treasury's Pay.gov system. 
The member offices and Stationery went live in the production region of 
Pay.gov, resulting in a 42 percent increase in the volume of credit 
card transactions over the previous year. Seven more offices began 
using Pay.gov for a total of nine offices. Three more offices had the 
initial conference call with Pay.gov by the end 2012. The pilot is 
expected to expand to include additional offices and new member offices 
during 2013.
    The Department of the Treasury's monthly financial reporting 
requirements includes a ``Statement of Accountability'' that details 
all increases and decreases to the accountability of the Secretary of 
the Senate, such as checks issued during the month and deposits 
received, as well as a detailed listing of cash on hand. Also, 
Disbursing provides the ``Statement of Transactions According to 
Appropriations, Fund and Receipt Accounts,'' to the Department of the 
Treasury on a monthly basis. The statement is the summary of activity 
of all monies disbursed by the Secretary of the Senate through the 
Financial Clerk of the Senate. All activity by appropriation account is 
reconciled with the Department of the Treasury on a monthly and annual 
basis. The annual reconciliation of the Treasury Combined Statement is 
also used in the reporting to the Office of Management and Budget (OMB) 
as part of the submission of the annual operating budget of the Senate. 
The FAMIS system report, tested and implemented in 2010, originally 
used in 2011, was used again in 2012 to calculate the Treasury Combined 
Statement, which is used for the OMB budget submissions.
    As a part of Treasury's system updates, the accounting department 
began using Treasury's Central Accounting Reporting System (CARS) in 
June 2012 to report the ``Statement of Accountability'' and the 
``Statement of Transactions According to Appropriations, Fund and 
Receipt Accounts'' when Treasury decommissioned the old system. In June 
2012, the accounting department began using Treasury's OTCNet system to 
enter electronic deposit tickets for all check and cash deposits; and 
in September 2012 the Department began using this system to scan and 
electronically deposit all checks, which enables a faster collection 
time.
    The accounting department continues to transmit Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare to the Federal Reserve Bank through the 
IRS Electronic Federal Tax Payment System (EFTPS). EFTPS is also being 
used to transmit the quarterly 941 reports to the IRS. Payments for 
employee withholdings for State income taxes were reported and paid on 
a quarterly basis to each State with applicable State income taxes 
withheld. The system modifications installed in 2008 allow ACH payment 
of quarterly State taxes, which has resulted in a 92.85 percent 
participation rate by taxing jurisdictions. Thirty-nine of 42 tax 
jurisdictions are receiving their quarterly State tax payments via ACH. 
System modifications are necessary to transmit the remaining three tax 
jurisdictions via ACH because of the unique State requirements for 
their transmissions. The Disbursing Office continues to work towards 
getting those three moved to ACH payments during 2013. Monthly 
reconciliations were performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the TSP.
    The accounting department also works to meet internal reporting 
requirements, such as monthly ledger statements. These ledger 
statements detail all of the financial activity for the appropriate 
accounting period with regard to official expenditures in detail and 
summary form. It is the responsibility of the accounting department to 
review and verify the accuracy of the statements before Senate-wide 
distribution. During 2011, the accounting department worked with SAA 
computer staff to implement electronic distribution of these monthly 
reports. The reports have been distributed electronically since July 
2011 as part of Web FMIS release 2011-12.
    The accounting department, in conjunction with the deputy for 
financial management and the assistant financial clerk, continues to 
work closely with the SAA finance department in creating Senate-wide 
financial statements in accordance with OMB Bulletin 01-09, ``Form and 
Content of Agency Financial Statements,'' and any updates required by 
OMB Circular A-136, ``Form and Content of the Performance and 
Accountability Reports.'' Work continues toward the implementation of 
the fixed asset system and the financial management software has been 
upgraded and the license renewed.
    Accounting also has a budget division whose primary responsibility 
is compiling the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations. The budget 
division is responsible for the preparation, issuance, and distribution 
of the budget justification worksheets. The budget justification 
worksheets for fiscal year 2014 were mailed to the Senate accounting 
locations and processed in November 2012. The budget baseline estimates 
for fiscal year 2014 will be reported to OMB by mid-January 2013. The 
budget analyst is also responsible for the preparation of 1099's and 
the prompt submission of forms to the IRS before the end of the 
January.

Accounts Payable: Disbursements Department
    The disbursements department is the entry and exit point for 
voucher payments. The department physically and electronically receives 
all vouchers submitted for payment. It also pays all of these vouchers, 
as well as the items submitted by upload and the various certifications 
and adjustments that are submitted periodically. The department 
received approximately 102,000 vouchers. All of these items were paid 
by the department via Treasury check or ACH. Multiple payments to the 
same payee are often combined. As a result, 15,200 checks were issued, 
while 62,200 ACH payments were required.
    After vouchers are paid, they are sorted and filed by document 
number. Vouchers are grouped in six-month ``clusters'' to accommodate 
their retrieval for the semiannual Report of the Secretary of the 
Senate. Files are maintained in-house for the current period and one 
prior period, as space is limited. One result is that more documents 
are stored in the Senate Support Facility (SSF). The inventoried items 
are sorted and recorded in a database for easy document retrieval. 
Document retrieval missions increased, but were successfully conducted, 
and the department continues to work closely with warehouse personnel. 
The renovated area has led to more efficient use of space here and at 
the SSF. Paper volume and related filing times are expected to decrease 
as more offices convert to imaging of expense vouchers.
    A major function of the department is to prepare adjustment 
documents. Adjustments are varied, and include reissuance of items held 
as accounts receivable collections, reissuance of payments for which 
nonreceipt is claimed, and various supplemental adjustments received 
from the payroll department. Such adjustments are usually disbursed by 
check, but an increasing number are now handled through ACH. The 
department maintains a spreadsheet that tracks cases of nonreceipt of 
salary checks, including stop payment requests and reissuance. The 
section prepared over 700 adjustment documents in 2012.
    The department also prepares the stop payment forms as required by 
the Department of the Treasury. Stop payments are requested by 
employees who have not received salary or expense reimbursements, and 
vendors claiming nonreceipt of expense checks. The Treasury Check 
Information System (TCIS) allows the department to electronically 
submit stop payment requests and provides online access to digital 
images of negotiated checks for viewing and printing. During 2012, 
approximately 600 digital images of negotiated checks were provided, 
and an additional 89 requests were received for stop payments. The stop 
payment volume was slightly higher than in 2011 but is still lower than 
the 2010 level. TCIS is a Web-based system that saves the Disbursing 
Office time, charges a $7.50 processing fee for each request, and is 
accessible from multiple workstations in Disbursing. Even though the 
volume increased, there was no increase in cost.

Accounts Payable: Vendor Administration
    The vendor administration section maintains the accuracy and 
integrity of the Senate's central vendor (payee) file for the prompt 
completion of new vendor file requests and service requests related to 
the Disbursing Office's Web-based payment tracking system. This section 
also assists the information technology (IT) department by performing 
periodic testing and monitoring the performance of the vendor system. 
Currently, more than 19,500 vendor records are stored in the vendor 
file, in addition to approximately 10,500 employee records. Daily 
requests for new vendor addresses or updates to existing vendor 
information are processed within 24 hours of receipt. Besides updating 
mailing addresses, the section facilitates the use of ACH by switching 
the mode of vendor payment from paper check to electronic deposit. 
Whenever a new remittance address is added to the vendor file, a 
standard letter is mailed to the vendor requesting tax and banking 
information, as well as contact and e-mail information. If a vendor 
responds indicating they would like to receive ACH payments in the 
future, the method of payment is changed.
    All Web FMIS users are using a staffer functionality tool which 
allows Senate employees to electronically create, save, and file 
expense reimbursement forms; track their progress; and get detailed 
information on payments. The most common service requests are for 
system user identification and passwords and for the reactivation of 
accounts. Employees may also request an alternative expense payment 
method. Employees can choose to have their payroll set up for direct 
deposit or paper check, but can have their expenses reimbursed by a 
method that differs from their salary payment method.
    The vendor section works closely with the accounts payable 
disbursements group to resolve returned ACH payments. ACH payments are 
returned periodically for a variety of reasons, including incorrect 
account numbers, incorrect routing numbers, and, in rare instances, a 
nonparticipating financial institution.
    The vendor section electronically scans and stores all supporting 
documentation of existing vendor records and new vendor file requests. 
When this section receives replies asking for ACH participation, the 
vendors are asked if they wish to be notified by e-mail when payments 
are sent. Currently, over 95 percent of ACH participants also receive 
e-mail notification of payment.
    During 2012, the vendor section processed over 1,900 vendor file 
additions, completed more than 1,800 service requests, mailed 
approximately 900 vendor information letters, and converted almost 400 
vendors from check payment to electronic payment.
    During calendar year 2012, disbursements assisted accounting in 
converting several State taxing authorities to ACH payment of tax 
withholdings. Additionally, the section converted the Sergeant at Arms' 
credit card account, the Stationery Room's U.S. Postal Service account, 
and the Washington Metropolitan Area Transit Authority's transit 
subsidy payments to direct deposit.

Accounts Payable: Audit Department
    The accounts payable audit section is responsible for auditing 
vouchers and answering questions regarding voucher preparation and the 
permissibility of expenses and advances. This section provides advice 
and recommendations on the discretionary use of funds to the various 
accounting locations; identifies duplicate payments submitted by 
offices; monitors payments related to contracts; trains new 
administrative managers and chief clerks about Senate financial 
practices and the Senate's Financial Management Information System; and 
assists in the production of the Report of the Secretary of the Senate. 
The Report was issued electronically for the first time in November 
2011, concurrent with the printed version. The printed version is 
available as always, and the online version is available through the 
Senate and Government Printing Office (GPO) Web sites.
    The section is organized at three different levels. The first level 
is the supervisor. In addition to performing managerial tasks, the 
supervisor audits and sanctions vouchers as needed and coordinates 
testing related to system implementation and upgrades. Eleven auditors 
process all incoming vouchers and uploads, and four of them have the 
authority to sanction, on behalf of the Committee on Rules and 
Administration, vouchers not exceeding $100. They also sanction all 
travel and petty cash advances as well as noncontingent fund items 
generated by Legal Counsel, Legislative Counsel, and the Office of 
Congressional Accessibility Services.
    A major function of the section is monitoring the fund advances for 
travel and petty cash. Travel advances must be repaid within 30 days of 
trip completion and petty cash advances must be repaid whenever new 
funding authority is established. The system accommodates the issuance, 
tracking, and repayment of advances. It also facilitates the entry and 
editing of election dates and vouchers for Senators-elect. In addition 
to other functionality, an advance type of petty cash was created and 
is in use. Regular petty cash audits are performed by the section, and 
all petty cash accounts were successfully audited in 2012.
    The accounts payable audit section processed almost 102,000 expense 
items in 2012. Audit sanctioned approximately 48,000 vouchers under 
authority delegated by the Committee on Rules and Administration. This 
translates to roughly 9,300 vouchers processed per auditor, and 12,000 
vouchers posted per certifier. The voucher processing consisted of 
providing interpretation of Senate rules, regulations, and statutes and 
applying the same to expense claims, monitoring of contracts, and 
direct involvement with the Senate's central vendor file. On average, 
vouchers greater than $100 that do not have any issues or questions are 
received, audited, sanctioned electronically by the Committee on Rules 
and Administration using Web FMIS, and are expected to be paid within 8 
to 10 business days. These vouchers comprised approximately 50 percent 
of all vouchers, and, as in the previous year, Disbursing passed two 
post-payment audits performed by the Committee on Rules and 
Administration for items of $100 or less. In 2012, the average for 
Committee on Rules and Administration-sanctioned items was 4.52 days, 
and the average for Disbursing sanctioned items was 2.55 days, roughly 
9 percent faster than the previous year.
    Uploaded items are of two varieties: certified expenses and vendor 
payments. Certified expenses have been around since the 1980s and 
include items such as stationery, telecommunications, postage, and 
equipment. Currently, the certifications include mass mail, franked 
mail, excess copy charges, Senate Photo Studio charges, and Senate 
Recording Studio charges. Expenses incurred by the various Senate 
offices are certified by the SAA to the Disbursing Office on a monthly 
basis. The expenses are detailed on a spreadsheet which is also 
electronically uploaded. The physical voucher is audited and 
appropriate revisions are made. Except for telecommunications charges, 
a concentrated effort is put forth to ensure certified items appear as 
paid in the same month they are incurred. Telecommunications charges 
usually run 1 month behind as the SAA must wait for the bills from 
external vendors.
    Vendor uploads are used to pay vendors for the Senate Stationery 
Room, Senate Gift Shop, and State office rentals, and to refund 
security deposits for the Senate Page School. The methodology is 
roughly the same as that for certifications, but the payments rendered 
are for the individual vendors. Although these items are generally 
processed and paid quickly, the State office rents are generally paid a 
few days prior to the month of the rental, which is consistent with the 
general policy of paying rent in advance.
    The accounts payable audit group provided training sessions in the 
use of new systems: the process for generation of expense claims and 
the permissibility of expenses. They also participated in seminars 
sponsored by the Secretary of the Senate, the SAA, and the Library of 
Congress. The section trained 12 new administrative managers and chief 
clerks and conducted three informational sessions for Senate staff 
through seminars sponsored by the Congressional Research Service (CRS). 
The accounts payable group also routinely assists the IT department and 
other groups as necessary in the testing and implementation of new 
hardware, software, and system applications. The implementation of Web 
FMIS 2012.2 included security enhancements for staff that use the 
system to create expense summary reports (ESR) as well as improved 
navigation and screen layout for auditors. This release also includes a 
pilot of imaging and electronic signatures. A small number of offices 
will be given the ability to attach images of supporting documentation, 
and then electronically sign the voucher. Web FMIS 2013.1 included a 
pilot for a new simplified version of the electronic ESR and 
enhancements to support imaging and digital signatures.
    The accounts payable department has participated in the testing of 
the new imaging project that the IT department has been tasked with. 
The staff has provided valuable feedback to the IT department on system 
problems, system restraints, and areas that need improvement. Accounts 
payable has devoted a lot of time in detailing system problems and 
reporting them to the IT department.

Disbursing Office Information Technology
            Financial Management Information System
    The information technology (IT) department provides both functional 
and technical assistance for Senate financial management activities and 
the financial management information system (FMIS) applications used by 
staff in all Senate accounting locations (i.e., Senate personal 
offices, committees, leadership and support offices, the Office of the 
Secretary of the Senate, the SAA, the Committee on Rules and 
Administration audit section, and DO). Responsibilities of the 
department include:
  --Supporting current financial systems, users, and operational 
        processes;
  --Providing oversight for the FMIS program;
  --Coordinating and testing FMIS infrastructure changes;
  --Administering DO's local area network; and
  --Managing DO's continuity of operations planning.
    Disbursing is the FMIS business owner and is responsible for making 
functional decisions related to FMIS. SAA technology services is 
responsible for providing the technical infrastructure, including 
hardware (e.g., mainframe and servers), operating system software, 
database software, and telecommunications; technical assistance for 
these components, including migration management and database 
administration; and regular batch processing. The DO also utilizes 
contractor support for application development and to augment 
operational support as needed. During 2012, IT worked collaboratively 
with these organizations to:
  --Operate more efficiently: reviewed and began documenting existing 
        operational and development processes in order to facilitate a 
        number of process improvements, including:
    --streamlining training offerings to reduce by 30 percent the 
            classroom hours required for users to obtain system 
            credentials and effectively utilize financial applications; 
            and
    --enhancing defect and requirements management procedures, which 
            helped DO decrease open FMIS incidents and defects by 75 
            percent;
  --Achieve cost savings: improved the Senate's ability to make 
        application changes without the need for software releases, 
        saving significant application development dollars, by:
    --expanding the use of an application rules engine to facilitate 
            implementation of changes to business rules more quickly 
            and economically; and
    --implementing an online help facility for FMIS applications to 
            enable the addition and enhancement of tailored content 
            without developer support;
  --Prepare for a COOP situation: successfully piloted the failback of 
        financial data for the first time as part of the year's 
        financial systems disaster recovery exercise;
  --Improve customer service to the Senate community: supported over 
        3,600 active FMIS users and continued to improve FMIS 
        applications by:
    --implementing three software releases to provide additional user-
            requested functionality and address user-reported issues;
    --introducing a new online expense summary report (ESR) which is 
            easier to use and provides itinerary formatting consistent 
            with requirements for the semiannual Report of the 
            Secretary of the Senate; and
    --working to enhance system performance and the end user experience 
            both through software corrections and infrastructure 
            upgrades;
  --Use new technology: implemented digital signature functionality for 
        FMIS utilizing Senate smart cards and introduced online 
        training resources to support staff who prepare ESRs; and
  --Be more environmentally responsible: continued to advance towards a 
        paperless financial system by successfully completing an 
        imaging and digital signatures pilot with seven offices.
            Supporting Current Financial Systems, Users, and 
                    Operational Processes
    IT supports over 3,600 active FMIS users in all accounting 
locations, the departments in DO (i.e., accounts payable, accounting, 
disbursements, vendor administration, and front office sections), and 
the Committee on Rules and Administration audit staff. Activities 
performed include:
  --User support: provided functional and technical support to all 
        Senate FMIS users; staffed the FMIS help desk; answered 
        hundreds of questions; and met with chiefs of staff, 
        administrative managers, chief clerks, and directors of various 
        Senate offices as requested;
  --System user communication: gathered feedback from its FMIS user 
        communities to ensure their needs are met by:
    --regularly meeting on a scheduled basis with representatives from 
            accounting, accounts payable, and the SAA; and
    --periodically meeting on an advertised basis with targeted user 
            groups to document and review requirements for new 
            functionality, such as the 2012 office user group to 
            discuss modernization of and enhancements to FMIS ESR 
            functionality.
  --Technical problem resolution and system performance monitoring: 
        ensured technical problems were quickly resolved, checked 
        system availability, error logs, and statistics to identify 
        system problems and coordinated performance tuning activities;
  --Security and system administration: maintained user rights for all 
        FAMIS, Web FMIS, and Web PICS users and designed, tested, and 
        made entries to core system tables;
  --Accounting support activities: performed functional testing and 
        production validation of cyclic accounting system activities, 
        including the rollover process for preparing for a new fiscal 
        year, and the archive/purge process for removing lapsed fiscal 
        year data from the current year transactional tables while 
        maintaining this information for reporting purposes;
  --Post payment voucher audit process support: facilitated process for 
        the Committee on Rules and Administration audit staff for 
        selecting and reviewing a statistically valid sample of 
        vouchers for $100 or less sanctioned under authority delegated 
        to the Financial Clerk; and
  --Training: developed and published user materials and help content 
        and provided functional training to FMIS users.
            Providing Oversight for the FMIS Program
    The responsibility for managing the FMIS program and related 
projects was transferred to the IT department in 2003 and includes:
  --Strategic planning: established priorities for system support and 
        enhancements over the next 5 years to enable the highest level 
        of efficiency in financial management operations, reducing 
        cost, increasing business agility, and providing the Senate 
        with an integrated, auditable, and paperless financial system 
        that enables the various Senate user groups to achieve their 
        business objectives in a timely, effective, and secure manner. 
        Requirements were prioritized to extend the life of existing 
        FMIS applications and their platforms to defer replacement and 
        its associated costs in the near term while:
    --ensuring the long-term sustainability and cost-effective 
            supportability of the Senate's FMIS;
    --continuing the advancement of a cost-efficient integrated, 
            auditable, and paperless financial system;
    --assisting stakeholders in meeting their business objectives while 
            providing excellent customer service; and
    --supporting and employing leading technologies consistent with 
            Senate IT strategy;
  --Schedule coordination: Planned and coordinated a rolling 18-month 
        FMIS program schedule and facilitated meetings between 
        Disbursing, the SAA, and support contractor staff to coordinate 
        schedules and activities, including:
    --project specific working meetings: as-needed meetings related to 
            individual projects and topics such as archive/purge 
            meetings and FMIS release design meetings; and
    --project management meetings: weekly meetings to discuss the 
            integrated project schedule and the status of active FMIS 
            projects, and to address any existing project issues and 
            risks;
  --Development of new system features: supervised development, 
        performed extensive integration system testing, and implemented 
        changes to FMIS subsystems. Implementation and production 
        verification activities were typically completed over weekends 
        to minimize system downtime to users. Since 2006, multiple 
        subsystem upgrades have been consolidated into two or three 
        releases each year. During calendar year 2012, Disbursing:
    --Implemented the following two major releases:
      -- FMIS 2012.1, January 2012: implemented incremental 
            enhancements to Web PICS and enhanced imaging 
            infrastructure;
      -- FMIS 2012.2, July 2012, modernized system password encryption 
            and implemented digital signatures and incremental imaging 
            enhancements to facilitate paperless voucher processing and 
            the office imaging and signatures pilot; and
      -- FMIS 2013.1, November 2012, implemented the modernized and 
            enhanced ESR for pilot users, integrated a rules engine for 
            creating and processing business rules, and implemented a 
            FMIS online help facility;
    --Continued work related to document imaging and electronic 
            signatures in FMIS:
      -- 2011: Phase 1: imaging only pilot (completed);
      -- 2012: Phase 2: office imaging and signatures pilot 
            (completed); full rollout beginning with new offices (in 
            progress); and
      -- 2013: Phase 3: planning and development to support imaging and 
            signatures for SAA and staffer users (in progress).
            Coordinating and Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
and the telecommunications network. Activities for changes to the 
infrastructure include facilitating scheduling of changes and upgrades 
to this infrastructure, testing functionality prior to implementation, 
and validating critical functionality post implementation. During 2012, 
DO worked with the SAA to extend the life of existing FMIS applications 
to ensure ongoing support of Senate business processes given limited 
fiscal resources. This included testing a new mainframe and an 
operating system upgrade to support the FAMIS general ledger system, 
Web FMIS, and Web PICS.
            Administering DO's Local Area Network
    DO continued to administer its own local area network (LAN), which 
is separate from the network used by the rest of the Secretary's 
Office. It is used by over 50 staff. Upkeep of the LAN infrastructure, 
including performing routine daily tasks and replacing equipment 
regularly, is critical to providing financial services for the Senate. 
In addition, there are a number of specialized administrative 
applications that are housed on Disbursing's LAN. During 2012, LAN 
administration activities included:
  --Performing maintenance on the LAN;
  --Installing specialized software;
  --Maintaining projects for the payroll and benefits section, 
        including:
    --imaging system, developed by SAA and critical for the payroll and 
            employee benefits sections, for electronically capturing 
            and indexing payroll documents submitted at the front 
            counter;
    --CLER application, a health insurance benefits validation service; 
            and
    --retirement benefit software, which enables benefits counselors to 
            easily estimate retirement benefits based on different 
            scenarios;
  --Upgrading existing workstations with appropriate upgrades 
        including:
    --installation of an automated client software cataloging and 
            updating program to provide a more aggressive approach 
            towards applying software patches to address 
            vulnerabilities in our platform;
    --imaging of critical PCs for easy recovery from hard disk crash or 
            other PC failure; and
    --migration of DO PCs to Windows 7.
            Managing DO's Continuity of Operations (COOP) Planning
    Disaster recovery activities are an important part of DO's 
continuity of operations plan, and DO IT works closely with the SAA to 
coordinate DO's planned exercises. During 2012, basic tests were 
performed to ensure recovery capabilities for financial systems 
including historically performed failover activities as well as the 
first successful failback of FMIS-related data.

                         ADMINISTRATIVE OFFICES
                      CHIEF COUNSEL FOR EMPLOYMENT

    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
nonpartisan office established at the direction of the joint leadership 
in 1993 after enactment of the Government Employee Rights Act (GERA), 
which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), as amended, Senate 
offices became subject to the requirements, responsibilities, and 
obligations of 12 employment laws. The CAA also established the Office 
of Compliance (OOC). Among other things, the OOC accepts and processes 
legislative employees' complaints that their employer has violated the 
CAA.
    The SCCE is charged with the legal defense of Senate offices in all 
employment law cases at both the administrative and court levels. The 
SCCE attorneys also provide legal advice to Senate offices about their 
obligations under employment laws. Accordingly, each of the employing 
offices of the Senate is an individual client of the SCCE, and each 
office maintains an attorney-client relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories:
  --Litigation (defending Senate offices in courts and at 
        administrative hearings);
  --Mediations to resolve lawsuits;
  --Court-ordered alternative dispute resolutions;
  --Occupational Safety and Health Act (OSHA) compliance;
  --Union drives, negotiations, and unfair labor practice charges;
  --Americans with Disabilities Act (ADA) compliance;
  --Layoffs and office closings in compliance with the law;
  --Management training regarding legal responsibilities; and
  --Preventive legal advice.

Litigation, Mediations, and Alternative Dispute Resolutions
    The SCCE provides legal advice to and defends Senate employing 
offices in all court actions, hearings, proceedings, investigations and 
negotiations relating to labor and employment laws. The SCCE handles 
cases filed in the District of Columbia and cases filed in any of the 
50 States.

Compliance With the OSHA and the ADA
    The CAA mandates that, at least once each Congress, the OOC shall 
inspect each Senate office to determine whether each office complies 
with the OSHA and the public accommodation portion of the ADA. The CAA 
authorizes the OOC to issue a public citation to any office that is not 
in compliance.
    The SCCE provides legal assistance and advice to each Senate office 
to ensure that it is complying with the OSHA and the ADA. The SCCE also 
represents each Senate office during the OOC inspections and advises 
and represents each Senate office when a complaint of an OSHA or ADA 
violation is filed against the office or when a citation is issued.
    In 2012, the SCCE pre-inspected various Senate facilities and work 
areas to ensure that Senate offices are complying with the OSHA and the 
ADA. The SCCE accompanied the OOC inspectors on inspections of member 
offices, offices of the Sergeant at Arms, offices of the Secretary of 
the Senate, the Senate Employees Child Care Center, the Webster Hall 
page facilities, and offsite buildings used by the Senate.
    At the conclusion of the OOC's inspection process, Senate offices 
had no significant ADA problems and no citations were issued in 2012. 
In December, the OOC delivered its draft hazard inspection findings 
from the 2012 inspections, and the Sergeant at Arms is in the process 
of abating any pending findings in the report.

Management Training Regarding Legal Responsibilities
    The SCCE regularly conducts legal seminars for the managers of 
Senate offices to assist them in complying with employment laws, 
thereby reducing their liability.
    In 2012, the SCCE gave 62 live legal seminars to Senate offices. 
These seminars included, among others:
  --The Congressional Accountability Act of 1995: Management's Rights 
        and Obligations;
  --Your Office Can Be Sued: Employment Laws You Must Comply With;
  --How to Hire the Best Employees: Identifying Red Flags in Resumes 
        and Conducting Effective Interviews;
  --The ABCs of Investigating Harassment;
  --The Genetic Information Non-Discrimination Act: Practical Guidance 
        for Managers;
  --A Manager's Guide to Preventing and Addressing Harassment in the 
        Workplace;
  --Military Service Academies Interview Training; and
  --Diversity in the Workplace.
    In addition to the above seminars, the SCCE conducted a series of 
monthly seminars covering all major employment laws that govern Senate 
offices. The purpose of the seminars was to educate all Senate 
management staff about their responsibility to ensure that their 
respective offices comply with the CAA. The series was open to all 
chiefs of staff, staff directors, administrative directors, chief 
clerks, and office managers. Individuals who complete the series 
receive a certificate of completion signed by the Secretary of the 
Senate. The SCCE, working with the Senate Recording Studio, streamed 
these monthly seminars to State offices so that all State managers 
could participate and to allow staff members in Washington, D.C. to 
view the seminars from their offices. In addition, the SCCE rebroadcast 
each of its monthly seminars on the SCCE Web site to accommodate 
managers who were unable to attend the initial seminars. Further, the 
SCCE online registration technology was used extensively by Senate 
management staff in 2012 to register online for attending the seminars 
in the series.
    In addition to the above seminars, the SCCE presented Webinars that 
Senate management staff could and did view at their convenience, and 
harassment Webinars that Senate management staff requires all new hires 
to view.
    The SCCE also held eleven one-hour, lunchtime meetings, referred to 
as ``Brownie Brown Bags,'' open to all office managers, administrative 
directors, and chief clerks. The sessions provide attendees with an 
informal forum to discuss legal issues and legal developments. These 
meetings have been well attended.

Legal Advice
    The SCCE meets daily with members, chiefs of staff, administrative 
directors, office managers, staff directors, chief clerks, and counsel 
at their request to provide legal advice. For example, on a daily 
basis, the SCCE advises Senate offices on matters such as disciplining 
and terminating employees in compliance with the law; handling and 
investigating harassment complaints; accommodating individuals with 
disabilities; determining wage law requirements; meeting the 
requirements of the Family and Medical Leave Act; management's rights 
and obligations under union laws and the OSHA; management's obligation 
to give leave to employees for military service; veterans' rights; and 
interviewing, hiring, and counseling employees. In 2012, the SCCE had 
over 2,318 client legal advice meetings.
    Also, the SCCE provides legal assistance to Senate offices to 
ensure that their office policies, supervisors' policies, intern 
policies, job descriptions, interviewing guidelines, and performance 
evaluation forms comply with the law. In 2012, the SCCE significantly 
revised or prepared 190 policy manuals for member offices and 
committees.
    To keep clients abreast of legal developments, the SCCE prepares 
and distributes timely client alerts to all Senate offices and 
committees explaining the impact of newly enacted employment-related 
laws.
Union Drives, Negotiations, and Unfair Labor Practice Charges
    In 2012, the SCCE reviewed one union contract and provided guidance 
to managers and supervisors regarding their legal and contractual 
obligations under union contracts.

E-Discovery
    The SCCE attorneys have developed a particular expertise in 
identifying, preserving, and culling electronic documents. Although the 
SCCE developed and uses this expertise for litigation purposes, several 
Senate offices have used the SCCE's expertise in this area to identify, 
preserve, and cull electronic documents they need for purposes other 
than litigation. By relying on the SCCE, these Senate offices have been 
able to identify and preserve electronic documents they were not 
otherwise able to find and to use for investigation purposes unless 
they retained a consultant.

Environmental Impact and Cost Savings
    In 2012 and over the past 3 years, the SCCE continued with its 
project of eliminating a significant amount of hard copy legal 
reference materials to further benefit the environment, cut costs, and 
clear valuable office space. By doing this, the office has eliminated 
hundreds of books, freed up hundreds of square feet of space previously 
used to store books, and reduced subscription costs.

                     CONSERVATION AND PRESERVATION

    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory and other authority. Initiatives include: 
deacidification of paper and prints, phased conservation for books and 
documents, collection surveys, exhibits, and matting and framing for 
the Senate leadership.

Senate Library
    The Senate Library sent 410 books to the library binding section of 
the Government Printing Office (GPO) for binding. GPO has been 
returning books to the Senate Library on schedule. The Office of 
Conservation and Preservation assists the Senate Library with technical 
issues involving books being sent and returned from GPO to ensure the 
quality of services provided.
    Conservation and Preservation will continue training eight Senate 
Library staff members to repair Senate Library materials. The Senate 
Library staff repaired 320 Congressional Records.

Preservation
    The Office of Conservation and Preservation completed 98 volumes of 
House and Senate hearings and Congressional Records for the Senate 
Library. These books were re-bound with new end sheets and new covers 
using the old spines when possible. The office also fabricated one 
slipcase for the Dwight D. Eisenhower Memorial Commission book.

Committees
    Conservation and Preservation assisted the Committee on the Budget, 
Select Committee on Ethics, Veterans' Affairs Committee, Historical 
Office, Legislative Counsel, Joint Committee on Taxation, and Joint 
Economic Committee with books sent to GPO for binding.

Cost Savings
    The office incorporated the use of lower-cost molding that will 
result in savings of $3,000 to $3,700 per year. Training of Senate 
Library staff to repair bound copies of the Congressional Record 
reduces the need for contract support for book binding and repair.

Continuity of Operations (COOP) Planning
    Conservation and Preservation continues to update its COOP plan. 
For example, the office fabricated two oath books and boxes for offsite 
locations.

                                CURATOR

    The Office of Senate Curator, on behalf of the Senate Commission on 
Art, develops and implements the museum and preservation programs for 
the United States Senate. The Curator collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
specific architectural features; and the Curator exercises supervisory 
responsibility for the historic chambers in the Capitol under the 
jurisdiction of the Commission. Through exhibitions, publications, and 
other programs, the Curator educates the public about the Senate and 
its collections.

Collections: Commissions, Acquisitions, and Management
    Twenty-six objects were accessioned into the Senate Collection this 
year. A large number of the items cataloged included tickets, 
invitations, programs, and other ephemera related to recent events in 
which the Senate participated. The Curator's Office actively collects 
contemporary artifacts in an effort to preserve and document the 
present for future generations. Other items added to the collection 
include eight historic benches originally purchased for the Senate 
Reception Room in 1899, a 19th century stereograph depicting the Senate 
Chamber, a gallery pass from 1899 signed by Vice President Garret 
Hobart, an historic urn in the Marble Room, and several 20th century 
menus from the Senate Restaurant.
    The office cataloged 22 objects into the new Architectural Fragment 
Collection, which comprises original, significant, or unique objects or 
building fabric removed from Senate spaces. Most of the approved 
fragments were originally from the Old Senate Chamber, the President's 
Room, and the Vice President's Ceremonial Office. The collection was 
established to better understand the architecture, ornamentation, and 
decoration of Senate spaces within the Capitol complex; to serve as a 
resource for historic reconstructions; and to enhance knowledge of the 
Senate. It is based on similar collections at other historic sites, and 
standard museum management procedures and documentation have been 
established for the Senate's Collection.
    Forty-eight new foreign gifts were reported in 2012 to the Select 
Committee on Ethics and deposited with the Senate Curator's Office on 
behalf of the Secretary of the Senate. The office currently is 
responsible for 251 foreign gifts which are catalogued and maintained 
in accordance with the Foreign Gifts and Decorations Act. Appropriate 
disposition of various foreign gifts was completed following 
established procedures. These gifts reflect the tradition of gift-
exchange between government dignitaries as an expression of goodwill 
and modern day international relations. Recognizing the importance of 
these objects to the history of the Senate, the Curator's Office 
established the Foreign Gift Collection. The office formalized the 
collection scope this year, reviewed a number of gifts received by now 
retired Senators, and accessioned 24 gifts from its holdings into the 
Senate's permanent collection.
    In keeping with scheduled procedures, all Senate Collection objects 
on display were inventoried this year, noting any changes in location. 
In addition, as directed by S. Res. 178 (108th Congress, 1st session), 
the office submitted inventories of the art and historic furnishings in 
the Senate to the Senate Committee on Rules and Administration. The 
inventories, which are submitted every 6 months, are compiled by the 
Curator's Office with assistance from the Senate Sergeant at Arms (SAA) 
and the Architect of the Capitol's Superintendent of Senate Office 
Buildings (AOC Superintendent). The Curator's Office also formalized 
the administration of the Historic Furnishings Inventory by 
establishing a collections scope and procedures for reviewing and 
adding items to the list. Additionally, guidelines for potentially 
historic furnishings were approved this year. These procedures are 
consistent with the Senate Curator's Collections Management Policy and 
bring the governance of the Historic Furnishings Inventory and the U.S. 
Senate Collection into alignment.
    One thousand one hundred prints were rehoused and moved to the 
Curator's climate controlled paper storage room, which is located in 
the Capitol Visitor Center (CVC) and provides cooler temperature for 
paper based objects. The rehousing improves the care of the prints with 
sturdier protection, allows for front and back viewing capability, and 
provides easier access to the collection.
    Staff worked with the Senate Photo Studio and the AOC Photography 
Branch to capture special events and projects, including moving art, 
photographing objects, and documenting restoration. These images are 
important for recordkeeping, disaster preparedness, use on Senate.gov, 
and publications promoting the Senate's Collections.
    Staff also worked with the SAA Cabinet Shop to complete hardware 
repairs for the writing tops on the Senate Chamber desks. These 
hardware concerns were identified during a comprehensive survey of the 
desks in 2011. New hardware was obtained by the SAA Cabinet Shop, or 
fabricated by the AOC Sheet Metal Shop, to match the historic hardware. 
Repairs were necessary on 37 of the 100 desks. The work improved the 
stability of the writing tops and their attachment to the original 
desks, as well as enhanced the functionality of the tops.
    The Curator's Office continued to advance the preservation and 
documentation of the historic Russell Senate Office Building 
furnishings through several initiatives this year. Chief among them was 
the approval of guidelines concerning the method for reupholstering and 
refinishing the historic Russell furniture. The guidelines emphasize 
the use of the manufacturer's 1909 specifications for dark green 
leather to maintain and reflect the historical appearance of the 
furnishings, but provide Senators with four other leather color options 
when upholstering their Russell furnishings. The Curator's Office will 
undertake a number of educational initiatives in 2013 to help protect 
and preserve these historic furnishings. This is critical, as only 33 
percent of the original 3,109 furnishings made for the Russell Building 
remain in the Senate. Regarding documentation, the yearly occupant 
inventory of the Russell flat-top desks was conducted and the results 
were added to the Curator's database, thus recording the use and 
location of the remaining 62 historic desks. Efforts to locate and 
document Russell furnishings in other collections are ongoing. This 
year another flat-top desk (the third in 3 years) was returned to the 
Senate from a private collection. The desk will be placed in 
circulation for the next Senator on the waiting list.
    The office followed up on the survey of historic Russell Senate 
Office Building mirrors by contacting the occupants with historic 
mirrors and providing history and care information to them. This 
sharing of information helps establish a partnership in the care and 
treatment of the mirrors, which is necessary to ensure their long-term 
preservation.
    The Curator's Office updated the collection management database 
program and moved it to a dedicated computer. This database stores the 
pertinent information for the Senate's extensive collection under the 
Curator's care. This effort resulted in a more stabilized system and 
eliminated the problems of freezing or crashing experienced with the 
previous software version.
    Curator's staff worked closely with the SAA Cabinet Shop to design 
and construct a new pedestal for the Strom Thurmond bust located in the 
Thurmond Room. The office also moved forward on a decision regarding a 
new pedestal for the marble bust of George Washington that will be 
displayed outside the President's Room.
    The official Senate chinaware was inventoried; however, it was not 
used this year for either foreign or domestic guests. The Secretary's 
china was inventoried and used at one reception: a dinner for the new 
members of the Senate sponsored by the Secretary of the Senate.

Conservation and Restoration
    Providing for the conservation needs of the Senate's historic 
collections continues to be a priority. Conservation treatment for the 
Eagle and Shield in the Old Senate Chamber was completed in June 2012. 
This iconic gilded wood sculpture has been a symbol of the Senate since 
the 1830s. It required numerous treatment procedures to remove modern 
coatings, fill losses, and restore the finish to match original water 
gilding discovered on parts of the shield. Testing and analysis of the 
sculpture was done to aid in the development of a treatment plan and 
also contributed significant information to the physical history of the 
sculpture. After the canopy above the Vice President's dais in the Old 
Senate Chamber was redesigned in late August, the Eagle and Shield was 
reinstalled above the new canopy.
    As part of a larger restoration project in the Old Senate Chamber, 
the 23 stars that adorn the drapery were regilded. The historic gilded 
arch that hangs behind the Vice President's desk was also analyzed to 
better understand its significance and history.
    Restoration of two rosewood writing tables was completed in August 
2012. Thought to have been purchased around 1860 from the Washington, 
D.C. auctioneer J.C. McGuire & Co., the tables were originally acquired 
for the Vice President's Ceremonial Office. They have been used daily 
in various rooms throughout the Capitol for over 150 years. The 
conservation treatment sought to return the furnishings to their 
original appearance. Repairs included mending loose joints, stabilizing 
the medial stretchers, replacing missing molding or carvings, 
installing new leather, and restoring the finish. Following treatment, 
the tables were professionally photographed. The project was completed 
under budget and saved the Senate over $7,000.
    Similarly, the historic table and set of six chairs used in the 
Senate Reception Room since at least the 1940s were refinished and 
reupholstered. This work was done in conjunction with a broader 
Reception Room restoration initiative. The refinishing addressed 
visible damage and employed a finish protocol that reflects the history 
of the pieces and will harmonize with the eventual restored appearance 
of the room.
    The monumental mirror in the Committee on Armed Services' hearing 
room in the Russell Senate Office Building was conserved, making it the 
first historic Russell mirror to undergo full conservation. Due to the 
size of the Russell mirror, all work was performed on site. In the 
Capitol, emergency repairs were made to several historic gilded pieces 
to address recent damage.
    The collection of historic clocks displayed in the Senate wing of 
the Capitol continued to receive regularly scheduled care and repairs 
through a five-year contract with a horologist. The Willard gallery 
clock in the Old Supreme Court Chamber was lubricated and adjusted, as 
were the floor clock in the Vice President's Ceremonial Office and the 
French mantel clock in the Marble Room. During the fall, the Willard 
gallery clock began to gain time, so additional treatment was necessary 
to recalibrate its timekeeping mechanism.
    Staff coordinated the move and conservation treatment for four 
sculptures that were displayed next to the Senate subway terminal in 
the basement of the Capitol. The proximity to the subway machinery 
created preservation difficulties that necessitated the relocation of 
these historic pieces. The sculpture of Justice and History by Thomas 
Crawford was originally displayed in the 19th century outside on the 
east front pediment above the door to the Senate. Due to extensive 
marble deterioration, the sculpture was removed and replaced in 1973 
with a reproduction. The original pediment sculpture was repaired and 
painted, and then placed on display in the Senate basement. To 
facilitate relocation from the basement to the south wall of the law 
library door vestibule, Curator staff coordinated with the AOC to have 
a new base made for the sculpture. Professional art riggers used 
specialized equipment to separate the two stones that comprise the 
work, moved the two pieces to the first floor, and placed them on the 
new base. Once relocated, a conservator refilled the seam between the 
two pieces and cleaned the painted finish. The other sculptures removed 
from the basement were the three plaster models created by artist Lee 
Lawry for the marble reliefs above the doorways in the Senate Chamber. 
These were removed from the wall in the basement and underwent 
conservation treatment to clean and consolidate their surfaces. 
Currently the plaques are in the Curator's storage awaiting a more 
appropriate location for display.
    A program to improve the preservation and care of the Senate 
Chamber desks has been established and is expected to start in 2013. 
During the upcoming August State work period, conservators will conduct 
a survey to evaluate the condition of each desk, provide routine care, 
and develop a treatment plan to repair damage, starting with the most 
serious problems. The project has been contracted to continue for a 
five-year period. Yearly examinations, care procedures, and 
conservation treatment for damage will improve the long-term 
preservation and appearance of these historic desks, 48 of which date 
back to 1819. A related project will provide the same preservation and 
care program for approximately 30 other historic furnishings in the 
Senate wing. This latter work is also scheduled to occur annually in 
August for a period of 5 years. Looking forward, a conservator will 
repair and treat the 100 inkwells and 100 sanders in the Senate Chamber 
desks. Over time these containers have suffered from daily use, 
resulting in heavy corrosion, loose or broken hinges, and chipped or 
missing glass liners. Conservation treatment will focus on cleaning and 
stabilizing the pieces. Work is scheduled to begin during the April 
2013 State work period.

Historic Preservation
    The Curator's Office continued to work closely with the AOC and SAA 
to review, comment, plan, and document Senate-side construction 
projects (many of which are long-term initiatives) that involve or 
affect historic resources. Such construction and conservation efforts 
this year included the Senate Reception Room restoration, Brumidi 
Corridors restoration, Strom Thurmond Room wall restoration, Senate-
side plaster repairs, and greening upgrades (thermostats and light 
bulbs). Through this work, the Curator's Office works to ensure that 
the highest preservation standards possible are applied to all Senate 
projects in the Capitol. The close working relationship fostered with 
the AOC historic preservation officer (HPO) and curator has broadened 
the reach of curatorial review and strengthened the opinions rendered 
by this internal group.
    Efforts to finalize a 5-year plan for finishing the Brumidi 
Corridors conservation were realized in 2012. The Curator's Office 
worked closely with the AOC curator throughout the procurement process 
and has been involved in the review of the ongoing work. Now that the 
conservation is proceeding, the Curator's Office is working with the 
AOC to consider the full scope of the corridor restoration. Long-term 
plans will be developed for the lighting, signage, enframements, and 
other features in the corridors.
    The office continued to assist the AOC in the procurement process 
for a multi-year contract for finishing the Senate Reception Room walls 
and ceiling conservation. Curator's staff reviewed the proposal and 
participated in the selection process. While the physical work was 
delayed in 2012 due to contracting difficulties, the office continued 
to generate support for the project through staff and guide briefings, 
articles, and updated room signage. In conjunction with the walls and 
ceiling conservation, the Curator's Office is involved in efforts to 
improve the furnishings. Working with the SAA, a new desk for the 
doorkeepers was designed and installed, the historic table and chairs 
were refinished as mentioned, and a plan for acquiring additional 
seating was developed (this last task also relied on the services of 
the AOC interior designers). In addition to these improvements, the 
Curator's Office worked diligently to ensure the room and its 
furnishings were protected on a daily basis, as well as during special 
events. One of those initiatives included staff training to undertake 
minor on-site treatment, which has resulted in savings in conservation 
fees for the Senate.

Historic Chambers
    In March 2012, the Old Senate Chamber reopened following a six 
month project to address significant plaster repairs and repainting. 
The Curator's Office worked closely in conjunction with the staff of 
the AOC and SAA on this major project. Following extensive paint 
analysis and discovery of the original historic colors, the room was 
returned to a more correct historic appearance. The new colors consist 
of a warm gray on the ceiling, a slightly darker version of the gray on 
the walls, and a cream color on the trim. The monochromatic effect is 
dramatic; gone are the highly accented 1976 restoration colors that 
featured shades of peach and salmon with metallic highlights. With the 
historic colors once again in palace, visitors can experience the 
``wow'' factor of the room and appreciate how the painted surfaces 
enhance the architectural details as originally conceived by Architect 
Benjamin Henry Latrobe.
    Part of the Old Senate Chamber project included the replacement of 
the 35-year-old drapery that had reached the end of its serviceable 
life due to the natural accumulation of dust and grime, exposure to 
light, and past water damage that had dry-rotted some of the fabric. 
The Curator's Office consulted with experts in the field of historic 
furnishings and fabrics and was able to develop a more historically 
accurate color, pattern, fabric, and configuration for the draperies. 
In fact, the new fabric pattern was chosen from the archives of an 
American fabric mill with an extensive collection of historic fabric 
patterns. In March 2012, the first phase of the drapery project was the 
installation by the staff of the Sergeant at Arms of new swags and 
pendants on the east and west walls of the chamber.
    During August 2012, the Office of Senate Curator conducted the next 
phase of the Old Senate Chamber project. This effort consisted of the 
Sergeant at Arms reconfiguring the canopy over the Vice President's 
desk to a more historically accurate appearance. Once again, Curator 
staff, working with staff of the Sergeant at Arms, consulted with 
experts in the fields of historic fabric and decorative arts and 
reviewed the historic images used to plan the 1976 restoration of the 
room. Extensive research by staff resulted in the discovery of several 
new historic images of the room and also various 19th century drapery 
manuals unknown at the time of the 1976 restoration. As a result, it 
was possible to configure the canopy to more closely resemble its 1859 
appearance. At the same time, the modesty curtains on the gallery 
railing in the room and on the Vice President's and secretary's desk 
were also replaced.
    The Curator's staff continued to maintain the Old Senate Chamber 
and Old Supreme Court Chamber and coordinated periodic use of both 
rooms for special occasions. The staff worked with the U.S. Capitol 
Police and the SAA to record after-hours access to the historic 
chambers by current members of Congress. One hundred and nine requests 
were received from current members for after-hours access to the Old 
Senate Chamber and Old Supreme Court Chamber. Of special significance 
in the Old Senate Chamber was the reenactment swearing-in ceremony for 
Senator Patrick Leahy in December on becoming president pro tempore of 
the Senate.

Loans To and From the Collection
    A total of 64 historic objects and paintings are currently on loan 
to the Curator's Office on behalf of Senate leadership and officers in 
the Senate wing of the Capitol. The staff returned one loan, 
transferred one loan, and renewed loan agreements for 22 other objects. 
Over 40 loans are projected to be renewed next year.
    The office began working with the Joint Congressional Committee on 
Inaugural Ceremonies on the loan of the painting and the eagle podium 
for the inaugural luncheon. The staff researched available paintings 
and arranged site visits to view specific art works. Assistance was 
also provided in helping to coordinate the loans of the Lincoln bible 
and Martin Luther King, Jr.'s personal bible, which were both used at 
the inaugural ceremony.

Publications and Exhibitions
    In conjunction with the Senate Library and Senate Historical 
Office, and with support from the SAA and AOC, Curator staff prepared a 
new exhibit for the entrance room to G-50 in the Dirksen Building. The 
exhibit, What Issues Has the United States Senate Investigated?, 
highlights the role of the Senate in historical investigations. The 
exhibit was installed in one of the two showcases built into the walls 
of the room's vestibule and is the third display developed as part of a 
rotating series for this location. It replaces the 2010 exhibit on 
Senator Everett Dirksen for whom the building is named. The exhibit was 
designed and fabricated using in-house resources at minimal cost to the 
Senate.
    New interpretive labels were installed for the 23 vice presidential 
busts on display in the Senate's second floor. These new labels have 
larger and easier to read text highlighting each Vice President's years 
of service. This collaborative effort was coordinated by the Curator's 
Office with the assistance of the Secretary's Office of Conservation 
and Preservation and Senate Gift Shop. The project also pooled the 
talents of the SAA Printing and Graphics Office, as well as the AOC's 
Painting and Decorating Division and Carpentry Shop. The labels were 
fabricated using in-house resources at minimal cost to the Senate.
    The office continued to increase its presence on Senate.gov this 
year by including new information to existing artifacts pages. 
Additionally, ten new pages were added to the sections on decorative 
arts, ephemera, and graphic art. Objects highlighted included historic 
furnishings related to the Old Senate Chamber, Vice President's 
Ceremonial Office, and the Senate Reception Room. The growing number of 
artifacts and virtual exhibits added to Senate.gov directly correlates 
to the increased number of inquiries received from the public, 
students, congressional staffers, and curators regarding the Senate's 
collections.
    The long-anticipated new Constantino Brumidi publication is in the 
final design phase and is scheduled to be published this summer. Work 
on the book has uncovered significant new findings on Brumidi and the 
origin of some of his art. Extensive research by Curator's staff has 
identified the scenes depicted in Brumidi's eight landscape medallions 
in the Brumidi Corridors. The source used for modeling these 1860s 
landscapes was a 19th century report to Congress on the Federal 
exploration for the first transcontinental railroad. A 16-page chapter 
detailing this important discovery will be included in the upcoming 
publication. Additionally, this new understanding of the medallions 
will assist the AOC in prioritizing the conservation of the Brumidi 
murals.

Collaborations, Educational Programs, and Events
    Curator's staff assisted with numerous CVC-related projects 
throughout the year, including participating in the morning briefings 
to the CVC Office of Visitor Services, conducting exhibit talks in the 
CVC for the public, reviewing exhibition text and images, and 
evaluating products and publications for the CVC Gift Shop.
    The Curator's staff also gave lectures on the Senate's art and 
historical collections to various historical groups and art museums, as 
well as to members of the Capitol Police Chamber Division. The office 
continued to assist with the Secretary's Senate staff lecture and tour 
series, and was a regular contributor to Unum, the Secretary's 
newsletter.

Office Administration and Automation
    Updates to the Senate Chamber Desks Web site have been automated in 
a new database as a result of a collaborative effort coordinated by the 
Curator's Office with the Secretary's Information Systems and Web 
Technology offices. Changes in the Senate desk occupancy will be 
collected at the beginning of each Congress in the new database 
starting with the 113th Congress. The data will be exported in a Web-
ready format. This new process will provide time savings, improve 
usability, and streamline recordkeeping for the Curator's Office and 
the Office of Web Technology when updating the Senate Chamber Desks Web 
site.

Continuity of Operations (COOP) Planning
    The Curator's Collections Division conducted a tabletop exercise 
with the U.S. Capitol Police to better understand how command centers 
are set up, and how to effectively communicate art concerns regarding 
an emergency situation. Contact information was updated in the 
emergency plan.
    In the area of COOP preparedness, the office updated the emergency 
preparedness database, made regular back-ups of the office's electronic 
records to store off-site in a secure environment, and routinely 
conducted remote desktop exercises to facilitate staff preparedness for 
an emergency situation.

                         EDUCATION AND TRAINING

    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff in 
Washington D.C. and the State offices. There are two branches within 
the office: Education and Training and Health Promotion. The Education 
and Training branch is responsible for providing management and 
leadership development; training on human resource issues, writing, 
editing, legislative research, and time management; as well as offering 
technical training support for approved software packages and equipment 
and new staff and intern orientation in either Washington, D.C. or the 
State offices. This branch provides training with instructor-led 
classes, one-on-one coaching sessions, specialized vendor provided 
training, video teleconferencing, Webinars, Web-based training, 
documentation, job-aids, and quickcards. The Health Promotion branch 
provides seminars, classes, and screenings on health and wellness 
issues. This branch also coordinates an annual health fair for all 
Senate employees and plans blood drives every year.

Capitol Hill Training Events
    The Office of Education and Training offered 950 classes and events 
on Capitol Hill in 2012, drawing over 9,500 participants. The 
registration desk handled over 25,000 e-mail and phone requests for 
training and documentation.
    The office also provided 225 customized training sessions for 610 
staff members. These sessions ranged from in-depth training of Senate 
office system administrators to conflict resolution to organizational 
development. The office provides individual consultation on Web site 
development and office systems training, as well as classes and 
coaching in resume writing and interviewing skills throughout the year 
and for staff whose members have announced their retirements.
    The Senate's intern program is also a focus of the office. The 
office provides training for intern coordinators as well as ten 
orientation and training sessions for approximately 1,500 interns.
    Training for the new Watson Phone System was offered in a variety 
of learning methods including hands-on, online, self-paced 
documentation, and individual coaching. The office successfully trained 
each Senate member, committee, and support office at the time the 
office was upgraded to the new phone.

State Training Events
    The Office of Education and Training provided 94 learning 
opportunities and training sessions to State offices for which 2,625 
State staff registered. The office continues to offer the State 
Training Fair Program and video teleconference (VTC) and Webinars 
program as a means to train State staff.
    In 2012, one session of the State Training Fair was attended by 32 
State staff. The office held its first Virtual State Training Fair in 
the fall. During this two-week fair, the office provided 20 sessions 
which were attended by 120 State staff.
    The State Directors Forum, held in May, was attended by 32 State 
administrators and directors. In addition, 58 caseworkers and casework 
managers from the State attended the Constituent Services Conference 
and 48 State outreach staff attended the Outreach Conference.
    As part of the office's VTC and Webinar program, 10 VTC classes 
were attended by 110 State staff, and 25 Webinars were attended by over 
200 State participants.
    Education and Training also provided facilitation of senior staff, 
all staff, or partial staff meetings to over 30 offices that were 
attended by over 500 staff. Additionally, the office offered 20 VTC 
classes for which 718 State staff registered and 22 Webinars that were 
attended by 200.
    To date, 826 State and Washington, D.C. staff have registered and 
accessed a total of 1,780 different lessons and publications using Web-
based training covering technical, professional, and language skills. 
This allows staff in both Washington, D.C. and State offices to take 
training at their convenience. Education and Training also provides 100 
Senate-specific, self-paced lessons that have been accessed over 4,800 
times.

Health Promotion
    In the Health Promotion area, approximately 2,200 staff 
participated in 60 health-related activities throughout the year. These 
activities included: lung function and kidney screenings, eight blood 
drives, the Health and Fitness Day, seminars on health-related topics, 
and the Annual Senate Health Fair. Health Promotion also coordinates 
and promotes healthy lifestyle classes such as yoga, pilates, and 
weight management.

Ongoing Initiatives
    The office continues to develop job-specific training and resources 
for the Senate staff. Programs for legislative directors, legislative 
correspondents, schedulers, and chief clerks are currently under 
development.
    The office deployed a new learning management system which provides 
staff with a user-friendly method for finding and registering for 
classes. This tool gives staff a broad view of all the classes offered 
and the opportunity to request classes they are interested in 
attending. Combined with Education and Training's Web site, the system 
provides a variety of ways for staff to request or register for 
training and view or download training documentation.
    The office will expand the online training options for Washington, 
D.C. and State staff.

Cost-Saving Measures
    This office has eliminated all printed announcements and calendars. 
Webinar and VTC offerings now include Washington, D.C. staff as well as 
State staff. Self-paced training modules allow State and D.C. staff to 
learn at their own pace and from their own desks.
    The Virtual State Training fair has reduced the Senate office's 
travel costs, yet still provides an opportunity for staff from all over 
the country to share ideas and attend classes without leaving their 
offices.
    The new Learning Center, created by SAA staff, eliminated the 
support costs of the former commercially purchased system.

Continuity of Operations (COOP) Planning
    This office is working with the Senate Employee Assistance Program 
Office to develop, deliver, and staff real-time training or support in 
response to emotionally charged events.
    Education and Training has upgraded the video and audio in the 
spaces used as the Emergency Operations Centers for the Sergeant at 
Arms (SAA) and Secretary of the Senate, and has begun work with the SAA 
Continuity and Emergency Preparedness Operations Office to provide 
staffing for alternate office space, alternate computing center, and 
alternate chamber support.

                               GIFT SHOP

    Since its establishment in 1992 (2 U.S.C. 121d), the Senate Gift 
Shop has continued to provide outstanding service and products that 
maintain the integrity of the Senate while increasing the public's 
awareness of its mission and history. The Gift Shop serves Senators and 
their spouses, staff, constituents, and the many visitors to the U.S. 
Capitol complex. The products available include a wide range of fine 
gift items, collectables, and souvenirs, many created exclusively for 
the U.S. Senate.

Facilities
    In addition to providing products and services from three physical 
locations, the Gift Shop has an online presence on Webster, the 
Senate's intranet. The Web site offers an increasing selection of 
products that can be purchased by phone, e-mail, or by printing and 
faxing the order form provided on the site. Along with offering over-
the-counter and walk-in sales, as well as limited intranet services, 
the Gift Shop administrative office provides mail order service via 
phone or fax, and special order and catalogue sales via in-person 
visit, e-mail, phone, or fax.
    The Gift Shop maintains two warehouse facilities. The bulk of the 
Gift Shop's stock is held in the Senate Storage Facility (SSF), an 
offsite warehouse. While the Senate Sergeant at Arms (SAA) is in charge 
of the overall management of the SSF, the director of the Gift Shop has 
responsibility for the operation and oversight of the interior spaces 
assigned for Gift Shop use. Storing inventory in this centralized, 
climate-controlled facility provides protection for the Gift Shop's 
valuable inventory in terms of physical security as well as improved 
shelf life for perishable and nonperishable items alike.
    The second Gift Shop warehouse is maintained within the Capitol 
complex. This facility serves as the point of distribution of 
merchandise to the Gift Shop store and the Capitol Gift Shop counter, 
both of which have limited storage space. This warehouse accommodates 
the Gift Shop's receiving, shipping, and engraving departments, as well 
as supplying the inventory sold through the administrative and special 
order office.

Sales Activities
    Sales recorded for fiscal year 2012 were $1,566,961. Cost of goods 
sold during this same period was $1,240,214, accounting for a gross 
profit on sales of $326,835.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of inventory purchased for 
resale. As of October 1, 2012, the balance in the revolving fund was 
$3,589,891.01. The inventory purchased for resale had an end of the 
year value of $2,960,336.

Additional Activity
            Environmental Fair
    The Gift Shop participated in the 2012 U.S. Senate Environmental 
and Energy Fairs sponsored by the Architect of the Capitol (AOC). 
Environmentally friendly products that were displayed included wooden 
flag and desk boxes, wooden pens, custom designed wrapping paper 
produced from recycled paper, aluminum water bottles, BPA-free water 
bottles, biodegradable travel mugs, and a travel mug produced from 100 
percent U.S. natural corn products.

Selected Accomplishments in Fiscal Year 2012
            Official Congressional Holiday Ornaments
    The Official 2012 Congressional Holiday Ornament takes its 
inspiration from two sources: the Senate Reception Room, one of the 
most elaborately decorated spaces in the Capitol; and Thomas Crawford's 
Statue of Freedom. Both were created during the 1850s extension of the 
Capitol.
    Sales of the 2012 holiday ornament exceeded 24,000 ornaments, of 
which more than 6,000 were personalized with engravings designed, 
proofed, and etched by Senate Gift Shop staff. This highly successful 
effort was made possible by the combined efforts of our administrative, 
engraving, and store staffs. Consistent with past practice, a donation 
of $40,000 to the Senate Employees Child Care Center was made based on 
these sales (see 2 U.S.C. 121d(3)).
            Salvaged Wood From Senate Chamber
    Using the laser engraver, wood that was salvaged from the Senate 
Chamber floor reconstruction was used to create personalized gifts for 
sale to Senators and their spouses and to staff. This program will be 
expanded in 2013 to offer additional items to the public with the 
remaining stock of wood.
            Webster Intranet Site
    The Web site continues to expand with the addition of new 
merchandise, photographed with assistance from the Senate Photo Studio. 
Product descriptions are written in-house.
    The Gift Shop contributes an article highlighting products and 
services to each issue of the Secretary's Unum newsletter. In turn, the 
Web site links to the electronic version of Unum, a practice that has 
increased traffic to the Web site and is responsible for an increase in 
the use of Gift Shop services by State offices.

Projects Recently Produced and New Initiatives for 2013
            Capitol Visitor Center and Other Venues
    The Senate Gift Shop continues to supply the CVC and the House Gift 
Shop with a wide variety of inventory product, offering service when 
needed and advice on purchase order, invoice, and operational 
processes. This year the Senate Gift Shop expanded on this service 
providing merchandise and promoting the art and architecture of the 
U.S. Capitol to other cultural institutions including the Marine Corps 
Museum and the Lake Erie Maritime Museum. This effort will be expanded 
upon in 2013.
            Congressional Plate Series
    The latest eight year, four-plate series of the 112th, 113th, 
114th, and 115th Congresses has been produced. The 112th and 113th 
plates are currently being offered for sale. The plates for each of the 
future Congresses will be made available during that respective 
congressional session. The designs depict art and architecture from 
four of the most historically significant rooms in the Capitol: the 
Senate Appropriations Room, Old Senate Chamber, Old Supreme Court 
Chamber, and President's Room.
            Laser Engraver
    The laser engraver has allowed the Senate Gift Shop to meet 
customer demand by expanding engraving services to include additional 
materials including wood, acrylic, glass, plastic, stone, marking 
metals, and anodized aluminum. Previously, crystal and glass items 
could not be personalized without being sent offsite at additional 
cost. In the last 6 months of fiscal year 2012 the laser engraver was 
used on over 100 special projects. These included creating signage for 
the vice presidential busts, a special project for the Curators' 
Office, and working regularly with the Conservation and Preservation 
Office.
            Special Orders
    The administrative office coordinated almost 1,500 special orders 
during fiscal year 2012 consisting of engraving projects and custom 
orders of merchandise including mugs, binders, cufflinks, etc., for a 
total of 42,649 units.

                           HISTORICAL OFFICE

    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The office staff advises Senators, officers, 
and committees on cost-effective disposition of their noncurrent office 
files and assists researchers in identifying Senate-related source 
materials. The historians keep extensive biographical, bibliographical, 
photographic, and archival information on the more than 1,900 former 
and current Senators. The staff edits for publication historically 
significant transcripts and minutes of selected Senate committees and 
party organizations, and conducts oral history interviews with Senators 
and key Senate staff. The photo historian maintains a collection of 
approximately 40,000 still pictures that includes photographs and 
illustrations of Senate committees and nearly all former Senators. The 
office staff develops and maintains all historical material on the 
Senate Web site.
Research, Writing, and Editorial Projects
            Sesquicentennial of the Civil War
    In connection with the ongoing commemoration of the 150th 
anniversary of the Civil War, the Historical Office posted monthly 
features relating to the Senate's Civil War experiences on Senate.gov, 
the Senate's Web site. The historians also worked with the Capitol 
Visitor Center's staff in selecting items for display related to the 
Civil War and Reconstruction. The associate historian has developed and 
led a special Capitol tour to highlight historic spaces, events, and 
personalities associated with the Senate's Civil War experience.
            Documentary Histories of the U.S. Senate
    The Historical Office continued work on an online documentary 
history series, which presents case studies and primary-source 
documentation for all contested Senate elections, censure and expulsion 
cases, impeachment trials, and major investigations. Intended for use 
by the Senate and the general public, these documentary histories have 
proved particularly valuable for teachers seeking to include primary-
source documents in their lesson plans. This project also allows the 
Historical Office to update case studies of past events and add recent 
case studies, eliminating the need for new print editions of past 
publications, reducing costs and paper use. Existing case studies in 
three categories (contested elections, censures, and expulsions) of 
this five-stage project have been posted on the Senate Web site, with 
new revisions and updated cases added periodically. Substantial 
progress has been made in the remaining two categories (impeachment 
trials and investigations). The incorporation of historic video footage 
further enhances the interest and usefulness of the site for teachers 
and students.
            States in the Senate
    The States in the Senate project has been completed and posted on 
Senate.gov. It highlights persons and events in each State's history 
that relate to the U.S. Senate, informing Senators, staff, and 
constituents. The site includes timelines and more than one thousand 
illustrative images for all 50 States, and will continue to be updated 
with new Senators, milestones, and additional images and documents. 
Design for the project resulted from a partnership with the Government 
Printing Office (GPO) and the Office of Web Technology.
            Administrative History of the Senate
    The associate historian continued preparing a historical account of 
the Senate's administrative evolution since 1789. This study traces the 
development of the offices of the Secretary of the Senate and Sergeant 
at Arms, considers 19th and 20th century reforms that resulted in 
reorganization and professionalization of Senate staff, and examines 
how the Senate's administrative structure has developed.
            Rules of the United States Senate, Since 1789
    In 1980, Senate parliamentarian emeritus Floyd M. Riddick, at the 
direction of the Senate Committee on Rules and Administration, prepared 
a publication containing the eight codes of rules that the Senate 
adopted between 1789 and 1979. In the 1990s, the Senate Historical 
Office staff developed a project to incorporate into the eight codes of 
rules an explanation of how and why the Senate's current rules evolved 
from earlier versions. The Senate's historian emeritus continues to 
work on this project, which will include the original text of all 
standing rules and, for the first time in one publication, all changes 
adopted between each codification.
            Biographical Directory of the U.S. Congress, 1774-Present
    The Historical Office regularly updates the Biographical Directory 
of the U.S. Congress, adding biographical entries for new Senators, 
making sure that entries for sitting Senators are current, and 
incorporating new bibliographical citations for former Senators. The 
Senate historians work in tandem with the historical staff of the House 
of Representatives to maintain accuracy and consistency in this joint 
Senate-House database and to promote this valuable resource among 
historians, teachers, students, and the public. The Senate archivist 
and her deputies expand and revise the ``Research Collections'' aspect 
of the database, taking advantage of new resources on archival 
collections.
            Party Conference Minutes, 1965-1977
    The Historical Office previously edited, indexed, and published the 
minutes of the Senate Democratic and Republican Conferences covering 
the years prior to 1964 and is currently preparing a similar volume for 
the Democratic Conference including its minutes from 1965 to 1977. 
Beginning in 1973, verbatim transcripts were prepared for each 
Conference meeting, considerably enlarging the documentation. This 
project has involved scanning and editing 2,869 pages of transcripts 
for 102 meetings of the Conference and inclusion of an index and 
explanatory annotations. With the approval of the Conference, the 
minutes will be published, and a similar editorial project will be 
proposed for the Republican Conference minutes for this time period. 
The office has scanned an additional 3,115 pages of transcripts for the 
73 conferences between 1977 and 1982 for future publication.
            Dirksen Senate Office Building Exhibits
    Senate historians have worked with the Senate Curator and the 
Senate Library staffs on new exhibits for the entranceway to G-50 in 
the Dirksen Building. This year's exhibits detailed the types of 
committee rooms in which the Senate has conducted hearings in the 
Capitol and the Senate office buildings, and the notable investigations 
that Senators have carried out. Quick Response (QR) codes are being 
added to the exhibit cases to enable visitors to use their smartphones 
to connect to additional information on the Senate's Web site.
            Oral History Program
    The historians conduct a series of oral history interviews to 
record personal recollections of Senate staff members reflecting 
various careers. Interviews were conducted with former Senator Edward 
E. (Ted) Kaufman, who previously served as chief of staff to Senator 
Joseph R. Biden Jr.; Linda Gustitus, staff director of the Oversight of 
Government Management Subcommittee of the Homeland Security and 
Governmental Affairs Committee; Julie Price, one of the Senate's first 
female pages; Joyce Rechtschaffen, staff director of the Committee on 
Homeland Security and Governmental Affairs; Rufus Edmisten, Watergate 
Committee deputy counsel; and Pam Gavin, former Superintendent of 
Public Records.
    The complete transcripts of 40 interviews conducted since 1976 have 
been posted on the Senate Web site. The Web site now features a 
different collection of oral history interview series each month that 
includes digital audio clips with the interview transcripts. The 
Historical Office has worked with the National Archives and Records 
Administration to digitize recordings of past oral history interviews, 
previously archived on magnetic tape, for preservation purposes. Each 
issue of Unum, the Secretary of the Senate's newsletter, also publishes 
a feature titled ``Senate Voices,'' which excerpts the oral histories, 
focusing on different subjects.

Member Services
            Educational Outreach
    The historian and associate historian delivered a series of 
``Senate Historical Minutes'' at the weekly Democratic and Republican 
Conference luncheons. These ``minutes'' highlighted significant events 
and personalities associated with the Senate's institutional 
development. Many of them are now included on the Senate Web site as 
``Historical Minute Essays.'' The historian and associate historian 
also provided special tours to members and their staff, highlighting 
the historic significance of specific rooms and spaces of the Capitol.
            Joint Congressional Committee on Inaugural Ceremonies
    Throughout 2012, Historical Office staff assisted the Joint 
Congressional Committee on Inaugural Ceremonies (JCCIC) with developing 
the inaugural theme, in addition to writing and editing content for the 
platform program, luncheon program, and luncheon portfolio. Historical 
Office staff researched precedents and compiled historical data on 
previous inaugurations in response to queries by the JCCIC, the media, 
and the public.
            New Senator Orientation
    Historians and archivists participated in the orientation program 
for new Senators by providing information about setting up office 
files, leading tours of the Senate Chamber and adjourning rooms, and 
offering a presentation on ``What Every New Senator Needs to Know about 
the Senate's History.''
            Members' Records Management and Disposition Assistance
    The Senate archivist met with all Senators' offices that closed at 
the end of the 112th Congress to provide guidance on archiving their 
records. This service included a ``closing an office'' notebook that 
featured a closing timeline and quick cards on topics ranging from 
selecting a repository and inventorying a collection, to how to donate 
a collection. Following these meetings, some of the Senators hired 
professional archivists to assist with preparing their records for 
archival preservation, while others assigned dedicated staff to perform 
this work. All of the offices worked more closely with their selected 
archival repository, which has become all the more critical when 
dealing with digital electronic records.
    Of the 14 Senators who left office, all but three had selected a 
repository. The exceptions had prepared their archives but planned to 
retain them personally for some time. Since these collections are 
largely in digital form, the archivists provided electronic records 
preservation guidance to follow until such time as the Senators are 
ready to donate the collections to a research institution.
    Senators are frequent users of portable communications devices, and 
their offices have employed social media (YouTube, Facebook, and 
Twitter being the most popular). The archivists have updated guidance 
for systems administrators on electronic records preservation and 
brought it to the attention of Senators' media staff, many of whom had 
not considered archiving this type of material before. Information 
gathered during the closing process and from feedback from systems 
administrators was used to fine tune the 113th Congress edition of 
Office Archives Toolkit, which has proved effective for both new and 
established offices. The Records Management Handbook's records 
disposition schedule also underwent extensive revision to incorporate 
new formats.
    If Senators fail to preserve their e-mail, they will leave large 
gaps in their manuscript collections. The archivists point out that if 
legislators do not preserve their e-mail, history will be written from 
the executive branch point of view. Senator Joseph Lieberman set a 
positive example by announcing that his e-mails would be part of his 
Senatorial archive and that he also would provide a copy of his e-mails 
pertaining to his work on the Homeland Security and Governmental 
Affairs Committee to the National Archives.
    The Senate archivists have hosted lunchtime discussions for 
archivists on committees and Senators' personal staffs on such themes 
as, ``What Shall We Keep?'' and ``Preserving the Senate's Legacy.'' A 
new presentation format was introduced by using selected panelists from 
the Senate and from repositories that hold Senators' records. The 
session on ``Preserving the Senate's Legacy'' was filmed and is 
available on the Secretary's Web site.
    The archivists' listserv has become the main means for updating 
staff with records management and archival guidance. The Senate 
archivists also work with the repositories receiving Senatorial 
collections to promote adequacy of documentation and proper 
inventorying of records prior to transfer. As a result, the majority of 
donated collections have been inventoried prior to shipment. Outreach 
to staff directors was enhanced through a special briefing for the 
bipartisan staff directors group on ``Five Things Every Staff Director 
Should Know about the Senator's Archives.'' The archivists hosted a 
seminar for University of Maryland graduate students on Senate 
documentation, noting that students from this class have provided a 
good source of archival student interns for both members and 
committees. The archivists also hosted a seminar for a visiting 
delegation of Chinese historians on the history and operations of the 
Senate's archives.
            Committee Records Management and Disposition Assistance
    Senate Rule XI (2) directs that ``The Secretary of the Senate shall 
obtain at the close of each Congress all the noncurrent records of the 
Senate and of each Senate committee and transfer them to the National 
Archives for preservation.'' During 2012, the Senate transferred 1,198 
cubic feet and 3.78 terabytes of electronic records to the Center for 
Legislative Archives. This represents a five-fold increase over the 
quantity of electronic records transferred in 2011, and a decrease of 
almost 50 percent in textual records. Senate archivists achieved this 
result by providing Senate committees with guidance for records 
management, preservation of electronic records, records appraisal and 
accessioning, and questions of access.
    Senate archivists concentrated on the backlog of committees' 
electronic records, which dated back 20 years. They encouraged 
committee staffs to adopt ``best practices'' for electronic records 
management and to sustain those practices moving forward. To attain the 
goal of 100 percent electronic records archiving by committees, the 
archivist held a series of individual outreach meetings with committee 
systems administrators, chief clerks, and archivists. The purpose was 
to convey their critical role in preserving electronic records, to 
ascertain the exact status of the committee's electronic archiving, to 
sharpen awareness of potential problem areas, and to offer assistance. 
The results of these meetings are being incorporated into committee 
archiving status reports that are available for committees to submit 
along with their budget submissions.
    Fifteen of the Senate's 17 standing committees have begun to 
preserve their electronic records. The archivist is also working with 
the Select Committee on Intelligence to prepare for archiving 
classified electronic records and with the Senate Legislative Counsel 
to archive that office's electronic records. Because electronic records 
archiving has been more consistent for those committees with archivists 
on their staff, the Senate archivist has encouraged committees to hire 
a professional archivist. Committee archivists are able to respond 
immediately when staff members depart and can provide contextual 
information for the accessioning process. Unfortunately, some of the 
committee archivist positions have been lost due to budget cuts. The 
Senate archivists are currently handling the preservation of electronic 
records for six committees until those committees can either create or 
reinstitute their own archival positions.
    Since Senate committees have increasingly used social media, Senate 
archivists have explored and proposed possible tools to archive social 
media communications. The archivists for the Senate Banking Committee 
and Homeland Security and Governmental Affairs Committee experimented 
with these suggestions. For the first time, in 2012 Senate committees 
archived Twitter, Facebook, and YouTube downloads--creating a totally 
new type of historical record.
    To stay abreast of technological changes, the Senate archivists 
have joined the Senate Technology Assessment Group (TAG), which meets 
monthly to discuss emerging technology issues and solutions. They are 
serving on a conference system working group that is looking at ways to 
facilitate discussion between House and Senate conference committees by 
contributing to the requirements discussion.
    Responsibility for archiving the records of the ``Super 
Committee,'' formally the Joint Select Committee on Deficit Reduction 
(est. Public Law 112-25, 125 Stat. 239 [2011]), was assigned to the 
Senate by the Joint Committee's rules. The archivist briefed the 
committee staff as the office was being set up in 2011. When the 
committee closed down in 2012, the archivists took possession of the 
records in order to arrange and describe them. The bulk of the 
collection was electronic. The committee's open records include Web 
source files, hearing videos, hearing transcripts, press files, letters 
from congressional committees, letters from individual members of 
Congress, letters from advocacy groups, letters from the general 
public, and Web forms filled out by the public for comment to the 
committee. Other records that will remain closed for 20 years include 
staff files, staff working sessions, and legislative files.
    The Senate archivists participated in a joint descriptive task 
force with the Center for Legislative Archives to map elements of the 
Senate's current accessioning system into the Center's system. The goal 
is to create an XML backend to existing forms and to test the forms for 
input into the Archivists Toolkit management software. Once the testing 
is completed, they expect to move accessioning to the Toolkit system, 
which will facilitate data description, tracking, and retrieval with 
more accuracy and speed than the current system.
    At the Society of American Archivists' annual meeting, the Senate 
archivist presented a briefing on the Senate electronic records program 
to members of the Congressional Papers Roundtable. Part of the 
presentation focused on preservation and use of constituent services 
system data and potential uses for research, aimed at archivists who 
preserve Senators' collections.
Advisory Committee on the Records of Congress
    This 11-member permanent committee was established in 1990 by 
Public Law 101-509 and meets semiannually to advise the Senate, the 
House of Representatives, and the archivist of the United States on the 
management and preservation of the records of Congress. By law, the 
committee is required to report to Congress every 6 years on the status 
of congressional and member archival records.
    The Senate archivist compiled and edited the Fifth Report of the 
Advisory Committee with help from the House of Representatives 
archivist and the director of the Center for Legislative Archives. The 
Fifth Report describes the seemingly insurmountable challenges posed by 
electronic records archiving and preservation in 2007 and the varieties 
of ways that archivists have responded to meet them. The Fifth Report 
also portrays the growth in research value of the Senate's archival 
collection, as the Senate regularly borrows back and uses a growing 
volume of its own archived records for current business. Looking ahead, 
the report recommends that committees hire professional archivists/
records managers to improve preservation of committee electronic 
records; that the Senate archivists build strong bridges with the 
Senate IT community; and that the leadership continues to promote 
archiving and serve as good examples.

Photographic Collections
    The Senate photo historian continued to ensure history-focused 
photographic coverage of the contemporary Senate by photographing 
Senate committees, collecting formal photo portraits of new and 
departing Senators, and capturing significant Senate events in 
cooperation with the Senate Photo Studio. She provided timely 
photographic reference service by phone and e-mail, while cataloging, 
digitizing, and expanding the office's 40,000-item image collection.
    The photo historian worked closely with several members of the 
Senate community to provide illustrations for their offices and Web 
sites. She assisted the Finance Committee in selecting and printing 
historic images that illustrate the evolution of the Capitol for their 
office in the Capitol. She guided the Republican Policy Committee in 
working with the Sergeant at Arms Printing, Graphics, and Direct Mail 
Department to have oversized images scanned for their Web site. She 
also worked extensively with the Congressional Research Service to 
select and print numerous images for their new Russell Building office. 
The photo historian also assisted a member of the U.S. Capitol Police 
Tactical Response Team to obtain images of the team throughout the last 
decade. She continued to assist Senate offices in creating collages of 
all the Senators who had previously served in that seat, and helped 
illustrate the history section of the Senate Web site on a monthly 
basis.
    Working closely with the public and the press, the photo historian 
has collaborated with the producer of a documentary on the 
Congressional Page School and assisted several authors in finding 
historic Senate images for their scholarly publications. In particular, 
the photo historian worked with the Joint Congressional Committee on 
Inaugural Ceremonies in the production of the 2013 inaugural luncheon 
portfolio and the platform program and for the JCCIC's inaugural Web 
site. When the exhibits outside of SD-G50 were updated, the photo 
historian selected images and worked with the Senate Library and the 
Office of Web Technology team to implement QR codes to accompany the 
exhibits.
    As the founder of the Capitol Hill Archivists and Records Managers 
group (CHARM), an informal group of Senate archivists, the photo 
historian planned tours and professional development events for 
committee and member archivists. She arranged for Senate archivists to 
visit the Robert C. Byrd Center for Legislative Studies in 
Shepherdstown, West Virginia. She also advocated for the use of the 
Senate's Recycle and Reuse Center by encouraging departing members' 
offices to bring unused supplies to the center for use by other 
offices.

Continuity of Operations (COOP) Planning
    As the Historical Office's continuity of operations action officer 
and emergency coordinator, the Senate photo historian continued to 
update the office's COOP plan in the LDRPS (Living Disaster Recovery 
Planning System). She has made back-ups of the office's electronic 
records for off-site storage. She trained summer interns in the 
office's emergency evacuation procedures. She regularly updated staff 
members' contact information in the ALERTS system, attended relevant 
emergency preparedness training, and led the office in shelter in place 
and internal relocation drills, providing after-action reports for each 
of these exercises.

Educational Outreach
    The Historical Office's correspondence with the general public has 
increasingly taken place through the Senate's Web site. The historians 
frequently update the Web site with timely reference and historical 
information, and each month select related material to be featured on 
the site. During the past year, the office responded to more than 1,500 
inquiries from the public, the news media, students, family 
genealogists, congressional staffers, and academics, through the public 
e-mail address, in addition to daily requests by phone from staff, 
media reporters, and the public. The diverse nature of their questions 
reflects varying levels of interest in Senate operations, institutional 
history, and former members.
    Working with the Office of Web Technology, the historians 
redesigned all of the principal pages of the Web site to better utilize 
the online environment to provide timely, accurate, and interesting 
historical material. Over the past year, monthly features have focused 
on Black History Month, Women's History Month, the Senate's historic 
chambers, the role of technology in Senate history, and historic 
elections, to name a few. New archival documents were featured, 
historic photographs were included, and audio and video clips further 
enhanced the historical pages. Underway are major revisions to the 
online oral history collection and the ``historical minutes'' to make 
these valuable features more interesting and easier to navigate.
    Staff presented talks, tours, and seminars on the general history 
of the Senate, Senate committees, women Senators, Senate floor 
leadership, relations between the press and the Senate, the history of 
Senate impeachment trials, and notable Senate investigations. On 
September 17, the historians presented a special Constitution Day 
program, ``Establishing the Constitution,'' for Senators, staff, and 
visiting students and teachers. The historians also participated in 
Senate staff seminars and conducted briefings for specially scheduled 
groups. The associate and assistant historians also met with various 
groups of teachers and students throughout the year.

Capitol Visitor Center
    The historians continued to provide information and guidance to the 
staff of the Capitol Visitor Center (CVC) related to the educational 
component of the exhibition gallery. They provided material and general 
editorial review for a new Web-based training program for staff and 
tour guides. On a regular basis, the historians provided training and 
informative talks for the Capitol Guide Service, the CVC visitors 
assistants, and other CVC staff. They made regular presentations on the 
history of the Senate in training seminars for Senate staff and interns 
and gave morning briefings to the Capitol Guide Service. They advised 
volunteers and staff giving exhibit talks in the CVC, contributed to 
the training of visitor assistants who guide visitors through the 
exhibition gallery, and advised and consulted with the CVC staff on its 
educational outreach programs. The historians routinely provided 
oversight for exhibit rotations, reviewed the selection of exhibit 
documents and artifacts, and participated in planning for future 
exhibit rotations.

                            HUMAN RESOURCES

    The Office of Human Resources was established in June 1995 by the 
Secretary as a result of the Congressional Accountability Act. The 
office focuses on developing and implementing human resources policies, 
procedures, and programs for the Office of the Secretary of the Senate 
that fulfill the legal requirements of the workplace and complement the 
organization's strategic goals and values.
    These responsibilities include: recruiting and staffing; providing 
guidance and advice to managers and staff; training; performance 
management and evaluation; job analysis and classification; 
compensation planning, design, and administration; leave 
administration; records management; maintaining the employee handbooks 
and manuals; internal grievance procedures; employee relations and 
services; and organizational planning and development.
    The Human Resources staff administers the following programs for 
the Secretary's employees: the public transportation subsidy program, 
student loan program, Family Medical Leave Act program, parking 
allocations, and the Secretary's intern program.

Recruitment and Retention of Staff
    Human Resources has the ongoing task of advertising new vacancies 
or positions, screening applicants, interviewing candidates, and 
assisting with all phases of the hiring process. Human Resources staff 
coordinate with the Sergeant at Arms (SAA) Human Resources Department 
to post all SAA and Secretary vacancies on the Senate intranet, 
Webster, so that the larger Senate community may access the posting 
from their own offices. In an effort to reach a larger and more diverse 
applicant pool, the department uses multiple posting forums to reach 
potential applicants for employment. During the past fiscal year, the 
Human Resources Office processed more than 1,740 applications for 
vacancies in the Secretary's Office, including review of applications, 
coordinating scheduling of candidates for interviews, assisting 
departments in the interview process, conducting reference checks, 
making starting salary recommendations, and finalizing new hire 
paperwork.
    In June 2012, the application process was moved entirely online, 
with the creation of an online application management system. The new 
system, designed by the Secretary's Office of Web Technology, has 
streamlined the application process, reducing paperwork and allowing 
both Human Resources and departmental supervisors to access applicant 
data on a secure network.

First Year Orientation and Integration
    All new hires receive orientation from Human Resources staff when 
they come on board. In an effort to help integrate new staff members 
into the Office of the Secretary, providing a full understanding of the 
role and mission of the office, Human Resources has also initiated a 
Year One Program, a series of monthly events, visits, and tours geared 
for staff in their first year of employment.

Training
    In conjunction with the Senate Chief Counsel for Employment, Office 
of Senate Security, and the Office of Education and Training, staff 
continues to develop, deliver, and help facilitate training for 
department directors and staff. Training topics include continuity of 
operations and emergency planning, sexual harassment, interviewing 
skills, Family Medical Leave Act administration, and an overview of the 
Congressional Accountability Act. Human Resources staff also works with 
different department directors on topics that can enhance harmony, 
productivity, and teamwork in the workplace.

Employee Performance Appraisal
    Human Resources has worked closely with the Executive Office and 
with department directors to evaluate and improve the appraisal 
process. In 2012, Secretary staff members were surveyed regarding the 
annual performance appraisal process, and a small working group of 
department directors analyzed survey results and revised the appraisal 
tool. In addition, a new initial employee performance appraisal was 
created for staff members completing their first 90 days of employment 
or 90 days in a new position.

Veterans Employment Opportunity Act of 1998
    In 2011, the rights and protections of the Veterans Employment 
Opportunity Act of 1998 (VEOA) became applicable to the Office of the 
Secretary of the Senate through the Congressional Accountability Act of 
1995. Eligible veterans now receive hiring preferences over nonveterans 
for most of the job openings in the Secretary's Office and can seek 
legal redress if they believe they have been denied their veterans' 
preference rights. Consistent with its new obligations under the VEOA, 
the Secretary's Office has identified over 204 VEOA preference-eligible 
positions within its organization, has instituted a process for proper 
application of the veterans' preference law, and in 2012 invited 
preference-eligible veterans to apply for 21 job openings.

Congressional Internship for Individuals With Intellectual Disabilities
    The Office of the Secretary of the Senate participated in the 
Congressional Internship Program for Individuals with Intellectual 
Disabilities. The internship program, which lasts 12 weeks, gives 
students with intellectual disabilities the same educational and 
enrichment opportunities typically afforded to congressional interns. 
Interns work one two-hour session each week. The interns work with 
their congressional offices, as well as with job coaches specifically 
trained to assist the students, to complete various office tasks as 
assigned.

Interns
    Human Resources manages the Secretary's internship program. From 
posting vacancies; conducting needs analyses; and communicating, 
screening, placing, and following up with all interns, the staff keeps 
a close connection with these program participants in an effort to make 
the internship most beneficial to them and the organization.

Operation Warfighter
    Human Resources participated in two recruiting events sponsored by 
the Department of Defense's Operation Warfighter program. The unpaid 
internship program is open to all wounded and ill service members 
assigned to a Military Treatment Facility, an Army Warrior Transition 
Unit, the USMC Wounded Warrior Regiment, the Air Force Wounded Warrior 
Program, or the Navy Safe Harbor Program. The program positively 
impacts the recuperation process and provides meaningful activity 
outside of the hospital environment that positively impacts wellness. 
While no interns were recruited through the program in fiscal year 
2012, Human Resources continues to be proactive in recruiting 
candidates.

Combined Federal Campaign
    The office has again taken an active role in the Combined Federal 
Campaign for the Senate community at-large. The office serves as 
codirectors of the program. The staff participates in kick-off 
meetings, identifies key workers in each office, and disseminates and 
collects necessary information and paperwork.

                          INFORMATION SYSTEMS

    The staff of the Department of Information Systems provides 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within the Sergeant at 
Arms (SAA), the Government Printing Office (GPO), and outside vendors 
on technical issues and joint projects. The department provides 
computer-related support for all local area network (LAN) servers 
within the Office of the Secretary of the Senate. Information Systems 
staff provide direct application support for all software installed 
workstations, initiate and guide new technologies, and implement next 
generation hardware and software solutions.

Mission Evaluation
    The primary mission of the Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for the office of Secretary of the Senate. Emphasis is 
placed on creating and transferring legislative records to outside 
departments and agencies, fulfilling Disbursing Office financial 
responsibilities to the member offices, and complying with office-
mandated and statutory obligations.

Fiscal Year 2012 Technology Initiative Summary
    The department technology initiatives concentrated in four specific 
areas:
  --Improvements in workflow process efficiency and security;
  --Deployment of improved hardware and software technologies;
  --Business continuity planning and disaster recovery improvements; 
        and
  --Network perimeter and end point security awareness.
            Improvements in Workflow Process Efficiency and Security
  --Improved security token hardware and software was installed in 2012 
        to ensure compliance with evolving security standards and to 
        minimize threats to the Senate network. Ongoing hardware 
        testing for multiple devices continued in fiscal year 2012. 
        Ongoing security awareness training continues to be mandatory 
        for all new Secretary staff.
  --Finalized implementation of Web-based legislative reporting in 
        2012. This project upgrade provides staff a process to run 
        Legislative Information System (LIS) reports via a Web browser 
        session and send legislative data to GPO. This application 
        improvement replaces all of the reporting features of the 
        existing clerk LIS application and eliminates the installation 
        of client software at each workstation. Additionally it 
        provides the Senate Library staff the research tools they need 
        when accommodating requests from the Senate community.
            Deployment of Improved Hardware and Software Technologies
  --Completed required upgrade of Secretary Exchange Server in January 
        2012 prior to the Active Directory and Messaging (ADMA) 
        migration project.
  --Completed a series of milestones of the Senate-wide ADMA project in 
        October 2012. This project completion is the most significant 
        network architectural change since 1997 involving the 
        enrollment of all workstations into centralized Senate 
        architecture. While the SAA maintains the readiness for 
        disaster recovery by performing backups of the ADMA centralized 
        domain controllers, message stores, and mobility servers, the 
        Information Systems staff continues to administer the server 
        resources for the department offices.
  --Completed hardware workstation upgrades and migrated software 
        applications for the Curator, Executive Office, Captioning 
        Services, Senate Security, Page School, Human Resources, 
        Interparliamentary Services, Web Technology, Legislative Clerk, 
        Bill Clerk, Official Reporters, and Parliamentarian offices. 
        Where possible, consolidated office applications eliminating 
        duplicative word processing software. This cost saving realizes 
        a $210 per seat license in cost savings for each workstation, 
        saving approximately $11,000.
  --Completed workstation hardware and software upgrades in Disbursing 
        Office. Office Enterprise ADMA migration is scheduled for 
        February 2013. Where possible, retired duplicative word 
        processing suite licenses, saving approximately $11,500 in 
        software procurement costs.
  --Completed 15 major LIS software upgrades and installed updated 
        application software in all legislative clerk offices, 
        alternate computing facility, and offsite home laptop 
        locations. Upgraded LIS applications to a more robust operating 
        system for workstations in the Bill Clerk, Legislative Clerk, 
        and Parliamentarian offices. Daily Digest, Enrolling Clerk, 
        Journal Clerk, and Executive Clerks office upgrades are pending 
        regression testing of a new operating system.
  --Evaluated multiple portable teleconferencing solutions to be used 
        by the Executive Office staff. Successfully tested video 
        teleconferencing (VTC) solution between laptops, workstations, 
        and iPad devices.
  --Implemented a low cost computing terminal emulation hardware 
        solution for the Office of Public Records, the Office of 
        Printing and Document Services, and the summer internship 
        program. This evolving hardware technology is a network 
        appliance that replaces the standard office personal computer 
        with a low cost hardware device. Multiple appliances can then 
        be networked to a single host to run software applications. A 
        cost saving is realized not only in foregoing the purchase of 
        additional personal computers, but also with the reduction of 
        ongoing support for the additional system patches and updates.
  --Implemented a dedicated virtual server solution for the Curator's 
        Office, and migrated the office collection database to an 
        improved server operating system. Information Systems staff 
        authored a ``Senate Desk'' application and in partnership with 
        Web Technology staff provided a Web-based application for the 
        Curator's Office staff to manage the ongoing Senate Desk 
        project. Added a virtual workstation instance for Curator staff 
        to access the Senate SAA Asset Management application. This is 
        a portable solution and can easily be migrated to another 
        location if necessary.
  --Updated the Executive Office, Curator, Senate Library, 
        Parliamentarian, Human Resources, and Stationery Room with 
        multi-function printer devices. This consolidated the office 
        print, fax, and scan functions into a single network device, 
        reducing energy usage.
            Business Continuity Planning and Disaster Recovery 
                    Improvements
  --Replaced all laptop hardware for the Disbursing Office and migrated 
        application software to a more robust operating system 
        software.
  --Upgraded to an improved mobile hot spot hardware solution when 
        working outside of the office environment.
  --Added a dedicated workstation outside of the Capitol Visitor Center 
        (CVC) for Captioning Services staff. If a CVC evacuation 
        occurs, Captioning staff now has this dedicated resource to 
        continue to provide data to the Senate Recording Studio.
  --In partnership with SAA Network Engineering, successfully completed 
        offsite continuity of operations (COOP) testing from multiple 
        offsite locations. Information Systems staff continue to 
        provide IT-related support for office staff implementing COOP 
        and continuity of Government business plans.
  --After completion of the Enrolling Clerk virtual host project in 
        2011, Information Systems staff partnered with GPO technical 
        staff to provide two functional offsite hardware printers for 
        use during a COOP event. This functionality provides the 
        Enrolling Clerk staff the ability to print multiple types of 
        parchment style documents for delivery to the White House in 
        the event of an office closure or relocation. Successfully 
        tested offsite operations in 2012.
  --Retired Cap Net network connections in the Hart building. GPO-
        assigned personnel are now connected to a dedicated virtual lan 
        (VLAN) in the Office of Printing and Document Services.
  --Updated and migrated the member accountability client application 
        to function with the SAA Windows SQL 2008 Server platform. 
        Configured four virtual hosts, one reserved specifically for 
        training purposes, and one virtual ``always on'' instance that 
        resides at the Primary computer facility (PCF) datacenter. 
        Information Systems staff continue to make this virtual 
        solution available for the Secretary of the Majority and the 
        Secretary of the Minority offices.
  --After the Enterprise Migration in October 2012, technical staff 
        improved the Web-based protocol ``quick links'' available on 
        the Senate Web portal appliance. This process allows for 
        Secretary staff to more easily access Senate resources using a 
        standard Web browser. Presently 70 percent of the Secretary 
        staff has some method of secure remote access to Senate network 
        resources.
  --Staff continues to manage the Alerts notification database for all 
        Secretary employees. Database information is verified nightly 
        to ensure e-mail, voice, and BlackBerry personal identification 
        number information is valid and will function during an 
        emergency.
  --After implementation of a centralized software deployment server in 
        2011, Information Systems staff continues to maintain the 
        inventory of all applications for 300 workstation 
        installations. The office now has the ability to review in real 
        time which systems require application updates, and can deploy 
        security patches without interruption to the business owner.
            Network Perimeter and End Point Security Awareness
  --In partnership the SAA Security Operations Center, conducted 
        periodic testing for security vulnerabilities and compared 
        these measurements with the department patch deployment server. 
        Focused observations on spear phishing attempts from outside 
        messaging sources.
  --IT staff continue to monitor e-mail spam filtering applications. E-
        mail messages delivered to staff e-mail accounts no longer 
        employed by the Secretary's Office are removed from the 
        messaging server.
  --In 2012, keeping hardware and software updated continued to be a 
        challenge. IT staff continue to maintain the inventory of all 
        applications for 300 workstation installations.
  --The office has the ability to review in real time which systems 
        require application updates, and can deploy security patches 
        without interruption to the business owner. In 2012, a single 
        offsite laptop required 419 Microsoft Updates, 10 Java security 
        updates, Adobe Acrobat provided (3) major releases, and Mozilla 
        Firefox introduced 43 releases. (Version upgrades started at 
        3.6 and ended with 17.02). Adobe Flash required 30 updated 
        patches in fiscal year 2012 for an average total of 505 updates 
        per workstation and/or laptop.
  --Retired all previous versions of remote access network software for 
        laptops in favor of a more secure virtual private network 
        client. Updated all laptops located offsite and equipment 
        assigned for home use.
  --Upgraded network connections in the new Emergency Operations Center 
        location. Information Systems staff continue to provide IT-
        related support for all EOC and Briefing Center locations.
  --Upgraded to improved version of BlackBerry security scanning 
        software. IT staff continue to provide this scanning service 
        for staff prior to travel outside of the United States.
Ongoing and Future Projects in 2013
  --As server and laptop hardware nears the end of the maintenance life 
        cycle, replace older hardware servers and workstations. Major 
        complex renovations will be required in the Senate Library, 
        Stationery Room, Senate Gift Shop, and Human Resources 
        departments.
  --Upgrade virus protection software to next generation software on 
        all workstations and servers.
  --Upgrade and migrate existing human resources information systems 
        database to new architecture. Continue to provide a secure Web-
        based access method for staff to update personnel records.
  --Upgrade BlackBerry devices with improved model for existing BB 
        users.

                      INTERPARLIAMENTARY SERVICES

    The Office of Interparliamentary Services (IPS) is responsible for 
administrative, financial, and protocol functions for all 
interparliamentary conferences in which the Senate participates by 
statute; for interparliamentary conferences in which the Senate 
participates on an ad hoc basis; and for special delegations authorized 
by the majority and/or minority leaders. The office also provides 
appropriate assistance as requested by other Senate delegations.
    The statutory interparliamentary conferences are:
  --NATO Parliamentary Assembly
  --Mexico-United States Interparliamentary Group
  --Canada-United States Interparliamentary Group
  --British-American Interparliamentary Group
  --United States-Russia Interparliamentary Group
  --United States-China Interparliamentary Group
  --United States-Japan Interparliamentary Group
    In 2012, IPS staff were responsible for organizing the following 
interparliamentary conferences: the U.S.-Japan Interparliamentary Group 
and the Canada-U.S. Interparliamentary Group.
    As in previous years, all foreign travel authorized by the majority 
and minority leaders is arranged by the IPS staff. In addition to 
delegation trips, IPS provided assistance to individual Senators and 
staff traveling overseas. Senators and staff authorized by committees 
for foreign travel continue to call upon this office for assistance 
with passports, travel arrangements, and reporting requirements.
    On behalf of the Senate majority and minority leaders, the staff 
arranges official receptions for heads of state, heads of government, 
heads of parliaments, and parliamentary delegations. IPS maintains 
records of expenditures on behalf of foreign dignitaries as required 
under the authority of Public Law 100-71.
    IPS receives and prepares for printing the quarterly consolidated 
financial reports for foreign travel from all committees in the Senate. 
In addition to preparing the quarterly reports for the majority leader 
and the minority leader, IPS staff also assist staff members of 
Senators and committees in filling out the required reports.
    IPS organizes visits for official foreign visitors and assists them 
in setting up meetings with leadership offices. IPS maintains regular 
contact with the Department of Defense, the Department of State, and 
foreign Embassy officials. The staff works closely with other offices 
of the Secretary of the Senate and the Sergeant at Arms in arranging 
programs for foreign visitors. In addition, IPS is consulted by 
individual Senate offices on a broad range of protocol questions. 
Occasional questions come from State officials regarding congressional 
protocol.

Continuity of Operations (COOP) Planning
    IPS regularly reviews its COOP plan, updates materials kept off 
site, and evaluates evacuation procedures and remote site working 
procedures.
              legislative information system (lis) project
    The Legislative Information System (LIS) is a mandated system 
(section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123e) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act also established a program (2 U.S.C. 181) for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
a Senate-wide implementation and transition to a standard system for 
the authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project.

Background: LIS Augmentation Project (LISAP)
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program, and in December 2000, the 
Senate Committee on Rules and Administration and the House Committee on 
House Administration jointly accepted the Extensible Markup Language 
(XML) as the primary data standard to be used for the exchange of 
legislative documents and information. Following the implementation of 
the Legislative Information System (LIS) in January 2000, the LIS 
Project Office shifted its focus to the data standards program and 
established the LIS Augmentation Project (LISAP). The overarching goal 
of the LISAP is to provide a Senate-wide implementation and transition 
to XML for the authoring and exchange of legislative documents.
    The current focus for the LISAP is the continued development and 
implementation of the XML authoring system for legislative documents 
produced by the Office of the Senate Legislative Counsel (SLC); the 
Senate Enrolling Clerk; the Senate Committee on Appropriations; the 
Senate Committee on Commerce, Science, and Transportation; and the 
Government Printing Office (GPO). The XML authoring application, 
Legislative Editing in XML Application (LEXA), inserts tags during 
drafting that provide more information about the document and can be 
used for printing, searching, displaying, or repurposing parts or all 
of a document. The XML tags also facilitate automating many functions 
that provide a more efficient and consistent document authoring 
process. The LIS Project Office has worked very closely with the SLC, 
the Enrolling Clerk, and the editorial and printing staff of the 
Committee on Appropriations to create an application that meets the 
needs for legislative drafting.

LISAP: 2012
    The LIS Project Office continued to provide support to the SLC; the 
Committee on Appropriations; the Committee on Commerce, Science, and 
Transportation; and the Senate Enrolling Clerk in their use of LEXA for 
drafting, engrossing, and enrolling. With the addition of the Commerce 
Committee drafters, almost all measures in the second session of the 
112th Congress were produced in XML. In addition, GPO uses LEXA to 
complete measures for printing. Several new features and fixes were 
added in LEXA releases to improve the drafting process. LIS staff 
trained new drafters and interns in the use of LEXA.
    Two new features added to LEXA in the past year included a process 
to split a large document into multiple documents by title or division 
and a process to combine multiple documents into one. Other changes to 
the application required upgrading all users to the .Net4 framework. 
Xmetal 7.0 was released in 2012, and the LIS Project Office began a 
project to upgrade to that version. The technology upgrade projects 
require extensive testing of LEXA on multiple operating systems.
    The LIS Project Office is working with staff from GPO and the 
Legislative Computer Systems (LCS) in the Office of the House Clerk to 
create and print committee reports in XML. This office is working on 
developing a LEXA committee report application for the Commerce 
Committee which already uses LEXA to draft bills and amendments. Two 
other group projects with GPO and LCS include participants from the Law 
Revision Counsel and the Senate and House Legislative Counsels. The 
first project with the Law Revision Counsel will result in applications 
to convert and maintain the U.S. Code in an XML format. The second 
project with the Legislative Counsels continues work toward the editing 
and printing of the compilations of existing law in their XML format.

Continuity of Operations (COOP) Planning
    Several procedures have been implemented to provide for continuity 
of operations (COOP). All source code and data files are backed up 
nightly to a drive in the office, and each LIS Project Office staff 
member carries an encrypted flash drive containing the office COOP 
plan, documentation, and the most recent version of LEXA. All the 
software and documentation required to create the development 
environment and a LEXA end user environment are available in duplicate 
copies of the LIS Project Office fly-away kit. The COOP plan and the 
fly-away kits are updated frequently, and one fly-away kit is kept at 
an off-site location. Regular testing of the ability to work remotely 
is conducted via Senate laptops and personal computers to ensure that 
application development and user support can continue if access to the 
office is not possible.

LISAP: 2013
    The LIS Project Office will continue to work with and support all 
the Senate offices now using LEXA and will continue to work with the 
House, GPO, and the Library of Congress on projects and issues that 
impact the legislative process and data standards for exchange.
    The Committee on Commerce will begin producing committee reports in 
XML using LEXA, and all LEXA users will be upgraded to Xmetal 7.0. 
Plans are underway to modernize and improve the underlying programs and 
processes for the LEXA application to take advantage of newer and 
faster technologies.

                                LIBRARY

    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The Library's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; an extensive book collection on American 
politics, history, and biography; a popular collection of audiobooks; 
and a wide array of online resources. The Library also authors content 
for three Web sites--LIS.gov, Senate.gov, and Webster, the Senate's 
intranet.
    New Senate Information Services (SIS) program service contracts 
were extended in fiscal year 2013 that secured agreements with existing 
program vendors to index and display selected news feeds in Senate 
NewsWatch. The Library focused its efforts on adding 114 newly 
available local news titles to the site; improving global search 
features for finding and tracking news about Senators, States, and 
committees; and using new technology to create, manage, and deliver 
custom newsfeeds for Senate NewsWatch. March 2012 marked the launch of 
a new, custom-designed LexisNexis interface tailored to meet the 
information needs of Senate users.
    The Library continues to meet the Senate's increasing demand for 
information through the creation of new Web-based content, judicious 
selection and investment in online resources, expanded outreach and 
training opportunities, and use of technology to support alternative 
means for information delivery.

Notable Achievements
  --An update to the Senate Cloture Rule: Limitation of Debate in the 
        Senate of the United States was published in 2012 (S. Prt. 112-
        31) in collaboration with the Senate Committee on Rules and 
        Administration and the Congressional Research Service. The 
        Library created the historical data table on cloture motions 
        and their disposition.
  --Outreach and online research training efforts expanded to include 
        three new librarian-taught classes, two new vendor-taught 
        classes, and seven classes offered in a Webinar format for the 
        first time. A total of 1,433 staff members attended 291 
        classes, tours, and Webinars; a 40 percent increase in the 
        number of staff trained in 2011 and a 278 percent increase over 
        the number of trainees in 2010.
  --The Library catalog now provides Senate staff with desktop access 
        to over 42,499 full-text electronic documents and online 
        resources, an increase of 7 percent over 2011. A five-year 
        project to review and catalog items from a large donation of 
        older congressional hearings and prints was completed, 
        resulting in the addition of 2,168 out-of-print items to the 
        Library's collection.
  --A digital archive of Senate Executive Calendars from 1996 to the 
        present was made publicly available on Senate.gov through the 
        collaborative efforts of the Library, the Executive Clerk, the 
        Office of Web Technology, and the LIS Project Office.
  --At the request of the Committee on Rules and Administration, two 
        informational displays were installed outside SD-G50: Senate 
        Committee Hearing Rooms Through the Years and What Issues Has 
        the United States Senate Investigated?. The displays were 
        developed through the joint efforts of the Library, the Office 
        of Senate Curator, the Historical Office, and the Office of 
        Conservation and Preservation.
  --Three well-received hallway display cases were completed this year: 
        Patriots in Petticoats: Women in the Struggle for America's 
        Independence, Historical Presidential Campaigns and Elections, 
        and Inauguration Day Events. An online exhibit entitled The 
        Long Walk Down Pennsylvania Avenue: Senators Who Ran for 
        President (1800-2008) was featured on Webster in October.

Senate Library Inquiries, Online Book Requests, and Patron Accounts
    Reference librarians continue to assist Senate staff with 
challenging research in areas including legal and public records, 
legislative histories, and news and journal articles, and in finding 
answers to difficult and complex requests. This year librarians 
answered 24,994 walk-in, telephone, and e-mail requests from Senate 
staff, demonstrating a continued demand for high-quality Library 
resources and services.
    Senate staff continued to demonstrate an increasing preference for 
Web-accessible resources. Use of Library-created resources on Webster 
saw 165,403 page visits in 2012. The Library's popular Virtual 
Reference Desk on Senate.gov received 1,594,722 page visits while 
appropriations and active legislation pages accounted for an additional 
156,032 page visits from public users in 2012.
    The Senate Library's FrontPage electronic resources portal received 
57,695 page visits in its second year. No major changes were made to 
the FrontPage portal in 2012, although the site's links were updated to 
reflect changes in program and vendor offerings. Senate staff turned to 
SIS program support 86 times for help with accounts, resource access, 
and custom news profile requests. Program staff logged an additional 
152 requests with program vendors related to program site maintenance 
and support during 2012.
    The Library received 920 online book requests in 2012, a 13 percent 
increase over the previous year. The increase can be attributed to the 
online book request form on the Library catalog, as well as to the 
promotion of online topical bibliographies that highlight the Library's 
collections. Loans of current magazines and newspapers increased 81 
percent, new book loans were up 24 percent, and titles featured in 
monthly online bibliographies on Webster and reference room displays 
saw a 24 percent increase in loan activity in 2012.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Seventy-eight percent of the Library's patrons are Senate office 
and committee staff members, while the remaining 22 percent of users 
include support office staff, members of the accredited press, and 
Government agencies.
    A total of 810 new patrons were registered for borrowing accounts 
in 2012, a decrease of 4 percent over the number of new staff 
registered in 2011. While fewer interns were registered for Library 
accounts, new accounts for permanent staff increased by 10 percent in 
2012 from the previous year.
    Other activities for 2012 included setting up 360 new computer 
accounts for patron workstations, a 22 percent decrease from 2011, as 
well as providing an increased level of document printing and delivery 
services:

              INFORMATION SERVICE SUPPORT ACTIVITIES, 2012
------------------------------------------------------------------------
                          Category                              Total
------------------------------------------------------------------------
 Circulation:
    Document Deliveries....................................        4,441
    Item Loans.............................................        4,207
Pages Printed:
    Microform Pages Printed................................          988
    Photocopies............................................       56,415
                                                            ------------
      Document Delivery Total..............................       66,051
------------------------------------------------------------------------

Senate Library Content Creation
            Senate.gov Web Site Content
    The Virtual Reference Desk's How To . . .  finding aid located at 
http://www.senate.gov/pagelayout/reference/
b_three_sections_with_teasers/howto.htm and all 13 linked topical guide 
pages were completely revised and updated to provide more accurate and 
timely information to the public on Senate.gov. All together, these 
pages received 109,423 page visits during 2012.
            Senate Executive Calendars
    A digital archive of Senate Executive Calendars from 1996 to the 
present was made available on Senate.gov and Webster as the result of a 
collaborative project involving the Library, the Executive Clerk, the 
Office of Web Technology, and the LIS Project Office. Library staff 
also completed the retrospective digitization of calendars for the 
years 1943-1948, 1961-1962, and 1965-1971, using volumes lent by the 
Library of Congress; these files will be made available as part of the 
online public archive. Work will also continue on the digitization of 
the remaining Executive Calendars in the Library's collection.
            Senate Information Services Program Content
    Senate NewsWatch, the Senate's custom news portal, was rebuilt and 
relaunched in January on a new platform with improved features for 
browsing and searching news about Senators, committees, and topics. 
During 2012, Senate users viewed 212,587 articles on Senate NewsWatch, 
a 28 percent increase over 2011. The rise in Senate NewsWatch's 
popularity can be attributed in part to changes in site design and 
navigation incorporating user feedback and in part to mid-year 
implementation of agreements to permit enhanced full-text indexing and 
searching of 114 news sources from two program vendors. Additional 
improvements to organization and presentation of the Capitol Hill News 
and Daybooks pages were rolled out in January and March, respectively.
    InfoViewer, the Senate's Web-based news tracking and news clip 
publishing tool, was updated in January with the addition of a 
collection of feeds based on Library-created and maintained searches 
for real-time news stories about Senators and committees called 
``Company Profiles.'' Using ``Company Profiles'' in InfoViewer, Senate 
staff can easily browse and create alerts from the automatically 
updating feeds of new stories on topics of interest without the need to 
master the process required to create them. In addition, the 
presentation of all available news sources was restructured and 
streamlined for users of Senate NewsWatch and InfoViewer, thereby 
making it easier to locate and use specific news sources. Statistics on 
the use of the InfoViewer tool became available for the first time in 
July 2012. Senate InfoViewer users viewed 60,690 news articles during 
the period from July to December 2012.
            Senate Library Web Site Content
    A Library team revised and updated the ``Online Resources'' section 
of the Collections pages on the Library's Web site to incorporate 
changes to Senate Information Services program resources available on 
FrontPage. In addition, the Library's How to . . . Access Floor Video 
page was reorganized to incorporate the new HouseLive floor proceedings 
Webcasting site as well as the Senate's floor Webcasting resources. 
Respectively, these pages received 503 and 433 page visits from Senate 
staff during 2012.
            Senate Knowledge Base
    The Senate Knowledge Base is an institutional repository of data to 
support the Webster site taxonomy project and Webster search 
enhancement. To date, 1,248 document records, 2,098 term records, and 
492 organization records in the Senate Knowledge Base are supporting 
the Webster taxonomy and search projects. The 7 percent increase in the 
number of terms and 11 percent increase in the number of documents 
created this year is a result of continuing maintenance of the database 
to support the online Senate Services Directory (Red Book); the 
``Legislative,'' ``News and Research,'' and ``About the Senate'' tabs 
on Webster; as well as daily reporting for keymatches.
            Webster Search Enhancement
    Librarians improve Webster search results by analyzing popular 
search terms and matching them with topically relevant pages or search 
engine keymatches, which are managed through the Senate knowledge base. 
This improves the chances a searcher will find what he or she is 
looking for on Webster. During 2012, 121 keymatches were established, 
35 were edited, and 20 were deleted to update Web page links.

Instruction and Outreach Programs
    In 2012, 1,433 Senate staff attended the 291 research training 
classes, Library tours, and Webinars offered by the Senate Library; a 
40 percent increase in the number of staff attending Library trainings 
in 2011 and a 278 percent increase over the number of trainees in 2010. 
Webinars proved especially popular this year, reaching 461 Senate 
staff, including many in State offices, in 80 class sessions. All 
training-related pages on the Library's site received 22,632 visits 
from Senate staff.
    Senate librarians teach a variety of classes for Senate staff. In 
2012, 96 class sessions were offered to a total of 576 attendees. The 
increase in attendance can be attributed in part to three new 
librarian-taught courses that were introduced in 2012: Congressional 
Record 101; Beyond Web News; and In-Depth News Tracking and News Clip 
Publishing with InfoViewer. The Congressional Record 101 class began in 
May and drew a total of 51 students while both news classes were 
introduced in January and drew a total of 45 and 29 students 
respectively. Librarians also offered 84 tours of the Library to 622 
staff and other interested groups including the Senate Page School and 
library school students.
    During 2012, online research training opportunities expanded by 19 
percent to include 111 classes and Webinars taught by all Senate 
Information Services (SIS) program vendor trainers to a total of 295 
Senate staff members. Full SIS vendor participation in the Library's 
online research training program was achieved with the addition of 
monthly trainings from ProQuest and Leadership Directories this year. 
These new offerings and Webinars from Congressional Quarterly, 
Leadership Directories, National Journal, and ProQuest along with 
consistent promotional efforts have resulted in a 50 percent increase 
in participation over 2011 levels.
    Using the Legislative Information System (LIS) was taught to 15 
participants as part of the Legislative Survival Guide training series 
in collaboration with the Joint Office of Education and Training in 
March 2012.
    In November, 15 new employees of the Office of the Secretary of the 
Senate were introduced to the services of the Senate Library as part of 
the new ``Year One'' program designed to familiarize new staff with the 
different offices under the jurisdiction of the Secretary and sponsored 
by the Secretary's Human Resources Department.
    A total of 32 announcements for Library services were run on 
Webster and 1,110 promotional flyers were distributed to Senate staff 
during 2012. Efforts to reach Senate staff more directly through the 
use of small graphics with links to featured resources in staff e-mail 
signatures and by engaging mobile device users with quick response (QR) 
codes in promotions in posters, and flyers resulted in 20,790 
clickthroughs on e-mail signatures and 24 page views using mobile 
devices. The QR codes and e-mail signatures change monthly to 
coordinate with the Library's overall promotional program.
    Monthly book displays and online bibliographies highlight the 
Library's collections and stimulate interest in reading new titles. All 
online bibliographies saw 14,999 page visits from Senate staff in 2012. 
New bibliographies created in 2012 include: Patriots in Petticoats: 
Women in the Struggle for America's Independence; Senate 
Investigations; The Golden Era in the Senate; Watergate; Constitution 
Day; Historical Campaigns and Elections; and War Stories.

Collection Development
            Audiobooks
    The Library acquired 19 new audiobook titles in 2012, bringing the 
total number to 186 titles. Designed to assist users with diverse 
needs, including those who may be visually challenged, as well as to 
draw patrons into the Library, the program remains popular with patrons 
whose 887 loans were equivalent to circulating each item in the 
collection almost five times over. The online bibliography of 
audiobooks on Webster received 3,760 visits in 2012 and contains links 
to the catalog and the online book request form.
            A-Z Serial Title List
    There were 3,461 searches and 1,956 documents viewed using the 
Serials Solution A-Z list, 65 percent of which were the result of users 
finding and using SIS program content from LexisNexis, ProQuest, and 
Westlaw. Content was updated to include changes to the ProQuest 
databases that resulted from replacement of the vendor's search 
platform.
            Government Documents
    As a participant in the Government Printing Office's (GPO) Federal 
Depository Library Program, the Library receives selected categories of 
legislative, executive, and judicial branch publications. The Library 
received 8,534 Government publications in 2012. In response to the 
trend of issuing Government documents in electronic format, 3,205 links 
were added to the Library catalog, bringing the total number to 42,499, 
an increase of 7 percent over last year. The links provide Senate staff 
desktop access to the full text of each document.

                           ACQUISITIONS, 2012
------------------------------------------------------------------------
                          Category                              Total
------------------------------------------------------------------------
Congressional Documents....................................        6,920
Executive and Judicial Branch Publications.................        1,614
Books (Including Audiobooks and E-Books)...................          689
Electronic Links...........................................        3,205
                                                            ------------
      Total Acquisitions...................................       12,428
------------------------------------------------------------------------

Legislative Validation
    The Library's Legislative Validation Clerk verifies and edits the 
accuracy and consistency of data and legislative information published 
by Secretary of the Senate staff in the Legislative Information System 
(LIS), the document management system (DMS), the Congressional Record, 
Senate.gov, and Webster. The clerk's work also requires the 
verification of selected Congressional Record Index entries (print and 
electronic) and includes comparing electronic entries made by 
legislative staff or data entry clerks from various agencies with the 
printed Congressional Record Index and notifying the offices of 
discrepancies.
    Between January and December 2012, the Legislative Validation Clerk 
submitted 196 corrections out of hundreds of thousands of verified 
legislative actions that took place during the year.

             LEGISLATIVE VALIDATION CLERK CORRECTIONS, 2012
------------------------------------------------------------------------
                                                                Number
                           Office                             Submitted
------------------------------------------------------------------------
Bill, Enrolling, Executive, Journal, and Legislative Clerks           65
Reporters of Debates, Morning Business Editor, and Daily              87
 Digest....................................................
GPO and Library of Congress--LIS...........................           44
                                                            ------------
      Total Corrections....................................          196
------------------------------------------------------------------------

Cataloging
    The Library's productive cataloging staff draws on years of 
experience to produce and maintain a catalog of more than 221,000 
bibliographic items. During 2012, they added 3,480 new titles to the 
catalog and performed 25,389 record maintenance and enhancement 
activities, including correcting subjects and names that have become 
obsolete and retrospectively adding links to full-text content and book 
jacket images to existing records.
    Catalogers' time and skills at categorizing and describing content 
are increasingly in demand for taxonomy-related projects designed to 
enhance Webster. These include creating the records that drive 
functionality in the online Red Book Senate Services Directory, 
analyzing logs of unsuccessful searches to create keymatches that 
target Webster search results, and developing a topical framework to 
support the development of news alerts, improve content organization, 
and enhance the effectiveness of searches in Senate NewsWatch and the 
InfoViewer client.
    Catalogers created 448 bibliographic records for Senate hearings 
not yet printed using information in the Congressional Record Daily 
Digest and the combined hearings schedule on Webster. This includes 
field hearings that are not listed in the Daily Digest. These records 
provide preliminary access for Senate staff and remain in the catalog 
until the printed hearing is received and cataloged.
    A 5-year project to review and catalog items from a large donation 
of older congressional hearings and prints was completed, resulting in 
the addition of 2,168 out-of-print items to the Library's collection.
    The catalog is updated nightly to ensure that Senate staff will 
retrieve accurate and current information on Library holdings. The 
addition of 1,002 book jacket images in 2012, an increase of 35 
percent, enhanced the catalog's visual appeal. The Library catalog was 
used by 3,609 Senate staff accounting for 5,785 visits in 2012.

Library Automation
    The Library implemented a new Web-based tool in 2012, developed by 
the Association of Southeast Research Libraries (ASERL) and hosted by 
the University of Florida, called the ASERL Documents Disposition 
Database. This tool is offered to all Federal Depository Libraries free 
of charge. This secure shared database facilitates the offering of 
duplicates and other unwanted materials to libraries in the Federal 
Depository Library Program (FDLP) and permits the uploading of ``want 
lists'' of Government documents needed to fill gaps in the Library's 
collection. An automated matching algorithm notifies the Library if 
materials in another Library's offer meet our needs. This tool has 
improved response time and productivity by reducing the need for time-
consuming manual review of offers lists.
    The Library replaced the universal power supply (UPS) that supports 
the catalog server in July; upgraded the software used to create 
bibliographic records for the catalog on Technical Services staff 
computers in September; and replaced the digital sender, fax machine, 
and color printer with a single multi-function color printer in 
October.
    Library staff completed training in authoring custom reports using 
report writer authoring software for the integrated Library system. As 
a result, an existing report was successfully modified to streamline 
the export of congressional hearing universal resource locator (URL) 
data from the catalog database and reduce the staff time needed to 
perform this weekly task.

Preservation, Binding, and Collection Maintenance
    Technical Services staff continued to participate in book repair 
training sessions led by the director of the Office of Conservation and 
Preservation. Trainees repaired 320 volumes, an increase of 14 percent 
from 2011, making significant progress in the preservation of the 
Library's bound book collection. A multi-year project to repair volumes 
in the Congressional Record reference collection was completed and a 
preservation survey was conducted to identify volumes in the 
Congressional Record circulating collection in need of repair.
    The Library continues to preserve and protect rare and fragile 
print materials in its collections using commercial binding services 
procured through GPO. In 2012, a total of 304 volumes were sent out for 
binding, with excellent results.

Budget
    Budget negotiations with database vendors resulted in flat or 
reduced pricing for online research services and price discounts for 
print edition standing orders and multi-year subscriptions. Budget 
savings from fixed-price contracts for the Library's 2012 online 
research services, negotiated print edition price discounts and cuts in 
standing orders, and multi-year subscription discounts totaled $8,592. 
After 15 years of budget monitoring, savings total $163,605. This 
continual review of purchases eliminates materials not meeting the 
Senate's current information needs. This oversight is also critical in 
containing and offsetting cost increases for core materials and for 
acquiring new materials.

Special Projects
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    Unum, the Secretary's quarterly newsletter, has been produced by 
Senate Library staff since October 1997 and is distributed throughout 
the Senate and to former staff and Senators. It serves as an historical 
record of accomplishments, events, and personnel news in the Office of 
the Secretary of the Senate. There were two special issues of Unum in 
2012: one on the restoration of the Old Senate Chamber, which featured 
a variety of articles by the staff of the Curator's Office, the 
Historical Office, and the Library on the various restoration projects 
and on the history of the chamber; and another on the presidential 
inauguration that contained Library- and Historical Office-authored 
articles on all aspects of inauguration day. The remaining two issues 
published in 2012 contained articles on the restoration of the Senate 
Reception Room benches and on the new States in the Senate Web site on 
Senate.gov; ``Off the Bookshelf'' pieces on books by and about 
congressional pages and on a Capitol guidebook useful for staff giving 
tours; a piece on the Advisory Committee on the Records of Congress; 
and a continuation of the ``Senate Voices'' series that contains 
excerpts of oral histories of former staffers and Senators.
            National Library Week
    Fergus Bordewich, author of America's Great Debate, was the 
featured speaker at the Library's 14th annual book talk in honor of 
National Library Week. A record setting 120 people attended the talk. 
The Library also hosted the popular annual dessert reception which drew 
in over 100 Senate staff.
            Senate Cloture Rule: Limitation of Debate in the Senate of 
                    the United States
    An update to the Senate Cloture Rule: Limitation of Debate in the 
Senate of the United States was published in 2012 (S. Prt. 112-31) in 
collaboration with the Senate Committee on Rules and Administration and 
the Congressional Research Service. The Library created the historical 
data table on cloture motions and their disposition.
            Unpublished Senate Hearings on Microfiche
    A project to improve access to the Library's collection of 
unpublished Senate hearings on microfiche (18th-98th Congresses) was 
begun, resulting in the cataloging of 412 hearings. Each catalog record 
was assigned a full array of name and subject headings and enhanced 
with a link to the full-text version of the hearing in ProQuest. A note 
summarizing the subject of the hearing was also provided, to facilitate 
access via keyword searching and provide useful information not 
conveyed by the generic titles often used in these hearings.

Display Cases
    Hallway display cases continue to educate staff and visitors alike 
while highlighting the Library's collections. Display cases featured 
this year include: Patriots in Petticoats: Women in the Struggle for 
America's Independence, Historical Presidential Campaigns and 
Elections, and Inauguration Day Events. In October, the Library hosted 
an online presentation on Webster titled The Long Walk Down 
Pennsylvania Avenue: Senators Who Ran for President (1800-2008) 
featuring colorful images and interesting historical detail on the 
electoral process. At the request of the Committee on Rules and 
Administration, two new informational displays were installed in cases 
outside SD-G50: Senate Committee Hearing Rooms Through the Years and 
What Issues Has the United States Senate Investigated?. The displays 
were developed through the joint efforts of the Library, the Office of 
Senate Curator, the Historical Office, and the Office of Conservation 
and Preservation.

Cooperative Projects
    Hearing universal resource locator (URL) data from the Library 
catalog is exported weekly to provide LIS and THOMAS with full-text 
links to Senate hearings. The Library contributed 1,789 new Senate 
hearing links to the LIS database during 2012.

Major Library Goals for 2013
  --Focus education and in-person outreach efforts on incoming Senate 
        offices and new staff of the 113th Congress to increase their 
        awareness of available online resources, training 
        opportunities, and Library research services.
  --Continue team evaluation and enhancement of instructional course 
        offerings, review available applications to create online 
        course offerings, and expand Web-based training opportunities 
        to reach State staff.
  --Continue to expand the online archive of the Senate Executive 
        Calendars on Senate.gov, in collaboration with the Executive 
        Clerk and the Office of Web Technology.
  --Support the development of an internal online archive of Senate 
        electronic ``Dear Colleague'' letters beginning with the 112th 
        Congress though the creation of descriptive metadata about the 
        documents distributed via e-mail using the Senate knowledge 
        base.
  --Continue the collaborative development of a topical framework for 
        Senate NewsWatch to support the development of news alerts, 
        improve content organization, and enhance the effectiveness of 
        searches in Senate NewsWatch and the InfoViewer client.
  --Begin implementation of new cataloging rules, called Resource 
        Description and Access (RDA), in conjunction with the Library 
        of Congress and other libraries worldwide.
  --Continue to improve access to the Library's collection of 
        unpublished Senate hearings on microfiche by adding item-level 
        records to the catalog with links to full-text content.

                                              SENATE LIBRARY ACQUISITIONS STATISTICS FOR CALENDAR YEAR 2012
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government Documents          Congressional Publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaws   Documents
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         26         56         68         85        186         13         84        292        784
February.............................................         26         48         62          3        284          5         93        192        687
March................................................         18         39        142         62        332          8        123        179        885
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         70        143        272        150        802         26        300        663      2,356
                                                      ==================================================================================================
April................................................         17         78         67          1        398          2        119        202        867
May..................................................         17         44         53         64        339          5        117        202        824
June.................................................         17         74        163         96        237          3         99        283        955
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         51        196        283        161        974         10        335        687      2,646
                                                      ==================================================================================================
July.................................................         15         79         62          6        203          1        115        375        841
August...............................................         32         42        195         72        345         14         48        261        977
September............................................         36         51         60          3        263         11         50        192        630
                                                      --------------------------------------------------------------------------------------------------
      3rd Quarter....................................         83        172        317         81        811         26        213        828      2,448
                                                      ==================================================================================================
October..............................................         23         61        159         65        250         18         66        103        722
November.............................................         25         66         47          3        305          9         69        151        650
December.............................................         24         51         52         24        155         12         99          8        401
                                                      --------------------------------------------------------------------------------------------------
      4th Quarter....................................         72        178        258         92        710         39        234        262      1,773
                                                      ==================================================================================================
2012 Total...........................................        276        689      1,130        484      3,297        101      1,082      2,440      9,223
2011 Total...........................................        294        841      1,254        695      3,316        210      1,295      2,227      9,838
 Percent Change......................................       -6.1      -18.1       -9.9      -30.4       -0.6      -51.9      -16.4        9.6       -6.3
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                               SENATE LIBRARY CATALOGING STATISTICS FOR CALENDAR YEAR 2012
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  Bibliographic Records Cataloged
                                               S.    -----------------------------------------------------------------------------------------
                                            Hearing           Books               Government Documents           Congressional Publications      Total
                                            Numbers  -----------------------------------------------------------------------------------------  Records
                                            Added to                                                                                  Docs./   Cataloged
                                              LIS       Paper    Audio/ E-    Paper      Fiche    Electronic   Hearings    Prints     Pubs./
                                                                   Books                                                             Reports
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..................................         17         29          1         12  .........           7         80  .........        113        242
February.................................         88         25  .........          6          1           4        201          4         83        324
March....................................         15         22          1          6  .........          12        215  .........        133        389
                                          --------------------------------------------------------------------------------------------------------------
      1st Quarter........................        120         76          2         24          1          23        496          4        329        955
                                          ==============================================================================================================
April....................................         24         19  .........          3  .........  ..........        287         17         27        353
May......................................         34         20          4          3          3          21        159         67         60        337
June.....................................         72         25  .........          3  .........           8        145         19         39        239
                                          --------------------------------------------------------------------------------------------------------------
      2nd Quarter........................        130         64          4          9          3          29        591        103        126        929
                                          ==============================================================================================================
July.....................................  .........         23          1          2  .........          20        186         10         71        313
August...................................         36         34          1          3  .........           5        117         51         30        241
September................................  .........         31          4          5  .........          11        217         10         59        337
                                          --------------------------------------------------------------------------------------------------------------
      3rd Quarter........................         36         88          6         10  .........          36        520         71        160        891
                                          ==============================================================================================================
October..................................  .........         19          2          2          2          13         98         19         40        195
November.................................         33         25          3          5  .........          12        270          7         55        377
December.................................        151         24          1  .........  .........          12         37  .........         59        133
                                          --------------------------------------------------------------------------------------------------------------
      4th Quarter........................        184         68          6          7          2          37        405         26        154        705
                                          ==============================================================================================================
2012 Total...............................        470        296         18         50          6         125      2,012        204        769      3,480
2011 Total...............................        456        450         64         65         58         171      2,224        686        955      4,673
 Percent Change..........................          3        -34      -71.9        -23      -89.7       -26.9       -9.5      -70.3      -19.5      -25.5
--------------------------------------------------------------------------------------------------------------------------------------------------------


                       SENATE LIBRARY DOCUMENT DELIVERY STATISTICS FOR CALENDAR YEAR 2012
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                   Volumes    Materials  Facsimiles   Center Pages      Pages
                                                   Loaned     Delivered                 Printed        Printed
----------------------------------------------------------------------------------------------------------------
January........................................         330         397          17            18         3,385
February                                                318         370          13           315         6,762
March                                                   280         511          10            85         4,852
                                                ----------------------------------------------------------------
      1st Quarter..............................         928       1,278          40           418        14,999
                                                ================================================================
April..........................................         273         390          10            85         4,011
May............................................         311         353          10            84         5,782
June...........................................         363         338          22            72         4,154
                                                ----------------------------------------------------------------
      2nd Quarter..............................         947       1,081          42           241        13,947
                                                ================================================================
July...........................................         394         369          19           182         4,167
August.........................................         436         362          40            19         4,129
September......................................         497         392          15            26         5,803
                                                ----------------------------------------------------------------
      3rd Quarter..............................       1,327       1,123          74           227        14,099
                                                ================================================================
October........................................         286         317          17            23         5,869
November.......................................         441         337          16            66         3,910
December.......................................         278         305          15            13         3,591
                                                ----------------------------------------------------------------
      4th Quarter..............................       1,005         959          48           102        13,370
                                                ================================================================
2012 Total.....................................       4,207       4,441         204           988        56,415
2011 Total.....................................       3,371       4,391         251           648        51,278
 Percent Change................................        24.8         1.1       -18.7          52.5            10
----------------------------------------------------------------------------------------------------------------

                              PAGE SCHOOL

    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the Nation's capital, within the 
limits of the constraints imposed by the work situation.
Summary of Accomplishments
  --The Middle States Commission on Secondary Schools accreditation 
        continues through April 2013. The reaccreditation process was 
        completed in November 2012, and the school has been recommended 
        for continuing accreditation for the next 5 years. The agency 
        will not take formal action until late spring.
  --Two page classes successfully completed their semester curriculum. 
        Closing ceremonies were conducted on June 8, 2012 and January 
        25, 2013, the last day of school for each semester.
  --Orientation and course scheduling for the spring 2012 and fall 2012 
        pages were successfully completed. Needs of incoming students 
        determined the semester schedules.
  --Faculty administered English usage pre- and post-tests to students 
        each semester and reviewed the results to determine what usage 
        instruction or remediation was needed.
  --Calculator usage pre- and post-tests were administered to students 
        in the fall 2012 semester to determine what instruction or 
        remediation was needed.
  --A general study skills tutorial was presented to all students, and 
        study skills sessions were provided to students identified in 
        need of training in specific areas.
  --Faculty and staff provided extended educational experiences to 
        pages, including 21 field trips, two guest speakers, 
        opportunities to play musical instruments and vocalize, and 
        foreign language study with the aid of tutors. Summer pages 
        made nine field trips to educational sites and heard from two 
        guest speakers.
  --Sixteen pages took 37 Advanced Placement (AP) exams in 11 subjects.
  --The community service project embraced by pages and staff in 2002 
        continues. Items for gift packages were collected, assembled, 
        and shipped to military personnel serving in various locations. 
        Pages included letters of support to the troops.
  --All Page School staff attended continuing education and training 
        classes.
  --Communication among Sergeant at Arms, Secretary of the Senate, 
        party secretaries, the Page Program, and the Page School is 
        ongoing.
  --Equipment purchased included an additional projectile launcher for 
        use in science experiments. Also, a multimedia presenter used 
        in science classes was mounted overhead for better viewing. 
        Math subscriptions to online resources for student use were 
        renewed.

Continuity of Operations (COOP) Planning
    The evacuation and continuity of operations (COOP) plans have been 
reviewed and updated. Pages and staff continue to practice evacuating 
to primary and secondary sites. Pages also participated in escape hood 
training and tutors were trained in evacuation procedures.

Summary of Plans
    Our goals include:
  --Individualized small group instruction and tutoring by teachers on 
        an as-needed basis will continue to be offered, as well as 
        optional academic support for students preparing to take AP 
        tests.
  --Foreign language tutors will provide assistance to students.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum.
  --English usage pre- and post-tests will continue to be administered 
        to students each semester to assist faculty in determining 
        needs of students for usage instruction. Calculator usage pre- 
        and post-tests will be administered to students each semester 
        to assist faculty in determining calculator use in both math 
        and science courses.
  --Staff development options include attendance at seminars conducted 
        by the Joint Office of Education and Training and subject 
        matter and/or educational issue conferences conducted by 
        national organizations.
  --The community service project will continue.
  --Work to maintain accreditation will continue.

                     PRINTING AND DOCUMENT SERVICES

    The Office of Printing and Document Services (OPDS) serves as 
liaison to the Government Printing Office (GPO) for the Senate's 
official printing, ensuring that all Senate printing is in compliance 
with Title 44, U.S. Code as it relates to Senate documents, hearings, 
committee prints, and other official publications. The office assists 
the Senate by coordinating, scheduling, delivering, and preparing 
Senate legislation, hearings, documents, committee prints, and 
miscellaneous publications for printing, and provides printed copies of 
all legislation and public laws to the Senate and the public. In 
addition, the office assigns publication numbers to all hearings, 
committee prints, documents, and other publications; orders all blank 
paper, envelopes, and letterhead for the Senate; and prepares page 
counts of all Senate hearings in order to compensate commercial 
reporting companies for the preparation of hearings.

Printing Services
    During fiscal year 2012, OPDS prepared 2,867 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record. Since the requisitioning done 
by OPDS is central to the Senate's printing, the office is uniquely 
suited to perform invoice and bid reviewing responsibilities for Senate 
printing. As a result of this office's cost accounting duties, OPDS is 
able to review and assure accurate GPO invoicing as well as play an 
active role in helping to provide the best possible bidding scenario 
for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling, job scheduling, and tracking for 
stationery products, Senate hearings, Senate publications, and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. OPDS also 
coordinates a number of publications for other Senate offices, such as 
the Curator, Historian, Disbursing, Legislative Clerk, Senate Library, 
as well as the U.S. Botanic Garden, U.S. Capitol Police, Architect of 
the Capitol, and the U.S. Capitol Visitor Center. These tasks include 
providing guidance for design, paper selection, and print 
specifications, and monitoring print quality and distribution. Last 
year's major printing projects included:
  --Semi-Annual Report of the Secretary of the Senate;
  --The Senate Sergeant at Arms and Doorkeeper brochure;
  --Frequently Asked Questions about the U.S. Senate Chamber brochure;
  --The Senate Vestibule brochure;
  --The Dirksen Senate Office Building brochure;
  --2012 Senate Telephone Directory;
  --Senate gallery passes and visitor badges; and
  --Capitol Visitor Center tour tickets and informational brochures.

Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings, both in-house and in the field. OPDS 
processes billing verifications for these transcription services, 
ensuring that costs billed to the Senate are accurate. OPDS utilizes a 
program developed in conjunction with the Sergeant at Arms Computer 
Division that provides better billing accuracy and greater information-
gathering capacity, and adheres to the guidelines established by the 
Senate Committee on Rules and Administration for billing commercial 
reporting companies for transcription services. During 2012, OPDS 
provided commercial reporting companies and corresponding Senate 
committees a total of 595 billing verifications of Senate hearings and 
business meetings. Over 40,000 transcribed pages were processed at a 
total billing cost of $357,782.
    During 2012, the office processed all file transfers and billing 
verifications between committees and reporting companies 
electronically, ensuring efficiency and accuracy. Department staff 
continues training to apply today's expanding digital technology to 
improve performance and services.

Secretary of the Senate Service Center
    The Service Center within OPDS is staffed by experienced GPO 
detailees who provide Senate committees and the Secretary of the 
Senate's Office with complete publishing services for hearings, 
committee prints, and the preparation of the Congressional Record. 
These services include keyboarding, proofreading, scanning, and 
composition. The Service Center provides the best management of funds 
available through the Congressional Printing and Binding Appropriation 
account because committees have been able to decrease, or eliminate, 
additional overtime costs associated with the preparation of hearings. 
Additionally, the Service Center provides work for GPO detailees 
assigned to legislative offices during Senate recesses.

Document Services
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and GPO. This section 
ensures that the most current version of all material is available, and 
that sufficient quantities are available to meet projected demands. The 
Congressional Record, a printed record of Senate and House floor 
proceedings that includes Extension of Remarks, the Daily Digest, and 
miscellaneous pages, is one of the many printed documents provided by 
the office on a daily basis. In addition to the Congressional Record, 
the office processed and distributed over 7,100 distinct legislative 
items during the second session of the 112th Congress, including Senate 
and House bills, resolutions, committee and conference reports, 
executive reports, treaty documents, and public laws.
    The demand for online access to legislative information continues 
to be strong. Before Senate legislation can be posted online, it must 
be received in the Senate through OPDS. Improved database reports allow 
the office to report receipt of all legislative bills and resolutions 
received in the Senate which can then be made available online and 
accessed through other Web sites, such as LIS, FDSys and THOMAS, used 
by congressional staff and the public.
            Customer Service
    The primary responsibility of OPDS is to provide services to the 
Senate. The office provides the same high level of customer service to 
the general public, the press, and other Government agencies as it does 
to the Senate. During 2012, over 10,000 requests for legislative 
material were received at the walk-in counter, through the mail, by 
fax, and electronically. Online ordering of legislative documents and 
the Legislative Hot List link, where members and staff can confirm 
arrival of printed copies of the most sought-after legislative 
documents, continued to be popular. The site is updated several times 
daily each time new documents arrive from GPO to the Document Room. In 
addition, the office handled thousands of phone calls pertaining to the 
Senate's official printing, document requests, and legislative 
questions. The office stresses prompt, courteous customer service while 
providing accurate answers to requests from the Senate and the public.
            On-Demand Publication
    The office supplements depleted legislation when needed by 
producing additional copies in the DocuTech Service Center, staffed by 
experienced GPO detailees who provide member offices and Senate 
committees with on-demand printing and binding of bills, reports, and 
other legislation. On-demand publication allows the department to cut 
the quantities of documents printed directly from GPO and reduces 
waste. In particular, the decrease in the number of documents routinely 
received by Senate committees during the last quarter of 2012 increased 
the need for DocuTech services. OPDS anticipates the need to further 
increase this service over the next year. The office produced 571 on-
demand jobs during 2012 which included over 8,300 documents. The 
DocuTech is networked with GPO, allowing print files to be sent back 
and forth electronically. This allows OPDS to print necessary 
legislation for the Senate floor and other offices in the event of a 
GPO continuity of operations (COOP) situation.
            Accomplishments and Future Goals
    Over the past year, OPDS has faced challenges by providing new 
services for customers and improving existing ones. An electronic 
version of the ''new member packet'' was developed to help new member 
offices become familiar with available products and services. During 
2012, OPDS surveyed Senate committees on their need for bills and 
reports automatically distributed by GPO. The standard distribution has 
been made more flexible to meet the needs of each committee. The office 
has worked with Sergeant at Arms IT to redesign and test its three main 
database systems to replace outdated software. Of particular note is 
the office's commitment to help green the Senate. Senate offices 
ordered over 12.8 million sheets of 100 percent recycled copier paper 
in 2012, a slight decrease from 2011. Additionally, OPDS anticipates 
that print-on-demand capabilities will continue to grow in 2013, 
answering the Senate's needs in light of decreased GPO distribution of 
legislative documents. The office works diligently to track document 
requirements, monitor print quantities, and reduce waste and associated 
costs.
    The office continues working with GPO, on behalf of its customers, 
to improve efficiency and respond to the evolving needs of the Senate. 
Focus on COOP planning and emergency preparedness will continue.

                             PUBLIC RECORDS

    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate that involve the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act (LDA) of 1995, as amended; the Senate Code of 
Official Conduct; Rule 34, Public Financial Disclosure; Rule 35, Senate 
Gift Rule filings; Rule 40, Registration of Mass Mailing; Rule 41, 
Political Fund Designees; and Rule 41(6), Supervisor's Reports on 
Individuals Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and publication of 
these documents. From October 2011 through September 2012, Public 
Records staff assisted more than 3,000 walk-in individuals seeking 
information from or about reports filed with the office. During that 
same time period, the office responded to over 10,000 inquiries by 
telephone or e-mail, including assistance to individuals attempting to 
comply with the provisions of the Lobbying Disclosure Act of 1995, as 
amended. The office works closely with the Federal Election Commission 
(FEC), the Senate Select Committee on Ethics, and the Clerk of the U.S. 
House of Representatives (Clerk) concerning the filing requirements of 
the aforementioned acts and Senate rules.

Fiscal Year 2012 Accomplishments
    The Stop Trading on Congressional Knowledge Act (STOCK Act) was 
signed into law on April 4, 2012. The STOCK Act, as amended, requires 
the Secretary to post online member financial disclosure reports 
beginning in 2012 and requires the Secretary to collaborate on the 
development of an electronic filing system for member and employee 
financial disclosure reports.
    Immediately after the STOCK Act became law, the Public Records 
Office undertook implementation activities in coordination with the 
Sergeant at Arms (SAA) and the Senate Select Committee on Ethics, as 
required by the new law. The first phase of the STOCK Act took effect 
on July 4, 2012 with the addition of a new periodic transaction report 
for Senators and Senate staff. Public Records also oversaw the 
development of the public database for member reports and a new Web 
page portal which included online access to member financial disclosure 
reports. That portal was successfully launched on September 30, 2012.
    Implementation of the STOCK Act, as amended, is ongoing into fiscal 
years 2013 and 2014, when the subsequent phases of the act take effect. 
Public Records staff is closely involved in the planning and 
development of the new electronic filing system which is now required 
to be launched by January 1, 2014.
    The office completed a total update and revision of the Public 
Records Web site, which included improvements to online access for 
documents in each area of responsibility.
    To continue implementation of the Lobbying Disclosure Act (LDA) as 
amended, the Public Records Office conducted two LDA Guidance reviews 
and posted one guidance update during the year. The office referred 
1,655 cases of potential noncompliance to the U.S. Attorney for the 
District of Columbia.
    The Public Records Office continued to test continuity of 
operations (COOP) plans and pandemic response plans.

Plans for Fiscal Year 2013
    The Public Records Office will be engaged with STOCK Act 
implementation throughout fiscal year 2013, collaborating with the SAA 
and the Senate Select Committee on Ethics. The office will also 
continue to assess technology infrastructure needs, as well as continue 
to work with the Clerk and her staff to semiannually review and update 
the LDA Guidance as needed. Additionally, the office will work with the 
Clerk to initiate a review and update of the LDA filing system. The 
office will also continue to develop and implement educational 
information and tools that will help all report filers comply fully 
with the law and assist customers in accessing the information they 
seek.

Automation Activities
    During fiscal year 2012, the Senate Office of Public Records 
continued to work with the Sergeant at Arms to enhance database 
performance for all issue areas and improve public query programs and 
compliance reviews. The office also initiated new quality control 
measures to ensure accuracy and integrity of report processing and 
final database information.

Federal Election Campaign Act, as Amended
    The Federal Election Campaign Act requires Senate candidates to 
file quarterly and pre- and post-election reports. Filings totaled 
5,376 documents containing 380,251 pages, which were scanned, 
processed, and transmitted to the FEC, as required by law.

Lobbying Disclosure Act of 1995, as Amended
    The Lobbying Disclosure Act requires semiannual contribution 
reports, and quarterly financial and lobbying activity reports. As of 
September 30, 2012, there were 4,574 registrants representing 17,258 
clients. The total number of individual lobbyists disclosed on fiscal 
year 2012 registrations and reports was 12,564. The total number of 
lobbying registrations and reports processed was 118,041.

Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
2012. The reports were made available to the public and press by June 
14, 2012 as required by statute. Public Records staff provided copies 
to the Senate Select Committee on Ethics and the appropriate State 
officials. A total of 3,948 reports and amendments were filed 
containing 26,663 pages. There were 459 requests to review or receive 
copies of the documents.

Senate Rule 35 (Gift Rule)
    The Public Records Office received 352 Gift Rule/Travel reports 
during fiscal year 2012.

Registration of Mass Mailing
    Senators are required to file mass mailing reports on a quarterly 
basis. The number of pages submitted during fiscal year 2012 was 554.

                            STATIONERY ROOM

    Since it was formally established in 1854, the Senate Stationery 
Room has evolved into a highly diversified retail outlet serving the 
needs of the Senate community by providing outstanding customer service 
and a wide range of products such as office and administrative 
supplies, health and personal security supplies, personalized 
stationery, communication and computer accessories, and special order 
items for official Government business. Additionally, the Stationery 
Room provides U.S. flags flown over the Capitol for constituent 
requests. The Stationery Room serves all members, both current and 
retired; support offices; and other authorized organizations.
    The Stationery Room fulfills its mission by:
  --Utilizing open market, competitive bid, or GSA schedules for supply 
        procurement.
  --Maintaining sufficient in-stock quantities of select merchandise to 
        best meet the immediate needs of the Senate community.
  --Developing and maintaining productive business relationships with a 
        wide variety of vendors to ensure sufficient breadth and 
        availability of merchandise.
  --Maintaining expense accounts for all authorized customers and 
        preparing monthly activity statements.
  --Managing all accounts receivable and accounts payable 
        reimbursement.
  --Ensuring the integrity and security of all funds and Government 
        assets under our control.

------------------------------------------------------------------------
                                                  Statistics
                                     -----------------------------------
                                      Fiscal Year 2012  Fiscal Year 2011
------------------------------------------------------------------------
Gross Sales.........................     $2,915,708.38     $3,535,526.90
Sales Transactions..................            33,881            36,198
Purchase Orders Issued..............             4,930             6,041
Vouchers Processed..................             5,282             6,441
Office Deliveries...................             5,459             6,578
Number of Items Delivered...........           121,408           142,132
Number of Items Sold................           303,520           351,408
Total Cartons Received Offsite......            20,909            25,192
Total of All Items Received.........           133,988           161,431
Average Office Deliveries per Day...                23                27
------------------------------------------------------------------------

Fiscal Year 2012 Overview
            Webster Online Ordering Portal
    During fiscal year 2011, the Stationery Room, with the assistance 
of the Office of Web Technology, launched an online Web ordering portal 
through Webster, the Senate's intranet. The Web site offers an up-to-
date Stationery Room catalog with product description, price, and 
pictures. Customers can place a stock order online and request direct 
delivery to a location of their choice. During fiscal year 2012, the 
Stationery Room received and processed 365 orders via that interface, 
more than double the number received in fiscal year 2011. Use of the 
Web site helps reduce order time, increases customer convenience and 
order accuracy, and reduces the use of paper through reduced reliance 
on hard copy orders. Moving forward, the Stationery Room anticipates 
increased use of this Web site as customers discover the benefits of 
its use.
            Credit Card Payment for Flags
    Utilizing the Pay.gov service offered by the U.S. Department of 
Treasury, the Stationery Room began to accept flag requests and 
payments online from constituents via member Web sites. At the end of 
fiscal year 2011, five test offices were using this service and 
feedback was positive. Throughout fiscal year 2012, additional offices 
were added to the program, and there are currently 13 Senators offering 
this payment option, including both leaders. Wait time for constituents 
has been drastically reduced, payment inaccuracies have been almost 
eliminated, and the workload for office representatives is much more 
manageable. The Stationery Room will continue to expand the service 
during fiscal year 2013 to eventually include all interested member 
offices.
            Permit Mailing of Flags
    In fiscal year 2011, the Stationery Room, with the assistance and 
support of the Sergeant at Arms' Printing, Graphics and Direct Mail 
(PGDM) Branch, began the transition from using a postage meter to mail 
flags to a much more economical permit mailing and manifest process. In 
fiscal year 2012, the permit process was fully implemented and the old 
postage meter had been returned to the vendor. Savings in reduced 
postage fees, meter rent, maintenance, and supplies amount to 
approximately $3,500 per year.
            Senate Watermark Stationery
    The Stationery Room began to develop a Senate proprietary watermark 
line of fine stationery products that will ensure greater security for 
official correspondence and better overall quality control. 
Additionally, because the Senate stationery will be purchased in 
unfinished ``cut-sheets'' and distributed to vendors on an as-needed 
basis, the Stationery Room will achieve significant cost savings that 
can then be passed on to customers in the form of lower prices on fine 
stationery products. Full implementation in expected by the end of 
fiscal year 2013.
New Initiatives for 2013
            TranSAAct Statement Integration
    The Stationery Room prepares activity statements for approximately 
300 customer accounts on the last business day of each month. Those 
statements are printed and either e-mailed to the customers or mailed 
via inside mail. One upgrade most requested by our customers is the 
ability of Stationery to post the account statements directly to 
TranSAAct, the online business services portal for Senate offices, with 
supporting documentation (e.g., itemized receipts or delivery tickets). 
This integration requires a custom application to enable that function. 
At the end of 2012, Senate Stationery began to develop, test, and 
implement a custom solution to facilitate the integration of account 
information from the Stationery Room system with TranSAAct. A 
functional test program has been completed and Stationery expects full 
implementation by April 2013. Customers will be able to print 
statements, current and historical, and research transaction details 
directly from their desktop. The Stationery Room expects to save over 
$500 a year in paper costs and, most importantly, reduce paper use by 
45,000 individual sheets.

                             WEB TECHNOLOGY

    The Office of Web Technology is responsible for the Web sites, 
along with the Web-based systems, servers, and technologies supporting 
these Web sites, that fall under the purview of the Secretary of the 
Senate:
  --the Senate Web site (Senate.gov)--available to the public;
  --the Secretary's internal Web site (Webster.senate.gov/secretary)--
        available to Senate staff;
  --central portions of the Senate intranet (Webster.senate.gov)--
        available to Senate staff; and
  --the Senate legislative branch Web site (Legbranch.senate.gov)--
        available to the Senate, House of Representatives, Library of 
        Congress, Architect of the Capitol, Government Accountability 
        Office, Government Printing Office, Congressional Budget 
        Office, and U.S. Capitol Police.
The Senate Web Site--Senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Senate Web site content is maintained by over 30 contributors 
from seven departments of the Secretary's Office and three departments 
of the Sergeant at Arms (SAA). Content team leaders regularly share 
ideas and coordinate the posting of new content. All content is 
controlled through the Secretary's Web content management system (CMS), 
managed by the Office of Web Technology.
    Major additions to Senate.gov in 2012 include:
  --Floor Webcast.--In conjunction with the SAA, the Committee on Rules 
        and Administration, and the Senate Recording Studio, Web 
        Technology implemented live and archived streaming video of 
        floor proceedings. The project was accomplished in a very short 
        time span and before the beginning of the second session of the 
        112th Congress. The floor stream dynamically determines the 
        best means of delivering video content based on the user's 
        operating system and browser. This allows for the stream to be 
        enjoyed on both desktops and mobile devices. An advanced search 
        was implemented which uses the combined closed captioning for 
        keyword matches and provides links to the appropriate portion 
        of archived videos.
        http://floor.senate.gov/
  --States in the Senate.--Along with the Senate Historical Office, Web 
        Technology completed a multiyear effort to publish a standalone 
        exhibit detailing each State's history in the United States 
        Senate. The multimedia exhibit is very interactive, allowing 
        users to select a State from a map of the United States. 
        Pictures and contact information for current Senators are 
        provided, along with a historical listing of all Senators, 
        along with links to the Biographical Directory of the United 
        States Congress (http://bioguide.congress.gov) by State. 
        Additionally, an interactive timeline with specific events 
        pertaining to that State's Senate history is sortable based on 
        a variety of themes. The events section lists many pictures and 
        carefully crafted text that offers a wealth of State specific 
        information to a wide range of audiences. The entire exhibit 
        has been implemented through the CMS, allowing for easy 
        updating and display changes. In designing and developing the 
        site, existing XML content was leveraged to ensure the accuracy 
        and timeliness of the data. This exhibit is a new channel for 
        constituents to learn about and contact their Senators.
        http://www.senate.gov/states/
  --Public Disclosure Interface.--Web Technology worked extensively 
        with the Office of Public Records to design, develop, and 
        implement a new interface for the public disclosure pages on 
        Senate.gov. This was done in conjunction with the launch of the 
        first phase of the STOCK Act. The new interface leverages 
        advanced Web 2.0 technologies to offer a tab display, greatly 
        reducing the overall clutter of the page while providing even 
        more information. The new streamlined display makes it easier 
        for users to find the information they are searching for and 
        improves overall customer service.
        http://www.senate.gov/pagelayout/legislative/
            g_three_sections_with_
            teasers/lobbyingdisc.htm#lobbyingdisc=fd
  --Senate Organization Chart.--Web Technology revamped the front end 
        display and back end functionality of the Senate organization 
        chart displayed on the public Web site. The new chart provides 
        all pertinent information in text, opposed to graphics, 
        increasing accessibility and ease of updating. Also, 
        photographs are now included for each position. Through 
        rewriting the back end generation of the page, updates are made 
        much more efficiently and the likelihood of typographical 
        errors is greatly decreased. Besides being very visually 
        appealing and useful, the new chart has drastically improved 
        efficiency for updating this complex and highly sought-after 
        information.
        http://www.senate.gov/pagelayout/Senators/
            a_three_sections_with_teasers/leadership.htm
  --Civil War Sesquicentennial Exhibit.--This exhibit has provided a 
        continuing series of online features exploring the Senate's 
        wartime experiences. The components of this exhibit have been 
        updated monthly over the last year to highlight various events, 
        people, and locations related to the Senate during the war and 
        connecting users to rich historical information throughout the 
        site. The exhibit expanded on last year's efforts: enhancing 
        the interactive chronology display, featured primary source 
        historical documents, and virtual reference desk page. Existing 
        pages were expanded to add multimedia content on the right hand 
        side of the page, such as photographs and historical documents. 
        The sub-site contains a wealth of knowledge applicable and 
        engaging to a vast range of audiences.
        http://www.senate.gov/artandhistory/history/common/civil_war/
            CivilWar.htm
        http://www.senate.gov/pagelayout/history/one_item_and_teasers/
            CivilWar_chronology.htm
        http://www.senate.gov/reference/Index/Civil_War_Senate.htm
  --Office Application Manager Implemented for Human Resources.--Web 
        Technology customized and implemented a Web-based system to 
        collect employment applications online for job postings in the 
        Secretary of the Senate's Office. Department directors have 
        unique profiles created for each open position so they can 
        review applications online. The new system dramatically reduces 
        the amount of paper used by the Secretary's Office for job 
        applications and utilizes technology advances to streamline the 
        entire evaluation process. This enhancement empowers applicants 
        to complete all steps without needing to directly interact with 
        the Human Resources Department.
        http://www.senate.gov/pagelayout/visiting/
            h_multi_sections_and_teasers/
            employment.htm
  --Senate Floor Reports.--Legislative floor reports are now available 
        for every legislative day of the 2012 calendar year and have 
        been integrated to work with the archived floor proceeding 
        videos. The most recent report is highlighted on the homepage 
        of Senate.gov. The reports were built to tie into existing 
        workflows, requiring no duplicative efforts by the clerks. The 
        reports are available in both HTML and XML formats the next 
        calendar day after a session has occurred. Many useful links to 
        legislation, votes, and nominations are included in the floor 
        reports providing seamless access to information spread across 
        multiple systems. This is an ongoing project that will continue 
        to expand in the upcoming year.
        http://www.senate.gov/floor/
        http://www.senate.gov/legislative/LIS/floor_activity/
            floor_activity.htm
        http://www.senate.gov/pagelayout/legislative/
            g_three_sections_with_teasers/legislative_home.htm
  --Executive Calendar Archive.--Web Technology expanded on last year's 
        work of creating an archive of historic executive calendars. 
        The archive now goes back to the 1940s with more historic 
        calendars being added all the time. These include star prints 
        and multiple versions for the same day, when they exist. Due to 
        the realization that some old calendars contained full or 
        partial Social Security numbers for military nominees, staff 
        redacted the sensitive information using advanced features of 
        portable document format software. In some instances it was 
        possible to fully automate the process; in others, the task was 
        completed manually. The archive will continue to expand, and 
        Web Technology will work with the Senate Library to put their 
        entire collection online. For new calendars, the fully 
        automated system does not require any human intervention for 
        the updates to appear nightly.
        http://www.senate.gov/reference/Index/
            Calendars_schedules.htm#Browse
            ExecutiveCalendars
  --Art and History Exhibits--The combination of the exhibit and 
        collection sections of the Art & History tab for the main 
        public site provides a much more usable clearinghouse of online 
        exhibits. The new page provides an easy-to-scan index of online 
        exhibits, which include thumbnails for each presentation. This 
        vastly improved page streamlines the process for users to find 
        online collections. The thumbnails were carefully crafted to 
        give a sense of the exhibit using minimal imagery as an icon. 
        Building in categorization of the exhibits allowed for a sort 
        feature to be added to the top of the page which enables the 
        user to quickly group the exhibits. The page has room for 
        growth as more exhibits and collections will surely be added to 
        the site over the next year.
        http://www.senate.gov/pagelayout/art/
            g_three_sections_with_teasers/
            exhibits.htm
  --Decorative Art.--Through combining the collections and exhibit 
        sections into one page, space was freed up for a new 
        subcategory, Decorative Art. This new section groups 
        collections of artifacts that relate to furnishings and unique 
        objects in the Senate Collection, along with features on the 
        Russell Senate Office Building and Senate Chamber Desks. Moving 
        this content up higher in the navigation hierarchy enables more 
        users to discover the vast array of artifacts and features on 
        decorative arts in the Senate.
        http://www.senate.gov/pagelayout/art/one_item_and_teasers/
            collections.htm
  --Office of the Sergeant at Arms and Doorkeeper Page.--At the request 
        of the Office of Sergeant at Arms, Web Technology significantly 
        enhanced the information displayed on the page to include 
        contact information, gallery information, prohibited items, a 
        frequently asked questions page, and dynamically included job 
        posting information. The job posting information was tied in to 
        the existing Sergeant at Arms Human Resources system that is 
        used to populate the main employment page on Senate.gov.
        http://www.senate.gov/reference/office/sergeant_at_arms.htm
  --Temporary Web Pages for Senators.--Created and heavily utilized a 
        new content template to set up temporary Web pages for elected 
        or designated Senators. With the addition of 12 newly elected 
        Senators in the most recent Congress and the replacement of at 
        least three others, the new template allowed for quick 
        implementation of the necessary information for Senators, 
        offering constituents a way to learn about and contact their 
        new Senators. Having everything based in XML also allowed the 
        utilization of other data sources inside the content management 
        to streamline the process and help ensure the accuracy of the 
        information. Implementing and following a uniform template made 
        it possible to quickly enact requests not previously 
        encountered, such as press releases for Senators on their first 
        day in office.
  --Enhanced Virtual Reference Pages.--Web Technology greatly improved 
        the display and back end data structure for several of our most 
        utilized virtual reference pages. These pages clearly lay out 
        resources for the specific topic on Senate.gov, as well as 
        other legislative branch Web sites. These pages provide a 
        clearinghouse of information on a specific subject. The 
        enhanced virtual reference desk pages were on the subjects of 
        filibuster, cloture, sessions, the Constitution, and elections.
        http://www.senate.gov/reference/Index/Filibuster.htm
        http://www.senate.gov/reference/Index/Cloture.htm
        http://www.senate.gov/reference/Index/Sessions.htm
        http://www.senate.gov/reference/Index/Constitution.htm
        http://www.senate.gov/reference/Index/Elections.htm
  --New Virtual Reference Pages for the President and for Women.--The 
        virtual reference pages continue to be some of the most popular 
        and useful on the public site. The addition of the President 
        and women pages provide a great wealth of information in a 
        well-organized and easy-to-use manner that users are accustomed 
        to.
        http://www.senate.gov/reference/Index/President.htm
        http://www.senate.gov/reference/Index/Women.htm
  --Biographies and Oral Histories.--Five featured biographies and 12 
        oral histories conducted by the Senate Historical Office were 
        added to Senate.gov this year. The oral history section was 
        enhanced to include a custom made banner and allow several 
        interviews to be featured at the same time. Subpages were 
        created and populated to list information about the all the 
        interviews available online.
        http://www.senate.gov/pagelayout/history/one_item_and_teasers/
            featured_biographies.htm
        http://www.senate.gov/pagelayout/history/
            g_three_sections_with_teasers/oralhistory.htm
        http://www.senate.gov/pagelayout/history/one_item_and_teasers/
            OralHistoryAbout.htm
        http://www.senate.gov/pagelayout/history/
            e_one_section_no_teasers/OralHistoryList.htm
  --Homepage Feature Articles.--
    --Senate Meeting Places
    --Celebrating Black History Month
    --Celebrating Women's History Month
    --States in the Senate
    --Technology in the Senate
    --Material Culture of the Senate
    --Sessions of the Senate
    --Celebrating the Constitution
    --Electing Senators: A Historical Perspective
    --Before Taking the Oath
Secretary's Intranet--Webster.senate.gov/secretary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Secretary of the Senate's intranet (http://webster.senate.gov/
secretary) continued to expand in information and services offered. 
Web-based order forms were maintained, expanded, and enhanced so staff 
can request specific legislative documents, make class registrations, 
order blank paper, make room reservations, and provide stationery 
product suggestions.
    A page listing Senators by class was created for the Legislative 
Clerk. The page is meant to be printed and is based on a publication 
generated yearly by the Government Printing Office (GPO). The page uses 
official information to recreate each night the much sought-after 
print, and ensures updates much more quickly than having GPO order a 
full reprint. This is a great example of some of the ways the existing 
CMS can be used to repurpose information and alleviate unnecessary 
paper use.
    The catalog-based ordering system developed for the Stationery 
Office continues to be a huge success. The system is managed with the 
content directly from the Stationery Office's existing retail 
management system, which underwent several successful inventory updates 
during this past year. For the 2012 calendar year, 365 orders were 
placed and filled using the online order form. This is more than twice 
as many orders as last year.
    Web Technology created an online survey for use by Secretary of the 
Senate staff to evaluate a new employee evaluation process. Web 
Technology staff worked extensively with Human Resources staff to craft 
the survey, distribute it for use, and interpret the results. In 
utilizing a survey tool already purchased by the SAA, the entire survey 
could be conducted at no additional cost.
    Web Technology developed an electronic receipt form to capture 
dissemination of a new version of the Secretary of the Senate's 
handbook. The system developed utilizes e-mail to transfer information 
and eliminates the need for paper receipt copies.
    Web Technology maintained and enhanced a video management tool that 
allows the Office of the Senate Chief Counsel for Employment to control 
which videos they offer on-demand. The system does not require any 
technical knowledge and provides an easy-to-control archive of seminars 
over the past 2 years.
    FrontPage, the Web portal for Senate Information Services, 
continued to be heavily utilized. Adjustments were made to accommodate 
information architecture changes to guarantee consistent access on and 
off campus. An enhanced class registration system is being developed to 
tie in with a newly released learning management system. The 
enhancements will remove the necessity to enter duplicate information 
across platforms. Additionally, Web Technology worked with several of 
the vendors to develop solutions for them to utilize existing XML 
resources to streamline the update process.
Webster Central Web Site--Webster.senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In conjunction with the SAA, Chaplain, and Senate Committee on 
Rules and Administration, Web Technology continued administering, 
managing, and enhancing the central section of Webster, also partnering 
with the SAA and the Senate Library to add a unique services directory 
search. This was accomplished through the creation of a separate 
``onebox'' that enables automated creation of indexes based on XML 
files.
    As part of the streaming floor project, Web Technology implemented 
an internal tool that allows Senate offices to generate on-demand clips 
of floor footage in near real time. The tool does not require any 
technical or video editing ability and greatly streamlines the time and 
cost involved in producing a Senate floor clip. Leveraging new 
technologies, this tool allows offices to operate more efficiently and 
improve outreach to their constituents.
    Enhancements made to the floor schedule include direct population 
of the information on the home page from the same source file used on 
Senate.gov through customized XML. This is a great example of how 
management of content on the central site continues to be streamlined 
by repurposing additional files that are already updated through 
existing systems on Senate.gov. The expansion of repurposed data 
continues to reduce duplicative efforts and increase consistency, 
relevancy, and timeliness of data displayed on Webster. Standardizing 
XML across both sites and having them integrated into the CMS was 
essential to making this possible.

Senate Legislative Branch Web Site (Legbranch.senate.gov)
    The Legbranch server is accessible by the Senate, House of 
Representatives, Library of Congress, Architect of the Capitol, 
Government Accountability Office, GPO, Congressional Budget Office, and 
U.S. Capitol Police. The Office of Web Technology maintains a basic Web 
site for a Capitol Hill e-mail messaging working group managed by the 
SAA. The server will continue to expand and be used to share more 
information with Capitol Hill entities.
    With the Library of Congress, Web Technology created and 
implemented a new site hosted on http://legbranch.senate.gov. The new 
site lists current and historical versions of the hot bills list, 
cloture, and appropriations tables maintained by the Senate Library 
which link to resources internal to legislative branch entities. The 
new site replaced an antiquated system built years ago to share this 
valuable information assembled by the Senate Library, which relied on 
access to specific Library of Congress servers and became problematic 
to maintain. This new system allows Web Technology complete control to 
make any and all modifications that may be required and provides an 
excellent framework as a way to repurpose some of most valuable 
information for different audiences through leveraging the CMS. The new 
site is linked to from http://lis.gov, one of the most utilized 
internal sites on Capitol Hill.
    Web Technology created customized XML feeds for use on the new beta 
version of the Congress.gov Web site. These feeds get published to a 
repository on http://legbranch.senate.gov which allows them to be 
repurposed by other legislative branch Government agencies. This 
information was also shared with Senate offices and committees so they 
may leverage this advanced technology on their individual Web sites.
Accomplishments of the Office of Web Technology in 2012
  --Upgrade of CMS.--The CMS is the lifeblood of all the Web sites 
        managed by Web Technology and is critical to the generation and 
        publishing of information. Web Technology completed an upgrade 
        to the fourth generation of the system, moving to the most 
        recently released versions of the software. Due to contracting 
        issues and uncertainty regarding the Senate's schedule, the 
        implementation schedule was compressed. Through long hours, 
        hard work, and creative thinking, this monumental task was 
        completed just before the Senate came back from a State work 
        period. During the upgrade of the CMS, other support systems 
        such as the database and related versions of application server 
        software were updated to the most recent and secure versions 
        available. The new CMS functions incredibly well, is very 
        stable, and offers access from a much wider variety of browsers 
        and operating systems than in the past. This crucial upgrade 
        will continue to ensure Web Technology is able to meet the 
        ever-changing needs of all the offices we support and ensure 
        the continuity of operations. States in the Senate Project. 
        Worked intensely over the past year with the Historical Office 
        and GPO on the implementation of a new stand-alone site for 
        States (http://www.senate.gov/states). The interactive exhibit 
        is useful to many different audiences and provides information 
        about each State's history that relates to the U.S. Senate in a 
        fun and interesting manner. Links to contact information for 
        Senators from each State will further aid constituents with 
        connecting to their Senators. Dynamic pieces of content are 
        pulled from existing lists, making updating much more fluid, 
        timely, and accurate.
  --Senate Floor Webcast on Senate.gov.--In a joint project with the 
        SAA's Chief Information Officer, the Senate Recording Studio, 
        and the Committee on Rules and Administration, launched live 
        streaming video of its floor proceedings, along with a 
        searchable archive of previous proceedings (http://
        www.senate.gov/floor). An internal clipping tool was also 
        developed for staff, greatly streamlining the process of 
        generating and posting a video clip from the Senate floor to a 
        member's Web site or social networking sites.
  --Senate Chief Counsel for Employment (SCCE) seminar streams enhanced 
        and updated for SCCE internal Web site. The streaming service 
        allows for viewing of live events and on-demand viewing of 
        previous sessions in a secure manner. Worked in conjunction 
        with the SAA, Senate Recording Studio, and SCCE to establish 
        procedures to easily produce, publish, and control the various 
        streams from yearly seminar series. This is the first system of 
        its kind at the Senate and is sure to be used for future 
        developments.
  --Senate.gov Web Audit.--Audited pages regularly; updating, 
        enhancing, and correcting pages; verifying content; and 
        reviewing individual page designs throughout Senate.gov for 
        accessibility and usability. Additionally, attended training on 
        the latest advances in coding techniques to ensure 
        accessibility and applied them to our sites.
  --Constantly monitored data feeds from the LIS/DMS system, ensuring 
        content on Senate.gov was current and all processes were 
        functioning properly. This is of vital importance regarding 
        information such as Committee hearing schedules, vote data, and 
        member contact information.
  --Responded to approximately 1,139 e-mails from the general public 
        regarding Senate.gov sites. Worked with various content 
        providers, Web support groups, SAA, member, and committee 
        offices to make suggestions and resolve issues. This is about 
        the same as last year. However, during a Web protest in mid-
        January 2012, the office responded to a record-breaking 466 e-
        mails in a single week.
  --Continually reviewed and adjusted search operations and canned 
        matches for both Senate.gov and Webster based on user 
        tendencies and requests. A major addition was the creation and 
        maintenance of a new ``onebox'' for services (Redbook) recently 
        released. Also, investigated other search technologies as 
        alternatives to existing searches and as ways to accomplish 
        potential future projects.
  --Conducted user testing with Senate staff and interns to increase 
        understanding of current Web site interactions, desires, and 
        best practices.
  --Helped organize Capitol Hill-wide Webmaster meetings where best 
        practices were shared across entities. Regularly gave 
        presentations and facilitated conversations.
  --Continually trained and practiced working from remote locations to 
        be prepared should the need arise. All staff members are fully 
        capable of accomplishing their job functions from any location 
        with Internet access. This was accomplished largely through 
        configuring virtual machines that mimic workstations on office 
        laptops. Regardless of which staff member uses which laptop, 
        the experience will be ubiquitous and consistent with being in 
        the office.
  --Worked extensively with the Senate Library in the continued 
        development, implementation, and maintenance of taxonomies 
        utilizing the knowledge base system. Created and established a 
        schedule for programs to automatically transfer content nightly 
        from the taxonomy system to the CMS. Participated in the 
        planning, design, development, and administration for including 
        eDear Colleague letter data in the knowledge base and then on 
        Webster.
  --Maintained virtualized production and development servers for the 
        Secretary's intranet. Also, maintained virtualized production 
        server for the Secretary's dedicated ``onebox'' server, 
        transfer mechanisms to keep indices current, and a newly built 
        search server.
  --Administered the CMS constantly throughout the year and resolved 
        issues as they arose. Modified the existing system for 
        enhancement requests and changes in general Senate information 
        architecture for both production and development systems. 
        Conducted in-place upgrade and ensured continuity of operations 
        with a fully functional alternate computer facility system.
  --Due to major site architecture changes in 2011, we were not able to 
        collect usage statistics. Working extensively with the SAA, Web 
        Technology developed and implemented an advanced technology 
        that collects usage statistics from a distributed environment. 
        The following usage statistics are a result of this effort. 
        Please note, in comparison to previous years, the statistics 
        reported are just for the central site of Senate.gov, where 
        previously statistics were for the entire domain of Senate.gov.
Senate.gov Usage Statistics
    In 2012 an average of 35,500 visits occurred per day to the central 
site of Senate.gov.

----------------------------------------------------------------------------------------------------------------
        Title of Web Site/Page               Visits/Month           Average Duration         Visits from U.S.
----------------------------------------------------------------------------------------------------------------
Senate.gov Site......................                1,087,171                5 minutes                      78%
Senators Contact Page................                  443,814               74 seconds            Not available
Senate Homepage......................                  358,497               56 seconds            Not available
----------------------------------------------------------------------------------------------------------------

    Reviewing statistics on Web page usage helps the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. Visitors are consistently 
drawn to the following content items, listed in order of popularity:

                                           MOST VISITED PAGES IN 2012
----------------------------------------------------------------------------------------------------------------
                                                                                                      Average
                            Top Pages                              Visits/Month     Views/Month      Duration
                                                                                                     (Seconds)
----------------------------------------------------------------------------------------------------------------
Senators Contact Info List......................................         443,814       1,094,829              74
Committees......................................................          55,549         101,098             110
Leadership (Organizational Chart)...............................          40,743          64,773             145
Legislation Home................................................          35,077          52,121              53
Votes Home......................................................          29,844          43,722              65
Constitution....................................................          25,071          28,779             259
112th 2nd Session Vote Menu.....................................          24,342          39,802             113
Class Glossary Entry............................................          21,700          25,476              55
Employment Positions............................................          18,031          24,360             170
Active Legislation..............................................          15,995          29,154             139
----------------------------------------------------------------------------------------------------------------

    By a huge margin, the most popular page on the main Senate Web site 
is the list of Senators with links to their Web sites, comment forms, 
main office addresses, and telephone numbers. Visitors also continue to 
be interested in legislative matters in 2012 with rollcall vote 
tallies, the active legislation table, committee assignments, and 
schedules being particularly popular.

                    Sergeant at Arms and Doorkeeper

STATEMENT OF HON. TERRANCE W. GAINER, SERGEANT AT ARMS
ACCOMPANIED BY:
        DREW WILLISON, DEPUTY SERGEANT AT ARMS
        KENDALL WINN, CHIEF INFORMATION OFFICER
        BECKY DAUGHERTY, CHIEF OF PROTOCOL
    Senator Shaheen. Mr. Gainer.
    Mr. Gainer. I appreciate the opportunity to appear before 
you this morning on behalf of the Sergeant of Arms team and to 
present our budget request for the upcoming fiscal year. I ask 
that my written testimony be submitted and made part of the 
record.
    I also appreciate the work and support of your staffs, this 
subcommittee, and the work that the Sergeant at Arms Office 
does. For fiscal year 2014, I respectfully request a total 
budget of $188 million. This is a decrease of $5 million, or 3 
percent below our fiscal year 2013 enacted level.
    This budget request funds salaries for 904 authorized staff 
and related expenses in support of the Senate. Our expense 
request contains no new initiatives. This budget reflects 
reductions necessary for us to operate at the levels dictated 
by the sequester. We understand the tremendous economic 
challenges this subcommittee is facing, and we are committed to 
doing our part to reduce costs and streamline operations. Like 
the Architect of the Capitol and the Secretary, our core goals 
are cost savings and cost avoidance.
    Regarding our salaries, we have not awarded cost-of-living 
adjustment since 2010 or merit increases since 2011. In 
November 2012, our office instituted a hiring freeze. Since the 
start of the freeze, 31 employees have left the SAA through 
either retirement, resignation, or termination.
    After consulting with the Office of Personnel Management 
and the Senate Rules Committee, I recently exercised my 
authority to offer all SAA staff the option to participate in a 
Voluntary Separation Incentive Program, VSIP. This resulted in 
52 staff members choosing to either retire or leave our office 
for a different life. Overall VSIP has netted an annual savings 
of $4.5 million. We also conducted a small reduction in force 
to reflect our organization consolidation.
    These actions successfully helped to achieve the cost 
reductions needed to align with our lower annual budget. I am 
proud of the entire team, in their response to these difficult 
challenges. After losing over 80 employees, the remaining staff 
took on additional responsibilities and duties while 
maintaining their usual level of energy and enthusiasm in 
responding to Senate needs.
    My goal is to adjust our organization in a way that 
minimizes impacts to services provided to the Senate. Although 
we have taken steps to mitigate the impacts of these 
reductions, continued decreases in our budget will have an 
adverse impact on the way we support our customers, especially 
in the areas of information and communication technology.
    For example, during this fiscal year, we scaled back the 
economic allocation fund, which pays for the procurement of 
technology products for Senate offices. The fund was reduced 
from $4,000 to $3,200 per employee. Simply put, this means that 
offices will not be able to replace their computer equipment as 
often.
    Instead of replacing a computer every 3 years, it may have 
to last for 5 or 6 years. And we know the loss of work 
productivity when using computers that old.
    We reduced our information technology (IT) contract support 
by $1.5 million, which will reduce the number of consultants 
and subsequently delay computer installations by up to 10 days. 
We are also looking into restructuring our Capitol Exchange 
operation, which would reduce hours on overnights and weekends 
when the Senate is not in session.
    The services we provide to the Senate take place both here 
in Washington and in the 456 State offices. We manage leases, 
the physical security requirements and data lines. These 
leases, which total $20 million annually, increase at the rate 
of approximately 5 percent per year. Last year, our total 
expense budget was cut by $6.5 million from the previous year, 
while the State office leases increased by $1.5 million. In 
other words, we are preserving the State office lease program 
at the expense of other Sergeant at Arms programs.
    Madam Chairwoman and Senator Hoeven, without question, our 
greatest asset is our staff. They are a diverse team of 
dedicated, effective, hardworking professionals, many of whom 
have served the Senate for a quarter century or longer. They 
take great pride in their work.
    I would like to especially highlight the team of dedicated 
Senate staff employees who work here and at our offsite mail 
screening facility handling mail. Last year they received, 
tested, and delivered over 18 million pieces of mail. Recently, 
on April 16, they discovered and removed a letter containing 
the deadly toxin ricin and turned it over to law enforcement 
and hazardous material experts before it ever reached Capitol 
Hill.
    Thanks to these men and women at the state-of-the-art 
facility, funded by this subcommittee, we avoided a situation 
like in 2001 when anthrax closed the Hart Senate Office 
Building for several months.
    During the last fiscal year, we completed the installation 
of our Watson voice-over Internet phone system, and the carrier 
has removed all of the old phones. And this year we've migrated 
to a new phone system and have processed over 42 million 
telephone calls, generating a savings of $2 million annually. 
This year we will evaluate the costs associated with expanding 
those services to State offices.
    In addition, we successfully processed 306 million e-mail 
messages during the calendar year, while protecting our 
customers from spam and malicious messages. This is no easy 
task, as the Senate continues to experience spear-fishing 
attacks, which represent a significant avenue for attempted 
exploitation by a number of our adversaries. Senate devices 
were targeted by over 1,500 spear-fishing attacks during the 
past year. That's a 20 percent increase over the previous year. 
Approximately 7 percent of all e-mail received by the Senate 
via the Internet contains some type of malicious content. We 
spend a significant amount of time preventing those attacks.
    Despite a tight fiscal environment, we continue to update 
and expand the tools that Senators and staff can use to stay 
connected with one another and their constituents. For example, 
we support approximately 10,000 of the latest Apple and 
BlackBerry phones, smartphones, and tablets, designated to 
enhancing the user experience. Our Office of Education and 
Training is conducting a significant amount of training via the 
Internet. This results in a substantial cost savings by 
eliminating the need for people to travel for training.
    Our Printing, Graphics, and Direct Mail department has 
saved $1.2 million by presorting 6.9 million pieces of outgoing 
Senate franked mail. They do an unbelievable job and are great 
stewards of our money.
    We work closely with the Secretary of the Senate, the 
Capitol Police, the House, and the Architect of the Capitol, to 
try to be as streamlined as we can. Let me conclude by saying 
this: I have a great team. There's only a short amount of time 
but I would like to recognize a few of them: my Deputy, Drew 
Willison; Kendall Winn, who's been an unbelievable Chief 
Information Officer, retires this year; and Becky Daugherty, 
our Chief of Protocol, who handled all the arrangements 
yesterday and today for Senator Lautenberg's funeral. I won't 
take up further time by introducing everyone else, but they're 
a great group of people who work very hard to make your work 
easier.
    I appreciate the opportunity to talk to you, and I'd be 
happy to answer any questions.

                           PREPARED STATEMENT

    Senator Shaheen. Thank you very much. I think we all very 
much appreciate the great work that they do and that all of you 
do to make sure the Senate runs and to address the challenges 
that face the country. So, thank you.
    [The statement follows:]

             Prepared Statement of Hon. Terrance W. Gainer

                              INTRODUCTION

    Madam Chairwoman and members of the subcommittee, thank you for 
inviting me to testify before you today. I am pleased to report on the 
progress the Office of the Senate Sergeant at Arms (SAA) has made over 
the past year and our plans to enhance our contributions to the Senate 
in the coming year.
    For fiscal year 2014, the Sergeant at Arms respectfully requests a 
total budget of $188,000,000. This is a decrease of $5 million, or 3 
percent below the fiscal year 2013 enacted level. Madam Chairwoman, as 
you know, we are currently operating at a 5 percent reduction below 
last year's funding level. This budget reflects reductions necessary 
for us to operate at the levels called for by sequestration. Since 
2010, our budget has been reduced by over $36 million, or 16 percent, 
on an annual basis. Cumulatively, our budget has been reduced by over 
$90 million since 2010. These are substantial reductions and are 
reflected in fewer service offerings and asset replacements, and less 
timely service delivery. We understand the tremendous economic 
challenges this committee is facing and we are committed to doing our 
part to reduce costs and streamline our operations.
    As you know, we recently completed a Voluntary Separation Incentive 
program that enabled us to reduce staffing by 52, saving us $5 million 
per year in salary costs. These savings go a long way to meet the 
reductions in salary expenses called for by sequestration for fiscal 
year 2013 and fiscal year 2014. Introducing a voluntary separation plan 
also enabled us to keep involuntary terminations to a minimum. Our 
challenge for the remainder of the year is to minimize the impact of 
this staffing reduction on services to the Members.
    Although we have taken extraordinary steps to mitigate the impact 
of these reductions, continued decreases in our budget have had an 
adverse effect on the way we support our customers, especially in the 
areas of information and communications technology. We have had to 
reduce services, scale back allocations, and reduce our subsidies for 
some services, as well as defer the capital improvements that are 
required to keep pace with continued demands for improved technology. 
``Less'' is the order of the day.
    In developing our proposed fiscal year 2014 budget and our 
operating plans, we are guided by the fiscal realities of sequestration 
and the need to strike the right balance in our priorities. These 
priorities include ensuring the United States Senate is as secure and 
prepared for an emergency as possible, and providing the Senate with 
outstanding service and support, including the enhanced use of 
technology. Within these broad areas, we are nevertheless reducing our 
capabilities and services. We trust that the Senate community will 
support us, as all of our budgets are being reduced.
    We had major successes in a number of key areas over the last year. 
In information technology, for example, the continuation of our server 
virtualization efforts allowed us to reduce energy, maintenance, and 
support costs by running more than 855 servers in a virtual 
environment. Our Help Desk team continued to perform extremely well, 
with a customer satisfaction rating of more than 99 percent at the very 
satisfactory or excellent level. We completed our telecommunications 
modernization effort and the carrier has removed the old telephone 
system. In the year since we first moved phones onto the new Watson 
system, we have processed almost 42 million telephone calls. This year 
we will evaluate the costs and savings associated with expanding the 
service to State offices. In addition, we successfully processed 306 
million e-mail messages during calendar year 2012, while protecting our 
customers from spam and malicious messages. We also completed the 
consolidation of our e-mail, mobility, and network authentication 
systems, which has yielded improved functionality and a reduction of 
over $500,000 in yearly contractor support costs. We continued to 
update and expand the tools that Senators and staff can use to stay 
connected with each other and their constituents--supporting the latest 
Apple and BlackBerry smartphones and tablets and enhancing the user 
experience. Improvements in the integration of iPhone and iPad devices 
with the Senate infrastructure include being able to manipulate 
attachments to calendar items, access to Outlook tasks, and the ability 
to capture and attach photos from within the secure e-mail client.
    We will soon provide the ability for you to synchronize your data 
with all the devices you use from any Internet-connected desktop, 
laptop, tablet, or smartphone. We upgraded our already robust video 
conferencing capabilities to make them significantly more reliable and 
resilient in the event of a catastrophic event. We also continued to 
evaluate new equipment and vendors to ensure that office equipment 
offerings stay current. Some examples include adding mailing equipment 
from a new vendor to provide the option of procuring smaller machines; 
adding devices from another mobile communications vendor, T-Mobile, to 
provide a different service plan for international travel; and re-
competing the imaging equipment contracts, resulting in newer models 
and better pricing. In addition, a new project is under way to provide 
office administrators with the ability to update the person and 
location associated with a specific piece of equipment, and enhanced 
workflows allowing staff to trace their requests for repairs, moves, 
reassignments, returns to stock, inaccuracy alerts and lost/stolen 
equipment reports.
    We also improved our information technology security posture, so 
that the Senate has not suffered any major compromises of information 
security. But, again, continued reductions in our budget have had an 
adverse effect on the way we support our customers with information and 
communications technology.
    For our Capitol Operations team, 2012 was another busy and 
productive year serving Senators and their staffs, visitors to the 
Capitol, members of the news media who cover Congress, and the broader 
public who have a fundamental interest in knowing what the Senate does. 
Using both traditional and new media, as well as good old-fashioned 
customer service, Capitol Operations helped to bring people to the 
Senate--and to bring the Senate to the people across the country and 
around the world.
    Last year, for example, the Senate Recording Studio provided 930 
hours of gavel-to-gavel coverage of Senate Floor proceedings, as well 
as broadcast coverage of 547 Senate committee hearings. Additionally, 
our team of professionals produced nearly 900 shows from our television 
studios, enabling Senators here in D.C. to communicate directly and 
more efficiently with their constituents back home.
    For our in-person visitors, our Doorkeepers assisted more than 
186,000 people who visited the Senate Gallery to witness Senate 
proceedings in person. Additionally, our Senate Appointment Desks 
personnel helped to screen and process close to 178,000 visitors to the 
Capitol during 2012. Our four media galleries issued credentials to 
thousands of news media personnel, including reporters who covered the 
57th Presidential Inauguration, the nominating conventions in Tampa and 
Charlotte, major committee hearings and special events, and the Senate 
on an everyday basis.
    Our Continuity and Emergency Preparedness Operations staff 
completed over 20 exercises, tabletops, tests, and guided discussions 
in 2012, covering all aspects of emergency response including primary 
and alternate emergency operations centers, Chamber protective actions, 
briefing center transportation, contingency telecommuting, evacuation, 
internal relocation, shelter-in-place, mass casualty response, alert 
notification, continuity of government, and alternate office space 
operations. Last year, they also developed requirements for an 
informational Web site that will be activated during a large-scale 
emergency and provide event and individual accountability information 
to family and friends of staff and visitors.
    Our Printing, Graphics and Direct Mail department garnered notable 
savings for the Senate last year. More than $1.2 million was saved in 
postage costs by pre-sorting 6.9 million pieces of outgoing Senate 
franked mail. Another $72,820 in postage was saved by using new 
software to identify 161,822 undeliverable addresses before they were 
introduced into the United States Postal Service mail stream. And we 
saved approximately $696,000 by producing 7,731 charts in-house for 
Senate Floor proceedings, committee hearings, and special events.
    These are just a few examples of how the SAA continues to respond 
to the challenges of more activity and more demands with reduced 
resources. Our customer satisfaction levels remain high. As you can 
see, the Sergeant at Arms team continually works toward the vision of 
our Strategic Plan: Exceptional Public Service . . . Exceeding the 
Expected.
    Leading the efforts of the Office of the Sergeant at Arms is an 
outstanding senior management team including Drew Willison, who 
recently returned to the SAA to serve as my Deputy; Republican Liaison 
Mason Wiggins; General Counsel Terrence Liley; Legislative Liaison 
Nancy Olkewicz; Assistant Sergeant at Arms for Continuity and Emergency 
Preparedness Operations Rich Majauskas; Assistant Sergeant at Arms for 
Intelligence and Protective Services Mike Stenger; Assistant Sergeant 
at Arms and Chief Information Officer Kimball Winn; Assistant Sergeant 
at Arms for Operations Bret Swanson; Deputy Assistant Sergeant at Arms 
for Capitol Operations Kevin Morison; and Chief Financial Officer Chris 
Dey. The many goals and accomplishments set forth in this testimony 
would not have been possible without this team's leadership and 
commitment, as well as the dedication of the women and men who work for 
these leaders.

            CONTINUITY AND EMERGENCY PREPAREDNESS OPERATIONS

    We are grateful for our relationship with the United States Capitol 
Police (USCP). Serving as Chairman of the Capitol Police Board this 
year, I value the input of the other members of the Board: House 
Sergeant at Arms Paul Irving, Architect of the Capitol Stephen Ayers, 
and newly-appointed Chief Kim Dine, who is an ex officio member of the 
Board.
    The Office of the Sergeant at Arms also works with other 
organizations that support the Senate. I would like to take this 
opportunity to mention how important their contributions have been in 
helping us achieve our objectives. In particular, we work regularly 
with the Secretary of the Senate, the Architect of the Capitol, and the 
Office of the Attending Physician. When appropriate, we coordinate our 
efforts with the United States House of Representatives and the 
agencies of the Executive and Judicial Branches. I am impressed by the 
people with whom we work and greatly appreciate the quality of the 
relationships we have built together.
    I am very proud of all the men and women of the Sergeant at Arms 
team who help keep the Senate running. While serving as Sergeant at 
Arms, I have seen their great work and devotion to this institution. 
Our employees are among the most committed and creative in Government.
    As always, my staff and I are grateful for the support and guidance 
of your subcommittee, the full committee, and the Senate Committee on 
Rules and Administration.

                           EMERGENCY PLANNING

    Our emergency plans and procedures are designed to ensure the 
safety of Senators, staff, and visitors within our facilities and to 
equip them with the necessary tools for responding to emergency 
situations. Throughout 2012, we remained committed to improving life 
safety and emergency procedures using best industry practices, lessons 
learned, and scheduled events. We continued to make significant strides 
to ensure staff preparedness through enhanced Emergency Action Plans, 
mobility-impaired evacuation procedures, internal relocation and 
shelter-in-place protocols, and the annual Chamber Protective Actions 
exercise.
    The central document that reflects our preparedness efforts across 
the Senate is the Emergency Action Plan. Each Senator's office 
possessed a customized plan based on its unique circumstances and needs 
in 2012. Over 61 percent of these plans were reviewed and validated 
using guidelines set forth by the Occupational Safety and Health 
Administration and the Congressional Accountability Act. The remaining 
39 percent of Emergency Action Plans were in various levels of 
verification or completion at the end of the year. We worked closely 
with Office Emergency Coordinators (OECs) to update 198 plans of the 
250 plans maintained Senate-wide to ensure each plan's accuracy. This 
effort involved extensive coordination with each OEC, installing and 
transferring emergency equipment, and training office staff. During the 
past year, a significant percentage of Senators changed their hideaway 
locations, resulting in our staff reconfirming primary and secondary 
evacuation routes and deploying additional emergency equipment. All 
Senators' offices currently have a hideaway Emergency Action Plan and 
46 of those plans have been finalized. We will continue working with 
OECs to reach 100 percent validation for all office and hideaway 
Emergency Action Plans.
    The protection and preparedness of Senators, staff, and visitors 
within the Senate Chamber continues to be one of our main focus areas. 
Each year we conduct a full-scale exercise to test and validate the 
Chamber Protective Actions Guide, which serves as the collective 
Chamber Emergency Action Plan. This guide serves as a comprehensive 
summary of the actions each organization will take if individuals in 
the Chamber are required to evacuate, shelter-in-place, relocate, or 
don escape hoods. The 2012 exercise addressed evacuation due to an 
AIRCON threat and procedures to shelter-in-place. Additional areas of 
emphasis included demonstrating the use of emergency escape hoods, 
setup of portable comfort stations, preparing the Capitol Visitor 
Center Gallery check-in room, activating the fourth floor ALERTUS 
notification system, and transporting mobility-impaired Senators to the 
Briefing Center during AIRCON evacuations. As a result of the exercise, 
we reconfigured the ALERTUS system for faster fourth floor 
notifications to provide additional evacuation times. Staff from 25 
Senators' offices participated in the exercise to observe Chamber 
emergency procedures and provide insight to their Senator and Chief of 
Staff during an emergency.

Emergency Communications and Accountability
    We continue to improve notification and communication programs to 
ensure devices and systems are ready to support the Senate during local 
or large-scale emergencies. The Accountability and Emergency Roster 
System (ALERTS) is the primary alert and notification system with a 
single interface for delivering emergency e-mail, PIN, and voice 
messages to the Senate community. Throughout 2012, the ALERTS database 
was purged to reduce the number of unassigned staff members from over 
251 to less than 158, resulting in a 63 percent improvement rate.
    We conducted monthly emergency notification tests for staff and 
biannual tests for Senators in conjunction with the United States 
Capitol Police (USCP), Secretary of the Senate, party secretaries, and 
other stakeholders. These tests are designed to ensure our emergency 
messaging systems are reaching intended recipients and that designated 
staff understand how to activate each system. Monthly communications 
tests were also held with Executive Branch agencies to verify contact 
information between continuity sites. Video teleconferencing equipment 
continues to be tested on a monthly basis at various Senate contingency 
sites. Additionally, secure and unsecure satellite phones, the Wireless 
Priority Service, and the Government Emergency Telecommunications 
Service are all tested during quarterly contingency communications 
tests. This requires key staff to utilize their emergency communication 
devices during testing to ensure their understanding of procedures and 
equipment functionality.
    We procured and installed a contingency radio system to provide 
radio coverage throughout Capitol Hill in 2012. The system is used by 
Sergeant at Arms and Secretary of the Senate staff who have 
responsibilities during emergencies and special events. Although the 
ability to communicate via cellular phones, e-mail, and text messaging 
can be severely degraded during large-scale emergencies, the new radio 
system is not impacted, allowing staff to coordinate activities that 
directly support the Senate's ability to operate in an emergency and 
continue its essential functions.
    We continue to support staff accountability operations with USCP at 
assembly areas through the deployment of tablets and laptops, remote 
check-in procedures, Personal Identification Number Office Emergency 
Coordinator messaging, and CEPO accountability desk activation. We 
regularly train OECs on remote check-in procedures at assembly areas to 
emphasize the importance of staff accountability and have achieved over 
an 89 percent reporting rate for the Hart, Dirksen and Russell Senate 
office building drills this year. In 2012, we developed requirements 
for an informational Web site that will be activated during a large 
scale emergency and provide event and individual accountability 
information to family and friends of staff and visitors. Ideally, 
people will be directed to this site instead of overwhelming the Senate 
switchboard with phone calls.
    During the past year, CEPO provided staff in the USCP Command 
Center after normal business hours whenever the Senate was in session 
and during emergency incidents and special events. These staff members 
were trained to use the Senate Dialogic and Chyron systems to assist 
USCP as necessary and provide senior leadership with amplifying 
information regarding ongoing events. The Dialogic communicator system 
was upgraded this year to improve voice messaging connectivity to desk 
and mobile phones, and the Chyron cable television alert system was 
upgraded to improve broadcast message capabilities over digital and 
high definition channels. We are developing a new Chyron Web interface 
to improve our ability to quickly edit, review, and release alert 
messages to the Senate community. As a result of our collaborative 
efforts, the House of Representatives recently opted to use this new 
Web interface for their emergency messaging.
    We continue to administer and improve WebEOC, a crisis information 
management application utilized by the Senate Emergency Operations 
Center (EOC) during emergencies and special events. Standard network 
credentials for personnel were integrated with WebEOC to improve 
accessibility. As a result of recent system upgrades, WebEOC users can 
now enter information and send e-mails without having to switch between 
separate applications. We continue to administer WebFusion to promote 
collaboration between Senate, House of Representatives, Government 
Accountability Office, and Architect of the Capitol (AOC) emergency 
managers by allowing seamless information sharing across networks. 
WebFusion also allows Legislative Branch users to connect with 
Executive Branch, local, and State emergency managers throughout the 
National Capital Region (NCR). A new WebEOC administrator information 
board was developed by the Senate to improve communications between 
Federal WebEOC users and was later adopted by local and State WebEOC 
administrators in the NCR. In 2012, WebEOC was used at the presidential 
nominating conventions to improve situational awareness for Sergeant at 
Arms staff supporting emergency communications in the deployed USCP 
Command Center.

Training and Equipment
    Training and outreach programs are designed to provide interactive 
classroom and personalized instruction to the Senate community. These 
valuable programs provide a wealth of preparedness and life safety 
awareness information to enhance office and personnel preparedness. 
This year, we conducted 226 training sessions on a variety of 
preparedness topics with over 4,900 staff participants. A highlight of 
this year's training program includes the successful rollout of the 
Responding to an Active Shooter program in collaboration with USCP. The 
Office Emergency Coordinator certificate program continues to recognize 
staff who enhance their professional knowledge and readiness by 
completing requisite emergency preparedness training courses. We were 
pleased to award 15 OEC certificates in 2012.
    The culmination of our emergency preparedness training and outreach 
programs is the Senate's annual National Preparedness Day Fair, held 
each September as part of National Preparedness Month. This event 
invites members of the NCR emergency management community to display 
unique operational equipment, provide program capability awareness 
training, and demonstrate new products. More than a dozen regional 
emergency preparedness partners participated in this year's event. 
Chris Geldart, Director of the District of Columbia Homeland Security 
and Emergency Management Agency, was our 2012 keynote speaker.
    Our continued management and support of emergency protection and 
communication equipment in each Senate office has been one of the keys 
to our preparedness posture. Each office is issued emergency escape 
hoods, emergency supply kits, and wireless emergency annunciators. 
Wireless emergency annunciators allow offices to receive situational 
updates and USCP notifications to evacuate buildings, shelter-in-place, 
or deploy to their designated internal relocation site. Our office 
ensures functionality of equipment through an extensive annual 
inventory that replaces expired and faulty items. Over 268 offices and 
28,700 pieces of equipment were inventoried in the past year.
    We updated the Roadmap to Readiness for the 113th Congress to 
include modified emergency procedures and active shooter information. 
The comprehensive guide is designed to provide offices with the 
necessary tools to create emergency plans and train staff in 
Washington, D.C., and State offices. We developed a new online training 
class on earthquake preparedness in addition to updating several other 
classes, allowing staff to educate themselves from the convenience of 
their desktops. We developed a pocket-sized Hazard Guide for Senate-
wide distribution on how to prepare for an emergency and the protective 
actions needed to mitigate an emergency's impact.
    The Senate Emergency Operations Center is utilized during 
emergencies and special events to coordinate information, resources, 
and response efforts. Training for EOC staff is critical to 
understanding assigned roles and responsibilities. Two exercises and 
several training classes were conducted to provide staff with 
opportunities to improve their skills. Additionally, ``Take at Your 
Desk'' exercises are e-mailed several times a year for staff to 
practice using the software for managing emergency information.

Exercises
    We continue to manage a comprehensive exercise program structured 
to ensure Senate plans are practiced and validated regularly. The Test, 
Training, and Exercise (TT&E) program we administer validates our 
ability to respond in times of crisis as well as identifies areas where 
better planning and procedures would be beneficial. It is important 
each organization knows and is able to execute its respective tasks. A 
viable Senate TT&E program provides training and includes the practice 
of individual and group responsibilities. Our program is outlined in an 
annual guidance document coordinated with stakeholders and jointly 
signed by the Secretary of the Senate and me. This document provides 
overarching guidance for three TT&E program areas:
  --A 6-year exercise program that focuses on areas relating to our key 
        capabilities;
  --Recurring TT&E support activities throughout the year; and
  --A calendar of annual exercises that reflects contingency program 
        goals and objectives.
    During 2012, we collaborated with the Secretary of the Senate to 
lead several joint exercises with the USCP, AOC, Office of Attending 
Physician, party secretaries, and other key congressional stakeholders. 
Primary among these were the Chamber Protective Actions, Briefing 
Center, and Alternate Office Space exercises. This year we also 
participated in a National Level Exercise focused on cyber-attacks to 
Washington, D.C., infrastructure. This year, for the first time, we 
conducted shelter-in-place and internal relocation drills involving 
staff in the Senate office buildings. We completed over 20 exercises, 
tabletops, tests, and guided discussions in 2012, covering all aspects 
of emergency response including primary and alternate emergency 
operations centers, Chamber protective actions, briefing center 
transportation, contingency telecommuting, evacuation, internal 
relocation, shelter-in-place, mass casualty response, alert 
notification, continuity of government, and alternate office space 
operations. An offsite EOC exercise was conducted to test our ability 
to quickly move staff to a distant location away from Capitol Hill and 
maintain Senate operations.
    The general exercise format includes functional capabilities 
demonstrations and tabletop scenarios designed to test the Senate's 
ability to function during events that require relocation to alternate 
facilities or contingency sites. After-action reports are generated for 
each exercise to document lessons learned for future plan improvement. 
Lessons learned are entered into a remedial action tracking system and 
monthly reports are generated to track identified issues. We anticipate 
conducting over 15 exercises, drills, and tests during 2013 in addition 
to numerous training events designed to maintain and strengthen 
existing capabilities while addressing emerging needs.

Continuity of Operations and Continuity of Government
    This year, our office focused on finalizing contingency 
transportation and relocation site strategies in collaboration with 
Member offices and committees to develop internal continuity of 
operations (COOP) plans. We also drafted a congressional continuity 
strategy document with House of Representatives continuity planners for 
Senate and House leadership approval. This document is a master 
reference resource that outlines planning and execution frameworks for 
congressional continuity programs.
    In November 2012, the Senate and House Sergeants at Arms 
established a Joint Continuity Office (JCO) to enhance congressional 
planning integration. The JCO develops joint plans, coordinates staff-
level joint continuity planning issues, and ensures consistency with 
the congressional continuity strategy. JCO solicits and integrates 
input from all congressional officers, leadership staff, and 
appropriate committees to create joint congressional continuity plans. 
It is staffed by congressional continuity and emergency management 
professionals from both the Senate and House Sergeants at Arms' offices 
full-time.
    My staff refined plans for contingency facilities and ensured 
operational manuals were validated and updated according to guidance 
outlined in the draft congressional strategy document and within the 
JCO's construct. These efforts provide up-to-date single reference 
resources for key leaders and planners before and during a contingency 
event. We continue to work with the Senate's external support agency 
and House of Representatives planners to develop and maintain these 
comprehensive activation and operations plans for continuity 
facilities.
    Validating existing contingency plans is critically important and 
best accomplished through exercise design and execution. In 2012, my 
office conducted three major exercises at classified continuity sites 
in collaboration with the Senate's external support agency and the U.S. 
House of Representatives. These exercises allowed us to validate draft 
plans, confirm critical supply and equipment setup, develop space 
allocation plans, and conduct mock Chamber and broadcast operations. 
After-action reports were completed for each exercise and remedial 
activities were tracked until completion.
    Institutional continuity was a critical focus for my office this 
year. We completed the Alternate Office Space (AOS) plan to provide 
``Member and committee staff with limited office space when use of 
Senate office buildings is disrupted'' (AOS Plan, 2012). The AOS plan 
was validated with a functional exercise, approved, and promulgated to 
stakeholders. The AOS provides office space, connectivity 
infrastructure, phone service, and other services to Senate staff.
    My team updated and distributed the Senate's Pandemic Plan. We also 
worked closely with the Senate's external support agency to finalize 
the Personnel Accountability System. This new automated emergency 
movement and manifesting support system was used to develop 
transportation lists for the 2012 Republican and Democratic National 
Conventions.
    Maintaining a viable COOP program is critical to the Senate's 
ability to perform constitutionally-mandated functions during local 
emergencies. Drafting, developing, and finalizing COOP plans for Member 
offices and committees is often challenging during periods of extremely 
demanding legislative activity. Nonetheless, our team continues working 
closely with Member offices and committees to produce individualized 
COOP plans utilizing a simplified template.

                  INTELLIGENCE AND PROTECTIVE SERVICES

Security Policy and Planning
    The State Office Readiness Program provides security and 
preparedness resources to State offices mirroring programs currently 
available to Washington, D.C., Senate offices. Participating offices 
receive a variety of security enhancements, including secure reception 
areas to screen visitors, duress and burglar alarm systems, and closed-
circuit camera systems. The Sergeant at Arms office pays for 
installation, maintenance, and alarm monitoring services, including 
annual inspections and equipment testing. The program also assists 
State offices with completing an Emergency Action Plan to identify 
security and emergency preparedness procedures unique to each State 
office.
    The State Office Readiness Program directly assisted 289 State 
offices with completing or updating their Emergency Action Plans in 
2012. By the end of the year, all State offices had completed or were 
in the process of completing an Emergency Action Plan. Additionally, we 
introduced a streamlined Emergency Action Plan template to allow 
smaller State offices to quickly draft a simple emergency plan. This 
new tool reduces the time and effort needed to produce a customized 
plan without compromising the requirements identified in the 
Congressional Accountability Act.
    During this period, 228 State offices completed or updated the 
office hazard overview document to identify natural or man-made hazards 
under consideration during office site selections and emergency plan 
development. Last fall, we implemented improved accountability, 
distribution, and maintenance of State office Emergency Supply Kits 
(ESK) to include an all-hazard weather radio and other emergency 
supplies for staff and constituent use. As a result, in 2012, the State 
Office Readiness Program sent replacement supplies or instructions on 
how to replace ESK items to 446 State offices. A monthly Office 
Emergency Coordinator bulletin is distributed to all State offices. We 
enhanced the State office training program by expanding the Webinar and 
video teleconference catalog to offer the Security and Emergency 
Response for State Offices Webinar three times each month. Since its 
inception in April 2012, 140 staff members have enrolled in the Webinar 
to discuss emergency preparedness and response action basics. Since 
June 2012, at least 96 State office staff members have attended the 
State Offices: Responding to Physically Threatening Individuals Webinar 
jointly offered by the State Office Readiness program and United States 
Capitol Police (USCP).
    The State Office Readiness Program provided security enhancements 
to 83 State offices in 2012. There have been 594 State offices that 
have received security enhancements since the program's inception with 
74 percent located in commercial spaces and 26 percent located in 
Federal buildings. Additionally, 315 State office alarm systems were 
tested and inspected in 2012.
    In 2013 the State Office Readiness program will continue efforts to 
offer security enhancements to non-participating offices and encourage 
greater State office staff participation in readiness training and 
emergency plan exercises. Program staff are prepared to support any 
additional State office security enhancements desired by the 14 newest 
Senators. Program staff will also continue their State office site 
visits while collaborating with USCP, General Services Administration, 
Federal Protective Service, and U.S. Marshals Service representatives.

Police Operations
    The Police Operations program directly coordinates with USCP 
security requests and services for Senate offices, committees, and 
support offices. The program specifically assists with public venue and 
committee hearing security assessments. Police Operations staff arrange 
security for Senate offices by managing proximity card readers, 
installing duress buttons, and scheduling staff security briefings. The 
Senate Campus Access program facilitates vehicle requests to access the 
Capitol's secure perimeter from congressional offices, constituents, 
outside vendors, and other groups. The Police Operations program also 
regularly monitors and reports incidents and emergency events from the 
USCP Command Center.
    During 2012, the Senate Campus Access program facilitated over 825 
access requests including 248 Senate military liaison office and other 
Department of Defense agency requests; 184 Member offices requests; 229 
USCP, Architect of the Capitol, and House of Representatives requests; 
and 152 U.S. and foreign government agency requests. Senate office 
staff rely heavily on this program to ensure their guests and 
constituents, materials, and equipment for special events are screened 
and approved by USCP before entering the Capitol complex. Police 
Operations staff field access requests inquiries daily and coordinate 
logistics for further USCP security reviews and operational handling.
    The USCP Command Center is staffed by Police Operations personnel 
to ensure timely, accurate, and relevant information regarding 
emergency incidents and events is relayed to the Senate community. 
Personnel provide coverage whenever the Senate is in session including 
late nights, weekends, and holidays.
    For the upcoming year, the Police Operations program will continue 
providing security assistance to Senate offices and serve as the 
Sergeant at Arms USCP liaison. The Senate Campus Access program is 
essential if Senate offices continue hosting constituents and outside 
groups for events, exhibits, and displays.

Intelligence and Threat Assessment
    Our office recognizes the value of maintaining collaborative 
partnerships with the intelligence community, various Federal, State, 
and local law enforcement agencies, and force protection departments in 
order to identify potential security risks, monitor threat streams, and 
maintain situational awareness to ensure appropriate mitigation and 
prevention strategies are deployed to protect and promote the safety 
and security of the U.S. Senate both domestically and internationally.
    With regard to specific threats on Members, our office, in 
coordination with the USCP and other law enforcement entities, ensures 
appropriate outreach to, and coordination among Senators and staff 
while continuously reviewing, evaluating, and conducting vulnerability, 
risk, and threat assessments to determine and implement appropriate 
security measures and protective operations coverage for Senate 
Members. Additionally, our office provides a regular situational 
awareness outreach campaign to the Senate community regarding upcoming 
significant events or planned activities on and in close proximity to 
the Capitol complex which may adversely impact Senate business.
    Furthermore, this program supports comprehensive contingency 
planning, oversees security operations planning, and creates 
comprehensive incident management and response action plans for major 
events including the Presidential Inauguration, State of the Union 
address, Senatorial retreats, nationally-televised concerts at the 
Capitol, and various joint sessions of Congress, in coordination with 
USCP and other partnership agencies.

                         INFORMATION TECHNOLOGY

Enhancing Service, Security and Stewardship
    We continue to provide a wide range of effective information 
technology solutions to facilitate the Senate's ability to perform its 
legislative, constituent service, and administrative duties; to 
safeguard the information and systems the Senate relies upon; and to be 
ready to respond to emergencies and disruptions. As in our other areas, 
we also emphasize stewardship--the careful use of all of our resources, 
including the funding we are provided, our personnel, and the external 
resources that we consume--in all aspects of our information technology 
operation.
    As we do each year, we have updated, and are performing under, our 
2-year Information Technology Strategic Plan. The current version, 
under which we will be operating in fiscal year 2014, continues to 
emphasize our five strategic information technology goals and their 
supporting objectives that drive our programmatic and budgetary 
decisions:
  --Secure: A secure Senate information infrastructure.
  --Customer Service Focused: A customer service culture top-to-bottom.
  --Effective: Information technology solutions driven by business 
        requirements.
  --Accessible, Flexible & Reliable: Access to mission-critical 
        information anywhere, anytime, under any circumstances.
  --Modern: A state-of-the-art information infrastructure built on 
        modern, proven technologies.
    Our fourth information technology strategic goal--Accessible, 
Flexible & Reliable--may be the most impactful of the five goals. This 
goal undergirds everything we do from a technology standpoint. We must 
ensure that almost every system and every service we deploy can 
withstand disruptions to our operating environment, can be reconfigured 
if necessary to cope with disruptions, and can be used regardless of 
whether the person trying to use it is located within one of our spaces 
or elsewhere. We continuously reevaluate existing services and systems 
to identify areas for improvement and make those improvements as soon 
as we can, in an effort to ensure the Senate can continue to do its 
work under any circumstances.
    From a budgetary standpoint, more than one-half of the CIO 
organization's fiscal year 2014 request will cover the installation and 
support of the equipment acquired by offices through the economic 
allocation, and for other programs that benefit offices directly. One 
third will be devoted to providing services at the enterprise level, 
such as information security, the Senate data network, electronic mail 
infrastructure, and telephone systems. The remainder is almost equally 
divided between supporting the office of the Secretary of the Senate 
with payroll, financial management, legislative information, and 
disclosure systems; and our own administrative and management systems.

Enhancing Service to the Senate
            Customer Service, Satisfaction, and Communications
    Our information technology strategic plan stresses customer service 
as a top priority, and we actively solicit feedback from all levels and 
for all types of services. For instance, we ask for customer feedback 
on every Help Desk ticket opened. In major contracts that affect our 
customers, we include strict service levels that are tied to the 
contractors' compensation--if they do well, they get paid more; if they 
do poorly, they get paid less. Because of reductions to our budget, we 
have had to relax the service level requirements, reducing services to 
our customers. During the past year, the percentage of on-time arrivals 
for the IT installation team never dropped below 99 percent, and 99 
percent of customer surveys rated the IT Help Desk and installation 
services as either ``very satisfactory'' or ``excellent.'' We expect 
this excellent level of performance to continue through fiscal year 
2014 under the renegotiated service levels.
    We satisfy our customers' demands for the latest in mobile wireless 
technology by keeping our technology catalog up to date with the latest 
offerings. Last year, we added T-Mobile as a wireless carrier option to 
expand our offerings in the catalog. We also made available several new 
models of Apple iPhone and iPad devices including the iPad Mini, and 
added MiFi mobile hotspots to the catalog. We successfully implemented 
a completely overhauled BlackBerry 10 server environment to support the 
long-awaited BlackBerry 10 devices as soon as possible after the 
carriers make them available. In addition to continuing to offer the 
Senate community the latest smartphone technology in our existing 
lineup, we will also add Windows 8 smartphone and tablet offerings into 
our technology catalog in fiscal year 2014. Our CIO staff also 
continues to work extensively with third-party software providers to 
enhance our iPhone and iPad corporate e-mail client, looking toward 
alternatives that will allow for greater iOS feature integration while 
maintaining a solid security posture. Finally, we continue to monitor 
and test Android devices with the goal of supporting Android devices 
when we can do so with adequate security.
    This fiscal year we are addressing an important new requirement by 
providing the ability to synchronize your data with all the devices you 
use. The synchronized data storage solution will not only give you 
access to your most recent files; it will provide the ability to 
collaborate with individuals and groups anywhere, anytime, from any 
Internet-connected desktop, laptop, tablet or smartphone.
    We also addressed another long-standing office requirement: access 
to delegated calendars through the delegate's smartphone. A new mobile 
delegate calendar application gives staff you designate the ability to 
view and manage your calendar from their Senate-issued BlackBerry 
device. A similar application for the iPhone and iPad is under 
development and will be supported as soon as possible.
    In fiscal year 2014 we will continue to communicate effectively 
with our customers through a well-developed outreach program that 
includes information technology newsletters, periodic project status 
reviews, information technology working groups, weekly technology and 
business process review meetings with customers, and joint project and 
policy meetings with the Committee on Rules and Administration, the 
Senate Systems Administrators Association, and the administrative 
managers steering group.
            Robust, Reliable and Modern Communications
    We provide modern, robust and reliable data network and network-
based services that the Senate relies upon to communicate 
electronically within and among offices on Capitol Hill and in the 
States; to and from other Legislative Branch agencies; and through the 
Internet to the public, other agencies and organizations.
    We have virtualized the electronic paperless fax system, and will 
be virtualizing the voicemail system this year.
    In coordination with the four major cellular carriers (AT&T, 
Sprint, T-Mobile, Verizon), we are in the process of upgrading the 
Senate's in-building cellular wireless system to provide 4G/LTE 
wireless service throughout the Senate campus. To date, three carriers 
have completed their installations, and the fourth should be done by 
the end of June.
    Recognizing the need to remain in front of growing data 
communications within the Senate campus, as well as the introduction of 
voice services through Watson voice, we upgraded our internal core 
network connections tenfold. This provides increased capacity of data 
network communications. In relation to this effort, we also upgraded 
the hardware that comprises our core and distribution layers of the 
Senate's internal data network. This provides a couple of key benefits, 
including increased backplane speeds and remaining current with regard 
to vendor support. These upgrades allow us to remain current with 
technology and ensure that the data communication network remains 
robust and scalable to the growing needs of our Senate customers.
            Providing Services That Meet Business Requirements
    This past year, we began and completed the migration of voice 
services to Watson voice, which uses the internal data network to 
support phones and voice calls. The successful migration of all Senate 
offices was the result of solid preparatory efforts over the past few 
years. In addition to supporting Senate offices, Watson voice also 
supports the United States Capitol Police, the Senate Superintendent, 
the Senate Federal Credit Union, and other tenants. Building on 
previous efforts that enhanced CapNet, which connects the Legislative 
Branch agencies, we were able to support the Capitol Police's phones 
without the need for a separate phone system.
    We continue to invest in our 802.11 wireless LAN service (WiFi), 
which includes the ongoing replacement of more than 700 wireless access 
points within the Senate campus. This investment ensures that the 
Senate will remain up to date with regard to equipment as well as 
allowing us to begin offering higher-speed WiFi service through the use 
of the latest wireless communications protocols. We have also begun 
offering WiFi service to State offices. This long-awaited service 
allows offices to install wireless access points in their individual 
State offices. These access points interact with the campus WiFi 
infrastructure to allow Senators and staff to use the same credentials 
to access the service both here on Capitol Hill and in their State 
offices, thus providing a seamless experience for those who travel 
between Capitol Hill and State offices.
            Providing a Robust and Scalable Network Environment
    Understanding the importance of Internet service and the value it 
brings to our customers in their communication with constituents, 
ability to conduct online research and facilitate the legislative 
process; we upgraded the connections between the Senate network and the 
Internet at both the primary and alternate computing facilities in 
2012. We doubled the amount of bandwidth at the primary facility, to 
1.0Gbps, and increased the service at the alternate facility to 
0.8Gbps. These upgrades provide higher performance speeds and ensure 
that each facility can independently support Internet traffic in the 
event that one of the two circuits fails.
            Support for COOP and COG
    We provide key support for continuation of government efforts, 
including the alternate chamber site at the National Defense 
University. In the past, we supported this site through a leased fiber-
optic connection. Over the past year, we reached an agreement with the 
House of Representatives, which had extended their fiber-optic ring to 
the location, to secure a redundant connection of equal speed as the 
leased service and save the Senate $104,000 annually in lease charges.
    We have almost completed a multi-year effort to replace and upgrade 
the aging Senate Emergency Communications Vehicles with a new smaller 
SUV-based platform that will provide voice, data, and video and secure 
communications via satellite from remote locations to the Senate 
network.
            Meeting New Business Requirements
    We recognize that growth in requirements for support of personal 
computing devices is inevitable, due to the decreasing cost of these 
smart devices and their increasing availability. We are actively 
evaluating technology that will enable us to assess the security 
features of such devices. If a device does not pass the security check, 
we will be able to provide on-line remediation.
            Customer Service Culture
    The Senate data network is constantly changing as new services are 
offered and developed. At the center of this changing environment is 
our Network Operations Center (NOC), which monitors and maintains the 
data network and the services it enables. In 2012, the NOC handled more 
than 1,800 service-related calls as well as more than 1,500 network 
change requests, which involves evaluating the risk of each change 
request. The change process also involves engaging stakeholders, such 
as our engineering and security groups, when necessary. The timely 
processing of all customer requests is a testament to the dedication 
and hard work of our staff.
            Ensuring Security of the Senate's Network Environment
    In 2012, we enhanced the security of our Domain Name Service by 
implementing a security protocol called DNSSEC. Domain Name Service is 
used in Internet and intranet communication to provide the actual 
network address associated with a name, such as www.senate.gov. In that 
way, it is similar to the way a telephone directory works. The ability 
to intercept a query and modify the response provides a malicious actor 
with the ability to redirect communication for the actor's own 
purposes. The addition of DNSSEC helps ensure the accuracy of the 
information that is relayed back when a query is made for the address 
associated with a name. The Senate was the first Legislative Branch 
agency to implement this security protocol.
    To continue to strengthen the security at our border with the 
Internet, we upgraded the firewalls between the Senate network and the 
Internet to new appliance-based units. This upgrade accomplished two 
things: it ensured we remained on the most current product; and it 
allowed us to separate the firewall from the network known as the 
``demilitarized zone'' that supports all publicly-available services. 
That last benefit provides an easier way to accommodate future upgrades 
and enhances our failover capabilities.
    In addition to our robust messaging infrastructure that processed 
approximately 306 million Internet e-mail messages during the past 
calendar year, we also support effective communication through the use 
of videoconferencing.
    We continued to enhance our videoconferencing infrastructure that 
processes an average of 300 video calls per day when the Senate is in 
session, to include the ability to call anyone in the world through a 
secure, publicly-available client. With this new capability, 
communications with those outside the Senate can now enjoy the same 
quality, reliability, and security as calls within the Senate. We have 
also extended the videoconferencing capabilities currently available on 
Windows and Apple Macintosh computers to include the iPad.
    We improved the multi-user/multi-site video call services to 
streamline the connection process and more accurately reflect the way 
we have found our customers use the service. We also strengthened the 
resiliency of the core videoconferencing services by deploying a high 
availability infrastructure for those core services to achieve less 
downtime and increased reliability.
    This past year we continued to further integrate the Microsoft Lync 
platform with our modern telecommunications infrastructure in order to 
deliver additional unified communications capabilities. In addition to 
instant messaging, presence indicators and desktop sharing, through 
Lync we now offer integrated audio and Web conferencing services. The 
new service offering, Watson Unified Conferencing, will replace our 
existing audio conferencing system by the end of this fiscal year and 
yield additional savings in maintenance and support. It also increases 
our total audio conferencing capacity and better integrates with our e-
mail system for simplified scheduling. More than 6,000 people in 100 
offices take advantage of the service.
    Committees extensively use streaming video to broadcast their 
hearings over the Internet. This year we transitioned from an 
internally-supported infrastructure to the Akamai content delivery 
network. We've realized huge benefits since moving to this service, 
including the capability to serve virtually unlimited numbers of 
simultaneous viewers, DVR-like capabilities for live streaming events, 
protection against denial of service attacks, and the elimination of 
the impact that large numbers of viewers created on the Senate's 
Internet connections.
    The Large File Transfer System, which has been in use for nearly 3 
years, has streamlined the process of sending large files. Currently, 
80 offices use it to correspond with other offices in the Senate as 
well as with external entities, including other Government agencies, 
the media and constituents. In addition, the Senate Recording Studio 
uses the system to send video files to Senators' offices not only on 
Capitol Hill, but also in their home States. Since November 2012, the 
system has processed more than 4,000 files with 740 gigabytes of data.
    During 2012 we continued to make solid progress in reducing the 
power consumed by our primary data center. Through our multiple 
greening efforts, including server virtualization and purchasing more 
energy efficient equipment, the data center is using 100 amps less 
power, compared to this time last year. That means we're providing the 
same service levels to our customers while consuming 14 percent less 
power. We have met and will continue working to exceed our internal 
goal of reducing our physical server footprint by 10 percent. This will 
reap significant cost savings to the data center in terms of power, 
cooling, and hardware maintenance.
            Web-Based and Customer-Focused Business Applications
    We continue to add functionality to TranSAAct, which is our 
platform for moving business online. Based on the requirements of 
offices and the Committee on Rules and Administration, we continue to 
develop TranSAAct to eliminate paper-based manual processes and move 
them to the Web. Because it is built on an extensible modern database 
framework, TranSAAct allows indefinite expansion as new requirements 
are identified. This year we completed a depot to house and organize 
the forms and documents that Chief Clerks use, with links to a 
collection of how-to documents and checklists for Chief Clerks to 
collaborate on best practices. Along with a technology refresh, we 
enabled TranSAAct users to log in using their network login and 
password, eliminating the need to remember another set of credentials.
    We also started development of additional asset management 
features, including the ability to relocate, reassign, return to stock, 
and request repairs for assets assigned to an office. Integration with 
our service manager system will make it much easier for our customers 
to submit service requests. Office staff will be able to initiate full-
service and self-service requests when business rules permit. 
Integration with the Senate Technology Catalog will facilitate wireless 
device and iPad service requests via single sign-on and pre-populated 
asset data fields. We have also started working with the Secretary of 
the Senate on integrating Stationery Room usage and billing information 
in TranSAAct.
    We look forward over the coming months and years to moving 
additional business processes to the Web, delivering increasing 
functionality to administrative staff, and reducing the time, paper and 
errors associated with the current manual processes.
    We are working in collaboration with the Secretary of the Senate to 
replace the current payroll system with a new one that is built on a 
modern technological platform and will provide additional capabilities 
to benefit Members and employees, office management, and the 
Secretary's staff. We plan to implement phase I of the new system, 
which replaces the current payroll functionality, in late summer of 
this year. Phase II will follow that implementation and will provide 
self-service capabilities to Members and employees.
    After passage of the Stock Act, S.4038, we began work with the 
Secretary of the Senate and the Ethics Committee to develop a new 
electronic financial disclosure application and database to allow 
electronic filing of reports and to allow the public to download, sort, 
and search filers' financial information. The first phase, making 
Members' reports available to the public was implemented on schedule on 
September 30 of this past year. Work on the second phase, the online 
disclosure application, is ongoing.
    We expanded the options available to offices for content management 
systems to support their www.senate.gov Web sites. This was in response 
to requests for open source, rather than proprietary, systems that are 
more prevalent in Web site development and have a much larger market 
share than our existing offerings. We stood up the infrastructure 
necessary to support both Drupal and WordPress as content management 
systems for development of public-facing Web sites. We expanded the 
services of other Web-based applications such as the service that 
almost 70 offices use for accepting service academy nomination 
requests, intern applications, budget requests and other types of 
applications and requests. To date, constituents have submitted more 
than 67,583 different requests through this system. We also modernized 
the Capitol Facilities Order Request system that allows offices to 
request services from our Capitol Facilities group. Among other 
services, it provides an online catalogue of furniture available for 
Capitol offices, order services and room reservations. To date, offices 
have placed more than 2,300 work orders for services through the 
system.
    We provide numerous Web-based systems to enhance the productivity 
of office staff, such as one for the Placement Office that allows 
external applicants to electronically submit job applications for 
positions in Senate offices. Currently, there are over 36,000 accounts 
in the system. We continued to significantly enhance the Lobbyist 
Registration application to create a more robust reporting 
functionality for general public consumption.
    We also developed a new Web-based Learning Management System that 
allows Senate staff to view the Office of Education and Training's 
courses and classes, enroll in classes, view transcripts and more. To 
date, more than 1,500 accounts have been created to use the system, and 
almost 550 classes and 200 courses scheduled.
    CIO staff were also heavily involved with the 57th Presidential 
Inaugural ceremony. We developed applications and supported the Joint 
Congressional Committee on Inaugural Ceremonies, the Senate Media 
Galleries, and the United States Capitol Police. They used the 
applications we developed to process over 12,000 credential requests 
and assign over 1,500 VIP guests seats. We provided support to the 
committee, the galleries, and USCP until the last badge was printed the 
day of the Inauguration.
            Showcasing and Promoting Modern Information Technology in 
                    the Senate
    We will continue to highlight new technologies in the Information 
Technology Demonstration Center through demo days, which have been 
well-attended in the past. After products are tested and validated in 
our technology assessment laboratory, they are then available for staff 
to try in the Demo Center. The demo days feature live demonstrations of 
new and emerging technologies.
    In order to perform technology assessments, feasibility analyses 
and proof of concept studies to ensure we are considering technologies 
that will directly support the Senate's mission, we continue to improve 
the capabilities in our technology assessment laboratory. Technologies 
and solutions are vetted and tested here prior to being announced for 
pilot, prototype, or mass deployment to the Senate. To ensure we focus 
on the most relevant technologies and solutions, the Technology 
Advisory Group, consisting of CIO staff and our customers, performs 
high-level requirements analysis and prioritizes new technologies and 
solutions for consideration for deployment in the Senate.
    We continue to make progress in providing unified communications 
capability, tying together voice, video and data communications into a 
single tool that presents the user the available communication 
options-- based on the capabilities of the device they are using and 
the ways the person being communicated to wants to be communicated 
with--to make contact with those with whom they work. With the release 
of Watson Unified Conferencing, instant messaging, audio and Web 
conferencing, desktop sharing, and presence information are now 
accessible from a single client that is integrated with our 
telecommunications and e-mail systems.
    We will continue or intensify these efforts in fiscal year 2014 to 
ensure that the Senate is always well equipped to perform its 
functions. To keep our customers informed of our efforts, we publish 
the results of our studies on the emerging technology page of the CIO's 
area on Webster.

Enhancing Security for the Senate
            Enhancing Security Through System and Information 
                    Resiliency
    As I mentioned earlier, we build security, accessibility, 
flexibility and reliability into every system and service. We continue 
to test our technology in scenarios in which our primary infrastructure 
and primary work locations have become inaccessible. This includes the 
simulated loss of our primary data and network facilities, as well as 
simulated loss of staff work spaces. All mission-essential Senate 
enterprise information systems continue to be replicated at our 
Alternate Computing Facility, using our upgraded optical network and 
storage area network technology. We have created a high-availability 
videoconferencing infrastructure that operates simultaneously at the 
primary and alternate facilities, allowing for automated recovery from 
a loss of either the Primary or Alternate facility without loss of core 
videoconferencing network services. We also upgraded the redundant 
Active Directory domain controllers in the Alternate Computing Facility 
to the latest operating system. The new servers were deployed in 
virtual machines, removing more than 20 physical servers from the 
facility. We conduct a variety of exercises to ensure we are prepared 
from an information technology standpoint to cope with events ranging 
from a burst water pipe, to a pandemic, to an evacuation of Capitol 
Hill. These exercises demonstrate our ability to support mission-
essential systems under adverse conditions, and the ability to support 
substantial numbers of people working from home. We continue to 
exercise the ability to support our Senate customers in the event of an 
emergency situation which may limit our ability to get to work. This 
includes weekly and monthly exercises designed to ensure technical 
support is available from the Alternate Computing Facility and other 
remote locations. Our diligence to this initiative has proved 
worthwhile during various weather events. With the knowledge that the 
business of the Senate continued and that State office locations were 
not affected by the weather in Washington, D.C., our staff continued to 
support the Senate community remotely throughout these events. This 
included answering the phones from home-based locations, highlighting 
the capabilities that our current migration to IP telephony will bring 
to the rest of the Senate.
            Securing Our Information Infrastructure
    This past year we expanded our Systems Management Service that 
helps ensure devices are kept up to date with current versions of 
software to better reach perimeter systems, such as laptops that 
remotely connect to the Senate network. We also implemented a solution 
to provide automated update capabilities for operating system and 
third-party software security updates to Apple Macintosh computers. We 
have requested and have received approval to begin the construction of 
a Sensitive Compartmented Information Facility, or SCIF, at the 
Alternate Computing Facility to allow for the full utilization of our 
critical secure systems as well as the storage of classified material 
inherent to the operation of these systems.
    We have implemented new security measures to reduce the possibility 
of Senate information inadvertently leaving the Senate. In addition to 
wiping computer hard drives, erasing or removing copier hard drives, 
and degaussing tape drives that have been deemed surplus, we have added 
an additional data protection process to all printers containing hard 
drives to ensure that all configurations, IP addresses, stored images 
and Senate information are permanently erased before we dispose of 
them.
    Active and aggressive adversaries continue to target the Senate's 
information and technology assets. We have found over the last year, 
however, that keeping the Senate information technology infrastructure 
secure against these threats is becoming increasingly difficult. We 
strive to satisfy our customers' demands for the latest in 
technological innovations, but find that the new technologies come with 
new, undocumented vulnerabilities. As a consequence of performing 
vulnerability assessments and through work with our technology vendors, 
we have found that even ``mature'' technologies are often vulnerable 
and require periodic security patches. To compound things further, 
there are a growing number of adversaries using increasingly 
sophisticated tools in their attempts to destabilize the Internet in 
order to take advantage of the previously-mentioned vulnerabilities.
    These challenges create a circumstance where the IT Security group 
must continue to: (1) intensify our cyber security intelligence 
coordination and analytical processing ability; (2) improve our 
vulnerability identification and mitigation processes; and (3) increase 
our end user awareness training to compensate for the inherent 
insecurity of the technologies and the increasingly destabilized nature 
of the Internet.
    We understand that in all cases, the application of security 
controls must be appropriately balanced between the need to protect 
Senate information resources and the need to facilitate efficient 
Senate communications.
    In the past year, we have analyzed over 500 incidents involving 
potential malware and have shared over 1,100 attack indicators with 
other Federal agencies, thus raising the level of awareness and 
protecting the U.S. Government as a whole. Our analysis of malware 
identified a number of instances where previously unknown zero-day 
attacks have been attempted against newly-identified vulnerabilities 
that did not yet have security fixes. These attacks would otherwise 
have gone undetected and could have eventually compromised our entire 
network. By working with other organizations, not only have we 
protected the Senate's IT environment, we have raised awareness with 
our colleagues in the rest of the Federal Government.
    Our Vulnerability Assessment program and Systems Management Service 
(SMS) directly contribute to our strategic goal to provide a secure 
Senate information infrastructure. Over the past year, the value of 
these programs has increased as we reached 100 percent participation 
among offices able to participate in the programs. The office System 
Administrators now see a strong correlation between an office's 
adoption of these valuable programs and a reduction in the number of 
malicious software sightings in their offices. They are now excited to 
receive their monthly reports to see how well their office scored 
relative to other offices. This friendly competition has significantly 
raised the level of protection by encouraging offices to apply patches 
as soon as they are tested and made available. The Vulnerability 
Assessment program and Systems Management Service are undisputedly 
``success enablers'' for offices.
    The Systems Management Service provides automated critical security 
patches to non-Microsoft software on Windows-based computers. We 
recently extended it to include Apple Mac OS computers, saving staff 
time and effort and improving the security posture of the individual 
workstations in an office. We continue to see lower levels in the 
average security vulnerability of systems since the service was 
implemented. SMS serves as an excellent enhancement to our 
Vulnerability Assessment program and to Senate Update Services, which 
automatically patches Microsoft software. We have expanded it to better 
reach perimeter systems, such as laptops that remotely connect to the 
Senate network.
    We pay careful attention to the feedback from offices concerning 
these vital programs, and this attention to detail helps us strengthen 
our relationships with those we serve and protect in the Senate 
community. We are looking to expand the service even further to change 
and improve how we have historically managed the myriad devices that 
are deployed throughout the Senate.
    Calls to the Help Desk for assistance with remediating virus 
infections have increased over the past year. In calendar year 2010, 
the Help Desk received 413 requests for help with virus-related issues, 
while in calendar year 2011, the number of requests declined to 121. 
However, in 2012 we have seen an increase in the number of virus-
related calls to 165.
    In contrast, our IT security staff has noted a marked decrease in 
the number of security incidents handled by the Security Operations 
Center over the past 3 years. The number of security incidents 
decreased from 608 incidents in 2010, to 408 in 2011, to 310 incidents 
in 2012. This continued decrease in the number of incidents represents 
a 33 percent decrease from 2010 to 2011 and 24 percent decrease from 
2011 to 2012, with an overall decrease of 49 percent from 2010 to 2012. 
The decrease in overall security incidents can most likely be 
attributed to a combination of our increased level of end user 
awareness through cyber threats briefings and end user information 
security awareness training, better cyber intelligence sharing with 
other agencies, and our continual hardening of Senate devices through 
patching and better integration of security controls.
    We continue to increase end user awareness by providing real time 
unclassified and classified cyber threats briefings to offices, which 
give Senate staff the critical information necessary to better identify 
and defend against the techniques adversaries are using in attempts to 
gain access to Senate IT resources. In calendar year 2012, we provided 
47 such briefings to 40 offices. We focus attention on the tactics, 
techniques, and procedures that adversaries are currently employing. 
Using open source intelligence, we have seen attempts to target users 
by compromising Web sites that are commonly used by the general public.
    We are also working with social media providers to help secure 
official social media accounts. Using open source intelligence, we have 
become aware of accounts that have been created by adversaries posing 
as high-ranking officials in several social media outlets in order to 
entice targeted users to become online ``friends.'' The targeted users 
often are unaware that accepting the fake ``friend'' invitation could 
give unintended access to their personal friends lists, contacts, 
personal information, etc.
    We still observe spear phishing to be a significant avenue for 
potential exploitation. The number of targeted attacks against Senate 
assets increased by a third in 2012 over 2011 with a significant spike 
in the May-July 2012 timeframe that can be attributed to a spike in 
zero-day vulnerabilities in third party vendor software. The 
adversaries conducting these attacks use techniques we assess to be 
among the most resourceful, persistent, and technologically advanced.
    We continue to sharpen and update our defenses in order to be able 
to successfully defend against these advanced persistent threats and to 
compensate for the destabilizing Internet. Our ability to detect and 
neutralize these attacks is only possible with our continued close 
cooperation with our user community and the wider Federal Government. 
We must continue to coordinate and share information regarding all 
attack vectors with other Federal agencies so that we can all be better 
able to defend against these threats.
    We are currently in the process of designing, vetting, and 
deploying a Secure Web Gateway service to provide the Senate with 
increased protection against compromised Web sites that house malware 
staged by cybercriminals or other malicious actors. The solution will 
scan Web browser traffic for malicious activity and will block 
connections to known infected Web sites as well as remove mid-stream 
any malware that might be carried by such sites.
    We continue to look at leveraging new and current features to 
improve the utility of currently-deployed technologies. In one example, 
we were able to improve our ability to identify potential security 
incidents in the e-mail environment by forming a working group to 
evaluate and assess our current e-mail security capabilities. Our 
objective is to identify opportunities to improve our defenses and to 
better protect users against potential e-mail-borne threats that place 
Senate information and information systems at risk. The working group 
created a secure ``baseline'' for offices to use to prevent malicious 
messages from reaching Member and staff inboxes, which significantly 
reduces the opportunities of malware to infect and compromise their 
systems. The newly-configured feature gives offices the ability to 
identify potential e-mail threats if the office chooses to enable the 
feature. During this Congress, we are applying the new secure baseline 
to the new Member offices to provide a better secured e-mail service. 
The recommended set of security settings will be offered to the other 
offices in the coming months.
    We recognize that the broadening capabilities of adversaries 
require us to broaden our response to the new attack vectors. We have 
observed that bad actors have started to aggressively pursue ancillary 
services called ``watering holes'' that are outside the Senate security 
perimeter in attempts to infect networked devices when they are used to 
visit the infected webpages. In response, we have hardened Senate 
workstations and laptops with updated anti-virus technologies and we 
are actively scanning for vulnerabilities that require the application 
of security patches due to the broadening approach of bad actors. By 
combining multiple layers of security, we are making it much more 
difficult to compromise Senate devices.
    As we have for some years, we continue to perform security scans of 
BlackBerry devices used during overseas travel by Senators and staff; 
however, our customers' demands for the latest in mobile devices 
introduce significant challenges. For example, according to Gartner 
Research, there are over 4,000 variants of Android currently in 
circulation, each of which would require that we identify security 
standards and fixes for that particular variant. We are currently 
assessing mobile device management solutions to meet the challenges of 
securing the vast numbers of newly-introduced technologies, but have 
found that the extreme newness of the technologies has resulted in an 
extremely unstable marketplace for such technologies. We continue to 
move smartly in our assessment of mobile device management solutions, 
but with an eye for a solution that will be around for the long term.
    We continue to enlighten offices of the risks associated with 
taking work devices and personal devices on foreign travel. We have 
been hard at work with other Federal agencies on identifying protective 
actions for the devices taken on official travel. We are also working 
on how best to verify the integrity of these devices when they are 
brought back to be connected to our internal information technology 
infrastructure.
    We creatively adapt and apply new security principles to ever 
evolving technologies. We continue to promote and integrate industry 
and government security best practices into new technology initiatives 
by becoming involved early in the evaluation process of new 
technologies. By doing so, we are better able to incorporate security 
controls into new technology initiatives. For example, we are actively 
working with a storage area network provider to identify and fix 
vulnerabilities in their products prior to making the product available 
for Senate use.
    We continue to conduct threat briefings for System Administrators, 
office leadership, and other staff using information gained through 
close coordination with Federal agencies. Our vigilant monitoring and 
analysis of the evolving threat environment enable us to better develop 
effective countermeasures. Since even the best countermeasures can 
eventually be defeated, we augment our technical countermeasures with 
educating end users on the current threats, the techniques that are 
often used, and how to counter them. Over the last year, such training 
and awareness briefings have paid off in the form of increased 
situational awareness. Many of our tips come from Senate staff who have 
been targeted by adversaries. These tips have proven to be a wealth of 
information for our external partners, who are better able to protect 
their networks by deploying technical countermeasures.
    Due to the vulnerabilities associated with the latest technologies, 
new vulnerabilities found in ``mature'' technologies, and an 
increasingly sophisticated toolset used by adversaries who are trying 
creative ways to get to Senate information and information systems, we 
continue in our efforts to keep the Senate IT infrastructure safe. We 
must intensify our communication with cyber security intelligence 
organizations, improve our vulnerability identification and mitigation 
processes, and continue user awareness and threats briefings to 
increase our end user awareness of the inherent insecurity of the 
technologies and the increasingly destabilized nature of the Internet.

Enhancing Stewardship
            Enhancing Stewardship Through Fiscal and Environmental 
                    Responsibility
    Stewardship of our resources is intertwined with everything we do, 
as well as being a driving force for some of our activities. We are 
always looking for ways to improve our processes or technologies so 
that we save time, money, electricity, paper, or other resources. Our 
CIO organization is a good steward of the fiscal resources of the 
Senate, consistently and continuously improving on the services offered 
to our customers while seeking only modest increases in funding. Many 
initiatives save offices hundreds or thousands of dollars in costs that 
would otherwise be borne out of their official accounts. As most of 
these initiatives save money due to a reduction in the purchase of some 
commodity, they also fit in with our efforts toward environmental 
stewardship. Following are some examples of our efforts to enhance 
fiscal and environmental stewardship:
  --We completed the consolidation of our e-mail, mobility and network 
        authentication systems, which will yield significant savings in 
        ongoing support and innovation costs. Contractor support costs 
        have already been reduced by over $500,000 annually. Through 
        the use of fewer, scaled servers that each support larger 
        numbers of users, we will realize additional hardware and 
        software cost savings as these systems are replaced at the 
        conclusion of their normal lifecycle. Already we have removed 
        at least 30 physical servers as part of the effort.
  --Our Systems Management Service for automated deployment of 
        applications and updates to workstations and servers reduce the 
        maintenance burden on users and aid in maintaining a secure 
        systems baseline.
  --We have continued our virtualization efforts, where we now reduce 
        energy, maintenance, and support costs by running more than 855 
        of our servers in a virtual environment. We will continue an 
        aggressive campaign to virtualize servers until every server 
        that can be virtualized has been virtualized.
  --Offices have taken great advantage of our virtual machine 
        infrastructure that allows us to centrally host their file and 
        application servers on shared hardware at our primary and 
        alternate facilities, which greatly increases server hardware 
        efficiency, and, through system duplication and data 
        replication, offers enterprise-class data redundancy and 
        recovery in the event of a critical local failure or crisis. 
        The virtual solution also relieves offices of considerable 
        noise, and excess heat, and increases usable working areas for 
        staff. It removes the single point of failure from existing 
        office servers and meets continuity of operations and data 
        replication requirements for approximately half the cost of 
        existing solutions. To date we are hosting 98 Member and 
        committee office file servers with a total of 134 virtual 
        servers. Virtual servers running in the data center consume 
        only 25 percent of the energy of a comparable number of 
        physical servers. This means a reduction in power consumption 
        and air conditioning requirements, saving Senate funds, while 
        enhancing our ability to provide reliable and redundant 
        services. Fewer servers used by the Senate also means fewer 
        servers that need to be manufactured and therefore have to be 
        disposed of at their end of life, which is ``greening'' on a 
        national scale.
  --We continue to use our catalog to highlight the energy-efficient 
        aspects of our supported information technology and general 
        office equipment, and we participated in the Senate 
        Environmental and Energy Showcase.
  --We continue our efforts to dispose of surplus electronic equipment 
        through such programs as Computers for Schools. Last year we 
        fulfilled 20 Member office requests and packed and shipped 500 
        surplus computers to 75 eligible public schools. We send other 
        surplus equipment to the General Services Administration for 
        redistribution or resale.
  --We are using a new software program to electronically transfer 
        signatures from one of our signature machine vendors directly 
        onto Smart Cards. This new functionality allows offices to 
        receive new signature cards within hours, instead of waiting a 
        week or more on shipping. Electronic signatures can now be 
        saved and used for future replacement cards.
  --We also ensure that the devices we recommend to the Senate meet the 
        applicable EnergyStar guidelines, and where feasible, the 
        guidelines for the responsible manufacture of information 
        technology equipment.

                               OPERATIONS

Printing, Graphics, and Direct Mail
    The Printing, Graphics, and Direct Mail (PGDM) branch provides 
high-level, direct customer support to the Senate community through 
photocopying, graphic design, printing, mailing, archiving, logistics, 
and security. During fiscal year 2012, in an ongoing effort to 
continuously improve and serve Senate offices, PGDM introduced nine new 
products and services: E-Dear Colleague Letters (e-mailed); conversion 
of floppy disks, cassettes, VHS and BETA storage to digital files; 
secure scanning of sensitive documents; transfer of archival records 
from the Suitland Record Center to the offsite mail and package 
facility for digitizing and document preservation; piloting new online 
ordering Web site, production of pocket folders; State seal dies for 
foil stamping; raised ink printing (preprinted letterhead); and pre-
embossed stocks for quick production of Congressional Records reprints 
and certificates. To continually provide the best service to Senate 
offices, PGDM collaborated with SAA Office Support Services to make 
arrangements to personally visit staff in 82 offices to discuss their 
specific needs and provide information about all services and products 
available through PGDM.
    As a good steward of fiscal resources, PGDM garnered notable 
savings for the Senate. More than $1.2 million was saved in postage 
costs by pre-sorting 6.9 million pieces of outgoing Senate franked 
mail. Another $72,820 in postage was saved by using new software to 
identify 161,822 undeliverable addresses before they were introduced 
into the United States Postal Service mail stream. And we saved 
approximately $696,000 by producing 7,731 charts in-house for Senate 
Floor proceedings, committee hearings, and special events.
    PGDM continued to improve operations and responded to 65,843 
individual Senate job requests during fiscal year 2012. PGDM met Senate 
office demands for document preservation by scanning and digitizing 4.7 
million pages of Senate documents during fiscal year 2012 compared to 
3.7 million during fiscal year 2011, an increase of 23 percent. PGDM 
also scanned 747,659 pieces of unprocessed constituent mail during 
fiscal year 2012 compared to 679,436 pieces during fiscal year 2011, an 
increase of 10 percent. This allows offices to electronically route 
mail to staff and import into their Constituent Services Systems.
    PGDM's document management system. OnBase, continues to gain 
popularity among Senate office staff. This service, which allows 
offices private document management space, imported more than 50,000 
documents to individual office accounts during fiscal year 2012.
    PGDM produced 950 rolls of microfilm for Senate offices during 
fiscal year 2012 compared to 339 during fiscal year 2011, an increase 
of 180 percent. A large portion of microfilm produced was to assist the 
United States Capitol Police and the Secretary of the Senate with 
document preservation. PGDM offers secure disposal for obsolete 
documents, and during fiscal year 2012, shredded and disposed of 3,387 
boxes of obsolete documents.
    PGDM printed more than 33.7 million pages during fiscal year 2012, 
and more than 3.5 million pages were produced utilizing self-serve copy 
centers. Of the 33.7 million pages, there were 2.2 million color copies 
compared to 1.9 million during fiscal year 2011, an increase of 14 
percent; 13.9 million full color printed pages compared to 11.2 million 
during fiscal year 2011, an increase of 24 percent; and 6.1 million 
constituent letters printed compared to 3.2 million during fiscal year 
2011, an increase of 89 percent. In an effort to assist Member offices 
to efficiently direct constituent mailings, PGDM can individually 
address and seal mail pieces simultaneously. During fiscal year 2012, 
PGDM individually addressed 2,476,860 mail pieces to target specific 
constituents, as compared to 1,649,794 during fiscal year 2011, an 
increase of 50 percent. The amount of foil stamping/embossing/die 
cutting produced by PGDM during fiscal year 2012 was 248,542 pieces 
compared to 163,002 during fiscal year 2011, an increase of 52 percent.
    PGDM's commitment to teamwork and excellent customer service 
extends to its Legislative Branch partners as well. Collaborative work 
with the Architect of the Capitol fulfilled 89,678 flag requests during 
fiscal year 2012. By working in tandem with the Government Printing 
Office, PGDM delivered more than 2.2 million documents (Pocket 
Constitutions, Our Flag, Our American Government, etc.) to requestors.
    Through effective communication and teamwork, PGDM's Senate Support 
Facility upheld the SAA mission for operational security during fiscal 
year 2012 by receiving 1,674,405 items from the USCP off-site 
inspection facility and transferring them to the Senate Support 
Facility. This process eliminated 307 truck deliveries to the Capitol 
complex, reducing traffic, and allowing the USCP to focus on other 
aspects of safety.
    PGDM continues its commitment to assist the USCP with innovative 
methods of managing crowds and access for special events taking place 
on Capitol Hill. PGDM provides large format printing of signs and 
banners for major events, plus security enhancements for tickets, 
badges, and placards. To make it extremely difficult to reproduce 
counterfeit items, PGDM uses clear toner technology along with a custom 
USCP hologram that is foil stamped on credentials.

Central Operations
            Smart Card Programs--ID Office
    The Senate ID Office continues to work with other government 
agencies on infrastructure for Smart Cards based on HSPD-12 (Homeland 
Security Presidential Directive--the policy for a common identification 
standard for Federal employees and contractors). SAA staff from the ID 
Office and Technology Development Services are collaborating with 
Executive Branch counterparts to implement smart access cards. 
Currently, in conjunction with the Secretary of the Senate, the SAA has 
begun issuing Senate Smart Cards, which provide digital signatures on 
paperless transactions to increase accountability and security for 
Disbursing Office financial processes.
            Parking Operations
    Improving communication to enhance customer service is a primary 
focus of the Parking Operations team. A new parking map was introduced 
at the beginning of the 113th Congress to consolidate and better 
organize parking policy and procedures for permit holders. Parking 
Operations' Webster pages have been enhanced to provide more 
information about specific parking areas. SPARK, the Parking Operations 
management system, has been modified with capability to directly e-mail 
small groups of permit holders and office contacts. This enhancement 
focuses communication on Senate staff impacted by an event or change in 
a parking area.
    It is anticipated that preparing for long-term parking 
displacements will require the attention of Parking Operations during 
fiscal year 2014. The Architect of the Capitol is planning 
modifications to the Northeast Capitol Drive and is in the beginning 
stages of design for a complete renovation of the Russell Legislative 
Garage. Northeast Capitol Drive improvements will permanently remove 
six unoccupied spaces. The garage renovation will displace the parking 
permit issuance booth and more than 100 spaces for an extended period. 
Parking Operations will work closely with the Architect's personnel to 
ensure customer service can be maintained and displaced garage permit 
holders are accommodated in other Senate areas.
            Transportation and Fleet Operations
    Transportation and Fleet Operations procures, manages, and 
maintains SAA vehicles; provides transportation information to offices; 
and manages the Senate Parking Shuttle service. The SAA fleet includes 
trucks, vans, buses, SUVs, and a handicapped-accessible van to support 
the Senate community. Transportation and Fleet Operations is 
responsible for vehicle service maintenance and repair, completing work 
orders, equipment installations, tag/registration renewals, and 
inspections for all fleet vehicles. Fleet staff transported more than 
21,500 passengers through the SAA Fleet Shuttle service during fiscal 
year 2012.
    Transportation and Fleet Operations is a leader in ``go green'' 
initiatives with flex-fuel/E-85 vehicles, gas-electric hybrids, all-
electric vehicles, Segway Personal Transports, diesel exhaust fluid-
certified trucks, and a MAXXFORCE-equipped diesel engine with Exhaust 
Gas Recirculation (EGR) to meet latest EPA standards.

Photography Studio
    The Photography Studio provides photography and imaging services 
for Senate offices, capturing more than 77,000 photo images and 
producing more than 78,000 photo prints during fiscal year 2012. The 
Studio's popular image archiving service was used to scan, organize, 
and transfer more than 99,000 photo images for archiving purposes 
during fiscal year 2012.
    During fiscal year 2012, the Photo Studio fully completed print 
production conversion to chemical free, inkjet printing system with the 
addition of a large format inkjet printer, thereby totally eliminating 
the use of photo chemicals for all photo prints produced. The Photo 
Browser application continues to provide Senate offices a secure 
location to store and organize photos with the capability to download 
and upload photos, as well as place orders for photo prints through a 
Web interface.

Senate Post Office
    The Senate Post Office continues to be a good steward of taxpayers' 
dollars as it strives to elevate performance. Productivity continues at 
unprecedented levels. During fiscal year 2012, the Senate Post Office 
had its third highest productive year with only 60,583 fewer mail items 
than fiscal year 2011. After upgrading with acceptance of credit and 
debit cards during fiscal year 2011, customers continue to praise that 
service, which accounts for nearly 17 percent of overall retail sales 
exceeding $1.8 million during fiscal year 2012. In addition, 
installation of the Contract Access Retail System (CARS) began during 
February 2013. This new and improved equipment and software, provided 
at no cost to the Senate, supports automatic updates and allows 
customers real time tracking capabilities through the U.S. Postal 
Service (USPS) Web site.
    Mail remains an active medium for constituent communication with 
Senators and their staff. During fiscal year 2012, the Senate Post 
Office received, tested, and delivered 18,372,492 safe items to Senate 
offices, including 10,232,000 pieces of USPS mail; 7,657,275 pieces of 
internal mail routed within the Senate and to/from other Government 
agencies; 76,225 packages; and 406,992 courier items. Mail received by 
the Senate has increased substantially over the past 4 years which 
contrasts to the nationwide trend showing USPS mail volumes declining.
    All mail and packages addressed to the Senate's D.C. offices are 
tested and delivered by Senate Post Office employees. During fiscal 
year 2012, highly trained Senate Post Office off-site mail staff 
intercepted 76 suspicious articles containing a suspicious substance, 
134 items requiring additional U.S. Capitol Police Hazardous Material 
Response Team scrutiny, and 8,823 items requiring additional Post 
Office management screening. These mailings were addressed to Senators 
with the intent to disrupt Senate business. All suspicious items were 
reported to the Capitol Police and investigated.
    Senate Post Office management has also worked with the Committee on 
Appropriations and the Committee on Rules and Administration to build 
and operate one of the best facilities within the Government to process 
time-sensitive documents delivered to the Senate. The Congressional 
Acceptance Site ensures all same-day documents are x-rayed, opened, 
tested, and are safe for delivery to Senate offices. During fiscal year 
2012, more than 406,000 items were successfully tested with zero safety 
incidents. Working in conjunction with the Capitol Police, the Senate 
Post Office was able to upgrade the magnetometer, improve training, and 
implement trace detection at the Congressional Acceptance Site and the 
offsite mail and package facility.
    The Senate's method for processing mail has become the model for 
other Government agencies. The Senate Post Office has demonstrated its 
procedures and showcased its facilities for other Government agencies, 
including the Department of Defense, Department of Homeland Security, 
Federal Bureau of Investigations, and the Secret Service. Organizations 
know that Senate mail facilities, including the mail safety site 
procedures and highly-trained staff, are among the most efficient and 
secure in existence.
    Additionally, Senate Post Office staff worked collaboratively with 
scientific subject matter experts to introduce the first device 
designed to provide State staff with a level of protection when 
handling mail. Scientific subject matter experts believe that the 
Postal Sentry, if used properly, provides the best level of protection 
should State offices receive mail containing a potentially harmful 
substance. The Senate Postmaster has requested all Senate State office 
staff utilize the Postal Sentry mail processing system whenever mail is 
opened. All newly-elected Senators' State offices have been educated 
regarding benefits of the Postal Sentry, and many other Senators have 
opted for the device as well. Currently, 275 State offices have the 
Postal Sentry.

Capitol Facilities
    Capitol Facilities serves the Senate community by providing a clean 
and professional work environment through its Environmental Services 
branch. This branch cleans Capitol spaces, moves Capitol furniture, and 
provides special event setups in the Capitol--including ten event 
spaces in the Capitol Visitor Center (CVC) Senate expansion space. To 
meet cyclical customer demands during peak event setups and furniture 
moves, Capitol Facilities ensures labor cost efficiency by 
supplementing the full-time workforce with contracted labor in place of 
additional FTEs. This measure resulted in a third-year cost savings of 
$150,000.
    During fiscal year 2012, Capitol Facilities completed 3,510 special 
event setups in the Capitol and CVC Senate expansion space, an increase 
of 3 percent from fiscal year 2011. Service requests from Capitol 
offices for moving furniture, delivering supplies, and providing 
picture frames to Senate offices totaled 8,561, an increase of nearly 
50 percent from fiscal year 2011.
    The Furnishings branch provides furniture for Capitol offices on 
the Senate side by maintaining an inventory of stock items as well as 
designing and producing custom pieces. During fiscal year 2012, there 
were 2,675 requests for construction of frames and specialty framing. 
The Cabinet shop designed, built, and installed 210 pieces of furniture 
including new dais cabinets in the Senate Chamber and a new desk in the 
Senate Reception Room during fiscal year 2012. The Cabinet Shop, with 
direction from the Senate Curator's office, repaired 48 of the 
historical desks used in the Senate Chamber as part of their 
restoration plan.
    The branch also provides carpeting and draperies to Capitol 
offices. In August 2012, Capitol Facilities provided project management 
of the telecommunications upgrade and new carpet installation in the 
Senate Chamber, Senate Lobby, and Marble Room. Included in this project 
was the installation of new wood flooring provided by the Architect of 
the Capitol, the restoration of the Secretaries tables and Presiding 
Officer's desk in the Chamber, and the construction of new dais 
cabinets.
    To increase customer service to the Senate community, Capitol 
Facilities rolled out a revised version of the CapFOR 2.0 online 
request system. Comprised of seven modules, it allows customers to 
submit requests online for furniture, special events, supplies, and 
framing; the system is also accessible for the first time to outside 
constituents to facilitate placing their special event setup 
requirements online. The system increases efficiency and reduces errors 
in the customer request process.

Office Support Services
    Through timely communication and consistent high quality standards, 
the Office Support Services team continues to ensure all SAA services 
to Senate offices are provided efficiently.
    Office Support Services staff serve as liaison between Senators' 
State offices and the commercial or Federal landlords. The State Office 
Liaison oversees 450 State offices and assists Members in negotiating 
leases for commercial and Federal office space and mobile offices in 
their home States.
    Staff continue to consult Members, Leadership, and committees 
regarding the most efficient use of office automation, and analyze 
functional operations and workflow in Senate offices to determine how 
new office technology might improve efficiency and productivity. 
Another phase of the SAA's telecommunications modernization project, 
Watson Phone, was completed during the past year. Customer Support 
coordinated migrations for 152 Member, Leadership, committee, and 
support offices, which involved more than 8,300 telephones.
    During fiscal year 2012, Customer Support assisted 12 newly-elected 
Senators and three appointed Senators in setting up D.C. offices. The 
State Office Liaison negotiated 69 leases for State offices, including 
16 in new commercial space, two in new Federal buildings, one in a new 
mobile office, and 50 renewals/amendments. Customer Support and the 
State Office Liaison are in the process of assisting the 12 newly-
elected Senators, three appointees and Senators re-elected to an 
additional term in providing various areas of support to their D.C. and 
State office operations.

                           CAPITOL OPERATIONS

    Customer service and enhanced communication remain the focus of our 
Capitol Operations team. Over the past year, team members provided a 
range of services to Senators and their staffs, visitors to the 
Capitol, members of the news media who cover Congress, and the broader 
public.

Senate Appointment Desks
    Every day, thousands of people visit the Senate office buildings, 
the Capitol, and the Capitol Visitor Center (CVC)--many for the first 
time. For some of these visitors, their first stop is one of our five 
Senate Appointment Desks, where they are greeted with professionalism 
and a smile. Collectively, our five appointment desks processed 178,262 
visitors during 2012. Our computer-based logging and badging system 
allows visitors to be processed in an efficient, safe and customer-
friendly manner, while also helping the United States Capitol Police 
(USCP) better identify and protect visitors, as well as staff and 
Members.
    Our network of appointments desks--in the Capitol near the North 
Door, in the Capitol Visitor Center, and in the Russell and Hart Senate 
office buildings--provides for more efficient processing of visitors, 
allowing them to get their destinations quickly and safely. For 
example, the Capitol Appointment Desk processed almost 20 percent of 
our visitors during 2012, a total of 32,568 guests. The fact that the 
other 80 percent of the visitors were able to enter through the other 
desks has helped to reduce wait times for official business visitors 
entering through the North Door and reduce congestion within the 
Capitol proper.
    As noted, our other appointment desks were busy last year. More 
than 49,000 visitors entered the Capitol through the Capitol Visitor 
Center to attend meetings and functions in the CVC meeting rooms. 
Assisting guests with getting to the Capitol and the CVC from the 
Senate office buildings is an important role of the Senate Appointment 
Desks. In 2012, more than 81,000 guests, a record total, entered the 
Capitol via the Russell Appointment Desk, including 60,564 who were 
destined for the CVC. Another 15,379 visitors received badges from our 
Hart Appointment Desk, its busiest year since being launched as a pilot 
project in May 2010. The SAA worked collaboratively with the Senate 
Committee on Rules and Administration, the USCP, and the Architect of 
the Capitol to design a secure and welcoming process for staff who 
escort Senate guests to the Capitol from the Hart building.
    In an effort to improve understanding of how the Senate Appointment 
Desks work and how they promote safety, Appointment Desk personnel 
began providing regular ``roll call'' training to USCP officers in 
2012, explaining the process of logging visitors, distributing badges, 
and the different types of access each badge allows. Through 
information sharing and coordination with the USCP, everyone involved 
in the issuing and enforcing of visitor badges has a better 
understanding of the procedures in place. Later in the year, these 
presentations were extended to new Senate staff and interns as part of 
their orientation and tour training classes.

Senate Doorkeepers
    Our Doorkeepers play an essential role in supporting the 
legislative process of the Senate. They provide access to those with 
Senate Floor privileges and enforce the rules of the Senate, while also 
facilitating the needs of Senators, Senate Floor staff, and Pages. Each 
year, Doorkeepers also provide exceptional support for a number of 
special events attended by Senators, their families, and special 
guests. Over the past year, these events included the 57th Presidential 
Inauguration, the Lying in State of Senator Daniel K. Inouye in the 
Rotunda of the Capitol, the unveiling of the Rosa Parks statue in 
Statuary Hall, the swearing-in of Senators elected for the 113th 
Congress and the reenactments that followed in the Old Senate Chamber, 
and the movement and seating of Senators for the State of the Union 
address. Congressional tributes and Congressional Gold Medal ceremonies 
also require the expertise of the Doorkeepers who assist with 
professionalism and poise at these historic events.
    In addition to their work directly supporting Senators, the 
Doorkeepers have the responsibility--and the privilege--of assisting 
tens of thousands of people who visit the Senate Gallery each year. For 
many who visit the Capitol, the opportunity to sit in the Senate 
Gallery is a highlight. Doorkeepers ensure their experiences are 
educational, memorable, and safe. Last year, Doorkeepers assisted 
186,122 visitors in viewing the Senate Chamber, both when the Senate 
was in session and during recess. Keeping the Senate Gallery open 
during scheduled recesses, and staffing it with trained and 
knowledgeable Doorkeepers, has provided many everyday Americans and 
international guests with the opportunity to take in the beauty of the 
Chamber and learn about the ``world's greatest deliberative body.''
    Over the past year, we have worked to enhance the visitors' 
experience through greater collaboration with our partners such as the 
CVC, ongoing training of Doorkeeper staff, and refinement of the 
materials that are distributed to visitors. As a result, our 
Doorkeepers have become increasingly skilled at welcoming visitors to 
the Capitol and educating them on the history and operation of the 
Senate. The feedback has been consistently positive from visitors, 
Senate offices, and our partners. In particular, Senate Gallery 
visitors comment on our Doorkeepers' ability to process larger groups 
in an efficient, friendly, and helpful manner.
    Over the past decade and more, Senate Doorkeepers have taken on an 
expanded role in security and safety. Using lessons from September 11, 
2001, the Doorkeepers--working with the U.S. Capitol Police and the SAA 
Office of Continuity and Emergency Preparedness Operations--developed a 
comprehensive Continuity of Operations Plan. During 2012, the 
Doorkeeper team conducted regular drills and exercises with the USCP 
and others on various scenarios such as shelter-in-place, evacuations, 
and setting up alternate locations. In July, they worked with multiple 
departments to set up an Alternate Chamber in SH-216 in anticipation of 
pro forma sessions planned for August while the Chamber was undergoing 
renovation. Currently, all of our Doorkeepers are trained in first aid, 
CPR, and AED. During 2012, they also received specialized training on 
``Responding to an Active Shooter,'' as well as other events that could 
disrupt the normal course of business at the Capitol.
    Our Doorkeepers take their security support responsibilities very 
seriously, and they are a trained and reliable group of professionals 
who can be counted on to act decisively in any number of situations.

Senate Recording Studio
    In a time of instant communication and rapidly changing technology, 
the Senate Recording Studio strives to stay abreast of the latest 
solutions that allow the Senate to remain accessible to the public and 
enable Senators to communicate with their constituents across the 
country. The year 2012 was busy and productive for the Recording 
Studio. Last year, the studio provided 930 hours of gavel-to-gavel 
coverage of Senate Floor proceedings and broadcast coverage of 547 
Senate committee hearings. In addition, Recording Studio staff produced 
a total of 892 television productions for Senators. While this 
represents a decrease from 2011, this drop-off corresponds to a 
cyclical drop each election year when approximately one-third of 
Senators are restricted in their use of Recording Studio services 
during moratorium periods.
    In addition to the coverage of Senate Floor and committee 
proceedings, the Recording Studio plays an important role in providing 
broadcast support of major congressional events, often in collaboration 
with other partners. This past year, for example, the Recording Studio 
provided full coverage of the Apollo 11/John Glenn Congressional Gold 
Medal ceremony and transmitted the coverage to the National Aeronautics 
and Space Administration to air on NASA TV. Similarly, coverage of the 
Japanese-American WWII Veterans Gold Medal ceremony was shared with the 
Department of Defense for airing on the Pentagon Channel, as well as to 
the overflow rooms in the Capitol Visitor Center, allowing more than 
1,000 guests to view the ceremony.
    Beginning in 2011, the Recording Studio has provided support for 
the live streaming of the Senate Floor on the Senate's Web site, 
www.senate.gov. Studio staff played a vital role in upfront planning, 
technical specifications, and installing, testing and maintaining 
equipment in the Recording Studio. They worked closely with the SAA 
Chief Information Officer, Senate Committee on Rules and 
Administration, and the contractor to make sure this new and important 
service went online smoothly and on time in January 2012. Now, anyone 
with access to a computer can witness the Senate at work with the click 
of a mouse. The studio continues to be an active partner in the live 
streaming and archiving of Senate webcasts on www.senate.gov.
    In January of this year, the Recording Studio provided important 
technical support for the 57th Presidential Inauguration. Among its 
major undertakings, the studio produced the feed to each of the five 
Jumbotrons on the Capitol grounds and worked closely with the 
Presidential Inaugural Committee to produce its feed to the Jumbotrons 
on the National Mall. The studio also worked closely with the Office of 
Congressional Accessibility Services to provide descriptive audio and 
open captioning of the event. These efforts made it possible for 
thousands to witness to the Inaugural Ceremonies on the West Front of 
the Capitol and on the National Mall.
    As with many other SAA departments, the Senate Recording Studio 
plays a role in emergency preparedness and operations. In recent years, 
however, budget constraints have impacted the studio's ability to 
remain current technologically, and we have been forced to defer needed 
capital investments related to emergency preparedness. Specifically, 
the studio scheduled two major purchases--a new satellite truck and a 
new portable production system designed to broadcast from a remote 
location--to replace aging and outdated equipment. Both of these 
purchases have been eliminated from this request due to budget 
restrictions. While daily services of the studio are not impacted, 
these items continue to be important to ensure the Studio can meet its 
obligations during certain emergencies.

Media Galleries
    For members of the news media, the U.S. Congress remains one of the 
most open and accessible institutions of our Government--as it should 
be in the ``people's house. On any given day, hundreds of reporters, 
producers, photographers, videographers, and technical support 
personnel can be found in our hearing rooms and hallways covering 
Senate events and news conferences, and bringing the news of the Senate 
back to people across the country and around the world.
    Much of the responsibility for ensuring that the news media can 
conduct their business efficiently, safely, and in a manner that 
comports with Senate rules falls on our four Senate Media Galleries: 
the Daily Press Gallery, Periodical Press Gallery, Press Photographers' 
Gallery, and Senate Radio and Television Gallery. The unique structure 
of the Media Galleries, dating back to the early days of the Senate, 
requires them to work closely with their respective Standing and 
Executive Correspondents' Committees, the U.S. Capitol Police, and the 
Senate Committee on Rules and Administration in order to facilitate 
media arrangements and credentials for the more than 7,000 members of 
the media who cover the Senate.
    In recent years, the explosion of online and social media has made 
the demand for news constant. As a result, Congress is being covered in 
more detail than ever before. Given this dynamic, the staff of the 
Media Galleries has worked diligently to accommodate the ever changing 
technology environment and how the world gets its news. For example, 
the four Media Galleries worked with the SAA's Office of the Chief 
Information Officer to upgrade the technical infrastructure, including 
incorporating Wi-Fi in all four Media Galleries and across the Senate 
campus. The Senate press wireless system, accessible through a secure 
log-in script, supports immediate transmission of media reports, 
including coverage of committee hearings.
    Over the past year, all four galleries devoted considerable time 
and energy to handling media credentialing, logistics, and coverage of 
three major events: the 2012 Republican and Democratic Presidential 
Nominating Conventions and the 57th Presidential Inauguration. Because 
of their experience and expertise, every 4 years, the two political 
parties enlist the services of our Media Galleries to help with media 
arrangements at their nominating conventions. This past year, staff 
from all four galleries worked closely with the two parties, as well as 
logistics and security experts, to plan out the system for credentials, 
Floor passes, and coverage rules. Gallery staff then went on site to 
Tampa and Charlotte to ensure the smooth execution of the media plans.
    Similarly, staff from the four Media Galleries devoted 
extraordinary time and energy to planning and executing media 
arrangements for the 57th Presidential Inauguration, including 
credentialing, coverage plans, technical infrastructure and logistics, 
and day-of media operations. All three of these events were among the 
largest news stories of the past year. Thanks to the experience, 
diligence, expertise, and professionalism of the staff in all four of 
our Media Galleries, news media coverage of the conventions and the 
Inauguration was smooth, robust, and up-to-the-second. The end result: 
literally millions of Americans and people around the world were able 
to experience these events in real time.
    The year 2012 was busy in other respects as well. The Media 
Galleries played a critical role in such events as the State of the 
Union address, various high-profile committee and nomination hearings, 
several Gold Medal ceremonies, and the Lying in State of Senator 
Inouye, to name just a few. And, of course, Media Gallery staff worked 
right up to the stroke of midnight--and beyond--on New Year's Eve, as 
the Senate met to pass its solution to the ``fiscal cliff'' crisis. 
Staffing these types of high-media interest events is central to the 
duties of our Media Galleries staff.
            Senate Daily Press Gallery
    Daily Press Gallery staff supports those reporters who work for 
daily newspapers and online publications. Reaccreditation of Gallery 
members occurs every year, and for 2012, approximately 1,800 reporters 
were credentialed through the Daily Press Gallery.
    Gallery staff supports these reporters, as well as Senate Press 
Secretaries and communications staff, in a variety of ways. Gallery 
staff monitors Senate Floor activities and schedule changes, prepares 
for big events and ceremonies, and researches and assesses all 
credential applicants in conjunction with the Standing Committee of 
Correspondents. On any given day, Daily Gallery staff are monitoring 
and assisting with access on the Capitol's second floor and other 
locations where news is breaking, facilitating coverage of committee 
hearings, and answering numerous inquiries about legislation, Floor 
action, and parliamentary procedure from media and Senate staff. 
Gallery staff also supports Senators and their communications staff in 
making information available to the public and generally assisting the 
press dedicated to covering Congress.
            Senate Periodical Press Gallery
    The Periodical Press staff focuses much of its effort on 
credentialing over 1,200 members of the news media who work for non-
daily periodicals and online publications, and supporting Senate staff 
with media arrangements and logistics for Senate activities. For 2013, 
the Gallery renewed its focus on reviewing new applications for 
accreditation to the Gallery, as well as the day-to-day credentialing 
of periodical reporters on Capitol Hill.
    Among the ongoing duties of Gallery staff is to monitor news 
conferences, ``stakeouts,'' Rotunda events, and various other media 
events in the Capitol and Senate office buildings throughout the year. 
Staff continues to help facilitate media logistics at Senate hearings, 
including confirmation hearings for Cabinet-level positions and other 
high-profile hearings. In addition, most Press Secretaries and 
Communications Directors for Senators and Senate committees utilize the 
Gallery to help distribute information to members of the periodical 
press community that they might otherwise miss.
    During 2012, Periodical Press Gallery staff expanded its use of 
online and social media to support its efforts. Gallery staff maintains 
a daily Senate Floor log on its Web site; this online log has become a 
valuable resource to both Gallery members and Senate staff. The log 
tracks legislative activity, votes, and schedule updates in order to 
assist reporters covering the Senate and staff monitoring Floor 
activity. In the past 3 years, the Gallery's Web site has attracted 
nearly 237,000 page views from over 93,000 unique visitors. Traffic to 
the Web site continues to grow; the Web site received nearly twice as 
many unique visitors in 2012 (42,000) as it did in 2011.
    Part of the reason for this increase was the creation of the 
Periodical Press Gallery's Twitter account: @SenatePPG. Launched on 
December 3, 2012, the account has more than 1,000 followers. Twitter is 
proving to be an easy and efficient platform for keeping reporters and 
Senate up to date on Floor schedules, votes, hearings, and Gallery 
activity, and Gallery staff is looking to expand its use of social 
media in the coming year.
            Press Photographers' Gallery
    The primary role of the Press Photographers Gallery is to 
credential photographers and to assist at news events throughout 
Capitol Hill. Unlike the other three Media Galleries, which have 
counterparts on the House side, Press Photographers' Gallery staff has 
the unique responsibility of assisting at large news events and 
hearings in both the Senate and the House of Representatives.
    The demand for news images, and the need to get them out almost 
instantaneously, have increased dramatically in recent years, as Web-
based news content has expanded and social media has become an integral 
part of modern-day news coverage. These radical changes in how events 
are captured have increased the number of photographers covering 
Capitol Hill on a daily basis. A decade ago, a ``big'' event might 
attract 10 to 12 photographers. Today, it is standard to have 10 
photographers at a routine event while a popular hearing will draw 
between 20 and 30 photographers. Major events, such as the State of the 
Union, can attract over 50 photographers, and the Press Photographers' 
Gallery has the responsibility of planning coverage and assigning 
photographers to specific locations.
            Radio and Television Gallery
    Members of the broadcast media have unique needs and equipment, and 
the Senate has developed rules to facilitate broadcast coverage of the 
institution. The task of ensuring that the broadcast media's needs are 
met while the Senate's rules are followed falls largely to the staff of 
the Radio and Television Gallery. Gallery staff works closely with 
Senate staff and more than 3,700 credentialed members of the electronic 
media to facilitate coverage of Senate news and events in and around 
the Capitol. Senate staff relies on the Gallery's personnel for 
information on legislative business and press conference details in the 
Gallery's state-of-the-art studio.
    Updating the technical infrastructure of Senate committee hearing 
rooms and other news event locations throughout the Senate campus 
remains a priority for Gallery staff. Working with other partners, the 
Radio and TV Gallery is able to ensure broadcast news requirements are 
met and news is disseminated as quickly as possible. This past year, 
for example, fiber optic connectivity was installed in room SD-G50 of 
the Dirksen Senate Office Building. The upgrade supports high 
definition TV coverage of hearings and news conferences. Broadcasters 
recently used the new connectivity in SD-G50 to cover events such as 
the Armed Services Committee's investigative hearings on the terrorist 
attack in Benghazi, Libya; the confirmation hearing of Senator Chuck 
Hagel to be Secretary of Defense; and Senator Dianne Feinstein's news 
conference on assault weapons.
    In addition, technical upgrades to the Senate ``swamp'' site in the 
North Legislative Egg supported news coverage of the Supreme Court's 
historic decision regarding healthcare. Similarly, the Russell Rotunda 
media area, also recently upgraded, continued to be heavily used by 
Senators for interviews with broadcast and cable TV outlets.
    Radio and Television Gallery staff also assists Senators in their 
regular use of the Gallery's studio, located across from the Senate 
Chamber on the 3rd floor of the Capitol. In 2012, the studio hosted 
media events relating to raising the debt ceiling, healthcare 
legislation and immigration reform. Renovations are currently being 
discussed to upgrade the Studio's lighting to LED and the audio system, 
and adding backdrops for conducting exclusive interviews.

Internal Communications
    In this age of instant communications and ongoing security 
concerns, keeping the Senate community informed has taken on added 
importance. In 2012, the SAA shifted some personnel to create a small, 
but highly-focused, Office of Internal Communications (OIC) to 
streamline communication within the SAA organization and to the rest of 
the Senate community. OIC provides SAA employees and other members of 
the Senate community with timely, accurate and useful information that 
highlights SAA services and furthers efficiency and effectiveness. The 
office supports consolidated communications; better promotion and 
utilization of SAA services; and more clear, consistent and accurate 
organizational messages, especially for major announcements and 
``breaking news'' affecting the SAA organization. OIC coordinates 
communication efforts through multiple channels--print, online, and 
(most recently) social media.
    OIC manages and maintains the Notice system, and distributes 
Notices to the Senate community. During 2012, OIC sent nearly 550 such 
Notices on a wide range of topics. Also in 2012, the SAA worked to 
launch an e-Dear Colleague system, in which Senators' messages to their 
colleagues can now be sent electronically. This system is saving the 
Senate on printing and paper costs, and is getting information to 
recipients much faster than the old paper-based distribution system. 
OIC has sent more than 100 e-Dear Colleague messages since the program 
began in February 2012.
    OIC also performs the important function of reviewing and editing 
publications that are distributed from the SAA to our employees and to 
other Senate stakeholders. During 2012, staff reviewed approximately 
250 publications for content and grammar. In addition, OIC publishes 
the SAA Source, an employee newsletter which is distributed every other 
week to more than 900 employees across the SAA organization.
    In addition to traditional print and e-mail documents, the OIC also 
oversees online communications. Over the past year, staff has 
redesigned, maintained, and continuously updated two important Web 
sites: the SAA homepage on Webster, which accessible to the entire 
Senate community; and the SAA community (intranet) page, which is 
accessible to SAA employees. Both of these online resources are 
providing critical and timely information on a variety of topics, and 
are helping to bring SAA services closer to our customers.
    Finally, OIC has worked closely with the Deputy ASAA for Capitol 
Operations to research, develop, and launch the SAA's initial foray 
into social media. Like many of our Legislative Branch counterparts, 
the SAA is using social media to communicate with our employees, 
customers, and the public, and to receive feedback from them. Social 
media has become an important element of our everyday communications 
efforts and has been used successfully during the Inauguration and 
other special events over the past last year.
    In September 2012, the SAA launched our official Twitter account: 
@SenateSAA. We recently surpassed 1,200 followers, posted more than 
1,000 tweets, and have generated in excess of 4,000 hits on the 
www.senate.gov Web site as a result of our tweets. The Senate community 
and the public have responded well since we joined the ``Twitter-
sphere,'' as evidenced by the numerous tweets that have been re-tweeted 
and our growing number of followers. And we are continuing to research 
other potential social media applications for the SAA organization. For 
example, we are planning the launch of an SAA Facebook page intended to 
help highlight the work of our employees and expand the level of 
engagement with employees, partners, and customers.

                SENATE OFFICE OF EDUCATION AND TRAINING

    The Senate Office of Education and Training provides training and 
development opportunities for Senate staff in Washington, D.C., and the 
States. There are two branches within the office: the Education and 
Training branch and the Health Promotion branch.
    The Education and Training branch offers training opportunities for 
all Senate staff in areas such as management and leadership 
development, human resources management, legislative and staff 
information, new staff and intern orientation, and training support for 
approved software and equipment used in Washington, D.C., and State 
offices. This branch also coordinates and provides major training 
events for State and D.C. staff.
    Training and education are delivered through instructor-led 
classes; one-on-one coaching sessions; specialized vendor-provided 
training; Internet and computer-based training; Webinars; video 
teleconferencing; informal training and support services; 
documentation, job aids, and quickcards.
    The Health Promotion branch holds seminars, classes, and screenings 
on health and wellness issues. This branch also coordinates an annual 
Health Fair for all Senate employees and plans blood drives throughout 
the year.

Capitol Hill Training
    The Office of Education and Training offered over 900 classes and 
events in 2012, drawing over 9.500 participants. This office's 
registration desk handled over 25,000 e-mail and phone requests for 
training and documentation.
    We also provided 225 customized training sessions for 610 staff 
members. These sessions ranged from in-depth training of Senate office 
System Administrators, to conflict resolution, organizational 
development, and all office meetings for Member offices. We provided 
individual consultation on Web site development and office systems 
training.
    We coordinated the Aides for the Senators-Elect training. This 
consisted of eight sessions with 20 to 30 staff at each session. This 
orientation will be continued in 2013.
    The Senate's Intern Program is also a focus of the office. We 
provide training for intern coordinators as well as ten orientation and 
training sessions for approximately 1,500 interns.

State Office Training
    The Office of Education and Training provided 94 learning 
opportunities to State offices for which 2,625 State staff registered. 
Our office continues to offer the State Training Fair Program and video 
teleconferencing and Webinars as a means to train State staff. In 2012 
a session of a State Training Fair was attended by 32 State staff. We 
held our first virtual State training fair in the fall. We held 20 
sessions attended by 120 State staff. We also conducted the State 
Directors Forum, which was attended by 32 State Administrative Managers 
and Directors, and a Constituent Services Forum attended by 58 State 
staff. We held a conference for outreach staff that was attended by 48 
staff. Additionally, the office offered 10 video teleconferencing 
classes, attended by 110 State staff registered, and offered 25 
Webinars that were attended by over 200.
    We provide over 4,000 Internet-based training courses covering 
technical, performance, and language skills and an online research 
library of 19,900 publications. This allows staff in both D.C. and the 
States to take training at their convenience. To date, 826 D.C. and 
State office staff have registered and accessed 1,780 different lessons 
and publications using this training option. Education and Training 
also provides over 100 Senate-specific self-paced lessons that have 
been accessed over 4,800 times.
    In the Health Promotion area, 2,200 staff participated in 60 health 
promotion activities throughout the year. These activities included 
lung function and kidney screenings, eight blood drives, seminars on 
health-related topics, and the Annual Senate Health Fair. We also 
coordinate Weight Watchers, Yoga, and Pilates sessions using the 
revolving fund for health promotion.
    We continue to develop job-specific training and resources for 
Senate staff. Currently we are developing training for Legislative 
Directors, Legislative Correspondents, Schedulers, and Chief Clerks. We 
successfully trained each office in the Senate on the use of the new 
Watson phone system. We used a variety of learning methods, including 
online, documentation, classroom, and individual coaching.
    We recently deployed a new Learning Management System. This 
provides Senate staff with a user-friendly method for finding and 
registering for training. It has become a part of our Education and 
Training portal, which provides a variety of means for staff to obtain 
the training and documentation they need.
    In the coming year, we will expand online training options for Hill 
and State staff. We are planning for additional training for security 
and mental well-being in the State offices, job-specific training and, 
as the need arises, training on Floor policy and procedures.

Cost Saving Impacts
    The Office of Education and Training continues to look for ways to 
use technology to enhance customer service while at the same time 
reduce costs. Recently, for example, we eliminated all printed 
announcements and calendars in favor of online and electronic 
documents. We have expanded our offerings of video teleconferencing and 
Webinars to include State and D.C. offices. We continue to add self-
paced training modules to our catalog to allow State and D.C. staff to 
learn at their own time and place. Our Virtual State Training Fair has 
reduced travel costs to the State offices, yet provides a method of 
sharing ideas and training among the State offices. Our new Learning 
Center, created by SAA staff, reduces he support costs of our 
commercially-purchased system.

                      EMPLOYEE ASSISTANCE PROGRAM

    Our Employee Assistance Program (EAP) continues to offer a variety 
of services to staff, and their family members, Pages and interns. In 
2012, nearly 1 in 20 Senate employees utilized the services of an EAP 
counselor; 254 employees took a mental health on-line screening; 2,740 
employees attended an EAP training activity; and 2,220 employees 
accessed resources for personalized information and referrals 
addressing childcare, parenting, adult care, aging, education, legal 
concerns, or financial issues.
    Early problem recognition and referral is a critical component of 
the EAP. To that end, EAP counselors work closely with Senate managers 
and supervisors. Through presentations, handouts, and individual 
consultations, the EAP supports managers and supervisors who are 
addressing challenging employee or staff issues. In 2012, EAP consulted 
with 252 managers or supervisors.
    An invaluable characteristic and goal of EAP services is to utilize 
outreach to effectively serve our client base. Working toward this goal 
in 2012, EAP hired an Administrative Specialist to act as an accessible 
resource liaison to the Senate community. Among other tasks, this 
position provides administrative support to the EAP counselors and 
works to enhance resource development and program outreach for our 
clients. In addition, EAP continued to update materials on a wide array 
of mental health topics while offering a variety of time-sensitive and 
community-focused training programs, including video teleconferencing 
programs for State offices. Last year EAP also continued to hone, 
expand, and utilize the skills of the 32-member Senate Peer Support 
Team through a series of presentations, trainings, and informational 
lectures.
    With regard to specific incidents in 2012, the EAP responded to a 
multitude of events, including the emotional needs and concerns that 
arose from those impacted by Hurricanes Sandy and Isaac; the Aurora, 
Colorado, and Newton, Connecticut, shooting tragedies; threatening mail 
incidents; the death of Senator Inouye; the deaths of employees and the 
family members of employees; and employees and offices who requested 
support after other critical incidents.

              Appendix A--Fiscal Year 2014 Budget Request

                              Attachment I

                                       FINANCIAL PLAN FOR FISCAL YEAR 2014
                              OFFICE OF THE SERGEANT AT ARMS--UNITED STATES SENATE
                                                EXECUTIVE SUMMARY
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal year 2014 vs. fiscal year 2013
                                                ----------------------------------------------------------------
                                                   Fiscal year     Fiscal year
                                                   2013 budget    2014 request      $ Amount       % Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...................................         $69,182         $68,000        ($1,182)             -1.7
    Expenses...................................          75,353          74,230         (1,123)             -1.5
                                                ----------------------------------------------------------------
      Total General Operations & Maintenance...         144,535         142,230         (2,305)             -1.6
Mandated Allowances & Allotments...............          41,505          40,254         (1,251)             -3.0
Capital Investment.............................           1,041  ..............         (1,041)           -100.0
Nondiscretionary Items.........................           5,985           5,516           (469)             -7.8
                                                ================================================================
      Total....................................         193,066         188,000         (5,066)             -2.6
Staffing.......................................             936             904            (32)             -3.1
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services, and equipment, we submit a fiscal year 2014 
budget request of $188,000,000, a decrease of $5,066,000 or 2.6 percent 
compared to fiscal year 2013. The salary budget request is $68,000,000, 
a decrease of $1,182,000 or 1.7 percent, and the expense budget request 
is $120,000,000, a decrease of $3,884,000 or 3.1 percent. The staffing 
request is 904.

    We present our budget in four categories:
  --General Operations and Maintenance (Salaries and Expenses);
  --Mandated Allowances and Allotments;
  --Capital Investment; and
  --Nondiscretionary Items.

    The general operations and maintenance salaries budget request is 
$68,000,000, a decrease of $1,182,000 or 1.7 percent compared to fiscal 
year 2013.
    The general operations and maintenance expenses budget request for 
existing services is $74,230,000, a decrease of $1,123,000 or 1.5 
percent compared to fiscal year 2013.
    The mandated allowances and allotments budget request is 
$40,254,000, a decrease of $1,251,000 or 3 percent compared to fiscal 
year 2013. This budget supports State office rents, $17,079,000; 
purchase of computer and office equipment, $10,118,000; voice and data 
communications for Washington, D.C. and State offices, $7,233,000; 
procurement and maintenance of member office constituent services 
systems, $3,686,000; wireless services and equipment, $1,082,000; and 
State office security enhancements, $701,000.
    No capital investments are requested in fiscal year 2014.
    The nondiscretionary items budget request is $5,516,000, a decrease 
of $469,000 or 7.8 percent compared to fiscal year 2013. The request 
funds projects that support the Secretary of the Senate: contract 
maintenance for the Financial Management Information System, 
$2,813,000; support for the payroll system, $2,308,000; and maintenance 
and necessary enhancements to the Legislative Information System, 
$395,000.

                      UNITED STATES CAPITOL POLICE

STATEMENT OF KIM DINE, CHIEF OF POLICE
ACCOMPANIED BY:
        MATTHEW VERDEROSA, ACTING CHIEF OF OPERATIONS
        RICHARD BRADDOCK, CHIEF ADMINISTRATIVE OFFICER
        FAY ROPELLA, ACTING INSPECTOR GENERAL
    Senator Shaheen. Chief Dine.
    Mr. Dine. Good morning. Chairwoman Shaheen, Ranking Member 
Hoeven, and members of the subcommittee, I'm honored to be here 
today, and I appreciate the opportunity to present the United 
States Capitol Police (USCP) budget request for fiscal year 
2014. I would also ask that my written testimony be accepted 
for the record.
    I'm joined here today by acting Assistant Chief Matthew 
Verderosa, our acting Chief of Operations; and Mr. Richard 
Braddock, our Chief Administrative Officer; as well as some 
members of my executive management team, as well as our acting 
inspector general, Fay Ropella.
    I want to begin by saying that it is an honor for me to be 
sitting before you as Chief of the United States Capitol 
Police. Having been in this position for almost 6 months, I 
have observed the activity of the Department through an 
objective lens. I can say with no reservations that this 
organization is made up of extraordinarily professional and 
capable women and men who are dedicated to their work.
    I have also come to appreciate the interest of Congress and 
especially this subcommittee in our success. On behalf of the 
Department, I'd like to thank you for the confidence and 
support you have shown the Capitol police over the years. You 
and your staffs have taken the time to work closely with the 
Department's leadership team and have shown a keen awareness of 
the complexity of our mission and the challenges we face.
    I consider the United States Capitol Police to be America's 
police department, a premiere Federal law enforcement agency 
that works to ensure that the legislative process of our 
Government can function without disruption or lapses in 
security or safety. With your support and that of the Capitol 
Police Board, the Department has been successful and will 
continue our efforts to maintain the safest posture possible 
for the Capitol Hill community 24 hours a day, 365 days a year.
    The recent terrorist bombings in Boston and the ricin 
attack here in Washington, DC, clearly underscore the need for 
us to remain vigilant at all times and maintain the highest 
level of readiness to deal with any such events should they 
occur.
    The Department's funding levels have remained relatively 
stable in recent years, much to the credit of my predecessor's 
leadership and the sound, responsible management by my team of 
capable executive leaders. While we have seen some small 
increases due to expanding mission requirements, the Department 
has found efficiencies and reductions to offset many of the new 
requirements that we have addressed.
    One project that has required additional resources is our 
implementation of the extensive radio modernization project. 
Your continued support of this critical officer safety program 
is greatly appreciated. The planning, building, and 
implementation of this system will eliminate considerable risk 
in our future capability to communicate and direct mission-
critical activities.
    Just like other large construction projects, this endeavor 
has involved many partners and a complex combination of needs 
and requirements. As anyone who has ever done home renovations 
will tell you, when you start tearing down walls or replacing 
utilities, you start to discover unexpected obstacles that can 
delay your progress. Throughout these challenges, the 
partnership that we have with the Architect of the Capitol and 
NAVAIR remains strong.
    I know that this project has had evolving timelines and 
scopes. But I am confident that we are on track to get this 
project done in a timely manner, with a priority for doing it 
right. In fact, I am pleased to report to you that the 
Department was able, with your support, to include the O'Neill 
building in the project, with savings derived from the project.
    The Department's fiscal year 2014 request reflects our 
continuous efforts at all levels of management to effectively 
and prudently manage our existing resources to achieve the best 
possible balance of staff versus overtime to meet mission 
requirements. We are constantly analyzing our workforce to 
align job functions, assignments, work load, risk management, 
and organizational readiness, along with the ever-changing 
threat assessments and mandatory mission requirements of a 
dynamic congressional community.
    I am grateful for the women and men of the Department who 
have pitched in to take on additional workloads, as we have 
frozen hiring since the beginning of the fiscal year to meet 
reduced funding levels. In light of the fiscal constraints of 
the Department and the entire Federal Government, our fiscal 
year 2014 request again includes funding of only 1,775 of our 
1,800 sworn authorized positions, and 370 of our authorized 443 
civilian positions.
    Three additional requirements are also included, which will 
cost just over $500,000, for the installation of security 
equipment and the services for the Dome rehabilitation project, 
the O'Neill building, and the radio modernization equipment 
rooms. The rest of the request is for the normal increases in 
costs in restoring annual leave levels reduced in previous 
fiscal years to meet immediate needs. The amount of the regular 
general expenses request is slightly lower from last year's 
request, despite these normal price increases.
    As you are aware, the Department's current sworn staffing 
levels do not entirely provide the necessary resources to meet 
all of our mission requirements within the established sworn 
officer utility or the number of work hours in a year that each 
officer is available to perform work. Where necessary, we meet 
this requirement through the use of overtime.
    We have been closely working with the Capitol Police Board 
and our oversight committees to review options to offset 
mission requirements, where possible, especially in light of 
reduced funding levels in fiscal year 2013, such as closing 
lower priority doors, which will reduce the total hours at 
posts and overtime costs.
    With your support, the Department continues to successfully 
perform our operational mission and has achieved several key 
accomplishments over the last year, some of which have resulted 
in greater efficiencies for the Department, which included 
addressing several administrative challenges and improving 
corresponding business practices.
    We continue to work to close audit recommendations and to 
address our material weaknesses from prior audits by working 
closely with our inspector general and the Government 
Accountability Office to address identified issues and 
providing evidence necessary to close findings.
    In particular, I am pleased to report that the Department 
received for the first time in our history a second consecutive 
unqualified clean opinion on our financial statements. Also, 
thus far in fiscal year 2013, we have worked closely with the 
Office of the Inspector General to close 16 recommendations and 
have completed actions that we believe could lead to closure of 
another 11 recommendations.
    Further, we are working on the resolution of a number of 
other recommendations in order to achieve efficiency and 
effectiveness of our administrative programs. The long-term 
resolution of recommendations related to internal controls, 
business processes, and material weaknesses remain the highest 
importance to our management team.

                           PREPARED STATEMENT

    I am grateful for your time today. As I said earlier, we 
realize that we have to function within the parameters of the 
economic and fiscal realities facing our country in 
specifically the legislative branch. We will continue to work 
closely with you to make sure that we meet the needs of our 
mission in a reasonable and responsible manner. I appreciate 
the opportunity to appear before you today and would be glad to 
answer any questions you may have at this time.
    Senator Shaheen. Thank you very much.
    [The statement follows:]

                     Prepared Statement of Kim Dine

    Chairwoman Shaheen, Ranking Member Hoeven and members of the 
subcommittee, I am honored to be here today, and I appreciate the 
opportunity to present the United States Capitol Police (USCP) budget 
request for fiscal year 2014. I am joined here today by Acting 
Assistant Chief Matthew Verderosa, our Acting Chief of Operations, and 
Mr. Richard Braddock, our Chief Administrative Officer, as well as some 
of the members of my Executive Management Team and our Acting Inspector 
General.
    I want to begin by saying that it is an honor for me to be sitting 
before you as the Chief of the USCP. Having been in this position for 
nearly 6 months, I have observed the activity of the Department through 
an objective lens. I can say with no reservations that this 
organization is made up of extraordinarily professional and capable 
women and men, who are dedicated to their work. I also have come to 
appreciate the interest of the Congress, and especially this 
subcommittee, in our success. On behalf of the Department, I would like 
to thank you for the confidence and support you have shown USCP over 
the years. You and your staffs have taken the time to work closely with 
the Department's leadership team and have shown a keen awareness of the 
complexity of our mission and the challenges we face.
    I consider the USCP to be America's police department: a premier 
Federal law enforcement agency that works to ensure that the 
legislative process of our Government can function without disruption 
or lapses in security or safety. With your support and that of the 
Capitol Police Board, the Department has been successful and will 
continue our efforts to maintain the safest posture possible for the 
Capitol Hill community 24 hours a day, 365 days a year. The recent 
terrorist bombings in Boston and the ricin attack here in Washington, 
D.C., clearly underscore the need for us to remain vigilant at all 
times and maintain the highest level of readiness to prevent, deter and 
respond to any such events.
    Our mission is to protect the facilities you work in and around; to 
protect you and your fellow Members, your staff, the Capitol Hill 
community and the millions of visitors who come here to be a part of 
the democratic process on a regular basis. We consider all of the 
people and facilities we protect and the legislative business that we 
secure as one community that we serve. Although we are professionals 
who have dedicated ourselves to public service and public safety, the 
employees of the Department gain strength and encouragement from your 
recognition of our accomplishments.
    While our overall mission and commitment is to protect the 
legislative process, our activities in response to more than 600 
special events and demonstrations last year ensured that citizens were 
provided the opportunity to exercise their constitutional rights in an 
orderly and safe manner. I also believe that, through our efforts and 
our presence in the larger Capitol Hill neighborhood, we have played a 
role in the District of Columbia's lowest crime rate in years.
    I would like to begin the specifics of my testimony by expressing 
again our appreciation to the subcommittee and the Congress for 
providing the salaries and general expenses funding for fiscal year 
2013 to support our personnel and operations and for supporting our 
sequester plan, which has included door closures that may have some 
effect on you and your staffs, as well as visitors to the complex.
    My management team and I are more than keenly aware that the 
economic conditions of our country and the fiscal situation in the 
Federal Government require that we manage ourselves and plan for our 
future responsibly and accurately. Having recently come here from local 
government, with more than 37 years of law enforcement experience, I 
can tell you that I have a first-hand understanding of the hardships 
being faced at all levels of government and by average citizens in 
communities across the country. Therefore, I believe it is our 
responsibility to submit a budget request that is accurate, reasonable, 
responsible, and based on critical requirements necessary to mitigate 
and address both identified and emerging threats and risks. Our fiscal 
year 2014 budget request focuses on those critical mission requirements 
necessary for the Department to address the security of the Congress, 
so that it may conduct its Constitutional responsibilities in an open 
and safe manner without disruption from crime or terrorism.
    Our mission-focused request is grounded in the four USCP strategic 
goals that describe our mission and frame our budget planning:
  --assessing the threat to the congressional community;
  --taking proactive measures to mitigate the threat so as to prevent 
        disruption to the legislative process;
  --responding in the event of a disruption so that the Congress can 
        continue to operate; and
  --ensuring that we employ appropriate and efficient support, business 
        processes and controls; while providing personnel with the 
        requisite skills, resources and tools to deliver our mission in 
        an effective manner.
    The Department's funding levels have remained relatively stable in 
recent years, much to the credit of my predecessor's leadership and 
sound responsible management by my team of capable executive leaders. 
While we have seen some small increases in the budget due to expanding 
mission requirements, the Department has also found efficiencies and 
reductions to offset many of the new requirements that we have 
addressed.
    One project that has required additional resources is our 
implementation of an extensive Radio Modernization Project. Your 
continued support of this critical officer safety program is greatly 
appreciated. The planning, building, and implementation of this system 
will eliminate considerable risk in our future capability to 
communicate and to direct mission-critical activities. Just like other 
large construction projects, this endeavor has involved many partners 
and a complex combination of needs and requirements. As anyone who has 
ever done home renovations will tell you, when you start tearing down 
walls or replacing utilities you start to discover unexpected obstacles 
that can delay your progress. Throughout these challenges, the 
partnership that we have with the Architect of the Capitol and the 
Naval Air Systems Command (NAVAIR) remains strong. I know that this 
project has had evolving timelines and scopes, but I am confident that 
we are on track to get this project done in a timely manner, with a 
priority for doing it right. In fact, I am pleased to report to you 
that the Department was able, with your support, to include the O'Neill 
Building in the project with savings derived from the project.
    At this time, I would like to offer the subcommittee an overarching 
summary of our fiscal year 2014 request. I will follow this summary 
with a discussion of specific budget items of particular significance 
to you and the Department.
    The Department's fiscal year 2014 request totals $363 million and 
represents an overall increase of 7 percent, or $25 million more than 
the fiscal year 2013 continuing resolution funding level of $338 
million.
    As with other law enforcement agencies, personnel salaries and 
overtime represent the majority of our budget each year. After all, we 
are a service organization, and we need the dedicated and trained 
professionals to provide that service.
    The Department's fiscal year 2014 personnel request reflects our 
continuous efforts at all levels of management to effectively and 
prudently manage our existing resources to achieve the best possible 
balance of staff versus overtime to meet mission requirements. We are 
constantly analyzing our workforce to align job functions, assignments, 
workload, risk management, and organizational readiness along with the 
ever-changing threat assessments and mandatory mission requirements of 
a dynamic congressional community. I am grateful to the women and men 
of the Department who have pitched in to take on additional workloads 
as we have frozen hiring since the beginning of the fiscal year until 
we know the final appropriation level for this fiscal year. In light of 
the fiscal constraints of the Department and the entire Federal 
Government, our fiscal year 2014 request again includes funding for 
only 1,775 of our 1,800 sworn authorized positions and 370 of our 
authorized 443 civilian positions. These are the staffing levels we 
maintained during fiscal year 2012, but have had to reduce even further 
during fiscal year 2013 due to the sequester. These reductions have had 
an impact on our civilian workforce, who have taken on expanded 
workloads and strained our ability to resolve longstanding internal 
controls weaknesses as rapidly as we might like.
    The personnel request for fiscal year 2014 represents an overall 
increase of 7 percent over the fiscal year 2013 continuing resolution 
funding level.
    As you are aware, the Department's current sworn staffing levels do 
not entirely provide the necessary resources to meet all our mission 
requirements within the established sworn officer utility or the number 
of work-hours in a year that each officer is available to perform work. 
This ``utility'' number is used to determine overall staffing 
requirements, and balances the utility of available staff with annual 
salary and overtime funding along with known mission requirements such 
as post coverage, projected unscheduled events such as demonstrations, 
late sessions, holiday concerts, et cetera, and unfunded requirements 
that occur after the budget is enacted, such as unforeseen critical 
emergency situations. Because of the need to fill the mission 
requirement gap through overtime, the Department has struggled to pull 
our sworn personnel offline to conduct training. In order to achieve 
mandatory training, we must utilize overtime to ensure that the 
officers may be offline for training, while meeting our daily mission 
requirements. There are flexibilities in other law enforcement agencies 
in offsetting or deferring daily requirements to allow for training 
that our unique mission does not afford.
    Thus, mission requirements in excess of available personnel must be 
addressed through the identification of efficiencies such as post 
realignment and/or reductions, technology, and cutbacks within the 
utility. Where necessary, we meet this requirement through the use of 
overtime. Understanding the fiscal concerns related to the budget 
impacts resulting from overtime, particularly in light of the 
sequester, we have been working closely with the Capitol Police Board 
and our oversight committees to review options to offset mission 
requirements where possible, especially in light of reduced funding 
levels in fiscal year 2013, such as closing lower priority doors, which 
will reduce the total hours at posts and overtime costs.
    The Department is currently implementing an action plan that is 
simultaneously evaluating our staffing processes to find more 
efficiency through information-based management, while developing 
training and guidance for supervisors on methods for reducing overtime. 
At the same time, we are considering enhancements to a number of 
policies and procedures that have an indirect impact on overtime needs. 
During this process, we have been working closely with staff from the 
Government Accountability Office, briefing them on our progress and 
gaining advice and guidance from them along the way.
    At the requested funded staffing levels, the Department's fiscal 
year 2014 overtime projection is approximately $32.8 million, which is 
$5.5 million less than our overtime request for fiscal year 2013. This 
amount will cover base mission requirements, support of non-
reimbursable events at the Library of Congress and an offset to allow 
for appropriate security staffing so that sworn employees can be 
backfilled while they attend necessary and mandatory training.
    The second area I want to cover in some detail is our requested 
general expenses budget, which includes protective travel; hiring, 
outfitting, and training of new sworn personnel; supplies and 
equipment; management systems; and other non-personnel needs. We are 
requesting $65 million for general expenses, which is an increase of $3 
million over the continuing resolution level. Three additional 
requirements represent a portion of this increase, just more than 
$500,000, for installation of security equipment and services for the 
dome rehabilitation project, the O'Neill Building, and the radio 
modernization equipment rooms. The rest of the increase results from 
normal increases in costs and restoring annual levels reduced in 
previous fiscal years to meet immediate needs. In many cases, this 
requested funding restoration is for the training of our civilian 
employees, many of whom have not had training in the last 4 years, to 
ensure that their skills remain high in order to achieve our mission. 
Our civilian employees are as critical to the success of our 
organization as are our sworn employees, and need to be supported as 
such. The amount of the ``regular'' general expense request is slightly 
lower from last year's request and we will continue to identify areas 
that we can target for further efficiency or elimination.
    With your support, the Department continues to successfully perform 
our operational mission and has achieved several key accomplishments 
over the last year, some of which have resulted in greater efficiencies 
for the Department, which include addressing several administrative 
challenges and improving corresponding business practices.
    In fiscal year 2012 the Department screened more than 12.8 million 
people entering congressional buildings (including more than 2.3 
million visitors to the Capitol Visitor Center); affected more than 700 
arrests; conducted more than 119,000 K-9 sweeps; and screened nearly 
23,000 vehicles. In line with our close connection to the congressional 
community, we also held more than 1,800 community outreach visits. 
These are just a few examples of the many services and enforcement 
activities that are conducted daily to ensure the success of the 
Department's core mission.
    For the third year in a row, the Department has implemented uniform 
procedures to effectively measure and justify U.S. Capitol Police 
planning, program, and resource requirements through a comprehensive, 
standardized, and repeatable management process, which we call the 
``Force Development Business Process.'' It provides for a transparent 
decisionmaking process, including reviews and approvals by an 
Investment Review Board made up of key agency management, and provides 
a structure that is results-driven and based on meeting operational 
needs. We also formalized a process for program evaluations for 
selected existing programs, which we plan to expand in the future. In 
addition, in order to ensure the accuracy of our budget request, our 
fiscal year 2014 budget went through multiple layers of review and 
validation, and is traceable to supporting documentation for each 
budget element.
    Further, we continue our work to close audit recommendations and to 
address our material weaknesses from prior audits by working closely 
with our Inspector General and the Government Accountability Office to 
address identified issues and by providing the evidence necessary to 
close findings. In particular, I am pleased to report that the 
Department received, for the first time in our history, a second 
consecutive unqualified ``clean'' opinion on our financial statements. 
Also, thus far in fiscal year 2013, we have worked closely with the 
Office of Inspector General to close 16 recommendations and have 
completed actions that we believe could lead to closure of another 
eleven recommendations. Further, we are working on the resolution of a 
number of other recommendations in order to achieve efficiency and 
effectiveness of our administrative programs. The long-term resolution 
of recommendations related to internal controls, business processes and 
material weaknesses remains of the highest importance to our management 
team.
    Before I close my remarks, I want to talk a little bit about our 
future. The Department has evolved from a lone watchman in the early 
1800's to a professional and unique law enforcement and homeland 
security force. Over the past 12 years, we have adopted new 
capabilities to address our fluid threat environment. These changes 
have led to an increase in personnel, tools, special skills, and new 
levels of accountability. Now, we are in the midst of updating our 
Strategic Plan to ensure that our existing structures are sufficiently 
aligned and resourced to support our mission requirements into the 
future. Over the past few months the senior leaders of the Department 
have been engaged in a scan of the internal conditions within the 
Department, as well as the environment in which we function and the 
outside influence on execution of our mission.
    As we look towards the future, we will be transforming and 
strengthening our culture to continue to meet 21st Century challenges 
with a focus on results. We will be engaging you and our other 
stakeholders more as we further develop this new plan of action. Some 
of our transformational priorities include:
  --improving our management and planning processes;
  --improving internal and external communications;
  --enhancing our future leadership capacity;
  --establishing clear expectations and accountability for all 
        personnel; and
  --evolving the Department into an organization that learns from our 
        experience and shares knowledge within our workforce.
    These will be the foundations upon which we will build a nimble, 
data-driven, community-focused law enforcement agency for the future.
    I am grateful for your time today. As I said earlier, we realize 
that we have to function within the parameters of the economic and 
fiscal realities facing the country and specifically the Legislative 
Branch. We will continue to work closely with you to make sure that we 
meet the needs of our mission in a reasonable and responsible manner. I 
appreciate the opportunity to appear before you today and would be glad 
to answer any questions you may have at this time.

    Senator Hoeven, would you like to begin the questions?
    Senator Hoeven. I'd be happy to. Thank you, Madam 
Chairwoman.
    Again, thanks for your testimony. Thanks to you for your 
leadership, and thanks to everybody in the room for the good 
work you do. And I know I express that sentiment on behalf of 
all the Senators. We all encounter you on a regular daily 
basis, and you're very professional. And I just want you to 
know we really appreciate it.

                        CAPITOL DOME RESTORATION

    Mr. Ayers, one of the things that we included last year and 
did a lot of work on was the approximately $61 million for the 
Dome renovation, a very important project. And as you know, we 
spent a fair amount of time working to get it included, which I 
was very committed to and very pleased it's in there. I think 
it's incredibly important. It's certainly a symbol of our 
country and a symbol for the world.
    That $61 million, that's a big project. When I look at your 
budget, you've got some increases in there. Obviously, with 
sequester, we're constrained in terms of what we're going to be 
able to appropriate for everyone. But specifically in your 
budget, does that give us some room, in that that's such a 
large project, that if we're looking at keeping you closer to 
that, the current funding level, that that gives you some room 
to get some other things done, when we look at your total 
funding, without the increases that you've got scheduled there 
in your presentation?
    Mr. Ayers. Well, I think it does. In terms of that amount 
of money in our 2013 budget, that ceiling for 2014 enables us 
to get a number of additional projects done in 2014. So I think 
you're right.
    Senator Hoeven. And I think it's going to be really key 
that you prioritize within that. I think for everybody, my 
point is going to be the same. Obviously, in Terry's case, 
you've done a remarkable job on your budget, and I commend you 
for it, in tough circumstances.
    But I think in the Architect's budget, it's going to be 
very hard, obviously, to provide the increase that you've 
indicated there. And so the key is going to be working with us 
to figure out how we prioritize. So once we have a better 
understanding what our allocation is going to be for the 
legislative branch, that we get the things funded that you 
want.
    Now, we went after the Dome over and above, last year. And 
I think it merited special exception. The good part is we got 
it, it needs to be done. The other good part for you, though, 
is I do think it gives you some room in your budget. But I 
think that we really are going to have to look at some 
prioritization, and then we'll figure out what we can do based 
on the allocation that we end up with.
    Mr. Ayers. I agree completely.

                     FISCAL YEAR 2014 FUNDING NEEDS

    Senator Hoeven. I think, you know, obviously, Mr. Gainer, 
in your case, you're in pretty solid shape. I don't know that 
we're going to have to do too much more with your budget. But 
both for Ms. Erickson and Chief Dine, my sense is we're going 
to have to figure out what we do from a service standpoint that 
you think works so that--same prioritization.
    I guess my question that I would put to each one of you is, 
What services or hours would you change if we're not able to 
fund at the level you request? And maybe we can start with Ms. 
Erickson and Chief Dine.
    Ms. Erickson. Well, I would like to just point out that my 
budget request for next year is less than my operating budget 
in 2008. And I think that we've had--and I give credit to my 
staff. We've developed a real culture in the Office of the 
Secretary of being very mindful of the limited resources that 
we've been given. And everything that my 26 departments do is a 
result of the legislative mandate or mandate by leadership.
    And so, we consider everything a priority in my 
organization. I think the biggest difficulty that we will face 
going forward is beginning in 2008, we did start scrutinizing 
every vacancy, and we continue to do that. If sequestration 
should go forward, I think it will place a real hardship on our 
staff, who are handling additional responsibilities because of 
our inability to fill positions.
    And an example of that is our Office of Public Records. The 
Congressional Budget Office had estimated that it would cost an 
additional $424,000 to implement the requirements of the STOCK 
Act. We haven't purchased any of the equipment that is 
recommended for implementing an electronic filing system. In 
addition, I haven't filled any of the FTEs that are necessary 
for implementing the STOCK Act.
    We recently had a retirement, an individual who handled the 
Federal Election Commission filings. Those responsibilities are 
being taken on by our existing staff. So that would be an 
example. It is really hitting our staff in terms of juggling 
multiple responsibilities.
    And we'll continue to do whatever we can to provide 
excellent customer service to the Senate community and fulfill 
our legislative mandates. Because like I said, we've developed 
a real culture in our organization for cost cutting. Staff were 
coming to me just last week with ideas on how we can produce 
brochures in a more cost-effective manner. Our IT staff 
canceled duplicative word processing licenses that saved over 
$11,000. Our conservation and preservation folks found cheaper, 
but good quality, molding for framing, saving $3,700 a year. 
And I could go on and on, down to the State of the Union dinner 
that my office funds, and we used recycled decorations.
    So I think our track record of----
    Senator Hoeven. They were very nice.
    Thank you very much. I think, you know, the fact that my 
budget is lower than it was in 2008 speaks to the work that my 
staff has done. And I don't think that we've missed a step in 
serving the Senate.
    I was going to give the Chief the same opportunity, but I 
know we're short of time, Madam Chairman.
    So maybe, Chief, just briefly on the same subject. The 
point I'm getting at is I think you're going to have to 
prioritize between the number you've given us down to the 
sequester level. We're going to have to look at that, and you 
may have to make adjustments in services or hours. And then 
we'll get a top-line number, and then we'll have to make some 
decisions about how we work with you to get a final budget.

     USCP SERVICE LEVEL ADJUSTMENTS DURING FUNDING LEVEL REDUCTIONS

    Mr. Dine. Yes, sir. And our staff has done an incredible 
job doing just that. Obviously, the safety and security, that's 
our primary business. So during the course of these processes, 
we've cut a significant amount of funding, about one-half of 
that from overtime. The Capitol Police Board has been 
incredibly supportive during this process, as have you and your 
subcommittee.
    As you know, we cut a number of posts. That was primarily 
the way we saved a chunk of that overtime. And we'll continue 
those efforts. We stopped hiring at the beginning of the fiscal 
year, actually before sequester took place, because we took 
that seriously and knew it was coming. We're not backfilling 
positions right now. We're engaging in savings from those 
efforts, as well as cutting a number of other processes 
operationally.
    Senator Hoeven. And to follow up on something Ms. Erickson 
said, I do try to point out whenever I can that we are 
basically back on discretionary spending at 2008 levels. And 
again, that reflects not only the good work you do, but the 
fact that you have truly found savings for the American people. 
So I want to express my appreciation.
    Senator Shaheen. Thank you, Senator Hoeven.
    Obviously, I'm sure Senator Hoeven agrees with me. I 
certainly hope that the Congress can address sequestration 
before it goes into effect for another year. I think it will 
have, as you all have pointed out, significant impacts on 
access of the public to the Capitol and also on our ability to 
preserve this Capitol for future generations. I certainly hope 
that we will be able to address this.
    I wonder, I think we've probably got another minute or two 
before we have to close for the votes. But I wonder if each of 
you could talk about, if we're not able to address 
sequestration before the 2014 budget year begins, what the most 
significant impacts will be on your budget? And I'll start with 
you, Mr. Ayers.
    Mr. Ayers. Thank you, Madam Chairwoman.
    I think in 2014, the most significant effort for us will be 
canceling contracts. Then we'll be canceling our cleaning 
contract in the Capitol Visitor Center. We will likely cancel 
our shuttle-bus service that moves employees and staff around 
the Capitol campus. So those are two good examples, very 
quickly, of contracts that we will have to eliminate in 2014 to 
meet our sequestration numbers.
    Senator Shaheen. Thank you.
    Ms. Erickson.
    Ms. Erickson. Without additional funding for the Senate 
Information Services program, which provides the online 
research news services that Senate staff use to do their jobs, 
without additional funding, we will have to cut at least two 
services that are provided to staff. And that would be on top 
of two services that were cut in January 2012.
    The second concern that I would have, going forward, as 
Terry mentioned, our staffs have gone without a COLA since 
2010. We implemented in 2010, we suspended the payments that we 
provide to staff based on our merit performance program that we 
have. So our staff have gone a long time without an increase in 
their base salary. And the increases have been modest. And I 
think it's important that the Senate staff be recognized for 
their hard work with a cost-of-living increase.
    Senator Shaheen. Thank you.
    Mr. Gainer.
    Mr. Gainer. Senators, we would continue to defer things 
that need to get fixed. It is the out-year impact that is going 
to eventually catch up with us. I think the biggest change is 
going to have to come from the Members, their staff, and 
eventually your constituents on what the expectations are on 
how quickly we can provide services for you so you can provide 
then for them. So we will be slowing down, trying to move to 
cloud computing, which sounds like a nice-to-have, but is 
significant how we try to increase energy savings, or from the 
different storage efforts we are managing.
    We currently store the equivalent of 1.5 million four-
drawer file cabinets right now with information continuously 
flowing through our equipment. So we're trying to go into 
virtualization to help with that. Each one of those little 
machines that someone has at their desk or elsewhere costs a 
significant amount of money to maintain. Those machines are 
getting old, and parts aren't always available. Over time we're 
going to gradually see services slowed.
    I think the impact of sequestration is going to continue to 
increase gradually. Our staff have pulled together the same way 
you would if someone took a vacation or took a maternity leave 
to have a child. Everyone is pitching in, but eventually, the 
impact will catch up with us.
    Senator Shaheen. Can I get you to comment? One of the 
things that struck me in your testimony was the increasing cost 
of the district offices that we have around the country and the 
challenge of continuing to cover those costs.
    Do you see any way to address that?
    Mr. Gainer. Well, there could be several ways to address 
that concern. I mean, for example, if everyone discontinued 
moving or expanding their offices for the remainder of this 
Congress, that would have an immediate impact. Each time a 
member changes or moves, a new lease or a change in the lease 
is required. Lease prices are continuing to rise. That is good 
for the economy, but bad for our budget.
    Senator Shaheen. Thank you.
    And Chief Dine, in about 1 minute, if you could respond, 
since the vote is closing here?

              SEQUESTRATION IMPACT ON THE USCP 2014 BUDGET

    Mr. Dine. I'll try to be brief. We were pretty lean already 
before sequester. I can tell you, with no cash awards, training 
was limited to just required training and those kinds of 
things. Non-personal expenses were regularly needed to be set 
aside just to meet salary and overtime needs. When you look at 
the cuts that we've already made for sequester, again, the 
number of post closures that the Capitol Police Board approved, 
and that we worked with you on as well. We're very grateful for 
the support of the board and our subcommittees.
    The next big area was not filling the open positions or the 
attrition rate of our personnel positions. So, we stopped 
hiring at the beginning of the year. We have a resultant 
savings from 17 civilian and 41 sworn positions. We have 66 
less sworn and 90 less civilians than were authorized. That has 
had a significant impact on operations.
    We've cut contractors in the administrative systems at an 
additional 1 percent from each of our bureaus and office of 
general expenses, just to operate right now. Going into 
sequester, we're at extremely low levels for property supplies 
due to the sequester. We have to replenish some of that in 
2014. Dignitary protection costs continue to rise. We'll need 
an increase over fiscal year 2013 just for us to operate.
    We have to restore those training, recruiting, and 
outfitting costs of new recruits for fiscal year 2014 just to 
maintain the 1,734 sworn positions in addition to absorbing 
natural salary increases. We obviously have the two additional 
requirements, the O'Neill building that I mentioned, and the 
radio modernization room fit-out that must occur regardless of 
additional funding availability.
    Finally, the new radio system will require annual 
operations and maintenance costs in fiscal year 2014 not 
currently covered in our fiscal year 2013 budget, approximately 
$5 million. Based on a savings of existing cuts in fiscal year 
2013 going forward, where applicable, the needs I mentioned for 
2014 will need an additional increase just to maintain existing 
operations.
    So, moving forward, if this sequester continues, we may 
have to engage in additional post closures, and, worst-case 
scenario, furloughs and those kinds of things.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shaheen. If there are any additional questions from 
members they can be submitted for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response, subsequent to the 
hearing:]

               Questions Submitted to Terrance W. Gainer
             Questions Submitted by Senator Jeanne Shaheen

FISCAL YEAR 2014 BUDGET REQUEST: IMPACT OF SEQUESTRATION ON SERGEANT AT 
                                  ARMS

    Background.--As a result of sequestration, the Sergeant at Arms was 
granted authority to use the Voluntary Separation Incentive Payment (V-
SIP) program as a means of reducing the number of employees in an 
effort to reduce salary requirements. The Sergeant at Arms had 52 
employees participate in the V-SIP program and now is in the process of 
realigning its workforce to address the reduction in staff.
    Question. Mr. Gainer, your organization implemented a voluntary 
separation incentive payment (VSIP) program this past spring in an 
effort to reduce your payroll to meet your post-sequestration salary 
budget. How much payroll funding will you save this year?
    Answer. The savings for 2013 will be $1.7M. Additionally, we have 
had a hiring and salary freeze for some time that has saved about $1.3 
million as staff retired or resigned and we did not replace them.
    Question. How much will you save on an annual basis during fiscal 
year 2014?
    Answer. The annual saving from VSIP in 2014 will be $4.7M.
    Question. If the appropriated funding level for your salary account 
ion remains at a freeze in fiscal year 2014, will you still be able to 
avoid further RIFs and furloughs?
    Answer. Yes, we structured the VSIP program so that we may continue 
to provide service effectively in 2014.

                    SEQUESTRATION AND RICIN INCIDENT

    Background.--On April 16th a letter was intercepted at the off-site 
mail sorting facility located in Landover, Maryland, and tested 
positive for Ricin. The U.S. Capitol Police Hazardous Materials 
Response Team worked with the Senate mail handling facility, which is 
operated by the Sergeant at Arms, to ensure any hazards were contained 
and handled properly. The mail processing procedures the Senate Post 
Office has adopted since the 2001 Anthrax attack have worked well and 
prevented a ricin-laced envelope from arriving on Capitol grounds. This 
incident immediately followed the bombings in Boston which led to 
heightened security around the Capitol complex.
    Question. Mr. Gainer, I was not a Member of this body a decade ago 
when the Senate suffered through ricin and anthrax attacks. Clearly, 
the protocols that were put into place after the 2001 Anthrax and ricin 
attacks worked, and a ricin-laced envelope was prevented from arriving 
on Capitol grounds. Can you update me on the status of the off-site 
mail processing facility and any lessons learned from last month's 
incident?
    Answer. All mail properly delivered to the Senate via the United 
States Postal Service, as well as certain commercial delivery services 
such as FedEx and UPS, are received at our off-site mail and package 
processing facility. At the processing facility, mail is x-rayed, 
visually inspected, and undergoes a series of advanced technical 
examinations in order to ensure it contains no hazardous materials. The 
ricin letter which was detected in our facility during this processing, 
while safely contained within that facility, required a number of steps 
to be taken in order to ensure the facility was completely 
decontaminated before it could be put back into service for mail 
processing. That was accomplished in about 2 weeks, during the course 
of which our mail processing personnel exercised their continuity of 
operations plan by coordinating with and processing Senate mail at the 
House's mail processing facility.
    All of the mail which was in the processing area at the time the 
ricin letter was discovered was considered to be contaminated, 
requiring it to be digitally scanned, printed, and delivered to Senate 
offices. The original contaminated mail had to be destroyed. We are 
currently developing an after action report which will include a 
listing of our lessons learned. I can tell you now that one of the key 
lessons we learned is that the planning and preparation which went into 
the development of this off-site mail processing facility paid huge 
dividends. No staff member was harmed by the illicit substance and the 
legislative process suffered no interruption due to the receipt of 
tainted mail.
    Question. What impact does responding to an incident like the ricin 
incident last month, have on your resources, particularly while you are 
operating under sequestration?
    Answer. The impact on the SAA budget is minimal as the Mail 
Facility is designed to contain the contaminant. In fiscal year 2012, 
it cost $329,000 in expenses to operate our off-site mail processing 
facility. Due to the ricin event, the Post Office purchased electronic 
equipment and a fair amount of stationery supplies, none of which was 
in our current expense budget, to execute our digital scanning plan and 
ensure all mail was still delivered to its intended recipients. All in 
all, our response to this incident cost us around $15,000. There was a 
higher cost to our external support agencies which facilitated the 
facility decontamination effort. Their costs are likely to be well over 
$100,000.
    How many total State offices are there? Answer. 456
    To date, how many Postal Sentry units have been mailed to offices? 
Answer. 338
    What is the cost of a Postal Sentry? Answer. $680

                   SEQUESTRATION AND BOSTON INCIDENT

    Background.--Both the Sergeant at Arms and the U.S. Capitol Police 
are charged with responding to and preventing attacks to the Capitol 
Complex. In terms of Member State offices, the Sergeant at Arms is 
responsible for overseeing the security as well as office leases.
    Question. In light of what happened in Boston last month, is our 
complex adequately protected from backpack bombs and similar devices?
    Answer. In conjunction with the Capitol Police, we maintain a 
robust security program and protocols designed around best practices 
and support from industry leading experts to appropriately protect the 
Capitol complex from backpack bombs or similar improvised explosive 
devices.
    Question. What steps have you taken to ensure the safety of the 
complex for staff and visitors in light of the Boston incident?
    Answer. The security protocols mentioned above consist of overt 
measures such as x-ray machines, magnetometers, USCP officers, K9 
units, and explosive detection devices when entering buildings within 
the campus, and during large events, such as the July 4th, Memorial 
Day, and Labor Day concerts. Covert measures are also utilized to 
detect such devices around the complex, which I would be happy to 
discuss in a closed session due to the sensitive nature of these 
sources and methods.
    Outside of the buildings, the Capitol complex is an open 
environment where visitors can move about the campus freely and 
unscreened. This open environment makes preventing such attacks that 
occurred in Boston last month very difficult. Current protocols consist 
of trained USCP detection officers, specialized K9 explosive detection 
units strategically placed throughout the campus, monitored CCTV 
cameras, as well as other covert detection sources and methods used to 
detect not only IEDs but individuals who may be carrying such devices. 
Additionally, my office routinely coordinates with our law enforcement 
and intelligence community partners at the Federal, State, and local 
levels on a daily basis to discuss sources and methods used to help 
mitigate the threat of a Boston like attack. Most recently, my staff 
observed several backpack security search initiative programs conducted 
by New York Police Department (NYPD), Washington Metropolitan Area 
Transit Authority (WMATA), and Amtrak Police Department (APD) to 
discuss best practices currently utilized by other industry leading 
agencies to further enhance our protocol and procedures here on Capitol 
Hill.
    In the long term, my office, engaged with the other members of the 
Capitol Police board, initiated discussions on a Capitol Complex 
Security Initiative (CCSI). An essential portion of the CCSI initiative 
involves the ``Capitol Gateway'' which is a plan to secure the entire 
Capitol Complex. This initiative would allow visitors to move about the 
campus freely, however channeling visitors through designated security 
checkpoints located throughout the campus would ensure 100 percent 
security screening prior to entering the campus therefore mitigating 
the threat of an IED detonating within the Capitol Complex.
    Question. Were any protocols or procedures changed for our State 
offices in light of the Boston and ricin incidents?
    Answer. We work closely with the U.S. Capitol Police, local, 
Federal, and State law enforcement agencies in each of the 50 States 
and we remain up-to-date on mail threats that occur across the country, 
even those with no known nexus to Members, their staff or families. We 
communicate regularly with all 450 Senate State offices regarding 
threat notifications, safe mail handling procedures, and provide 
equipment and training at no cost to the State office that allows them 
to open and examine their mail safely. We also provide guidance for 
State staff on identifying and handling suspicious mail to mitigate all 
threats prior to exposure. Our State office mail handling suggested 
procedures and protocols have been reviewed and vetted by external 
experts and have been deemed as some of the best practices in the 
industry.

                    PROTECTION AGAINST CYBER THREATS

    Background.--The Sergeant at Arms spends approximately $1 million 
in salaries for IT Security staff, and $5.7 million in expenses related 
to cyber-security, of which $3.9 million is for the contractor 
supporting the Sergeant at Arms around-the-clock Security Operations 
Center. The remaining $1.8 million is for the purchase of software and 
hardware, and other professional services.
    Question. In addition to dealing with attacks through our mail 
system, you have to work continually to ensure that our computer 
systems are secure against cyber attacks. What steps are you taking 
through our cyber security program to stay on the cutting edge of 
detecting and preventing threats to the Senate's computer systems?
    Answer. The Senate cyber security program is a leader in detecting 
and preventing cyber threats, not only at the Senate, but across the 
Federal Government. Senate IT Security staff continuously work to 
improve in the areas of threat intelligence, malware analysis, network 
monitoring, vulnerability assessment, security patch management, and 
protective technologies. We actively engage with our cyber intelligence 
partners on a daily basis, which allows us to share information 
regarding the detection of advanced threats that may be unknown to the 
public. We analyze advanced malware and deploy countermeasures to 
enhance the security posture of the Senate. In turn, we share our 
findings with our partners, and we consume and assess their threat 
information, indicators, and warnings for applicability to the Senate. 
Additionally, we constantly collaborate with numerous Federal agencies 
and the intelligence community at both the unclassified and classified 
levels to discuss threats, lessons learned, and best practices.
    Our Security Operations Center (SOC) monitors the Senate network, 
and we believe it is a center of cyber excellence. We continuously 
improve our systems monitoring technical capabilities and provide 24/7 
security monitoring and analysis. We continuously refine our staff's 
cyber skillset which allows our staff to be agile and stay atop the 
ever changing cyber threat landscape and the newest technology. This 
allows us to leverage our threat intelligence and various protective 
technologies to detect advanced threats to the Senate network before 
they are able to spread or cause significant harm. We also provide a 
24/7 incident response capability, allowing us to quickly react to and 
mitigate security incidents.
    To better protect the Senate's networked resources, our 
vulnerability management team continually works with Member offices to 
identify vulnerable systems and to recommend and apply known fixes to 
thwart any system compromise attempts by our adversaries. Hackers 
routinely attempt to attack and exploit vulnerable software and poorly 
configured computers. Identifying vulnerabilities and misconfigured 
machines residing on the Senate network and applying known fixes are 
key components in preventing system compromises. Due to the success of 
our vulnerability management program we are expanding our vulnerability 
management program to assess the security of Senate.gov Web sites.
    We have, to this point, significantly invested in our cyber 
security program to ensure we stay on the cutting edge to detect, 
deter, defend, and mitigate threats to Senate computer systems. As new 
cyber threats have emerged, our cyber program has changed to meet the 
need. We have continuously worked to ensure we are getting the most 
value out of our security investments by analyzing the cyber security 
defense landscape and then deploying strategic next generation 
capabilities.
    Question. Do you and other agencies within the Legislative Branch 
share information on what types of attacks are taking place and how 
best to respond?
    Answer. Yes. In the past year, we have analyzed more than 500 
potential malware and have shared more than 1,000 tips with other 
intelligence organizations, including those within other Legislative 
Branch and Executive Branch agencies, raising the level of awareness 
and protecting the U.S. Government as a whole. Our analysis identified 
numerous previously unknown zero-day vulnerabilities that would have 
otherwise gone undetected and could have eventually compromised the 
Senate network. By working with other organizations, not only have we 
protected the Senate's IT environment, we have effectively raised 
awareness throughout the U.S. Government.
    The types of attacks and incidents seen at the SOC are persistent 
and continuous and come from a variety of adversarial sources. We have 
shared attack information with agencies including but not limited to 
the House, Executive Office of the President, DHS, NSA, FBI, Office of 
the Secretary of Defense, Department of State, Department of Treasury 
and Supreme Court of the United States. Additionally, we host a 
quarterly Cyber Collaboration Working Group in which approximately 100 
representatives from 35 agencies attend to share indicators, best 
practices, lessons learned and new threats.
    Question. Do you and agencies in the Executive Branch share 
information on the types of attacks and best practices for responding?
    Answer. Yes. Please refer to the previous response.
    In the past year, we have analyzed more than 500 potential malware 
and have shared more than 1,000 tips with other intelligence 
organizations, raising the level of awareness and protecting the U.S. 
Government as a whole. Our analysis identified numerous previously 
unknown zero-day vulnerabilities that would have otherwise gone 
undetected and could have eventually compromised the Senate network. By 
working with other organizations, not only have we protected the 
Senate's IT environment, we have effectively raised awareness 
throughout the U.S. Government.
  fiscal year 2014 budget request and 8 percent reduction in services
    Background.--The fiscal year 2014 budget request for expenses 
totals $120 million which is $10 million (8 percent) below the fiscal 
year 2013 enacted level not taking into account sequestration. Under 
this budget request, the Sergeant at Arms will maintain critical 
infrastructure, but will not provide for any major upgrades or 
expansion of services.
    Question. Your fiscal year 2014 budget request for expenses 
reflects a reduction of $10 million from the fiscal year 2013 enacted 
level, and your budget request notes that while this funding level will 
allow you to maintain critical infrastructure, you will not be able to 
perform any major upgrades of systems or expand any services. Can you 
provide us with concrete examples of services that you will 
significantly reduce or eliminate as a result of the current round of 
budget cuts?
    Answer. Note: The $10 million refers to expenses included in the 
fiscal year 2013 Continuing Resolution ($130 million versus the fiscal 
year 2014 request $120 million). In addition to reducing the day to day 
support for services, for several years, we have reduced budgets for 
replacing capital investment items, such as, printing equipment and 
data storage and network equipment. This is where we will need to 
restore funding at some time in the near future. We will work with the 
committee to provide justification for any such future requests.
    Example of a specific cut--Granicus is a floor streaming solution 
that costs $200k annually for which funding is no longer available. 
Commercial services such as CSPAN provide the same type of service. The 
difference is that Granicus offers the ability to search on the closed 
captioning text.
    Operational support to several Senate enterprise systems is being 
reduced due to cuts made to the number of contractors providing this 
support. Longer response times to operational issues and delays in 
providing new functionality or enhancements will be felt. Some of the 
major systems impacted are the Financial Management Information System 
(FMIS), Legislative Information System (LIS), Senate Messaging and 
Authentication Services (SMAS), and the SAA Asset Management System.
    Capitol Exchange.--We have proposed to the House a reduction in 
hours for the Capitol Exchange. The Exchange would no longer operate 
overnight and weekends unless the Senate and/or House were in session.
    CSS Contracts.--We removed the incentive and penalty clauses from 
the CSS contracts saving close to $600,000. Doing so means we must rely 
strictly on good faith efforts of the vendors to meet CSS service 
levels. Current funding levels will require a reduction in allotment 
for Member offices leading to reduced service and support.
    Economic Allocation Fund.--Offices will have fewer funds to acquire 
technology. We had already reduced the per FTE allotment from $4000 to 
$3200 in fiscal year 2013. Sequestration required an additional across 
the board cut of 8.2 percent.
    The $3200 is the agreed upon allotment for fiscal year 2014 as 
well.
    We are reducing the number of choices that offices have from the 
catalogue, such as dropping upgrade support for Word Perfect.
    Less frequent updates of enterprise systems (e.g. e-mail and 
virtual server systems) that require capital expenditures. Again this 
will deny us the ability to bring in new features, such as virtual 
desktop solutions for continuity of operations and the unified 
communications features offices are asking for.
    We are facing user demand for increased storage capacities that we 
are not able to meet. We continue to explore options and are 
considering cloud storage which may face an acceptance challenge from 
offices. Also, refresh cycles for the blade servers used for VMI may be 
affected. There will be increased hardware failures as the blade 
servers age.
    No expansion of Internet service ultimately will impact end user 
experience as bandwidth demand increases.
    Office and enterprise technical solutions will be hindered due to 
the lack of additional bandwidth to systems that require the 10 Gbps 
capacity that would have been provided by the planned but now on-hold 
network switch expansion.
    No addition to our backup capacity is already causing us to decline 
requests to add additional servers for offices to this service.
    We are at 90 percent capacity now and do not have funding to 
purchase additional capacity. In addition, we heavily subsidize the 
cost for offices. While we charge $800 for 125GB of storage, the actual 
cost must take into account three additional instances of the disk 
space for disaster recovery and backup requirements as well as 
controllers, cabinets, software, maintenance and support. If offices 
were to be charged the fully burdened cost, they would choose not to 
participate in VMI or the backup solution.
    No technical refresh of the IPTV (TV on your PC) systems will 
result in no additional channels and no support of HDTV.
    We will not be able to fund additional routers and switches 
required on an as-needed basis as more offices open, and the technical 
refresh of existing State office routers will be on hold, eventually 
leading to more network failures for these sites.
    We have more than 450 routers in State offices that are no longer 
available to purchase. It will cost approximately $750k to replace all 
these units with newer models. Without funding, this initiative, which 
will take significant time to complete, is on hold. We have sufficient 
funding in place to handle daily moves, adds and changes only. We also 
have more than 500 switches in the State offices that will reach end of 
support in CY 2015. Though these switches may continue to operate, they 
are not capable of providing the type of support that is critical to 
supporting VoIP phones in those locations. Additional funding of at 
least $900k and time is required to complete this.
    We make tactical upgrades to network interface modules that support 
PCs, servers, printers, IP phones, and wireless access points on an as 
needed basis, gauged by tracking traffic levels. These are on hold and 
users will experience degraded service on impacted devices.
    We have 346 modules in use today that can be replaced with newer, 
higher performing modules. The cost for the entire initiative is 
approximately $1.2 million. We do have $700k earmarked in prior year 
funds that can be used to begin the process and take care of tactical 
upgrades. The larger concern is that from an infrastructure standpoint, 
if we wait for the requirement to surface, we're too late to react.
    Campus network switches reaching end of life will not be replaced 
and will likely begin to fail more frequently and replacement parts 
will become scarce.
    Planned network enhancements to half the State offices to support 
IP telephony requirements are without funding. The requirements will 
not be met in fiscal year 2014.
    Our planned implementation of an IT Security Risk Dashboard is on 
hold. It is largely intended to improve productivity and reduce the 
level of effort for offices to maintain IT security risk situational 
awareness and respond accordingly.
    See whitepaper.
    The lack of funding to advance our e-mail IT security technology 
translates to a higher probability of malicious e-mail penetrating our 
layered defenses.
    SAA staff positions lost--
    Two positions whose primary duty was the processing of offices 
orders through the Technology Catalog and for CSS systems. Processing 
time has increased by 1-2 business days. With the extended installation 
and delivery service levels on our support contract, it adds more days 
to the overall timeframe.
    Two positions that worked directly with the support vendor to 
ensure accuracy of orders, conduct site surveys and pre-installation 
meetings, and provide quality assurance.
    A primary position related to continuity of government efforts. At 
least one effort is delayed as we look to train internal staff able to 
transition into the additional responsibilities required of this role.
    Staff resources supporting our 24 hours a day, 6 days a week data 
center operations are at a critically low state, and we may need to 
eliminate tape backup service for offices due to not having staff to 
support this service.
    We do not currently have in-house database administrator resources 
for two of our major database products. This is a result of our 
inability to provide competitive salaries while the private sector is 
growing, making these resources extremely challenging to replace.
    Question. What will be the effect of budget cuts on the IT Support 
Contract?
    Answer. To date, we have reduced support by relaxing service 
levels. Many Senate staff experience longer wait times to have 
computers installed and longer wait times to have their computers 
repaired. Specifically, the following has occurred:
  --Two of six system consultant positions were eliminated.
  --Two days were added to the service level period for DC 
        installations (from 10 to 12).
  --Four hours were added to the service level for severity 3 help desk 
        calls from State offices (from 16 to 20 hours).
  --The vendor Acquisition Supervisor and Product Delivery Manager 
        positions were cut. A single position now performs both of 
        these duties.
    Question. Does your proposed reduced budget impact implementation 
of the new Senate Payroll System?
    Answer. No, it does not. No cuts were made that would impact the 
new Senate Payroll System implementation.
    Question. What is the status of the new Senate Payroll System?
    Answer. We are working closely with the Secretary of the Senate to 
replace the current mainframe-based payroll system. This system has 
served the Senate well for almost 20 years, but now needs to be 
replaced with a state-of-the-art technical infrastructure that will 
provide for better supportability and enhanced functionality. Through a 
competitive process, Oracle Peoplesoft was selected as the new Human 
Resources/Payroll software. The systems integrator, Bart & Associates, 
has finished design and development and the system is in the final 
testing phase. Initial Phase I implementation is currently scheduled 
for September 2013. Phase I is replacement of the current mainframe-
based payroll system functionality. Phase II is employee self-service 
capability and will follow within 6 months of the Phase I cutover. 
Phase III is currently unfunded, but will provide Human Resource 
management capabilities to offices and replace the existing stand-alone 
HR systems used by offices today.
    Question. Can you discuss the specific impacts of a flat or lower 
budget on State office leases for Members as well as the Member 
technology allocation?
    Answer. The State Office budget provides and pays for the rental of 
Federal, commercial, and mobile offices; office furniture; and space 
alterations in the home State. Continued budget reductions could 
interfere with the ability of the Sergeant at Arms to pay rent on 
existing office spaces and could lead to imposition of a moratorium on 
opening new offices, expanding offices, etc.
  implementing a trusted agent credentialing program for certain staff
    Background.--In March, Chief Dine and Sergeant at Arms Terry Gainer 
met with Members of the subcommittee at the request of Senator Hoeven 
and Senator Boozman to discuss the impact of the door closures and the 
long lines for entering the buildings in the morning. During that 
meeting Mr. Gainer mentioned that there was some preliminary 
discussions about providing some form of credentialing for certain 
staff whereby they would not have to wait in line to be screened which 
would also reduce some of the pressure on the screening lines.
    Question. Back in March when we met to discuss the door closures 
and sequestration, you and Chief Dine mentioned the possibility of 
developing a ``trusted agent'' program whereby certain staff would not 
need to undergo the same level of screening every time they enter the 
building, and that this could be one way to reduce the pressure on the 
lines for entering the buildings if we continue to operate with door 
closures in place. Can you discuss this idea in a little more detail 
for us?
    Answer. The goal of the concept is to identify certain Senate and 
U.S. Capitol Police personnel, through a series of suitability 
guidelines and checks that are authorized to bypass current Senate 
office building security screening procedures: Therefore, freeing up US 
Capitol Police to focus on visitors and those not meeting Trusted Agent 
status. A byproduct of the program could be expeditious access for 
staff that meet Trusted Agent status.
    Question. What would some of the parameters need to be for staff to 
qualify?
    Answer. Participation in the program would be strictly voluntary 
and open to all Senate staff, U.S. Capitol Police and AOC staff that 
work in the Senate Office buildings. Eligibility for the program would 
depend on a defined agreed upon vetting process that would be managed 
by the SAA, the U.S. Capitol Police, and the AOC. The vetting process 
could include some number of years of service at the Senate, an annual 
criminal history check and/or some level of background investigation--
all leading to developing a significant level of trust.
    Question. Would we need to invest in additional infrastructure or 
could we simply provide a different form of identification?
    Answer. Conceptually, there would be no need for additional U.S. 
Capitol Police posts but certain entrances may be used exclusively for 
Trusted Agent participants. U.S. Capitol Police have preliminarily 
identified a desire to upgrade to new turnstiles and card readers for 
the Trusted Agent access points, similar to what are in place in many 
Executive Branch office buildings today.
    Question. Would this type of program be of benefit to State offices 
as well?
    Answer. State offices currently reside in either commercial office 
space with little or no screening outside the actual State office space 
or in Federal or court buildings that have a myriad of different 
security screening procedures by contract guards or Federal agencies. 
It may prove too cumbersome to effectively implement the program in 
State offices but we are studying the potential for use there.

                         CAPITOL POLICE FUNDING

    Background.--The Sergeant at Arms for the Senate and the House are 
on the U.S. Capitol Police Board. In order to address sequestration, 
the U.S. Capitol Police instituted door closures throughout the Senate 
and House office buildings. The door closures alone will generate about 
$8.0 million in reductions in overtime pay. However, some Member 
offices have expressed displeasure with the long wait times for 
constituents trying to get into the buildings. In terms of staffing, 
the Department is operating at a reduced staffing level of 1,734 sworn 
officers (-41), and 353 civilians (-17), which will generate about $3.5 
million in funding reductions for fiscal year 2013. Operating at this 
reduced level is currently doable because of the door closures. 
However, should the doors be reopened, there will be a significant 
impact on overtime expenses as the Department scrambles to hire and 
train back up to a level of 1,775 sworn officers.
    Question. Mr. Gainer, I want to touch on the Capitol Police budget 
for a moment as it relates to the Senate. As a result of sequestration, 
the U.S. Capitol Police have instituted a series of door closures that 
are resulting in $8 million in reductions in overtime pay. Are there 
any lessons learned from this situation that could be applied on the 
Senate side for continued savings in the future?
    Answer. When we initially looked at the sequestration reductions we 
considered several commonly used known factors to determine access 
throughput for any given door. We have since changed our approach to 
consider examining, on a continuous basis, small changes to staff and 
visitor access, such as Senate committees scheduling and current 
legislative topics as they relate to demonstration activity plus on-
going police activity outside the buildings that may impact pedestrian 
traffic to open doors. Additionally we worked closely with the U.S. 
Capitol Police and the Senate Committee on Rules and Administration 
regarding Member and staff suggestions to assist in expeditiously 
moving visitors and staff into the buildings during peak hours. This 
information was all used in adjusting our initial plan, providing 
better access for all under sequestration requirements, without adding 
any additional U.S. Capitol Police overtime hours.
    Question. How often is a review undertaken of U.S. Capitol Police 
staffing needs in the Senate, in an effort to achieve efficiencies and 
reduce costs while maintaining security?
    Answer. My staff works continuously throughout the year with the 
U.S. Capitol Police to identify, revalidate and make recommendations 
regarding existing U.S. Capitol Police posts on the Senate side of the 
campus. These assessments are done using a threat assessment risk/
vulnerability mitigation process to ensure all staffed posts are needed 
to ensure the safety of the Members, their families, staff and 
visitors.
    Question. In terms of the fiscal year 2014 budget and the 
possibility of a further sequestration, do you have any suggestions on 
ways to reduce either U.S. Capitol Police staffing or the costs 
associated with overtime as it relates to the Senate?
    Answer. We understand and appreciate that we have made significant 
cuts that have impacted on some level of convenience to Members, staff 
and visitors but have yet to negatively impact the level of security 
given the current threat. We will continue to examine the U.S. Capitol 
Police Senate side staffing/posts through regularly scheduled threat 
assessments. We will continue to work closely with interested Members 
and staff as well as our Police Board counterparts to provide the 
required level of security based on threat, at a practical cost with as 
little impact to convenience as can be reasonable expected.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven

                    FISCAL YEAR 2014 BUDGET REQUEST

    Background.--Terry Gainer, former Chief of the U.S. Capitol Police 
and Deputy Director of the DC Police Department, was sworn in as 
Sergeant at Arms (SAA) on January 4, 2007. SAA supports Senate offices 
with computers, phones, and blackberries. Its responsibilities include 
ensuring protocol for visiting dignitaries; Senate-wide emergency and 
continuity of operations planning; operating the recording studio; and 
printing and mail services. Over the last few years, SAA has acquired a 
new warehouse and mail processing facility in Landover, Maryland, and 
operates an alternate computing facility in Manassas, Virginia (this 
facility is shared with the House and other Legislative Branch 
agencies).
    Over the last decade, SAA has increased its security preparedness 
functions and information technology investments have risen 
dramatically. The proposed staffing level for the SAA is 819 (excludes 
85 patronage), a reduction of 53 personnel from fiscal year 2012 
levels.
    The Sergeant at Arms budget request funds five departments:
  --Capitol Division;
  --Operations;
  --Technology Development;
  --IT Support Services; and
  --Staff Offices.

     SERGEANT AT ARMS FISCAL YEAR 2014 BUDGET REQUEST BY DEPARTMENT
                               [In $000's]
------------------------------------------------------------------------
                                                              Department
         Department            FTE     Salary     Expenses      Total
------------------------------------------------------------------------
Capitol Division............    141     $15,182      $7,111      $22,293
Operations Division.........    333      21,044      22,547       43,591
Technology Development......    138      14,919      29,728       44,647
IT Support Services.........    106       7,082      54,609       61,691
Staff Offices...............    101       9,773       6,005       15,778
      Total S&E.............    819      68,000     120,000      188,000
------------------------------------------------------------------------

    Question. The fiscal year 2014 budget request for the Sergeant at 
Arms (SAA) is $188.0 million, which is a decrease of $15.3 million (7.5 
percent) below the fiscal year 2013 enacted level and $5.1 million (2.6 
percent) below the fiscal year 2013 final funding level including 
sequestration. The requested funding level is broken out as follows:
  --$68.0 million for the Salaries account; and
  --$120.0 million for the Expenses account.
    The total SAA budget request is 7.5 percent below the fiscal year 
2013 enacted level and 2.6 percent below the fiscal year 2013 enacted 
level including sequestration. How was the SAA able to reduce its 
funding requirements for fiscal year 2014 below the current funding 
level?
    Answer. Given the sequester, we had little option but to reduce 
staffing significantly. We offered staff a buyout, which was very 
successful in reducing our salary costs for this year and for fiscal 
year 2014. The total annual savings from this buyout is $4.7 million. 
Prior to that, we had a hiring and salary freeze that saved about $1.3 
million as staff retired or resigned and we did not replace them.
    Question. What actions has the SAA taken to absorb the 
sequestration reductions?
    Answer. As you know, we have offered a buy out to staff to reduce 
our salary requirements. We have reduced equipment purchases; reduced 
service hours and offerings; deferred capital equipment replacement. In 
the area of capital equipment replacement, we would suggest that 
continuing to defer equipment replacement cannot continue and we will 
seek limited funding in fiscal year 2015 to add back up storage and 
data network upgrades.
    Question. Of the five departments funded in the SAA budget, the 
Capitol Division is the only one with a requested increase for fiscal 
year 2014. What priorities would be funded by this increase?
    Answer. The increase is about $232,000. Among other functions, the 
Capital Division funds our security and continuity of operations 
offices. A portion of this increase supports the security staffing.

                     SUSTAINING CURRENT IT SYSTEMS

    Question. The Sergeant at Arms (SAA) recently completed the 
installation of the new Watson telephone system and the migration of 
all offices onto the enterprise email and authentication systems. One 
of the biggest challenges facing the SAA is covering the expenses of 
the Senate's 454 State offices. The current cost is about $20 million a 
year, which continues to grow annually at a rate of about 5 percent.
    I understand that the annual cost to the Sergeant at Arms for 
leases in the Senate's 454 State offices is approximately $20 million, 
and that cost grows annually at about 5 percent.
    What drives this cost growth?
    Answer. We consider the historical national increases in leasing 
costs when we anticipate our needs every year (unfortunately, the costs 
for leasing property rarely go down!). Generally, we anticipate a 5 
percent increase in election years as that is a time when we know to 
expect more potential changes in the State offices, and a more modest 
2.5 percent increase during non-election years. We have been able to 
maintain services in this area by depleting funds in multi-year 
allocations, which decreases our flexibility when presented with 
unanticipated costs. It also has a long-term impact on Capitol Hill 
operations as less funding is available for those projects while we are 
obligated to pay for leases in the States.
    Lease costs are only one of the costs to support State offices. 
There are telephone and data lines that cost about $8 to 9 million per 
year; security costs between $2 and 3 million per year; and we furnish 
and equip all of the offices for the staff that use them. That varies 
by year, but we can expect it to be in the millions of dollars also.
    Question. How can the SAA maintain current services in the State 
offices with a reduced funding request, while these costs continue to 
grow?
    Answer. While funding is allocated specifically for State office 
rents, when the SAA's expense budget is cut repeatedly, we are 
compelled to take the reductions in other areas of the budget so as to 
ensure funding is available to meet rent obligations.
    Question. Is there something that Members can do to help control 
these costs?
    Answer. There are a number of things Members can do to help control 
these costs:
  --Amend the statute (2 U.S.C., Sec. 59) which allocates a square 
        footage allowance for State office space. Reducing the 
        allowance will immediately reduce our costs.
  --Voluntarily commit to pursue no more office moves or expansions for 
        the remainder of this Congress. Every time an office is re-
        located or increases in size, our costs go up, especially given 
        that not only do we support the leasing part of the arrangement 
        but also the telecommunications, security and IT portions as 
        well (when an office moves, phones and computers must be moved 
        and re-established, and security enhancements must be re-
        developed).
  --Consider amending the statute which allows a Member to only have 
        one mobile State office. Some Members have advised us they 
        would prefer to have the flexibility of using multiple mobile 
        offices in lieu of numerous fixed sites in order to engage in 
        outreach to a broader base of their constituents. We also lease 
        mobile offices for Members but the number of those offices has 
        historically been quite low (currently at 7). We believe 
        Members could potentially lower their State office account 
        requirements by utilizing more of the mobile option.

                             CYBER SECURITY

    Question. The Sergeant at Arms (SAA) fiscal year 2014 proposed 
budget for Technology Development is reduced by almost 3 percent from 
fiscal year 2013 and the proposed budget for Information Technology 
(IT) Support Services is reduced by almost 4 percent from fiscal year 
2013.
    We see articles in the press almost daily regarding foreign 
governments and private groups trying to find avenues into the U.S. 
Government and/or private industry computer systems. Some have been 
successful in gaining entry into what were thought to be ``secured 
systems''. The potential damage has ranged from possibly exploiting 
classified data from the Department of Defense and defense contractors, 
to exploiting the personal financial data of American citizens 
contained in various financial institutions.
    At a time when we know the U.S. Government is under attack by 
foreign entities intending to seek ways to do harm to the U.S., why 
would the SAA choose to make reductions in its IT budget?
    Answer. Although we have reduced our overall IT budget to be in 
compliance, we have not significantly reduced our IT Security budget, 
nor have we reduced our staffing levels in that area.
    Question. Does the SAA have sufficient information technology 
security practices in place to protect against sensitive data being 
released or extracted through computer networks by nation states, or 
other bad actors?
    Answer. SAA IT Security deploys a defense in depth strategy that 
includes 24/7 monitoring of all Senate network resources. Further, 
reducing user privileges for daily work activities, combined with 
rigorous patch management processes, is a well-proven method of 
preventing a large percentage of the types of intrusion attempts we 
face on a daily basis. Carefully allocating and managing elevated 
privileges assigned to system administrators is a best practice that 
can be leveraged to safeguard Senate automation resources.
    Question. What resources are necessary to increase SAA's IT 
security?
    Answer. We have the resources to manage our current defensive in-
depth IT Security strategy. As new technologies emerge in the cyber 
security area, we will have to evaluate their potential value in our 
environment and determine associated costs for deploying any that are 
deemed beneficial. Those costs and other resources needed can only be 
determined on a case by case basis.

                            CLOUD COMPUTING

    Question. The Federal Chief Information Officer has outlined a 25 
point plan that puts in place a cloud computing first strategy for all 
Federal information technology (IT) acquisitions. The plan boasts that 
cloud IT infrastructure creates the following benefits:
  --Economical: Cloud computing is a pay-as-you-go approach to IT, in 
        which a low initial investment is required to begin, and 
        additional investment is needed only as system use increases.
  --Flexible: IT departments that anticipate fluctuations in user 
        demand no longer need to scramble for additional hardware and 
        software. With cloud computing, they can add or subtract 
        capacity quickly and easily.
  --Fast: Cloud computing eliminates long procurement and certification 
        processes, while providing a near-limitless selection of 
        services.
    Does the SAA currently utilize, or plan to use, cloud based 
information technology infrastructure to operate and deliver services?
    Answer. Yes. We use cloud services to stream the video of the 
Senate floor proceedings and committee hearings as well as host Senate 
office and committee websites. We are in the process of offering a 
cloud based data and file synchronization service. We also have LoJack 
for laptops ready to go--to allow offices to locate, lock, delete and 
recover stolen laptops. We are starting to explore cloud storage 
options (which may face an acceptance challenge from offices).
    Question. Would cloud computing throughout the Senate create 
savings and efficiencies that could permanently reduce IT costs for the 
SAA?
    Answer. It could remove some of the up-front capital expenditure 
required to stand up services. There are often trade-offs in the use of 
cloud services including security of Senate information, level of 
support (e.g. response times), flexibility, and integration complexity 
which we will have to carefully explore.
    Question. What resources might be necessary for SAA to evaluate 
whether or not cloud computing would be financial beneficial to the 
Senate?
    Answer. We have staffing resources available to explore this by 
using a combination of CIO staff and consultant vendors. We are already 
looking into it as part of our ongoing architecture and integration 
functionality research.

                         CONCLUSION OF HEARINGS

    Senator Shaheen. Thank you all very much for your 
testimony. Again I apologize that we have to cut the hearing 
short today. But this subcommittee looks forward to working 
with all of you as we go forward in these challenging budget 
times.
    Mr. Dine. Thank you.
    Mr. Ayers. Thank you.
    Senator Hoeven. Thank you.
    [Whereupon, at 10:17 a.m., Thursday, June 6, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
